<html>
<title> - PIPELINE SAFETY: REVIEWING THE STATUS OF MANDATES AND EXAMINING ADDITIONAL SAFETY NEEDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
    PIPELINE SAFETY: REVIEWING THE STATUS OF MANDATES AND EXAMINING 
                        ADDITIONAL SAFETY NEEDS

=======================================================================

                                (116-9)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                         ______________
                         
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-616                  WASHINGTON : 2019                                   
                             
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California


                                  (ii)

  

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                    DANIEL LIPINSKI, Illinois, Chair

ALBIO SIRES, New Jersey              ERIC A. ``RICK'' CRAWFORD, 
DONALD M. PAYNE, Jr., New Jersey     Arkansas
LIZZIE FLETCHER, Texas               SCOTT PERRY, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         RODNEY DAVIS, Illinois
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
FREDERICA S. WILSON, Florida         MIKE BOST, Illinois
MARK DeSAULNIER, California          RANDY K. WEBER, Sr., Texas
STEPHEN F. LYNCH, Massachusetts      DOUG LaMALFA, California
TOM MALINOWSKI, New Jersey           LLOYD SMUCKER, Pennsylvania
GRACE F. NAPOLITANO, California      PAUL MITCHELL, Michigan
STEVE COHEN, Tennessee               BRIAN K. FITZPATRICK, Pennsylvania
JESUS G. ``CHUY'' GARCIA, Illinois   TROY BALDERSON, Ohio
ELEANOR HOLMES NORTON,               ROSS SPANO, Florida
  District of Columbia               PETE STAUBER, Minnesota
EDDIE BERNICE JOHNSON, Texas         GREG PENCE, Indiana
ALAN S. LOWENTHAL, California        SAM GRAVES, Missouri (Ex Officio)
COLIN Z. ALLRED, Texas
ANGIE CRAIG, Minnesota
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, and Chair, Subcommittee on Railroads, Pipelines, 
  and Hazardous Materials:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     6

                               WITNESSES
                              Member Panel

Hon. Lori Trahan, a Representative in Congress from the State of 
  Massachusetts:

    Oral statement...............................................     8
    Prepared statement...........................................     9
Hon. Seth Moulton, a Representative in Congress from the State of 
  Massachusetts:

    Oral statement...............................................    11
    Prepared statement...........................................    12

                                Panel 1

Hon. Howard ``Skip'' Elliott, Administrator, Pipeline and 
  Hazardous Materials Safety Administration:

    Oral statement...............................................    14
    Prepared statement...........................................    15
Hon. Jennifer Homendy, Member, National Transportation Safety 
  Board:

    Oral statement...............................................    21
    Prepared statement...........................................    22

                                Panel 2

Carl Weimer, Executive Director, Pipeline Safety Trust:

    Oral statement...............................................    59
    Prepared statement...........................................    61
Andrew J. Black, President and CEO, Association of Oil Pipe 
  Lines:

    Oral statement...............................................    77
    Prepared statement...........................................    79
Fire Chief Dan Eggleston, EFO, CFO, CMO, President and Chairman 
  of the Board, International Association of Fire Chiefs:

    Oral statement...............................................    80
    Prepared statement...........................................    82
Richard B. Kuprewicz, President, Accufacts Inc.:

    Oral statement...............................................    85
    Prepared statement...........................................    87
Robin Rorick, Vice President of Midstream and Industry 
  Operations, American Petroleum Institute:

    Oral statement...............................................    90
    Prepared statement...........................................    91
Elgie Holstein, Senior Director for Strategic Planning, 
  Environmental Defense Fund:

    Oral statement...............................................    97
    Prepared statement...........................................    98

                       SUBMISSIONS FOR THE RECORD

Letter of March 8, 2016, from Calvin L. Scovel III, Inspector 
  General, U.S. Department of Transportation, Submitted for the 
  Record by Hon. DeFazio.........................................   115
Statement of the Interstate Natural Gas Association of America, 
  Submitted for the Record by Hon. Lipinski......................   116
Statement of the American Gas Association, Submitted for the 
  Record by Hon. Lipinski........................................   116

                                APPENDIX

Questions from Hon. Peter A. DeFazio for Hon. Howard ``Skip'' 
  Elliott........................................................   117
Question from Hon. Daniel Lipinski for Hon. Howard ``Skip'' 
  Elliott........................................................   118
Questions from Hon. Lizzie Fletcher for Hon. Howard ``Skip'' 
  Elliott........................................................   119
Questions from Hon. Mike Bost for Hon. Howard ``Skip'' Elliott...   119
Question from Hon. Stephen F. Lynch for Hon. Jennifer Homendy....   120
Question from Hon. Mike Bost for Andrew J. Black.................   120
Question from Hon. Donald M. Payne, Jr. for Fire Chief Dan 
  Eggleston, EFO, CFO, CMO.......................................   121
  
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                             March 29, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Railroads, Pipelines, 
and Hazardous Materials
    FROM:   Staff, Subcommittee on Railroads, Pipelines, and 
Hazardous Materials
    RE:       Subcommittee Hearing on ``Pipeline Safety: 
Reviewing the Status of Mandates and Examining Additional 
Safety Needs''

                                PURPOSE

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials will meet on Tuesday, April 2, 2019, at 10:00 a.m. in 
HVC 210, Capitol Visitor Center, to receive testimony related 
to ``Pipeline Safety: Reviewing the Status of Mandates and 
Examining Additional Safety Needs.'' The purpose of the hearing 
is to consider the status of safety rulemakings that Congress 
previously has mandated, as well as to examine the safety of 
the Nation's gas and hazardous liquid pipelines and facilities 
and how to respond to gaps or needs that exist. The 
Subcommittee will receive testimony from the Pipeline and 
Hazardous Materials Safety Administration; the National 
Transportation Safety Board; Accufacts, Inc.; the American 
Petroleum Institute; the Association of Oil Pipe Lines; the 
Environmental Defense Fund; the International Association of 
Fire Chiefs; and, the Pipeline Safety Trust.

                               BACKGROUND

About the Agency
    The Pipeline and Hazardous Materials Safety Administration 
(PHMSA) was created under the Norman Y. Mineta Research and 
Special Programs Improvement Act of 2004 (P.L. 108-426) (``2004 
Act''). Prior to enactment of the 2004 Act, the Department of 
Transportation's (DOT) Research and Special Programs 
Administration administered the DOT's pipeline and hazardous 
materials safety programs. PHMSA's mission is to protect people 
and the environment by advancing the safe transportation of 
energy and other hazardous materials that are essential to our 
daily lives. The 2004 Act established that PHMSA ``shall 
consider the assignment and maintenance of safety as the 
highest priority . . . '' PHMSA is charged with the safe and 
secure movement of over one million daily shipments of 
hazardous materials by all modes of transportation. PHMSA 
oversees the nation's 2.7 million miles \1\ of gas and 
hazardous liquid pipelines, which account for the 
transportation of 65 percent of the energy commodities consumed 
in the United States.
---------------------------------------------------------------------------
    \1\ There are an estimated 2,757,650 miles of pipelines under 
PHMSA's jurisdiction, of which 2,223,212 are for distribution of 
natural gas, 300,655 for transmission of natural gas, an estimated 
18,380 for gathering of natural gas, and 215,628 for hazardous liquids.
---------------------------------------------------------------------------
    The first statute regulating pipeline safety was the 
Natural Gas Pipeline Safety Act of 1968 (P.L. 90-481), which 
Congress amended in 1976 (P.L. 94-477). Congress added 
hazardous liquid pipelines to the statute in the Pipeline 
Safety Act of 1970 (P.L. 96-129). Subsequent bills included the 
Pipeline Safety Reauthorization Act of 1988 (P.L. 100-561), the 
Pipeline Safety Act of 1992 (P.L. 102-508), the Accountable 
Pipeline Safety and Partnership Act of 1996 (P.L. 104-304), the 
Pipeline Safety Improvement Act of 2002 (P.L. 107-355), the 
Norman Y. Mineta Research and Special Programs Improvement Act 
of 2004 (P.L. 108-426), the Pipeline Inspection, Protection, 
Enforcement and Safety Act of 2006 (P.L. 109-468), the 
Pipelines Safety, Regulatory Certainty, and Job Creation Act of 
2011 (P.L. 112-90), and the Protecting our Infrastructure of 
Pipelines and Enhancing Safety Act of 2016 (P.L. 114-183). 
These authorizing Acts provide for Federal safety regulation of 
facilities used in the transportation of gases and hazardous 
liquids by pipeline. The current authorization expires on 
September 30, 2019.

Pipeline Safety Framework
    Safety regulations differ depending on the nature of the 
pipeline and the commodity that is moving through it. PHMSA's 
regulations govern pipelines and facilities that transport 
natural gas (49 CFR 192) separately from those that transport 
hazardous liquid (49 CFR 195). Additionally, the pipelines and 
facilities used to transport natural gas and hazardous liquids 
vary in operating pressures, diameter size, intended purpose, 
and proximity to populated areas. These include:

Distribution pipelines transport natural gas to commercial and 
residential end-users. Gas distribution pipelines tend to be 
smaller in diameter and operate at lower pressures. PHMSA 
estimates there are 2.23 million miles of gas distribution 
lines, much of which are intrastate pipelines. There are no 
hazardous liquid distribution pipelines.

Transmission pipelines transport natural gas from treatment and 
processing facilities to bulk customers, storage facilities, 
and local gas distribution networks. Transmission pipelines can 
range in size from several inches to several feet in diameter 
and are designed to operate from relatively low pressures to 
high pressures. These lines can operate within a single State 
or span hundreds of miles, crossing one or more State lines. 
PHMSA estimates there are 300,655 miles of interstate and 
intrastate gas transmission lines.

Gathering lines transport natural gas from the production site 
to a central collection point. Historically, gathering lines 
were built in lower populated areas, had smaller diameters than 
transmission lines, and operated at pressures and flow lower 
than transmission lines. However, as new gas development occurs 
around the country, producers are installing new gathering 
systems in higher populated areas and building larger diameter 
and higher pressure gathering lines.\2\ PHMSA currently 
regulates 18,380 miles of gas gathering lines, which leaves an 
estimated 438,884 miles of gas gathering lines unregulated.\3\ 
PHMSA does not maintain records on incidents involving these 
unregulated gathering lines, nor are the lines required to be 
regularly inspected, built to specified standards, or required 
to have emergency response plans in place. To address this 
safety risk, PHMSA has proposed regulations to collect 
information and set Federal minimum standards on certain 
gathering lines.\4\
---------------------------------------------------------------------------
    \2\ Pipeline and Hazardous Materials Safety Administration, Notice 
of Proposed Rulemaking, Pipeline Safety: Safety of Gas Transmission and 
Gathering Pipelines, PHMSA-2011-0023, April 8, 2016.
    \3\ Pipeline and Hazardous Materials Safety Administration, Safety 
of Gas Gathering Pipelines Presentation, Gas Pipeline Advisory 
Committee Meeting January 8-9, 2019 (Version 12/21/2019). https://
primis.phmsa.dot.gov/meetings/FilGet.mtg?fil=1029.
    \4\ Id.

Hazardous liquid pipelines transport liquid petroleum from 
sources of origin to refineries and chemical plants, and in 
some cases to storage facilities or distribution terminals. 
According to PHMSA, hazardous liquids traverse the United 
States through 215,628 miles of hazardous liquid pipelines, of 
which an estimated 4,000 miles \5\ are gathering lines. 
Approximately 30,000-40,000 miles of onshore hazardous liquid 
gathering lines are unregulated.\6\
---------------------------------------------------------------------------
    \5\ Pipeline and Hazardous Materials Safety Administration, Notice 
of Proposed Rulemaking, Pipeline Safety: Safety of Hazardous Liquid 
Pipelines, PHMSA-2010-0229, October 13, 2015.
    \6\ Id.

Liquefied natural gas (LNG) facilities are used for converting, 
transporting, or storing LNG. There are several Federal 
agencies involved in the regulation of LNG.\7\ Historically, 
PHMSA has regulated peakshaving facilities \8\ and satellite 
facilities \9\ where LNG has been used to manage capacity 
during times of peak demand. PHMSA also regulates import 
terminals.\10\ However, market dynamics have changed such that 
there has been a rapid growth in export terminals. At these 
terminals, large quantities of natural gas are liquefied and 
stored for transport aboard specialized tanker ships for export 
markets. PHMSA has announced plans to fully update its LNG 
regulations to address these changes in the industry and to 
comply with a 2016 mandate from Congress.\11\ The agency is 
drafting a Notice of Proposed Rulemaking.
---------------------------------------------------------------------------
    \7\ PHMSA generally regulates LNG facilities if the facility either 
receives from or delivers to a pipeline regulated by PHMSA. See 49 CFR 
193.2001.
    \8\ These facilities receive natural gas from gas transmission 
pipelines during warm months, liquefy the gas, and store the liquefied 
gas until cold weather when it is needed, and are located primarily in 
the Northeast.
    \9\ These facilities have storage and vaporization capabilities, 
but do not liquefy gas. Natural gas is often trucked to these 
facilities and stored until the energy is needed, at which time it is 
put into a gas pipeline.
    \10\ LNG tanker ships are used to supply marine import terminals 
with LNG, where it is then transferred into large storage tanks to be 
withdrawn, vaporized, and supplied to gas transmission pipelines.
    \11\ Office of Information and Regulatory Affairs, Office of 
Management and Budget, Executive Office of the President. https://
www.reginfo.gov/public/do/eAgendaViewRule?pubId= 201810&RIN=2137-AF45.7

PHMSA's Pipeline Safety Oversight
    PHMSA's pipeline safety functions include developing, 
issuing, and enforcing regulations for the safe transportation 
of natural gas (include liquefying natural gas) and hazardous 
liquids by pipeline. PHMSA sets Federal minimum safety 
standards. The agency's regulatory programs are focused on the 
design, construction, operation, and maintenance or abandonment 
of pipeline facilities, and in the construction, operation, and 
maintenance of liquefied natural gas facilities. The agency 
only has jurisdiction over transportation-related facilities; 
it does not have jurisdiction over drilling or production 
facilities.
    PHMSA carries out its regulatory functions through its 
Office of Pipeline Safety (OPS), whose purpose is to carry out 
a national program to ensure the safe, reliable, and 
environmentally-sound operation of the nation's natural gas and 
hazardous liquid pipeline transportation system.
    PHMSA has long-experienced difficulty in recruiting and 
maintaining an inspection workforce capable of meeting PHMSA's 
oversight needs, as PHMSA often competes against the regulated 
industry for personnel. Congress has previously increased the 
number of Federal pipeline safety inspectors and directed the 
Office of Inspector General to study PHMSA's continued staffing 
needs and potential solutions. In Fiscal Year 2018, PHMSA 
received funding to support 308 OPS staff positions. As of 
September 2017, 292 of those positions were filled, of which 
205 performed inspection and enforcement functions.\12\
---------------------------------------------------------------------------
    \12\ Pipeline and Hazardous Materials Safety Administration, Report 
to Congress on the Office of Pipeline Safety's FY 2017 Actual Staffing 
and FY 2018 Hiring Plan, September 5, 2018.
---------------------------------------------------------------------------
    PHMSA's regulations also address the workforce to help 
ensure their actions maintain the safety of the Nation's 
pipelines. For instance, PHMSA requires pipeline operators and 
their contractors to conduct drug and alcohol testing programs; 
however, some pipeline workers performing safety-sensitive 
functions on master meter systems and pipeline systems that 
transport only petroleum gas or petroleum gas/air mixtures are 
exempt from these programs. Pipeline operators based in Canada 
or Mexico who maintain and control hundreds of miles of 
pipelines in the United States are also exempt. In addition, 
PHMSA regulations require operators to develop and adopt 
qualification programs to ensure that those performing certain 
operations and maintenance tasks are qualified to do so.
    When violations of PHMSA's regulations occur, the agency 
has several enforcement mechanisms it can use to require 
pipeline operators to regain compliance with the regulations. 
These tools include the issuance of a warning letter,\13\ a 
notice of probable violation,\14\ or a corrective action 
order.\15\ The agency may issue fines for non-compliance. In 
2018, PHMSA initiated 199 enforcement cases \16\ related to a 
range of violations, such as failure to comply with Operator 
Qualification programs, emergency response plans, and integrity 
management program regulations, among others.
---------------------------------------------------------------------------
    \13\ See 49 CFR 190.205; this letter notifies the operator of 
alleged violations and directs them to correct the violation or be 
subject to additional enforcement action.
    \14\ See 49 CFR 190.207; these notices, commonly issued after 
routine inspections, incident investigations, and other activity, 
allege specific regulatory violations and propose remedial action or 
civil penalties.
    \15\ See 49 CFR 190.233; these orders are issued when a particular 
situation represents a serious hazard to life, property, or the 
environment and directs certain actions to be taken, up to and 
including shutdown of the pipeline system.
    \16\ Pipeline and Hazardous Materials Administration, Summary of 
Enforcement Activity--Nationwide. https://primis.phmsa.dot.gov/comm/
reports/enforce/EnfHome.html?nocache=2062.
---------------------------------------------------------------------------
    While PHMSA regulations are focused on safety, there are 
also concerns for pipeline cyber security vulnerabilities.\17\ 
PHMSA has signed an annex to its memorandum of understanding 
with the Transportation Security Administration (TSA) that 
identifies TSA as the lead entity for pipeline security and 
PHMSA as responsible for administering a national program of 
safety in natural gas and hazardous liquid pipeline 
transportation, including identifying pipeline safety concerns 
and developing uniform safety standards. In a recent report, 
the Government Accountability Office (GAO) was critical of 
TSA's efforts to protect these assets, identifying significant 
staffing limitations exist and that TSA is unable to ensure 
that its voluntary Pipeline Security Guidelines reflect the 
latest known standards and best practices.\18\
---------------------------------------------------------------------------
    \17\ Statement for the Record, Director of National Intelligence 
Dan Coats, Senate Select Committee on Intelligence, January 29, 2019. 
Referencing Worldwide Threat Assessment of the US Intelligence 
Community (2019): ``China has the ability to launch cyber attacks that 
cause localized, temporary disruptive effects on critical 
infrastructure--such as disruption of a natural gas pipeline for days 
to weeks--in the United States.'' https://www.dni.gov/files/ODNI/
documents/2019-ATA-SFR---SSCI.pdf.
    \18\ Government Accountability Office, Critical Infrastructure 
Protection, Actions Needed to Address Significant Weaknesses in TSA's 
Pipeline Security Program Management, GAO-19-48, December 2018.

States' Pipeline Safety Oversight
    PHMSA supports this regulatory work by authorizing States 
to assume certain aspects of pipeline safety for intrastate gas 
pipelines, hazardous liquid pipelines, and underground natural 
gas storage through certifications and agreements with PHMSA 
under 49 U.S.C. Sec. Sec.  60105 and 60106(a). The agency also 
authorizes States with certifications to participate in the 
oversight of interstate pipeline transportation through 
agreements under 49 U.S.C. Sec.  60106(b).
    To conduct inspection and enforcement of intrastate gas and 
hazardous liquid pipelines and facilities, each State must 
annually certify their pipeline safety program by demonstrating 
to the Secretary that it: has adopted, or is taking steps to 
adopt, the Federal standards; is enforcing each standard 
through inspections; and is encouraging and promoting the 
establishment of damage prevention programs. Each annual 
certification must include a report that contains: all 
accidents or incidents reported to the State over the prior 12 
months involving a fatality, personal injury requiring 
hospitalization, or property damage or loss of more than 
$50,000, or any other accident the State considers significant, 
and a summary of the investigation by the State of the cause 
and circumstances surrounding the accident or incident. The 
report also must include the record maintenance, reporting, and 
inspection practices conducted by the State to enforce 
compliance with Federal safety standards, including the number 
of inspections of pipeline facilities the authority made during 
the prior 12 months.\19\
---------------------------------------------------------------------------
    \19\ 49 U.S.C. Sec.  60105.
---------------------------------------------------------------------------
    States with certified pipeline safety programs may impose 
additional standards for intrastate pipelines and facilities so 
long as they are compatible with the minimum Federal standards 
issued by PHMSA. Separate certification is necessary for gas 
and hazardous liquid safety programs. In calendar year 2019, 51 
State agencies \20\ have certified natural gas safety programs, 
and 15 States agencies \21\ have certified hazardous liquid 
safety programs. If States did not participate in the pipeline 
safety or underground natural gas storage programs, the 
inspection and enforcement of these intrastate pipeline and 
underground natural gas storage facilities would be PHMSA's 
responsibility.
---------------------------------------------------------------------------
    \20\ Pipeline and Hazardous Materials Safety Administration, 2019 
State Program Certification Agreement Status (Appendix F). https://
www.phmsa.dot.gov/working-phmsa/state-programs/2019-appendix-f-state-
program-certification-agreement-status-pdf.
    \21\ Id.
---------------------------------------------------------------------------
    A State that does not satisfy the criteria for 
certification may enter into an agreement \22\ to undertake 
certain aspects of the pipeline or underground natural gas 
safety program for intrastate pipeline facilities on behalf of 
PHMSA. While this agreement allows a State to perform 
inspections, probable violations are reported to PHMSA for 
enforcement action. In calendar year 2019, two state agencies 
have such natural gas agreements with PHMSA.\23\
---------------------------------------------------------------------------
    \22\ 49 U.S.C. Sec.  60106(a).
    \23\ Pipeline and Hazardous Materials Safety Administration, 2019 
State Program Certification Agreement Status (Appendix F). https://
www.phmsa.dot.gov/working-phmsa/state-programs/2019-appendix-f-state-
program-certification-agreement-status-pdf.
---------------------------------------------------------------------------
    The Secretary also is authorized to enter into an 
interstate agent agreement with a State with a certified 
pipeline safety program, allowing the State to participate in 
the oversight of interstate pipeline transportation.\24\ For 
such an agreement, the Secretary must determine that: the 
agreement is consistent with the Federal inspection program and 
Federal safety policies; the State's interstate participation 
would not adversely affect its intrastate oversight 
responsibilities; the State meets federal minimum One-Call 
standards and is carrying-out a program demonstrated to promote 
preparedness and risk prevention activities; and the actions 
planned under the agreement would not impede interstate 
commerce or impede safety. The agency historically has used 
interstate agent agreements to supplement its Federal inspector 
workforce. State pipeline safety and underground natural gas 
storage programs provide a local presence for protecting the 
public from pipeline and underground natural gas storage 
incidents. In calendar year 2019, eight State agencies \25\ 
acted as certified interstate agents for natural gas pipelines, 
and five were certified interstate agents for hazardous liquid 
pipelines.\26\
---------------------------------------------------------------------------
    \24\ 49 U.S.C. Sec.  60106(b).
    \25\ Pipeline and Hazardous Materials Safety Administration, 2019 
State Program Certification Agreement Status (Appendix F). https://
www.phmsa.dot.gov/working-phmsa/state-programs/2019-appendix-f-state-
program-certification-agreement-status-pdf.
    \26\ Id.
---------------------------------------------------------------------------
    To support these State efforts, PHMSA administers grants 
providing up to 80 percent of the total cost of the personnel, 
equipment, and activities reasonably required for a State to 
carry-out certified pipeline safety programs or an agreement. 
Subject to annual appropriations, the actual reimbursement rate 
depends upon the availability of appropriated funds and the 
performance of a State's pipeline safety program.

Pipeline Safety Incidents
    Despite this oversight, pipeline incidents resulting in 
injuries and fatalities continue to occur. In 2018 alone, PHMSA 
reported 633 pipeline incidents, more than half of which were 
designated as serious or significant.\27\ These incidents 
resulted in eight fatalities, 92 injuries, and nearly $1 
billion in damage. From 1999-2018, PHMSA reported 11,992 
pipeline incidents, which resulted in 317 deaths, 1,302 
injuries, and more than $8.1 billion in damage. Incidents have 
increased nearly two-fold from 1999 to 2018.\28\
---------------------------------------------------------------------------
    \27\ In 2018, 40 serious incidents and 286 significant incidents 
occurred. Serious incidents are those that include a fatality or injury 
requiring in-patient hospitalization. Significant incidents are those 
that include a fatality or injury requiring in-patient hospitalization, 
$50,000 or more in total costs, highly volatile liquid releases of five 
barrels or more or other liquid release of 50 barrels or more, or 
liquid releases resulting in an unintentional fire or explosion.
    \28\ Pipeline and Hazardous Materials Safety Administration, 
Pipeline Incident 20 Year Trends. https://cms.phmsa.dot.gov/data-and-
statistics/pipeline/pipeline-incident-20-year-trends
---------------------------------------------------------------------------
    Among last year's fatal incidents was the over-
pressurization event on September 13, 2018, involving the 
Columbia Gas distribution system in Merrimack Valley, 
Massachusetts. High-pressure natural gas was released into the 
low-pressure gas distribution system, resulting in a series of 
explosions and fires that killed one person, sent 21 others, 
including two firefighters, to the hospital, and damaged 131 
structures in the city of Lawrence and the towns of Andover and 
North Andover. In its preliminary report, the National 
Transportation Safety Board (NTSB) reported that a contracted 
crew was performing a Columbia Gas-developed and -approved pipe 
replacement project at a nearby intersection, working on a tie-
in project of a new plastic distribution main and the 
abandonment of a cast-iron distribution main.\29\ The Columbia 
Gas-designed plan did not consider that the cast-iron main to 
be abandoned had regulator sensing lines used to detect 
pressure in the system and to provide input to the regulators 
that control the system pressure. Once abandoned, the section 
containing the sensing lines began to lose pressure, causing 
the regulators to open further to increase pressure in the 
distribution system, eventually opening fully. While the 
Columbia Gas monitoring center in Columbus, Ohio received high-
pressure alarms, it had no remote-control capability to close 
the valves; the valves were closed more than three hours after 
the first alarm.
---------------------------------------------------------------------------
    \29\ National Transportation Safety Board, Preliminary Report, 
Over-pressure of a Columbia Gas of Massachusetts Low-pressure Natural 
Gas Distribution System, Merrimack Valley, Massachusetts, PLD18MR003, 
September 13, 2018. https://www.ntsb.gov/investigations/
AccidentReports/Reports/PLD18MR003-preliminary-report.pdf.
---------------------------------------------------------------------------
    The NTSB identified that neither Massachusetts nor Columbia 
Gas had a policy to require a registered professional engineer 
to develop or review public utility engineering plans,\30\ and 
that the Commonwealth's Meter and Regulation department that 
has control of line information was not required to review the 
project.\31\ In response to this incident, the NTSB recommended 
that the Commonwealth of Massachusetts eliminate the 
professional engineer licensure exemption for public utility 
work and require a professional engineer's seal on public 
utility engineering drawings. The NTSB recommended that 
Columbia Gas's parent company, NiSource, Inc., revise the 
engineering plan and constructability review process to ensure 
all applicable departments review construction documents and 
that the documents be sealed by a professional engineer; ensure 
records and documentation of the natural gas systems are 
traceable, reliable, and complete; apply management of change 
processes to all changes to adequately identify system threats; 
\32\ and develop and implement additional controls to mitigate 
risks.\33\
---------------------------------------------------------------------------
    \30\ Federal law and PHMSA's regulations do not require review and 
approval of plans by a professional engineer. At the time of the 
incident, the Commonwealth of Massachusetts had a professional engineer 
licensing exemption for public utilities. On December 31, 2018, the 
Governor of Massachusetts signed into law a requirement that all 
natural gas work that might pose a material risk to the public be 
reviewed and approved by a certified professional engineer. See Mass. 
Gen. L. c. 112 Sec.  81R; Mass Gen. L. c. 164 Sec.  148.
    \31\ National Transportation Safety Board, Safety Recommendation 
Report, Natural Gas Distribution System Project Development and Review 
(Urgent), adopted November 14, 2018. https://www.ntsb.gov/
investigations/AccidentReports/Reports/PSR1802.pdf.
    \32\ Management of Change is a central tenant of safety management 
systems and was incorporated into API's Recommended Practice (RP) 1173 
in July 2015. For more information, see https://pipelinesms.org/.
    \33\ National Transportation Safety Board, Safety Recommendation 
Report, Natural Gas Distribution System Project Development and Review 
(Urgent), adopted November 14, 2018. https://www.ntsb.gov/
investigations/AccidentReports/Reports/PSR1802.pdf.
---------------------------------------------------------------------------
    In a separate event taking place on August 9, 2018, a gas 
gathering line owned by Targa Pipeline Mid-Continent WestTex 
caused an explosion to a mobile home structure in rural Midland 
County, Texas. After the structure exploded, first responders 
attempted to put out the blaze, but it continued to relight. 
Targa employees were able to isolate the gathering line by 
closing the valves, after which the fire lost fuel and burned 
out. Targa's third-party investigators determined that the coal 
tar coating and steel pipe wall had been compromised with a 
hole approximately \3/8\ inch by \5/8\ inch and had been 
leaking for an undetermined length of time. Four people were 
injured and one later died.
    Another incident occurred on February 23, 2018. Over a 
series of two days, three homes in a neighborhood served by the 
same 2-inch wrapped steel Atmos Energy pipeline experienced 
gas-related events, including an explosion that killed a 12-
year old child and injured the other four family members. The 
preliminary report from the NTSB noted that due to the nature 
and number of leaks discovered in the neighborhood, more than 
300 residences were evacuated.\34\ The operator identified 
multiple leaks in the neighborhood and had performed various 
repair work prior to and during the days the three events 
occurred. NTSB investigators identified three sections of the 
pipe that failed a pressure test and noted that the pipe 
located behind the home that exploded was cracked.
---------------------------------------------------------------------------
    \34\ National Transportation Safety Board Preliminary Report, 
February 23, 2018. https://www.ntsb.gov/investigations/AccidentReports/
Reports/PLD18FR002-preliminary.pdf.
---------------------------------------------------------------------------
    PHMSA's data shows that in 2017, there were 648 incidents 
that resulted in 19 fatalities and 34 injuries.\35\ The 2017 
data includes the August 2, 2017, natural gas explosion that 
occurred at a school in Minneapolis, Minnesota that resulted in 
the death of two individuals.\36\ In 2016, there were 633 
incidents that resulted in 16 fatalities and 87 injuries.\37\
---------------------------------------------------------------------------
    \35\ Pipeline and Hazardous Materials Safety Administration, 
Pipeline Incidents (2017). https://hip.phmsa.dot.gov/analyticsSOAP/
saw.dll?Portalpages.
    \36\ National Transportation Safety Board Preliminary Report, 
August 2, 2017. https://www.ntsb.gov/investigations/AccidentReports/
Pages/DCA17MP007-prelim-report.aspx.
    \37\ Pipeline and Hazardous Materials Safety Administration, 
Pipeline Incidents (2016). https://hip.phmsa.dot.gov/analyticsSOAP/
saw.dll?Portalpages.
---------------------------------------------------------------------------
    Already in 2019, the NTSB has begun investigating a natural 
gas line strike and fire. On February 6, 2019, a third-party-
contractor was excavating for fiber optic conduit installation 
in San Francisco, California when the contractor struck a 
Pacific Gas & Electric (PG&E) 2-inch natural gas main, 
releasing gas and igniting a fire.\38\ Fortunately, there were 
no injuries or fatalities, but about 100 people were evacuated 
and the fire burned for more than two hours until PG&E 
personnel could isolate and shut down the gas line, removing 
the fuel source. The NTSB noted in the preliminary report that 
the investigation will focus on the third-party contractor's 
preparedness and qualifications to perform the excavation work 
and the execution of PG&E and local first responders' emergency 
response plans.
---------------------------------------------------------------------------
    \38\ National Transportation Safety Board Preliminary Report, 
February 6, 2019. https://www.ntsb.gov/investigations/AccidentReports/
Reports/PLD19MR001-Preliminary.pdf
---------------------------------------------------------------------------
Mandates to Improve Safety Remain Unmet
    In response to other incidents, Congress previously has 
sought to improve pipeline safety by mandating that PHMSA 
promulgate new regulations designed to help prevent incidents 
before they occur. Years later, many of those mandates remain 
unmet.
    For instance, in response to major pipeline incidents, 
including a massive Enbridge oil pipeline spill in Marshall, 
Michigan, and a fatal Pacific Gas & Electric natural gas 
explosion in San Bruno, California, in 2011 Congress enacted 
the Pipeline Safety, Regulatory Certainty, and Job Creation Act 
of 2011 (P.L. 112-90), which mandated several safety 
improvements, including:
    <bullet>  Valves (PSA11 Sec. 4). PHMSA must require 
pipeline operators to install automatic and remote-controlled 
shut-off valves, or equivalent technology, on hazardous liquid 
and natural gas transmission pipeline facilities constructed or 
entirely replaced after a Final Rule implementing this mandate 
is issued;
    <bullet>  Integrity Management Plans (PSA11 Sec. 5(a)-(f)). 
Requires pipeline operators to expand their integrity 
management program (pipeline inspection and repair program) 
beyond high-consequence areas (HCAs). HCAs include commercially 
navigable waterways, high population areas, other populated 
areas, and unusually sensitive areas;
    <bullet>  Leak Detection (PSA11 Sec. 8(b)). Requires 
pipeline operators to install leak detection systems, where 
practicable, and requires PHMSA to establish performance 
standards for the capability of such systems to detect leaks; 
\39\
---------------------------------------------------------------------------
    \39\ Leak detection systems protect the public and environment from 
consequences of a pipeline failure by automatically alerting the 
operator when a leak occurs. Pipeline operators are then able to take 
appropriate action to minimize the spill. There are different types of 
systems; some measure the product volume at the start of a segment and 
compare it with the volume at the end, while others are more complex 
and monitor operating conditions. Additionally, the efficacy of systems 
relies on the sensitivity capabilities so that small leaks can be 
detected.
---------------------------------------------------------------------------
    <bullet>  Offshore Liquid Gathering Lines (PSA11 Sec. 
21(c)). Requires the Secretary to regulate offshore liquid 
gathering lines; and
    <bullet>  Grandfathered Pipe (PSA11 Sec. 7(a)-(b)). 
Requires pipeline owners and operators to verify maximum 
allowable operating pressure,\40\ report exceedances of maximum 
allowable operating pressure, and requires PHMSA to issue 
regulations for conducting tests to confirm the material 
strength of previously untested natural gas transmission 
pipelines located in HCAs and operating at a pressure greater 
than 30 percent of specified minimum yield strength.
---------------------------------------------------------------------------
    \40\ Maximum Allowable Operating Pressure (MAOP) is a defined term, 
meaning the maximum pressure at which a pipeline or segment of a 
pipeline may be operated under the regulations. For maximum operating 
pressure of gas pipelines see 49 CFR 192.3 and for hazardous liquid 
pipelines, see 49 CFR 195.406.
---------------------------------------------------------------------------
    PHMSA has not implemented these mandates. According to 
PHMSA, the agency currently has three ongoing rulemakings that 
cover these outstanding mandates from the 2011 Act: ``Safety of 
On-Shore Hazardous Liquid Pipelines,'' ``Safety of Gas 
Transmission Pipelines,'' and ``Amendments to Parts 192 and 195 
to Require Valve Installation and Minimum Rupture Detection 
Standards.'' PHMSA's most recent schedule projects that it will 
issue Final Rules on June 18, 2019 and July 2, 2019, and a 
Notice of Proposed Rulemaking on August 7, 2019, respectively, 
for those proceedings-multiple years past the deadline that 
Congress mandated. Moreover, the latter two rulemakings have 
been under review by the Office the Secretary (OST) since 
October and August of 2018, respectively. After seven months of 
review at the OST, the ``Safety of On-Shore Hazardous Liquid 
Pipelines'' rule was sent to the Office of Management and 
Budget on March 19, 2019.
    Then in 2016, Congress enacted the Protecting our 
Infrastructure of Pipelines and Enhancing Safety (PIPES) Act of 
2016, which required additional rulemakings and other safety 
mandates, including:
    <bullet>  Natural Gas and Hazardous Liquid Integrity 
Management Reviews (PIPES Act Sec. 4 and 5). These sections 
require the GAO to report to Congress on how natural gas 
integrity management programs and the hazardous liquid pipeline 
facility integrity management programs have improved the safety 
of natural gas transmission and hazardous liquid pipeline 
facilities, respectively. GAO has not completed these two 
reports because PHMSA has not completed Final Rules required by 
the 2011 Act for the ``Safety of Gas Transmission and Gathering 
Lines'' or the ``Safety of On-Shore Hazardous Liquid 
Pipelines.''
    <bullet>  Technical Safety Standards Committees (PIPES Act 
Sec. 6(b)). Requires the Secretary to fill all vacancies on the 
Technical Pipeline Safety Standards Committees within 90 days 
of the date of enactment, and within 60 days of any future 
vacancies. Currently, there are two government representative 
vacancies created on 12/2016 and 8/2018 on the Liquid Pipeline 
Advisory Committee, and one government representative vacancy 
created on 10/2018 on the Gas Pipeline Advisory Committee.
    <bullet>  Underground Natural Gas Storage Facilities (PIPES 
Act Sec. 12(b)-(c)). Requires the Secretary to issue minimum 
safety standards for underground natural gas storage facilities 
while allowing States to go beyond Federal regulations for 
regulating intrastate facilities. This section also imposes a 
fee on operators of underground natural gas storage facilities 
to support the Federal underground natural gas storage safety 
program. The agency issued an Interim Final Rule on minimum 
safety standards for underground natural gas storage facilities 
in December 2016 and reopened the comment period in October 
2017. PHMSA has not published a Final Rule. The rule is 
scheduled to be published on July 2, 2019.
    <bullet>  Safety Data Sheets (PIPES Act Sec. 14). Requires 
hazardous liquid pipeline operators to provide on-scene 
coordinators and state and local emergency responders with 
safety data sheets within six hours of a hazardous liquid 
spill, providing more accurate information for pipeline 
emergencies. Operators are required to comply with this self-
executing provision, and PHMSA plans to incorporate the 
provision into the ``Safety of On-Shore Hazardous Liquid 
Pipelines'' rulemaking, which was sent to the OMB on March 19, 
2019.
    <bullet>  Emergency Order Authority (PIPES Act Sec. 16). 
Authorizes the Secretary to impose certain emergency 
restrictions and safety measures on pipeline operators to 
address an imminent hazard resulting from a pipeline incident 
or unsafe practice. PHMSA published an Interim Final Rule on 
emergency orders in October 2016 but has not issued a Final 
Rule. The rule is scheduled to be published on April 22, 2019.
    <bullet>  Response Plans (PIPES Act Sec. 18). Requires oil 
spill response plans to consider the impact of a discharge into 
or on navigable waters and adjoining shorelines, including 
those covered by ice, and to include in those response plans 
procedures and resources for responding to such discharge. 
PHMSA held a workshop in April 2016 to develop a ``Good 
Practices'' guide on how to complete oil spill response plans, 
but the guide is still going through internal clearance and has 
not been published.
    <bullet>  High Consequence Areas (PIPES Act Sec. 19). 
Designates the Great Lakes, coastal beaches, and marine coastal 
waters as HCAs for purposes of ensuring pipelines in these 
areas are inspected and repaired. A public meeting was held in 
November 2017, but no Final Rule has been issued. The agency 
has only begun drafting an Advanced Notice of Proposed 
Rulemaking, and no publication date has been identified.
    Additionally, the PIPES Act of 2016 (Sec. 10) required the 
convening of a working group to consider the development of a 
voluntary information-sharing system to encourage collaborative 
efforts that improve inspection system feedback and information 
sharing. The purpose is to improve gas transmission and 
hazardous liquid pipeline facility integrity risk analysis. 
PHMSA's Voluntary Information-Sharing System Working Group is 
preparing a report with recommendations.
    PHMSA's rulemaking program must comply with the 
Administrative Procedure Act and applicable Executive Orders; 
however, unlike other regulatory agencies, PHMSA has additional 
statutory processes it must fulfill before finalizing a 
pipeline safety regulation.\41\ This process was put in place 
in 1996 \42\ and includes the requirement to perform a ``risk 
assessment'' of proposals under consideration, and to submit 
risk assessment information to the Technical Pipeline Safety 
Standards Committee and/or the Technical Hazardous Liquid 
Pipeline Safety Standards Committee.\43\ The Committee(s) then 
must evaluate the data and provide any recommended options to 
PHMSA. PHMSA must review the report from the Committee(s), must 
provide written response, and may revise the risk assessment 
and proposed standard before promulgating a Final Rule. 
Moreover, PHMSA must propose or issue standards ``only upon a 
reasoned determination that the benefits of the intended 
standard justify its costs,'' except as otherwise required by 
statute.
---------------------------------------------------------------------------
    \41\ 49 U.S.C. Sec.  60102(b).
    \42\ The Accountable Pipeline Safety and Partnership Act of 1996 
(P.L. 104-304).
    \43\ PHMSA informally refers to the Technical Pipeline Safety 
Standards Committee as the Gas Pipeline Advisory Committee (GPAC), and 
the Technical Hazardous Liquid Pipeline Safety Standards Committee as 
the Liquid Pipeline Advisory Committee.
---------------------------------------------------------------------------
    To address the status of the statutorily-mandated PHMSA 
rulemakings, Congress required in the Sec. 3 of the PIPES Act 
of 2016 the Secretary to publish updates on the agency website 
every 90 days, which includes a work plan for each regulation, 
timeline, staff allocations, resource constraints, and any 
other constraints delaying the rulemaking process. PHMSA has 
published its rulemakings chart online, and this information 
has aided Congress in monitoring PHMSA's progress.

                              WITNESS LIST

                              MEMBER PANEL

    <bullet>  The Honorable Lori Trahan, U.S. House of 
Representatives
    <bullet>  The Honorable Seth Moulton, U.S. House of 
Representatives

                                PANEL I

    <bullet>  The Honorable Howard ``Skip'' Elliott, 
Administrator, Pipeline and Hazardous Materials Safety 
Administration
    <bullet>  The Honorable Jennifer Homendy, Board Member, 
National Transportation Safety Board

                                PANEL II

    <bullet>  Mr. Carl Weimer, Executive Director, Pipeline 
Safety Trust
    <bullet>  Mr. Andrew Black, President and CEO, Association 
of Oil Pipe Lines
    <bullet>  Chief Dan Eggleston, EFO, CFO, CMO, President and 
Chairman of the Board, International Association of Fire Chiefs
    <bullet>  Mr. Richard Kuprewicz, President, Accufacts, Inc.
    <bullet>  Mr. Robin Rorick, Vice President of Midstream and 
Industry Operations, American Petroleum Institute
    <bullet>  Mr. Elgie Holstein, Senior Director for Strategic 
Planning, Environmental Defense Fund


    PIPELINE SAFETY: REVIEWING THE STATUS OF MANDATES AND EXAMINING 
                        ADDITIONAL SAFETY NEEDS

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Daniel Lipinski 
(Chairman of the subcommittee) presiding.
    Mr. Lipinski. The subcommittee will come to order.
    First, I want to start by asking unanimous consent that 
Members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions.
    Without objection, so ordered.
    I want to welcome everyone to the first hearing of the 
Railroads, Pipelines, and Hazardous Materials Subcommittee. It 
is an honor to be chairman of the subcommittee. It has been 8 
years since I have held a gavel of a subcommittee. It is great 
to have this one.
    I want to welcome Ranking Member Rick Crawford and all of 
the new members of the subcommittee here. I look forward to 
working with Ranking Member Crawford and Members on both sides 
of the aisle, as well as staff, on the many issues that we have 
before the subcommittee, including pipeline safety 
reauthorization. We have a long tradition of bipartisanship, 
and I look forward to continuing that tradition here.
    This hearing is particularly important given the recent 
spate of pipeline incidents, both liquid and gas, that we have 
seen in recent years. Explosions and pipeline failures just in 
the past couple of years in Merrimack Valley, Dallas, 
Minneapolis, and locally here in Silver Spring have tragically 
killed many people and caused severe property damage.
    I want to acknowledge Congresswoman Lori Trahan and 
Congressman Seth Moulton, who will speak today about the 
Merrimack Valley tragedy and the impacts it has had on their 
constituents.
    From 1999 to 2018, the Pipeline and Hazardous Materials 
Safety Administration, PHMSA, reported 11,992 pipeline 
incidents which resulted in 317 deaths, 1,302 injuries, and 
more than $8.1 billion in damages. Incidents increased nearly 
twofold from 1999 to 2018. This shows that we still have much 
work to do to ensure the safety of our pipeline system, which 
must be our top priority.
    First and foremost, on the safety front, is the expeditious 
completion of outstanding rulemakings from the 2011 and 2016 
pipeline safety reauthorizations. I do want to note the 
progress that PHMSA Administrator Elliott has made since the 
subcommittee's June 2018 oversight hearing and the outstanding 
mandates from the 2011 and 2016 bills.
    But it remains unacceptable that critical rules like the 
hazardous liquids rule, gas transmission line rule, and the 
valve and rupture detection rule have not been implemented. 
PHMSA's and USDOT's inaction continue to place lives at risk, 
and that is completely unacceptable. They must do a better job 
getting the regulations completed expeditiously.
    Given the delay in completing these important rulemakings, 
we need to examine PHMSA's rulemaking process to determine if 
there are obstacles to more swift promulgations of regulations, 
including the unique benefit-cost analysis that PHMSA is 
required to undertake as part of any rulemaking.
    I am pleased to welcome my good friend Jennifer Homendy 
here on behalf of the National Transportation Safety Board. 
NTSB recently came out with their 2019 to 2020 ``most wanted 
list'' of safety improvements. I look forward to hearing from 
NTSB about pipeline safety issues on this list and ways that 
Congress can address those issues.
    Additionally, NTSB currently has 36 open pipeline safety 
recommendations. Twenty-four of those recommendations are to 
PHMSA. Three of the most-wanted recommendations to PHMSA are 
designated as ``open--unacceptable response,'' including 
finding cracks, defects in pipes. It is important that we move 
quickly to address NTSB's recommendations, many of which have 
remained unaddressed for decades, and determine if there are 
any new safety regulations needed.
    We also need to continue to assess the workforce capacity 
of PHMSA and ensure that PHMSA is properly staffed. This 
assessment should not only examine whether PHMSA adequately 
retains and has enough expertise and experience among pipeline 
inspector staff, but also whether PHMSA has enough technical 
and regulatory staff as well.
    I look forward to hearing from the safety advocates on the 
second panel about the safety gaps they believe exist and need 
to be addressed. I also want to consider how industry can take 
proactive steps to work with communities and first responders 
to help prepare and train local emergency personnel in the case 
of emergencies.
    It is important to ensure that robust emergency management 
and information-sharing plans and procedures are in place 
should something go wrong, like it did in my district in 
Romeoville, Illinois, when a pipeline spilled more than 6,427 
barrels of oil in 2010.
    Finally, I have heard concerns that some of PHMSA's 
regulations are woefully outdated and inhibit industry 
innovation in new areas. Therefore, it is important to listen 
to industry stakeholders on some of the challenges they face. I 
look forward to considering reasonable requests about how we 
can modernize our regulations while holding bad actors 
accountable and not compromise safety.
    I look forward to hearing from our witnesses. And now I 
recognize the ranking member, Mr. Crawford, for an opening 
statement.
    [Mr. Lipinski's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
    Congress from the State of Illinois, and Chair, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning. I want to welcome everyone to the first hearing of 
the Railroads, Pipelines, and Hazardous Materials Subcommittee in the 
116th Congress. This hearing is entitled: ``Pipeline Safety: Reviewing 
the Status of Mandates and Examining Additional Safety Needs.'' I 
specifically want to give a warm welcome to our ranking member, Rick 
Crawford, and the new members of the subcommittee. I look forward to 
working with Ranking Member Crawford, members on both sides of the 
aisle, as well as staff on the many issues we have before this 
subcommittee, including pipeline safety reauthorization. We have a long 
tradition of bipartisanship and I look forward to continuing that 
tradition.
    This hearing is particularly important given the recent spate of 
pipeline incidents, both liquid and gas, that we have seen in recent 
years. Explosions and pipeline failures just in the past couple of 
years in Merrimack Valley, Dallas, Minneapolis, and Silver Spring have 
tragically killed many people and caused severe property damage.
    I want to acknowledge Congresswoman Lori Trahan and Congressman 
Seth Moulton, who will speak today about the Merrimack Valley tragedy, 
and the impacts it has had on their constituents.
    From 1999 to 2018, the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) reported 11,992 pipeline incidents which 
resulted in 317 deaths, 1,302 injuries, and more than $8.1 billion in 
damages. Incidents increased nearly two-fold from 1999 to 2018. This 
shows that we still have much more work to do to ensure the safety of 
our pipeline system, which must be our top priority.
    First and foremost on the safety front is the expeditious 
completion of outstanding rulemakings from the 2011 and 2016 pipeline 
safety reauthorizations. I do want to note the progress that PHMSA and 
Administrator Elliott have made since this subcommittee's June 2018 
oversight hearing on the outstanding mandates from the 2011 and 2016 
bills. But it remains unacceptable that critical rules like the 
hazardous liquids rule, gas transmission line rule, and the valve and 
rupture detection rule, have not been implemented. PHMSA's and USDOT's 
inaction continue to place lives at risk and that is simply 
unacceptable. They must do a better job getting the regulations 
completed expeditiously.
    Given the delay in completing these important rulemakings, we need 
to examine PHMSA's rulemaking process to determine if there are 
obstacles to more swift promulgations of regulations, including the 
unique benefit-cost analysis that PHMSA is required to undertake as 
part of any rulemaking.
    I am pleased to welcome my good friend Jennifer Homendy here on 
behalf of the National Transportation Safety Board (NTSB). NTSB 
recently came out with their 2019-2020 Most Wanted list of safety 
improvements. I look forward to hearing from NTSB about pipeline safety 
issues on this list and ways Congress can address those issues.
    Additionally, NTSB currently has 36 open pipeline safety 
recommendations. Twenty-four of those open recommendations are to 
PHMSA. Three of the Most Wanted recommendations to PHMSA are designated 
as ``Open--Unacceptable Response,'' including finding crack defects in 
pipes. It's important that we move quickly to address NTSB's 
recommendations, many of which have remained unaddressed for decades, 
and determine if there are any new safety regulations needed.
    We also need to continue to assess the workforce capacity of PHMSA 
and ensure that PHMSA is properly staffed. This assessment should not 
only examine whether PHMSA adequately retains and has enough expertise 
and experience among pipeline inspector staff, but also whether PHMSA 
has enough technical and regulatory staff as well.
    I look forward to hearing from the safety advocates on the second 
panel about the safety gaps they believe exist and need to be 
addressed. I also want to consider how industry can take proactive 
steps to work with communities and first responders to help prepare and 
train local emergency personnel in the case of emergencies. It is 
important to ensure that robust emergency management and information 
sharing plans and procedures are in place should something go wrong 
like it did in my district in Romeoville, Illinois, when a pipeline 
spilled more than 6,427 barrels of oil in 2010.
    Finally, I have heard concerns that some of PHMSA's regulations are 
woefully outdated and inhibit industry innovation in new areas. 
Therefore, it is important to listen to industry stakeholders on some 
of the challenges they face and I look forward to considering 
reasonable requests about how we can modernize our regulations, while 
holding bad actors accountable and not compromise safety.
    I look forward to hearing from our witnesses. I now recognize the 
ranking member, Mr. Crawford, for an opening statement.

    Mr. Crawford. Thank you, Chairman Lipinski. As we begin our 
work to reauthorize the 2016 PIPES Act, I look forward to 
working with you and the members of this subcommittee to 
improve pipeline safety through a balanced regulatory approach.
    The United States has the largest network of energy 
pipelines in the world and supplies 65 percent of the energy we 
use every day. The oil and natural gas industry supports over 
10.3 million jobs and 8 percent of the total U.S. economy. 
Continued industry investments will provide more high-paying 
jobs for a diversifying workforce.
    As the world's leading energy exporter, the United States 
can continue to bolster our economy and our allies' energy 
security by exporting our oil and natural gas. Just last week, 
I was proud to join 390 of my colleagues in passing H.R. 1616, 
the European Energy Security and Diversification Act, to 
facilitate the export of U.S. energy resources to Central and 
Eastern European countries.
    Every year, more than 2.6 million miles of pipelines safely 
deliver large volumes of natural gas and liquid petroleum 
products across the United States. A safe pipeline system is 
essential to relieve the burdens on other modes of our 
transportation network.
    Pipelines remain one of the safest and most cost-effective 
means to transport large quantities of our Nation's energy 
products. And oversight of the Pipeline and Hazardous Materials 
Safety Administration, or PHMSA, safety programs is a top 
priority for this subcommittee in achieving our goal of zero 
pipeline incidents.
    The 2016 PIPES Act was bipartisan and made progress towards 
ensuring the safety of pipelines in the communities around 
them. The 2016 PIPES Act provided regulatory certainty for our 
citizens, the safety community, and the industry stakeholders. 
Today, we will hear from PHMSA about the progress to date as 
well as pending actions on the mandates from both the 2011 and 
2016 legislation.
    While I appreciate the progress that has been made, there 
is still work to be done. The 2011 law included 42 
congressional mandates, of which 34 are complete. The 2016 
PIPES Act contained 19 mandates, 16 of which are complete. I 
especially look forward to hearing from the industry about its 
safety initiatives to ensure best practices for inspections, 
detecting leaks, and other important safety initiatives.
    In closing, let me thank our witnesses for coming today to 
discuss the issues concerning pipeline safety and how we can 
continue to improve pipeline safety.
    And, Mr. Chairman, I yield back. Look forward to working 
with you.
    [Mr. Crawford's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    Thank you, Chairman Lipinski. As we begin our work to reauthorize 
the 2016 PIPES Act, I look forward to working with you and this 
subcommittee to improve pipeline safety through a balanced regulatory 
approach.
    The United States has the largest network of energy pipelines in 
the world and supplies 65 percent of the energy we use every day. The 
oil and natural gas industry supports over 10.3 million jobs and 8 
percent of the total U.S. economy. Continued industry investments will 
provide more high-paying jobs for a diversifying workforce.
    As the world's leading energy exporter, the United States can 
continue to bolster our economy and our allies' energy security by 
exporting our oil and natural gas. Just last week, I was proud to join 
390 of my colleagues in passing H.R. 1616, the European Energy Security 
and Diversification Act, to facilitate the export of U.S. energy 
resources to Central and Eastern European countries.
    Every year, more than 2.6 million miles of pipelines safely deliver 
large volumes of natural gas and liquid petroleum products across the 
United States. A safe pipeline system is essential to relieve the 
burdens on other modes of our transportation network.
    The United States is leading the world in production and refinement 
of oil and natural gas, and in the reduction of carbon dioxide 
emissions. These emission reductions are due in large part to the 
increasing use of natural gas. Increased use of natural gas in the 
power generation sector has helped to reduce total CO2 emissions, and 
cleaner, more efficient fuels lead to reduced carbon emissions. Oil and 
natural gas are also essential to the production of solar panels, wind 
turbines, batteries, and electric vehicles. The industry and its 
stakeholder partners, including university researchers and 
environmental groups, continue to help develop and deploy state-of-the-
art technologies and practices to further reduce emissions.
    Pipelines remain one of the safest and most cost-effective means to 
transport large quantities of our Nation's energy products, and 
oversight of the Pipeline and Hazardous Materials Safety Administration 
(PHMSA) safety programs is a top priority for this subcommittee in 
achieving our goal of zero pipeline incidents.
    Pipeline safety is a collaborative effort between industry, PHMSA, 
and State governments. We must continue to promote cooperation between 
regulators and stakeholders. We also must ensure that our balanced 
approach to safety regulations fosters innovation in technology and 
best practices to improve safety.
    The 2016 PIPES Act was bipartisan and made progress towards 
ensuring the safety of pipelines and the communities around them. The 
2016 PIPES Act provided regulatory certainty for our citizens, the 
safety community, and industry stakeholders.
    Today we will hear from PHMSA about the progress to-date as well as 
pending actions on the mandates from both the 2011 and 2016 
legislation. While I appreciate the progress that has been made, there 
is still work to be done. The 2011 law included 42 congressional 
mandates, of which 34 are complete. The 2016 PIPES Act contained 19 
mandates, 15 of which are complete.
    I especially look forward to hearing from the industry about its 
safety initiatives to ensure best practices for inspections, detecting 
leaks, and other important safety initiatives. In closing, I thank our 
witnesses for coming today to discuss the issues concerning pipeline 
safety and how we can continue to improve pipeline safety.

    Mr. Lipinski. Thank you, Mr. Crawford.
    I now call on the chair of the full committee, Mr. DeFazio, 
for an opening statement.
    Mr. DeFazio. Mr. Chairman, a small token to celebrate 
your----
    Mr. Lipinski. Thank you. Can I open it now?
    Mr. DeFazio. Yes. You can even use it. It is functional. It 
is smaller than that one.
    Mr. Lipinski. So you are telling me--you gave away what is 
in here.
    Mr. DeFazio. Well, I think you have been at some of the 
other hearings when I gave them to----
    Mr. Lipinski. Thank you.
    Mr. DeFazio. Not a big surprise.
    Brief remarks. I would echo concerns raised by both the 
chair and the ranking member.
    Last year, 8 people were killed, and 92 people were injured 
in 633 pipeline incidents. We are going to hear from the 
Representative of the worst incident of the last year, the most 
serious one, in Merrimack Valley, where somehow high-pressure 
gas got into the low-pressure system, and that damaged 131 
structures, destroyed 5 homes, injured 21 people, and killed an 
18-year-old. These things just shouldn't happen.
    There are other ongoing investigations with the NTSB, and 
we always look forward to their advice in these matters.
    The Administrator is also here. I met with the 
Administrator recently to discuss progress on the rulemakings. 
It is simply unacceptable to have safety critical rules that 
were passed by Congress 8 years ago lingering somewhere. 
Apparently, five have moved out of the agency, and they are 
somewhere in--I don't know. OMB? The Secretary's office? There 
are rumors that there is some sort of a ledger and the cost of 
regulations can't exceed a certain amount.
    I am not sure what is holding them up. I don't know what 
value the Secretary puts on their life, but when you lose that 
many people in a year, and we have safety critical rules, 
particularly leak detection and other things that are not yet 
accomplished, not yet promulgated, you have to question what is 
going on. We are not going to rest easy until we get this all 
done and we make the system safer across the country and 
prevent these sorts of incidents.
    We will be looking for ideas on additional, if necessary, 
rulemakings. We certainly want to look at ways that we can work 
with the industry in doing rulemaking. But it is ultimately a 
regulated industry, and the regulators must protect the public. 
I do not believe in self-regulation even with best practices.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Lipinski and Ranking Member Crawford, for 
calling today's hearing to consider the state of pipeline safety in the 
United States.
    Across the country, 2.7 million miles of pipelines transport 
hazardous liquid and natural gas from production and origin sites to 
refineries and chemical plants, storage facilities, and homes and 
businesses. These pipelines reach the furthest stretches of the 
country, making the integrity of the pipelines important to rural 
communities and dense cities alike.
    The Pipeline and Hazardous Materials Safety Administration--the 
Federal agency charged with ensuring the safe, reliable, and 
environmentally sound operation of these pipeline systems--reported 633 
pipeline incidents in 2018. Eight people were killed and 92 others were 
injured in last year's incidents. One of the worst incidents in recent 
memory occurred in September in Merrimack Valley, Massachusetts. When 
oversights led to highly pressurized gas entering the low-pressure gas 
distribution system servicing homes and businesses, multiple fires and 
explosions damaged 131 structures, destroyed 5 homes, injured 21 
people, and killed an 18-year-old.
    The National Transportation Safety Board is investigating that 
incident along with seven others, such as the February 2019 incident in 
San Francisco where a third-party contractor struck a Pacific Gas & 
Electric Corporation natural gas main line, igniting a fire that burned 
for more than 2 hours until the operator could isolate and shut down 
the flow of gas.
    Surely, there is more that we can do to improve safety. Today's 
hearing provides an opportunity to hear from a wide range of pipeline 
stakeholders about the safety risks that continue to elude us.
    There is one thing we don't need any expert to tell us: safety 
mandates from the 2011 and 2016 reauthorization bills still aren't 
completed.
    In 2011, after devastating accidents in San Bruno, California, and 
Marshall, Michigan, Congress required PHMSA to improve the safety of 
hazardous liquid pipelines, to eliminate safety gaps in gas 
transmission pipelines, and to examine requirements to better detect 
leaks and shut off pipelines during disasters. These rules haven't been 
finalized, 8 years later. Part of that is due to agency failures, and 
part of that may be due to burdensome statutory requirements that 
require PHMSA to prove, in every safety rule, that the benefits 
outweigh the costs.
    Additional mandates from the 2016 reauthorization bill, including 
regulations intended to prevent underground natural gas storage leaks 
like what happened in Aliso Canyon, remain unaccomplished.
    The Administrator is here today to tell us where these mandates 
stand. To his credit, and after much lambasting that occurred at our 
last oversight hearing, the Administrator will be able to talk about 
some progress on some of these mandated rulemakings. Yet, the rules are 
still not done.
    So, where are the safety rules? Some are sitting on the Secretary's 
desk or are over at OMB. In the few months since this subcommittee's 
last pipeline oversight hearing, PHMSA has moved five rulemakings out 
of the agency and to the Secretary's Office or to OMB. I'm not sure 
what is taking so long to review a rule that PHMSA has completed--is it 
the President's Executive orders on regulatory reform, or an arbitrary 
and nonsensical cap on the cost to industry of regulations imposed by 
the Secretary and OMB.
    I expect the Administrator to tell us his agency's plans to finish 
these long-overdue mandates. Specifically, I want to know when they 
will finally be completed. I also expect to hear what tools or 
resources Congress can provide PHMSA or other hurdles we can tear down 
to ensure that future mandates don't take 8 years to complete.
    Let me be clear: a near-decade of delay will not happen again. We 
will not sit here in 2027 asking when the mandates from 2019 will be 
finished. The public deserves better, and Congress demands better.
    So, I hope today's hearing will be informative. I look forward to 
hearing from the NTSB, who will have plenty to share on the importance 
of the past mandates and ways to improve safety overall. And we have a 
range of safety experts, first responders, and industry on the second 
panel to help us identify how to keep our pipeline systems safe. If 
there are things we can fix, we're going to fix them.
    Thank you, and I look forward to hearing the witnesses' testimony.

    Mr. Lipinski. Thank you, Mr. DeFazio. Thank you for the 
gavel.
    Mr. DeFazio. Yes.
    Mr. Lipinski. I will proudly display that in my office.
    Mr. DeFazio. I ordered them online. They looked a little 
bigger than that.
    Mr. Lipinski. Yeah, it is a little smaller than----
    Mr. DeFazio. You might use that one. Just put that one in 
your office somewhere.
    Mr. Lipinski. Yeah, I will. Thank you.
    Before proceeding to our two witness panels, I would like 
to--let's see, we have Congresswoman Lori Trahan. Congressman 
Seth Moulton may be here. But both of them are going to speak 
about the Merrimack Valley tragedy and its impact on their 
districts and constituents.
    I want to ask unanimous consent that our colleagues' full 
statements be included in the record.
    And, without objection, so ordered.
    And we will proceed with Representative Trahan.
    So welcome.

  TESTIMONY OF HON. LORI TRAHAN, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF MASSACHUSETTS; AND HON. SETH MOULTON, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mrs. Trahan. Chairman Lipinski, Ranking Member Crawford, 
members of the subcommittee, thank you for allowing me to 
testify today on an issue that has been weighing on so many 
hearts and minds in my district for the past 28 weeks, ever 
since a series of preventable errors triggered gas-fueled 
explosions across Lawrence, Andover, and North Andover, 
Massachusetts. The explosions destroyed homes and damaged 
businesses, caused multiple injuries, and took a young life.
    To briefly recap events, at 4 o'clock in the afternoon on 
Thursday, September 13, a cascade of explosions rocked over 130 
homes and businesses, burning several to the ground. Terrified 
residents had no idea what was happening or why or when it 
would stop.
    While the National Transportation Safety Board won't issue 
its final report and recommendations for several months, its 
interim report revealed shocking details that demand action.
    Columbia Gas of Massachusetts, a subsidiary of NiSource, 
was replacing gas pipelines in the area, and major errors were 
made throughout the process.
    One of the biggest was the mishandling of a gas pressure 
sensor line. This sensor signals to an automated system whether 
to adjust gas flow. However, when the new pipeline was 
installed, the sensor line remained in the old, abandoned 
pipeline. The lack of flow in the old line led the sensor to 
call for more and more gas in the new line. Across the country, 
people saw the consequence on the evening news. This should 
have never happened.
    In November, the Board recommended that Columbia Gas revamp 
its engineering review process to more securely plan for 
whatever public safety may be at risk. It recommended that 
company records be updated with critical details such as 
location of sensor lines, as industry standard practice calls 
for.
    The Board also recommended that the company implement a 
management-of-change process to identify and mitigate potential 
risks ahead of project work.
    Finally, the Board urged Massachusetts to repeal a law that 
exempted gas companies from securing the seal of a 
professionally licensed engineer on these projects. Indeed, it 
is my understanding that more than a dozen States have such 
exemptions in place today. To their credit, the Commonwealth's 
Governor and legislature quickly acted to repeal this 
exemption.
    Furthermore, I am told that Columbia Gas is in contact with 
the Board to implement the industry recommendations. 
Nevertheless, I urge the committee to be bold by strengthening 
safety standards and mandating professional engineer reviews.
    Over the past 7 months, I have met with many victims of the 
Merrimack Valley gas explosions. I heard stories of courage and 
commitment, nowhere more so than in Lawrence, a community known 
as the ``City of Immigrants.''
    One local hero, Police Officer Ivan Soto, learned that his 
home was one of those on fire. But like so many first 
responders, once he knew his family was safe, Officer Soto 
returned to duty to help as many people as he could.
    Drs. Yeri Park and Chelsea Harris were graduate medical 
residents at Greater Lawrence Family Health Center. Neither is 
from Lawrence--Dr. Park is from Los Angeles, in fact--but they 
and their colleagues sprang into action to help victims and 
offer surge support, as the local hospital already had its 
hands full.
    But despite their heroic efforts, there is no replacing 
some of what was lost. Luis Suazo owns a bodega. He is one of 
many first-generation immigrants who started his own successful 
business in Lawrence. But he could lose it all. His regular 
customers are still financially strapped from the disaster. 
That is a feeling he is intimately familiar with himself. He is 
currently navigating an extended damage claims review process. 
Plus, quite frankly, many residents are just fearful that there 
may be more explosions, and so they stay indoors. That means 
less foot traffic and fewer customers in the Suazo market.
    Finally, Leonel Rondon. Leonel was a student celebrating 
his new driver's license that day. Then, a home exploded, and 
debris from a chimney collapsed onto the car he was in, killing 
him. He was 18. His sister, Lucianny, testified at a Senate 
field hearing in Lawrence last November. She said, ``We hope 
there will be justice for Leonel and for the community. Nobody 
should ever have to go through what my family has gone through 
ever again.''
    I invite any of the members of the committee to come to the 
Merrimack Valley and see the damage for yourself and also meet 
those who suffered losses as well as those who came to the 
rescue.
    Finally, I implore this committee to approve a strong 
reauthorization of the Pipeline Safety Act this year. I stand 
ready to work with you on legislation to prevent such a 
disaster from happening again.
    Thank you. Thank you for your time.
    [Mrs. Trahan's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Lori Trahan, a Representative in Congress 
                    from the State of Massachusetts
    Chairman Lipinski and Ranking Member Crawford, thank you for 
allowing me to testify today on an issue that has been weighing on so 
many hearts and minds in my district for the past 28 weeks . . .
     . . . Ever since a series of preventable errors triggered gas-
fueled explosions across Lawrence, Andover, and North Andover, 
Massachusetts.
    The explosions destroyed homes and damaged businesses, caused 
multiple injuries and took a young life.
    To briefly recap events: At four in the afternoon on Thursday, 
September 13th, a cascade of explosions rocked over 130 homes and 
businesses, burning several to the ground.
    Terrified residents had no idea what was happening or why or when 
it would stop. While the National Transportation Safety Board likely 
won't issue its final report and recommendations for several more 
months, its interim report revealed shocking details that demand 
action.
    Columbia Gas of Massachusetts was replacing gas pipelines in the 
area; and major errors were made throughout the process.
    One of the biggest was the mishandling of a gas pressure sensor 
line. This sensor signals to an automated system whether to adjust gas 
flow.
    However, when the new pipeline was installed, the sensor line 
remained in the old, abandoned pipeline.
    The lack of flow in the old line led the sensor to call for more 
and more gas in the new line.
    Across the country, people saw the consequences on the evening 
news. This should never have happened.
    In November, the Board recommended that Columbia Gas revamp its 
engineering review process to more securely plan for whenever public 
safety may be at risk.
    It recommended that company records be updated with critical 
details, such as the location of sensor lines--as industry standard 
practice calls for.
    The Board also recommended that the company implement a 
``management of change'' process to identify and mitigate potential 
risks ahead of project-work.
    Finally, the Board urged Massachusetts to repeal a law that 
exempted gas companies from securing the seal of a professionally 
licensed engineer on these projects.
    Indeed, it is my understanding that more than a dozen States have 
such exemptions in place.
    To their credit, the Commonwealth's Governor and legislature 
quickly acted to repeal the exemption.
    Furthermore, I'm told that Columbia Gas is in contact with the 
Board to implement the industry recommendations.
    Nevertheless, I urge the committee to be bold by strengthening 
safety standards and mandating professional engineer reviews.
    Over the past 7 months, I've met with many victims of the Merrimack 
Valley gas explosions.
    I heard stories of courage and commitment--nowhere more so than in 
Lawrence, a community known as the ``City of Immigrants.''
    One local hero, Police Officer Ivan Soto, learned that his home was 
one of those on fire. Nevertheless, once he knew his family was safe, 
Officer Soto returned to duty to help as many people as he could.
    Doctors Yeri Park and Chelsea Harris were graduate medical 
residents at Greater Lawrence Family Health Center.
    Neither is from Lawrence. Dr. Park is from Los Angeles, in fact.
    But they and their colleagues sprang into action to help victims 
and offer surge support as the local hospital already had its hands 
full.
    But despite their heroics, there is no replacing some of what was 
lost.
    Luis Suazo owns a bodega.
    He is one of many first-generation immigrants who started his own 
successful business in Lawrence.
    But he could lose it all.
    His regular customers are still financially strapped from the 
disaster.
    That's a feeling he is intimately familiar with himself; he's 
currently navigating an extended damage claims review process.
    Plus, quite frankly, many residents are fearful that there may be 
more explosions, so they stay indoors.
    That means less foot traffic and fewer customers in the Suazo 
Market.
    Finally, Leonel Rondon. Leonel was a student celebrating his new 
driver's license that day.
    Then, a house exploded, and a piece of chimney collapsed onto the 
car he was in, killing him.
    His sister, Lucianny, testified at a Senate field hearing in 
Lawrence last November. She said ``we hope there will be justice for 
[Leonel] and the community. Nobody should ever have to go through what 
my family has gone through ever again.''
    I invite you to come to the Merrimack Valley: See the damage for 
yourself; meet those who suffered losses as well as those who came to 
the rescue.
    Finally, I implore this committee to approve a strong 
reauthorization of the Pipeline Safety Act this year.
    I stand ready to work with you on legislation to prevent such a 
disaster from happening again.
    Thank you.

    Mr. Lipinski. I thank you, Mrs. Trahan.
    And we now have, right in the nick of time, Mr. Moulton. So 
we will give you a couple seconds there to----
    Mr. Moulton. Oh, no, no. We are ready to go.
    Mr. Lipinski. We will recognize you.
    Mr. Moulton. Thank you, Mr. Chairman.
    Chairman DeFazio, Chairman Lipinski, Ranking Member Graves, 
Ranking Member Crawford, thank you all for inviting me here 
today.
    On the 13th of last September, workers for Columbia Gas 
replacing a system of 100-year-old cast-iron pipes failed to 
account for a pressure sensor. The lines were overpressurized 
and set off a series of disasters that brought carnage I 
thought I had left behind in Iraq to the Merrimack Valley.
    Witnesses described houses exploding. Just repeat that 
phrase: houses exploding. At one exploding house, a chimney 
landed on a car and crushed a young man inside it to death. The 
explosions and the fires that happened in the aftermath injured 
23 people and in a second turned 30,000 folks in Merrimack 
Valley into temporary refugees. All told, 7,700 people couldn't 
return to their homes, including 2,683 children, many for 
months.
    The story that day was one of devastation. It didn't take 
long, however, to turn into a story of inspiration. Strangers 
took in neighbors. Red Cross workers, local leaders, and first 
responders banded together to help out. By the end of the first 
night, it seemed like everyone in the Merrimack Valley was 
pitching in to help us recover--everyone except the company 
that caused the explosion.
    Columbia Gas dawdled in the moments and days immediately 
after this tragedy. And when I asked their president why, 
during a Senate Commerce Committee field hearing, he assured me 
that public safety was one of the company's core values. But 
shortly thereafter, we learned the truth from a courageous 
whistleblower who retired 3 months prior.
    Before the explosions, that employee, Mr. Bart Maderios, 
warned the general manager and another senior employee that 
staffing and oversight decisions made by Columbia Gas would 
create a situation in which they, and I quote, ``didn't have 
enough people to respond and provide safe, reliable natural 
gas.''
    But that wasn't all. Columbia Gas had also reduced the 
number of staff monitoring gas pressure in the Merrimack 
Valley. The company stopped requiring technicians on site at 
construction projects to monitor gas distribution lines. And 
the National Transportation Safety Board found that the company 
used a field engineer who had, and I quote, ``limited knowledge 
about the importance of regulator-sensing lines'' to supervise 
the project. This oversight, or lack of oversight, caused 
workers to improperly bypass critical pipeline pressure-sensing 
lines, which led directly to the explosion.
    Last month, 10 families were still in temporary housing; 
small businesses faced the prospect of closing their doors 
because of the rate at which Columbia Gas paid their claims; 
and Columbia Gas has still not replaced appliances beyond 
merely patching them up as winter approached.
    In the 6 months since, Columbia Gas has put together a 
long-term recovery plan that focuses on bettering its emergency 
response and pipeline safety initiatives, but the damage wasn't 
just to people and to homes. Peace of mind exploded that day as 
well. Now, parents have cause to think twice when they hear the 
click of a stovetop or the rumble of a hot water heater. They 
wonder if their house might blow up.
    It is up to Congress to rebuild that peace of mind. As this 
committee considers the reauthorization of the Natural Gas 
Pipeline Safety Act, we must improve safety protocols and 
oversight of operators like Columbia Gas.
    And the President needs to step up and work with Congress 
too. Let's all work together to rebuild America's aging 
infrastructure, like the century-old pipes running through the 
Merrimack Valley.
    Let's eliminate professional engineer license exemptions 
for public utility work. Let's make sure a professional 
engineer approves all public utility engineering drawings.
    Let's hold State and Federal pipeline safety regulators 
accountable for sufficient staffing. Let's explore the lack of 
oversight by the Pipeline and Hazardous Materials Safety 
Administration, which gave the Massachusetts system a rating of 
97.4 out of 100 just 1 month before the explosions.
    Let's make the regulation of pipe replacement mandatory and 
rethink how the administration could be more efficient as it 
weighs costs and benefits for new regulations. Because no cost 
is greater than that of young men, of young Americans, like the 
young man who was killed, 18-year-old Leonel Rondon.
    Let's do it for Merrimack. Let's do it together. And let's 
do it now.
    Thank you. I yield back.
    [Mr. Moulton's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Seth Moulton, a Representative in Congress 
                    from the State of Massachusetts
    Thank you to Chairman DeFazio, Chairman Lipinski, Ranking Member 
Graves, and Ranking Member Crawford for inviting me to be here today.
    On the 13th of last September, workers for Columbia Gas replacing a 
system of 100-year-old cast-iron pipes failed to account for a pressure 
sensor. The lines over-pressurized, and set off a series of disasters 
that brought carnage I thought I left behind in Iraq to the Merrimack 
Valley.
    Witnesses described houses exploding in a deafening blink. At one 
exploding house, a chimney landed on a car and crushed a young man 
inside it to death. The explosion and the fires that happened in the 
aftermath injured 23 other people and in a second turned 30,000 people 
in the Merrimack Valley into temporary refugees.
    All told, 7,700 people couldn't return to their homes--including 
2,683 children--many for months.
    The story that day was one of devastation.
    It didn't take long to turn to one of inspiration.
    Strangers took in neighbors. Red Cross workers, local leaders, and 
first responders banded together to help out.
    By the end of the first night, it seemed like everyone in Merrimack 
Valley was pitching in to help us recover.
    Everyone except the company that caused the explosion.
    Columbia Gas dawdled in the moments and days immediately after this 
tragedy. And when I asked their president why during a Senate Commerce 
Committee field hearing, he assured me that public safety was one of 
the company's core values.
    Shortly thereafter, we learned the truth from a courageous 
whistleblower who retired 3 months prior.
    Before the explosions, that employee--Mr. Bart Maderios--warned the 
general manager and another senior employee that staffing and oversight 
decisions made by Columbia Gas would create a situation in which they, 
and I quote, ``didn't have enough people to respond and to provide a 
safe, reliable natural gas.''
    But that wasn't all.
    Columbia Gas had also reduced the number of staff monitoring gas 
pressure in Merrimack Valley.
    The company had stopped requiring technicians on-site at 
construction projects to monitor gas distribution lines.
    And the National Transportation Safety Board found that the company 
used a field engineer, who had, and I quote, ``limited knowledge about 
the importance of regulator-sensing lines.''
    This oversight caused workers to improperly bypass critical 
pipeline pressure-sensing lines which led to the explosion.
    Last month, 10 families were still in temporary housing, small 
businesses faced the prospect of closing their doors because of the 
rate at which Columbia Gas paid their claims, and Columbia Gas has 
still not replaced appliances beyond merely patching them up as winter 
approached.
    In the 6 months since, Columbia Gas has put together a long-term 
recovery plan that focuses on bettering its emergency response and 
pipeline safety initiatives.
    But the damage wasn't just to people and homes.
    Peace of mind exploded that day too.
    Now parents have cause to think twice when they hear the click of 
the stove top or the rumble of a hot water heater--they wonder if their 
house might blow up.
    It's up to Congress to rebuild that peace of mind.
    As this committee considers the reauthorization of the Natural Gas 
Pipeline Safety Act, we must improve safety protocols and oversight of 
operators like Columbia Gas.
    And the President needs to step up and work with Congress too. 
Let's all work together and rebuild America's aging infrastructure like 
the century-old pipes running through the Merrimack Valley.
    Let's eliminate professional engineer license exemptions for public 
utility work.
    And let's make sure a professional engineer approves all public 
utility engineering drawings.
    Let's hold State pipeline safety regulators accountable for 
sufficient staffing.
    And let's explore the lack of oversight by the Pipeline and 
Hazardous Materials Safety Administration, which gave the Massachusetts 
system a rating of 97.4 out of 100 just 1 month before the explosions.
    Let's make the regulation of pipe replacement mandatory.
    And rethink how the Administration could be more efficient as it 
weighs costs and benefits for new regulations, because no cost is 
greater than the worth of the life of Americans--young men like 18-
year-old Leonel Rondon, the young man who the chimney killed.
    Let's do it for Merrimack. Let's do it together.
    And let's do it right now.

    Mr. Lipinski. I thank you, Mr. Moulton.
    And thank both of you for shining a bright light on what we 
need to keep in mind as we are working on reauthorizing the 
pipeline safety bill. Thank you both very much for your 
testimony.
    Mrs. Trahan. Thank you.
    Mr. Lipinski. We will now welcome our first panel of 
witnesses. As you get ready to come up here, the Honorable 
Howard ``Skip'' Elliott, the Administrator of the Pipeline and 
Hazardous Materials Safety Administration, and the Honorable 
Jennifer Homendy, Board Member of the National Transportation 
Safety Board.
    I want to ask unanimous consent that our witnesses' full 
statements be included in the record.
    And, without objection, so ordered.
    I thank our witnesses for being here today for this first 
panel. Since your written testimony has been made part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    And we will start with Mr. Elliott, and you are recognized 
for 5 minutes.

   TESTIMONY OF HON. HOWARD ``SKIP'' ELLIOTT, ADMINISTRATOR, 
  PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION; AND 
 HON. JENNIFER HOMENDY, MEMBER, NATIONAL TRANSPORTATION SAFETY 
                             BOARD

    Mr. Elliott. Chairman DeFazio, Ranking Member Graves, 
Chairman Lipinski, and Ranking Member Crawford, and esteemed 
members of this subcommittee, thank you for the opportunity to 
testify here today. I look forward to updating the subcommittee 
on the Pipeline and Hazardous Materials Safety Administration's 
progress in closing open congressional mandates and executing 
our broader safety mission.
    Last summer, this subcommittee expressed its frustration 
loud and clear regarding the outstanding congressional mandates 
on pipeline and hazardous materials safety. We heard you, and 
we are working hard to ensure our Nation's pipeline system 
remains safe while addressing the critical safety mandates 
received from Congress.
    Of the 12 remaining mandates from the 2011 and 2016 
Pipeline Safety Acts--there were 61 in total--4 were tied to 
reports and other actions, and the remaining 8 are tied to in-
progress rulemaking efforts.
    Those mandates from the 2011 act, those that have been 
opened the longest, are being addressed by three of PHMSA's 
upcoming rulemakings for gas transmission pipelines, hazardous 
liquid pipelines, and rupture detection and valves.
    PHMSA continues to make progress on these rules, with the 
liquid pipeline safety rule having moved out of DOT for final 
review last month. PHMSA has also completed its work on the gas 
transmission pipeline final rule, and it is now undergoing 
internal administrative review.
    I understand that many of you and many of our stakeholders 
may feel like we are not moving fast enough on rulemakings. As 
a safety practitioner, I appreciate and I share those concerns. 
As PHMSA Administrator, it is my responsibility to prioritize 
and pursue those rulemakings that will provide the greatest 
safety impact and have the highest likelihood of preventing 
events that could negatively impact people and the environment.
    To that end, I refer the members of this subcommittee to my 
written testimony regarding the details of two important safety 
mandates, closed since we last convened, dealing with 
comprehensive oil spill response plans for railroads and the 
transport of lithium ion batteries by air. In addition, we 
issued a final rule to modernize technologies for plastic 
pipelines that we hope will further accelerate aging 
distribution gas line replacement.
    In addition to congressional mandates, many of PHMSA's 
rules must also address recommendations from the National 
Transportation Safety Board that relate to complex safety 
matters. Our rules also address recommendations from the U.S. 
Government Accountability Office and our own safety findings. 
Furthermore, we must make sure our regulations account for 
known safety issues, technological feasibility, and cost-
effectiveness.
    PHMSA holds public meetings and workshops prior to 
rulemakings, using the information gathered to craft the most 
effective rules possible. Such collaboration well in advance of 
the rulemaking process allows us to identify concerns and 
potential solutions to allocate our limited resources where 
they are needed the most. A lot of work goes on behind the 
scenes to get a rule ready for publication, and we are making 
positive movements towards completing our mandates.
    Safety is the highest priority for the U.S. Department of 
Transportation and for PHMSA, and we are continuing to work 
hard to publish the rules and reports that will complete our 
mandates. We are also committed to addressing safety issues on 
all fronts.
    I am pleased to say that, while making progress on 
mandates, PHMSA's oversight role is continuing to have a 
positive impact on safety. Thanks to our integrity management 
requirements, pipeline operators have conducted over 90,000 
repairs in high-consequence areas.
    Our field efforts are working too. Last year, PHMSA 
conducted over 12,000 days of inspections and investigations of 
pipeline systems. These field activities are helping to improve 
the safety, as evidenced in the number of reported pipeline 
incidents, which for 2018 was below the 5-year average, even 
with PHMSA's expanded regulatory oversight of underground 
natural gas storage facilities.
    Additionally, the same data shows that both pipeline-
related fatalities and the net volume spilled from hazardous 
liquid pipelines was also below the 5-year average, down 33 
percent and 21 percent respectively, although we know that even 
one pipeline-related casualty is one too many.
    These facts, while notable, do not give me reason to pause 
during our ongoing safety mission at PHMSA. And even though we 
use statistics to help us measure improvements in safety, it is 
the vivid reminder of incidents in places like Bellingham, 
Marshall, San Bruno, Aliso Canyon, and Merrimack Valley that 
serve as our motivation and commitment for working even harder 
to improve pipeline safety.
    Thank you again for inviting me to today's hearing, and I 
look forward to your questions.
    [Mr. Elliott's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Howard ``Skip'' Elliott, Administrator, 
         Pipeline and Hazardous Materials Safety Administration
                            i. introduction
    Chairman Lipinski, Ranking Member Crawford, members of the 
Subcommittee, thank you for inviting me to testify today on the U.S. 
Department of Transportation's Pipeline and Hazardous Materials Safety 
Administration's (PHMSA) pipeline safety program. I appreciate this 
Committee's strong support for strengthening pipeline safety across our 
country.
    Our nation's infrastructure keeps this great nation moving and 
helps to raise the standard of living for all Americans. The natural 
gas and hazardous liquid pipelines PHMSA regulates are an essential 
component of our national infrastructure, safely transporting the 
energy products that are essential to our daily lives. Like all DOT 
modes, PHMSA is guided by Secretary Chao's four strategic goals of 
safety, infrastructure enhancements, innovation, and accountability.
A. PHMSA's Mission
    The mission of PHMSA is to protect people and the environment by 
advancing the safe transportation of energy products and other 
hazardous materials that are essential to our daily lives. The need for 
safe and reliable energy infrastructure is growing. Our nation is 
experiencing an energy renaissance, propelled largely by innovative 
production technologies and global demand for U.S. energy.
    PHMSA's pipeline safety program is responsible for the regulation 
and oversight of over 2.7 million miles of energy pipeline systems. The 
vision of the pipeline safety program is straightforward: update or 
develop new regulations, policies, and guidance; improve our oversight 
to hold pipeline operators accountable; find innovative solutions to 
promote safety; and accommodate and encourage research into new and 
promising technologies. Each of these goals ensure that pipeline 
infrastructure can continue to provide safe and reliable energy to our 
communities, homes, and businesses.
    After working for decades in the freight rail industry, a great 
deal of it leading efforts to improve public safety and incident 
response, I have learned that safety is the result of effective, smart 
regulations that hold industry accountable, and reduce costs, when 
possible.
    PHMSA's safety goal is zero pipeline accidents and its oversight 
philosophy is based on three fundamental tenets:
    1.  Establish minimum safety standards and take enforcement actions 
against operators not in compliance with these standards.
    2.  Ensure operators understand and manage the risks associated 
with their pipelines, including taking actions to prevent pipeline 
accidents and minimizing the impact of any accidents that occur.
    3.  Continually encourage and expect pipeline operators to improve 
their performance beyond minimum compliance with the regulations and 
continuously build a strong safety culture.
                        ii. progress on mandates
    When I spoke to this Subcommittee last year, I heard clearly from 
its members that finalizing outstanding Congressional mandates must be 
a top priority. PHMSA recognizes the concerns of this Subcommittee and 
is continuing to make progress on critical safety mandates. Since June 
2018, PHMSA completed and submitted reports to Congress on the 
Nationwide Integrated Pipeline Safety Regulatory Database, as well as a 
report on the Study on Propane Gas Pipeline Facilities. Both reports 
were mandated in the Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011.
    Over the past year, PHMSA prioritized the rules it thought it could 
move quickly such as those for lithium batteries, plastic pipelines, 
and oil spill response plans for trains carrying crude oil. These 
regulations are intended to advance public safety, while encouraging 
innovation and greater stakeholder awareness and collaboration. These 
key rulemakings are detailed below.
    Of the mandates from the Pipeline Safety, Regulatory Certainty, and 
Job Creation Act of 2011, PHMSA has eight of 42 mandates remaining. 
Additionally, of the mandates from the Protecting Our Infrastructure of 
Pipelines and Enhancing Safety Act of 2016, PHMSA has four of 19 
mandates remaining.
    Together, of the 12 remaining mandates from the 2011 and 2016 Acts, 
four are tied to reports and other actions, and eight are tied to 
rulemaking efforts that PHMSA is continuing to make progress on under 
its established rulemaking process.
    As Administrator, I am committed to doing everything I can to 
complete all the remaining rulemakings that address Congressional 
directives related to pipeline safety. I believe completing these 
mandates will result in significant positive impacts to pipeline 
safety.
    Completing rulemakings takes time simply because it is an iterative 
process that is designed to encourage maximum participation by all 
stakeholders, thus ensuring comprehensive rules that protect the public 
and stand up to cost/benefit scrutiny. PHMSA holds public meetings and 
workshops prior to rulemakings, using the information gathered to craft 
the most effective rules possible. Such collaboration, well in advance 
of the rulemaking process, allows PHMSA to identify concerns and 
potential solutions to allocate its scarce resources where they are 
needed most.
    In addition to mandates, many of PHMSA's rulemakings underway 
address important recommendations from the National Transportation 
Safety Board (NTSB), resulting from safety issues identified during 
accident investigations. PHMSA's rules also address recommendations 
from the U.S. Government Accountability Office (GAO) and the DOT 
Inspector General (IG), and the agency's own safety findings. PHMSA 
must make sure that its regulations account for known safety issues, 
technological feasibility, and cost effectiveness.
    In short, a lot of work goes on behind the scenes to get a rule 
ready for publication, and PHMSA is making positive movement towards 
completing the safety critical mandates and addressing recommendations 
from Congress, the NTSB, GAO, and IG, as well as our own safety 
findings.
A. Hazardous Liquid Rule
    PHMSA understands the importance of moving forward its long-awaited 
Safety of Hazardous Liquid Pipelines rulemaking, which was included in 
the 2011 Act. This rulemaking would amend the pipeline safety 
regulations to improve protection of the public, property, and the 
environment by closing regulatory gaps where appropriate. In addition, 
this rule is intended to ensure that operators are increasing the 
detection and remediation of unsafe conditions, and mitigating the 
adverse effects of hazardous liquid pipeline failures. This rule is one 
of PHMSA's highest priorities and is on track to be completed and 
published in 2019.\1\
---------------------------------------------------------------------------
    \1\ Per the DOT February 2019 Significant Rulemaking Report, the 
projected publication date for the final rule is 5/27/19.
---------------------------------------------------------------------------
B. Gas Transmission Rule
    PHMSA is also making significant progress toward finalizing its gas 
transmission and gathering pipeline rulemaking efforts. This is 
intended to help close two very important open mandates related to the 
expansion of integrity management principles and requirements for 
operators to confirm the maximum allowable operating pressure of 
certain gas pipelines. These changes are expected to allow operators to 
assess more pipelines and better understand their systems' conditions.
    When finalizing the ``Safety of Gas Transmission and Gathering 
Pipelines'' notice of proposed rulemaking (NPRM), the proposed rule was 
under review for nearly 2 years. Delays were largely due to the 
proposed rule being too big and unwieldy to move through the 
administrative process. Accordingly, PHMSA made the strategic decision 
to split the initial proposed rule into smaller, more manageable 
rulemaking actions. The split will help PHMSA manage each individual 
rule more efficiently; and, most importantly, prioritize Congressional 
directives on gas pipelines. Additionally, while working to complete 
the Congressional mandates this rulemaking will address, PHMSA is also 
using its resources to incorporate and advance several recommendations 
from the NTSB and GAO as part of the rule.
    PHMSA's goal is to publish the final rule addressing Congressional 
directives this year,\2\ and will continue working to ensure that the 
other rules follow closely behind.
---------------------------------------------------------------------------
    \2\ Per the DOT February 2019 Significant Rulemaking Report, the 
projected publication date for the final rule is 7/2/19.
---------------------------------------------------------------------------
C. Valve and Rupture Detection Rule
    PHMSA is developing an NPRM to address leak and rupture 
detection.\3\ The Shutoff Valve and Rupture Detection rule will meet 
the goals of two Congressional directives. It proposes revisions to the 
pipeline safety regulations for newly constructed or entirely replaced 
natural gas transmission and hazardous liquid pipelines. In doing so, 
the rule is intended to improve rupture mitigation and shorten the time 
it takes to shut down a pipeline segment. The rule will also address 
recommendations from the NTSB and is expected to help reduce the 
serious consequences of large-volume releases of natural gas and 
hazardous liquids.
---------------------------------------------------------------------------
    \3\ Per the DOT February 2019 Significant Rulemaking Report, the 
projected publication date for the NPRM is 8/7/19.
---------------------------------------------------------------------------
    PHMSA is proposing standards for operators to utilize rupture 
detection metrics for valve placement to improve incident response in 
populated or environmentally sensitive areas. Rupture response metrics 
would focus on mitigating large release events that have a greater 
potential consequence. This rulemaking is currently under comprehensive 
review at the Department and we are working to move it forward as 
expeditiously as possible.
D. Plastic Gas Pipe Rule
    This rule, published in November 2018, updated pipeline safety 
regulations to allow for the modernization of plastic pipe material, 
design, and construction standards. This final rule also responds to 
plastic pipe installation and operational safety concerns identified by 
federal and state field inspectors. With this rule, new or replaced 
local gas distribution systems will be built and maintained with the 
most advanced pipeline technology, which is expected to greatly improve 
public safety for local communities.
E. Hazardous Materials Transportation Directives from Congress
    PHMSA also regulates the safety of hazardous materials by all modes 
of transportation, including by highway, railroad, vessel, and airways. 
Although PHMSA's two program offices are authorized separately, we are 
one PHMSA. We share resources, knowledge, and most importantly, we 
share the same safety goals.
    On February 28, 2019, PHMSA, in coordination with the Federal 
Railroad Administration, issued a final rule that amends the Hazardous 
Materials Regulations requirements for comprehensive oil spill response 
plans and information sharing. This rule was requested by Congress in 
the fiscal year 2016 Consolidated Appropriations Act. The rulemaking 
sets safety standards for rail operator response to incidents involving 
crude oil transported by rail.
    Additionally, on March 6, 2019, PHMSA, in collaboration with the 
Federal Aviation Administration (FAA), published an interim final rule 
(IFR) for the safe transport of lithium batteries by aircraft. The IFR 
is first of PHMSA's completed actions in addressing directives included 
in the FAA Reauthorization Act of 2018. This IFR prohibits the 
transport of lithium ion cells or batteries as cargo on passenger 
aircraft. In addition, the IFR requires lithium ion cells and batteries 
to be shipped at not more than a 30 percent state of charge aboard 
cargo-only aircraft. The IFR is intended to strengthen safety for the 
traveling public by addressing the unique challenges lithium batteries 
pose in transportation.
F. Regulatory Reform
    While PHMSA works to complete its regulatory agenda, the agency is 
also committed to improving the effectiveness of our regulatory program 
by conducting a comprehensive evaluation of current, in-progress, and 
planned regulations.
    PHMSA's rulemaking efforts are driven by the belief, consistent 
with Executive Orders 13771, 13777, and 13783 and other legal 
authorities, that there should be no more regulations than necessary, 
and those regulations should be straightforward, clear, and designed to 
minimize burdens, consistent with safety. We also believe that public 
input is a critical part of the rulemaking process and have proactively 
sought public comments on our regulatory review and rulemaking efforts. 
PHMSA is using public input to decide on the best approach, consistent 
with our regulatory philosophy, to meeting the Department's statutory 
obligations.
    PHMSA's review will help to ensure that its regulations are right-
sized--which can allow operators to put additional resources where they 
will have the maximum safety impact, such as greater investment in 
safety research and development and technology-based safety 
enhancements.
    As always, our focus is ultimately on safety performance. It is the 
responsibility of the oil and gas industry to understand and manage the 
risks of their systems. The current regulatory climate gives us all a 
unique opportunity to work together to optimize our regulations for 
safety. The pipeline industry should continue to invest in and 
accelerate their pipeline safety efforts and make substantive safety 
improvements best suited to their systems and without specific 
direction from regulations.
                           iii. other actions
    In addition to completing the important mandates given to it by the 
Congress, PHMSA continues to aggressively pursue its core safety 
mission through grants to states and communities, research and 
development initiatives, and additional safety programs.
A. Support for States
    PHMSA's state pipeline safety partners oversee more than 80 percent 
of the nation's pipeline infrastructure--much of it gas distribution 
pipelines--through annual certification with PHMSA.
    An important part of these partnerships is that PHMSA stands ready 
to support states in times of crisis. In the wake of hurricanes Harvey, 
Florence, Irma, Maria, and Michael, PHMSA worked with impacted states 
and pipeline operators to remove obstacles that could delay safe and 
rapid recovery efforts. PHMSA coordinated and provided periodic updates 
to Federal partners during the response and recovery phases of each 
natural disaster to assist with the movement of hazardous materials and 
energy products. For pipelines, PHMSA issued emergency stays of 
enforcement for affected operators, temporarily halting its enforcement 
of compliance with operator qualification and pre-employment and random 
drug testing requirements to allow affected interstate gas and 
hazardous liquid pipeline operators to use personnel for urgent 
response and recovery activities. PHMSA also notified impacted state 
pipeline safety partners that PHMSA would not object to them issuing 
similar temporary waivers for affected intrastate pipeline operators, 
in the interest of prompt and efficient pipeline safety activities 
related to response and recovery efforts. Expediting pipeline repairs 
and restoration of service to those areas was our top priority.
    In addition, PHMSA provides help to facilitate investigation and 
recovery following major incidents. In the wake of the tragic September 
13, 2018 natural gas accident involving Columbia Gas of Massachusetts, 
PHMSA quickly dispatched a team of inspectors to Massachusetts to 
provide technical assistance to the Massachusetts Department of Public 
Utilities (MA DPU) and the NTSB.
    PHMSA's pipeline inspectors played an instrumental role in the 
investigation, helping to determine the cause of the incident, and 
explaining the mechanics of how such an accident could occur. The 
Governor of Massachusetts, the mayors of the three affected towns, the 
NTSB, the incident commander, our state partners in the MA DPU, and 
members of the Massachusetts Emergency Management Agency all expressed 
their appreciation of the help provided by PHMSA's pipeline safety team 
and cited their professionalism, experience, and knowledge as being 
crucial to the success of the overall response to the incident.
    PHMSA also supports state programs by providing essential technical 
training. Our state-of-the-art Training and Qualifications (T&Q) 
program has full accreditation from the International Association for 
Continuing Education and Training (IACET). The T&Q Center trains an 
average of 900 state and federal inspectors annually, ensuring that all 
are current on updated regulations, technology, and best practices.
    PHMSA's T&Q Center is committed to developing innovative ways to be 
more accessible and effective, including the exploration of long-
distance proctored classes, curriculum improvements, and more efficient 
delivery to ensure relevancy. The T&Q Center is also working to develop 
an effective and efficient distance delivery system that does not 
sacrifice the high quality of PHMSA's training curricula. PHMSA's goal 
is to make it easier for state and federal inspectors to access the 
courses they need quickly and at a lower cost.
B. Grants
    The financial support PHMSA provides to its state partners through 
grants is another vital part of its partnerships. In total, PHMSA 
provided over $63 million in grant funding in fiscal year 2018 for 
pipeline inspection, enforcement, and safety awareness activities.
    PHMSA's State Base Grant program \4\ reimburses a portion of each 
partner state's program expenses. The grants partially cover the cost 
of any personnel, equipment, and activities reasonably required for the 
conduct of the pipeline safety program. Most importantly, PHMSA's 
grants provide state programs a consistent source of funding to hire 
and maintain adequate pipeline safety inspectors. For fiscal year 2018, 
PHMSA awarded $56 million to participating state programs.\5\ As the 
number of miles of pipeline infrastructure continues to grow and as the 
older pipes age, this grant program is critical to the oversight of the 
nation's distribution pipeline systems.
---------------------------------------------------------------------------
    \4\ The State Base Grant is a formula grant that authorizes awards 
to state pipeline safety programs under the authority of 49 U.S.C. 
Sec.  60107--State Pipeline Safety Grants.
    \5\ All states except Alaska and Hawaii participate in PHMSA's 
pipeline safety program.
---------------------------------------------------------------------------
    PHMSA's Technical Assistance Grants (TAGs) provide funding for 
technical assistance related to pipeline safety issues to local 
communities and non-profit organizations, where they make direct 
impacts to pipeline safety at the grassroots level. The TAGs can be 
used for engineering or other scientific analysis of pipeline safety 
issues and are also used to promote public participation in official 
proceedings. Since the program's inception in 2009, PHMSA has awarded 
over $10 million for 200 individual technical assistance projects. 
PHMSA issued a Notice of Funding Opportunity for its fiscal year 2019 
TAG grants in March and expects to award $1.5 million in grant funds to 
several recipients (up to $100,000 each) by September 2019.
    PHMSA's 811 One Call Grant Program provides funding to state 
agencies for promoting damage prevention awareness, including changes 
with their state underground damage prevention laws, related compliance 
activities, training and public education. This grant program is for 
states that have a certification or agreement with PHMSA to perform 
pipeline safety inspections. Last year, PHMSA awarded $1.1 million 
across 31 state agencies to assist in these efforts.
    Finally, I am pleased to say that in 2018 PHMSA awarded its first 
ever round of Underground Natural Gas Storage Grants--first authorized 
in 2016--in support of states' inspection and enforcement of 
underground natural gas storage facilities. The grants are used to 
reimburse up to 80 percent of the costs a state incurs for inspectors, 
equipment, and safety activities for the oversight of underground 
storage facilities.
C. Damage Prevention
    Excavation damage continues to be a leading cause of pipeline 
incidents. This year, PHMSA began issuing enforcement actions against 
excavators who damage pipelines in states that do not adequately 
enforce their own excavation damage prevention laws. PHMSA continues to 
support states with efforts to improve their own enforcement programs. 
PHMSA has seen marked improvements since 2016 in 14 states that have 
changed from inadequate to adequate programs per the PIPES Act of 2006 
and our regulatory criteria. PHMSA continues to work with the 13 
remaining states with inadequate programs to bring all programs up to 
an adequate level.
    I would also like to thank all PHMSA stakeholders--especially the 
public--for the continued success of the national Call-Before-You-Dig 
number, 811. Over the past 10 years, since 811 was established, 
pipeline incidents caused by excavation damage have fallen 40 percent. 
This decline would not have been possible without strong collaboration 
from all stakeholders.
D. Advancing Domestic Energy
    In August 2018, PHMSA established a new Memorandum of Understanding 
(MOU) with the Federal Energy Regulatory Commission (FERC) that 
eliminates unnecessary and duplicative regulatory reviews by both 
agencies when permitting new Liquefied Natural Gas (LNG) export 
facilities. Going forward, PHMSA will operate as the Federal 
Government's LNG safety expert for Federal regulations covering the 
safety of LNG facilities and will be solely responsible for conducting 
the necessary safety analysis for new LNG facilities that may be 
permitted by FERC.
    PHMSA assesses each LNG facility application for FERC on a case-by-
case basis to determine whether the application meets the minimum 
Federal Pipeline Safety Standards for the location of a new LNG 
facility. So far, PHMSA has issued eight Letters of Determination to 
FERC under the MOU.\6\ This agreement may help reduce the time it takes 
to obtain a new LNG export permit by as much as one year.
---------------------------------------------------------------------------
    \6\ As of March 28, 2019.
---------------------------------------------------------------------------
E. Integrity Management
    PHMSA continues to require integrity management programs that 
ensure operators are adequately identifying and addressing the greatest 
risks. Under integrity management, operators are required to conduct 
integrity assessments of gas transmission and hazardous liquid pipeline 
systems in high consequence areas and apply lessons learned across 
their entire system. Thanks to integrity management, gas transmission 
and hazardous liquid pipeline operators have identified and conducted 
over 90,700 repairs in high consequence areas between 2004 and 2017.
F. Research and Development
    PHMSA's Research and Development (R&D) program supports new 
technology to further improve pipeline safety. The R&D program sponsors 
research on projects that can provide near-term solutions to improve 
safety, reduce environmental impacts, and enhance the reliability of 
the Nation's pipeline transportation system.
    Since 2002, PHMSA has invested nearly $125 million dollars in 304 
R&D projects and, in the past six months, two new technologies for 
methane leak detection and one to prevent excavation damage threats 
have been commercialized. Since the program's inception, 31 patent 
applications and 31 new pipeline technologies have hit the market, 
including above-ground, radar-based pipeline mapping and a robotic 
nondestructive testing method for pipelines that cannot accommodate 
traditional in-line inspection tools.
    PHMSA's pipeline safety program also takes a far-reaching view with 
its Competitive Academic Agreement Program (CAAP), which funds academic 
research to provide tomorrow's pipeline safety workforce with an early 
opportunity to contribute safety solutions. The CAAP program, launched 
in 2013, helps validate proof of concept for theories and theses that 
can be developed and further investigated. The program also serves to 
expose the next generation of engineers to pipeline challenges and 
solutions. In September 2018, PHMSA awarded more than $3.8 million to 
11 universities via the CAAP.
                             iv. conclusion
    Safety remains the highest priority for the U.S. Department of 
Transportation and for PHMSA. The agency is continuing to work hard to 
publish the rules and reports that will close Congressional mandates, 
and is also committed to addressing safety matters on all fronts.
    As pipeline mileage across our country continues to grow, the need 
for strong pipeline safety standards and programs is ever more 
important.
    Thank you again for inviting me to today's hearing. I look forward 
to your questions.

    Mr. Lipinski. Thank you, Mr. Elliott.
    I now recognize Ms. Homendy.
    Ms. Homendy. Thank you. Good morning, Chairman Lipinski, 
Ranking Member Crawford, Chairman DeFazio, and members of the 
subcommittee. Thank you for inviting the National 
Transportation Safety Board to testify today.
    The NTSB is an independent Federal agency charged by 
Congress with investigating major transportation disasters, 
including pipelines. We determine the probable cause of 
accidents and issue safety recommendations aimed at preventing 
future tragedies and saving lives.
    Pipelines are one of the safest and most efficient modes of 
transportation, but when safety standards are inadequate or 
disregarded or when Federal or State agencies fail to conduct 
proper oversight, the consequences can be devastating.
    During this hearing, I will be asked about a number of NTSB 
investigations, so I want to take a moment to remind us why we 
are here. Lives were lost. Families will never be the same. So, 
on behalf of the NTSB, I want to once again extend our deepest 
condolences to those who lost loved ones or who have been 
impacted by pipeline tragedies.
    Now I want to thank each of you. Over the years, Congress 
has been a true partner in advancing many of the NTSB's safety 
recommendations. Working together, we have saved lives.
    In 1998, we investigated a gas pipeline explosion and fire 
in Virginia. A family was spending their first night in their 
new home. Tragically, the wife was killed, and the husband and 
both children were injured. We determined that had an excess 
flow valve been installed on the line the accident would never 
have occurred.
    The NTSB had been recommending the installation of excess 
flow valves for nearly 30 years. In 2006, this committee took 
action and mandated their installation on new single-family 
residential lines. In 2012, you expanded that requirement to 
multifamily residences and small commercial facilities. I am 
proud to say that in 2016 we closed that recommendation 
favorably, following PHMSA's issuance of the final rule.
    Now we turn our attention to closing 36 open NTSB safety 
recommendations, 3 of which are designated as ``open--
unacceptable action.'' Many of these are included in our ``most 
wanted list'' of transportation safety improvements. Some were 
addressed in the 2011 and 2016 acts but haven't been 
implemented. Yet tragedies continue to occur.
    Two significant NTSB recommendations urged the installation 
of automatic shutoff or remote control valves in high-
consequence areas and addressed repeated failures of pipeline 
operators to detect ruptures and leaks and take appropriate 
action.
    In 2010, a gas transmission pipeline ruptured and ignited 
in San Bruno, California. It took the operator 95 minutes to 
stop the flow of gas and severely hindered emergency response 
operations. Tragically, eight people were killed and many more 
were injured. Thirty-eight homes were destroyed; seventy others 
were damaged.
    That same year, a pipeline rupture occurred in Marshall, 
Michigan, and this committee investigated that accident. That 
rupture released nearly 1 million gallons of heavy crude oil in 
surrounding waterways and communities. It took the operators 17 
hours to identify the rupture and shut down the line.
    And in 2015 we investigated a release of 4,000 gallons of 
gasoline from a pipeline in Centreville, Virginia. The operator 
didn't detect the leak for 2 days--well after firefighters had 
contacted pipeline personnel, who assured them that there were 
no irregularities on the line.
    The fact is that most pipeline ruptures and leaks aren't 
detected by pipeline operators; they are detected by the public 
and emergency responders. Research that was mandated by 
Congress in 2011 shows that only 17 percent of releases are 
identified by control room operators.
    The NTSB has been studying the effects of delay in shutting 
down failed pipeline systems since 1970. We have issued 
recommendation after recommendation to address our concerns, 
and in 2011 Congress required their implementation. Yet they 
remain unaddressed.
    With respect to additional safety needs, briefly, PHMSA 
regulations require pipeline operators to accurately identify 
high-consequence areas, determine threats to their pipelines, 
continually evaluate those lines using appropriate inspection 
methods, and repair any defects identified. This is known as 
integrity management.
    We have investigated three accidents which raised 
significant concerns with how operators are implementing these 
programs. As a result, the NTSB has issued 28 recommendations 
to improve integrity management, 10 of which remain on our 
``most wanted list.''
    Thank you again for the opportunity to testify today. I am 
happy to answer any questions.
    [Ms. Homendy's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Hon. Jennifer Homendy, Member, National 
                      Transportation Safety Board
    Good morning Chairman Lipinski, Ranking Member Crawford, and 
Members of the Subcommittee. Thank you for inviting the National 
Transportation Safety Board (NTSB) to testify today.
    The NTSB is an independent federal agency charged by Congress with 
investigating every civil aviation accident in the United States and 
significant accidents and incidents in other modes of transportation--
railroad, highway, marine and pipeline. We determine the probable cause 
of accidents and other transportation events and issue safety 
recommendations aimed at preventing future accidents. In addition, we 
conduct special transportation safety studies and coordinate the 
resources of the federal government and other organizations to assist 
victims and their family members who have been impacted by major 
transportation disasters.
    Our Office of Railroad, Pipeline and Hazardous Materials 
Investigations investigates pipeline accidents involving the release of 
natural gas, hydrocarbon liquid, ammonia, or carbon dioxide in which 
there are fatalities or substantial property damage. Pipeline accident 
investigations focus on the cause of the release, the emergency 
response, and in the case of hydrocarbon pipelines, the actions taken 
to mitigate the spill. Based on these accident investigations, the NTSB 
issues safety recommendations to federal and state regulatory agencies, 
industry and safety standards organizations, pipeline operators, and 
emergency response organizations.
                  pipeline safety in the united states
    More than 2.5 million miles of pipelines that crisscross the 
nation, delivering important resources, such as natural gas, oil, and 
other hazardous liquids, to consumers. Pipelines are integral to our 
economy, providing the fuel that powers our homes and industries.\1\
---------------------------------------------------------------------------
    \1\ National Transportation Safety Board, 2019-2020 Most Wanted 
List: Ensure the Safe Shipment of Hazardous Materials--Pipeline.
---------------------------------------------------------------------------
    Pipelines are one of the safest and most efficient modes of 
transportation, but when their integrity is compromised, the 
consequences can be devastating, especially when safety standards are 
not observed or implemented.
    The NTSB has completed more than 120 investigations of hazardous 
liquid pipeline ruptures and natural gas pipeline explosions, since 
1967, which have demonstrated the potential for loss of life and 
property damage. Additionally, NTSB has eight open pipeline 
investigations, including Merrimack Valley, Massachusetts, Silver 
Spring, Maryland, and Dallas, Texas, in which lives were lost, homes 
destroyed, and communities severely affected.\2\
---------------------------------------------------------------------------
    \2\ See Appendix for all open pipeline investigations.
---------------------------------------------------------------------------
    In response to these accident investigations, the NTSB has issued 
more than 1,300 recommendations to federal, state, and local agencies, 
and industry. More than 80 percent of these recommendations have been 
closed favorably, meaning they have been adopted by their recipients, 
mandated by Congress, or implemented through federal agency action, 
resulting in significant improvements in pipeline safety.
    For example, in 1998, the NTSB investigated a natural gas pipeline 
explosion and fire in the South Riding community of Loudon County, 
Virginia. A family consisting of a husband and wife and their two 
children were spending their first night in their new home at the time 
of the explosion. As a result of the accident, the wife was killed, the 
husband was seriously injured, and the two children received minor 
injuries. The NTSB found that had an excess flow valve been installed 
on the line, the accident would never have occurred. Excess flow valves 
automatically close and restrict gas flow when there is an excess flow 
of gas in the pipeline. The NTSB had been recommending the installation 
of excess flow valves for nearly 30 years. In 2006, Congress enacted 
the Pipeline Inspection, Enforcement, and Protection Act which required 
the installation of excess flow valves on all new and replaced single-
family residential service lines.\3\ In 2012, Congress enacted the 
Pipeline Safety, Regulatory Certainty, and Job Creation Act of 2011 
which expanded that requirement to multi-family residences--including 
apartment buildings--and small commercial facilities.\4\ I am proud to 
say that the NTSB closed the South Riding recommendation on December 5, 
2016, following issuance of a final rule.
---------------------------------------------------------------------------
    \3\ Public Law 109-468
    \4\ Public Law 112-90
---------------------------------------------------------------------------
    However, there are provisions in current law related to NTSB 
pipeline safety recommendations that have not been implemented, such as 
automatic or remote-control shutoff valves, and other recommendations 
that have not been acted upon. We continue to see accidents and 
incidents that remind us of the need to be ever-vigilant in improving 
safety.
Merrimack Valley, Massachusetts
    On September 13, 2018, a series of explosions and fires occurred 
throughout the northeast region of the Merrimack Valley after high-
pressure natural gas was released into a low-pressure distribution 
system, resulting in 1 fatality and injuring at least 21 individuals, 
including 2 firefighters. Seven other firefighters received minor 
injuries. The distribution system was owned and operated by Columbia 
Gas of Massachusetts, a subsidiary of NiSource, Inc. The system 
overpressure damaged 131 structures, including at least 5 homes that 
were destroyed in the city of Lawrence and the towns of Andover and 
North Andover. Most of the damage was a result of structure fires 
ignited by gas-fueled appliances.
    While this investigation is ongoing, NTSB has issued five interim 
safety recommendations, including four which are classified as 
``urgent.'' We only issue urgent recommendations when we determine that 
the course of action requires immediate attention to avoid imminent 
loss due to a similar accident.
    One recommendation calls upon the Commonwealth of Massachusetts to 
eliminate the existing professional licensure exemptions and require 
the seal of a professional engineer (PE) on all public utility 
engineering drawings.\5\ The NTSB believes that it is critical that an 
engineer with appropriate qualifications and experience review 
engineering plans for a gas company, if not develop them. 
Massachusetts' exemption for the requirement of PE licensure to perform 
``industrial'' and public utility work forecloses an opportunity to 
detect this design oversight. The seal of a PE should be required on 
all public utility engineering plans to reduce the likelihood of an 
accident. On December 31, 2018, Gov. Charlie Baker signed into law 
legislation requiring such; the Massachusetts Department of Public 
Utility is in the process of promulgating regulations.\6\
---------------------------------------------------------------------------
    \5\ National Transportation Safety Board, Safety Recommendation P-
18-005.
    \6\ An Act Further Providing for the Safety of the Commonwealth's 
Natural Gas Infrastructure. Mass. Gen. Laws ch. 339 (2018).
---------------------------------------------------------------------------
    The four urgent safety recommendations were issued to NiSource: (1) 
revise the engineering and constructability review process to include 
all internal departments and require plans to be sealed by a PE prior 
to construction; (2) ensure that all natural gas systems records are 
complete and readily available; (3) incorporate risk assessments into 
project development; and, (4) while any modifications are being made to 
gas mains, actively monitor pressures and require personnel to be in 
place to immediately respond to any abnormal changes in the pipeline 
system. As this investigation progresses or following the Board's 
adoption of the final report, the NTSB may issue additional safety 
recommendations to improve pipeline safety and prevent occurrence of a 
similar tragedy.\7\
---------------------------------------------------------------------------
    \7\ National Transportation Safety Board, Safety Recommendations: 
P-18-006, P-18-007, P-18-008, P-18-009.
---------------------------------------------------------------------------
         most wanted list of transportation safety improvements
    On February 4, 2019, we announced our Most Wanted List of 
Transportation Safety Improvements for 2019-2020.\8\ This list 
identifies 10 focus areas for transportation safety improvements based 
on safety issues identified through our investigations. Many of the 
issues on the Most Wanted List address multimodal challenges for 
improving safety, including alcohol and other drug impairment and 
fatigue. One issue area is specific to pipeline safety: Ensuring the 
Safe Shipment of Hazardous Materials.
---------------------------------------------------------------------------
    \8\ National Transportation Safety Board, 2019-2020 Most Wanted 
List.
---------------------------------------------------------------------------
    There are currently 36 open pipeline safety recommendations, 32 of 
which are on our Most Wanted List: 24 to the Pipeline and Hazardous 
Material Safety Administration (PHMSA), 9 to industry, and 3 to state 
regulators.\9\ Three of the Most Wanted recommendations to PHMSA are 
designated as ``Open--Unacceptable Response.'' While the NTSB 
appreciates progress made by PHMSA on many of our recommendations, they 
cannot lose focus and must see all safety recommendations through to 
completion.
---------------------------------------------------------------------------
    \9\ See Appendix for all open pipeline safety recommendations.
---------------------------------------------------------------------------
Automatic Shutoff and Remote Control Valves
    One significant NTSB recommendation urges the use of automatic 
shutoff or remote control valves in high consequence areas (HCAs) based 
on an investigation in San Bruno, California.\10\
---------------------------------------------------------------------------
    \10\ HCAs are defined by federal regulation and are areas where a 
release could have the most significant adverse consequences, including 
populated areas, areas with a number of structures, drinking water 
sources, and unusually sensitive areas.
---------------------------------------------------------------------------
    On September 9, 2010, a 30-inch-diameter segment of an intrastate 
natural gas transmission pipeline owned and operated by the Pacific
Gas and Electric Company (PG&E) ruptured in a residential area in San 
Bruno. In the 95 minutes it took PG&E to stop the flow of natural gas, 
an estimated 47.6 million standard cubic feet of gas was released. The 
released natural gas ignited, resulting in a fire that destroyed 38 
homes and damaged 70. Eight people were killed, many were injured, and 
many more were evacuated from the area.
    The NTSB found that the 95 minutes it took PG&E to stop the flow of 
gas was excessively long and contributed to the extent and severity of 
property damage and increased the life-threatening risks to the 
residents and emergency responders. Use of automatic shutoff or remote 
control valves would have significantly reduced the amount of time 
taken to stop the flow of gas and to isolate the rupture.
    The NTSB recommended that PHMSA amend Title 49 Code of Federal 
Regulations 192.935(c) to directly require that automatic shutoff or 
remote control valves in high consequence areas and in class 3 and 4 
locations be installed and spaced at intervals that consider the 
factors listed in that regulation.\11\ Current PHMSA regulations leave 
the decision of whether to install an automatic shutoff or remote 
control valve up to operators, based on their evaluation of certain 
factors. The NTSB believes the requirement should be mandatory.
---------------------------------------------------------------------------
    \11\ National Transportation Safety Board, Safety Recommendations: 
P-11-011
---------------------------------------------------------------------------
    This was not the first time that the NTSB recommended the 
installation of automatic shutoff or remote control valves. Several 
near identical recommendations were issued in the 1980s, 1990s, and 
early 2000s to the Office of Pipeline Safety of the Department of 
Transportation and the Research and Special Programs Administration, 
the predecessors of PHMSA, and the industry that were closed and 
designated as ``Unacceptable Action'' because of their failure to 
implement the recommendation.
    Three months after NTSB issued its San Bruno recommendations, 
Congress passed the Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011 (2011 Act) requiring the use of automatic shutoff 
or remote control valves within two years. PHMSA has initiated but not 
completed the rulemaking process. PHMSA's last communication with NTSB 
stated: ``Publication of the proposed rule was initially expected to 
publish in spring 2017. Like many other issues before us, this is part 
of an ongoing regulatory review pursuant to the executive order issued 
by the President.''
    There are additional open recommendations from the San Bruno 
investigation to PHMSA that Congress addressed in the 2011 Act, 
including requirement (1) all operators of natural gas transmission and 
distribution pipelines equip their systems with tools to identify and 
pinpoint the location of leaks; (2) all gas transmission pipelines 
constructed before 1970 be subjected to a hydrostatic pressure testing; 
and (3) any manufacturing- and construction-related defects be tested 
by a postconstruction hydrostatic pressure test of at least 1.25 times 
the maximum allowable operating pressure.\12\ These recommendations 
remain on the NTSB's Most Wanted List of Transportation Safety 
Improvements and should be implemented by PHMSA expeditiously.
---------------------------------------------------------------------------
    \12\ National Transportation Safety Board, Safety Recommendations: 
P-11-010, P-11-014, P-11-015.
---------------------------------------------------------------------------
Leak Detection
    The NTSB has investigated a number of accidents where operators 
failed to detect a leak, significantly impacting response time. In San 
Bruno, control center staff had difficulties determining that there had 
been a pipeline break and quickly pinpointing its location. 
Accordingly, the NTSB recommended that PHMSA require that all operators 
of natural gas transmission and distribution pipelines equip their 
supervisory control and data acquisition systems with tools to assist 
in recognizing and pinpointing the location of leaks, including line 
breaks. The recommendation remains on the NTSB's 2019-2020 Most Wanted 
List of Transportation Safety Improvements.
    The NTSB's investigation of one of the largest inland oil spill in 
U.S. history found deficiencies in the operator's detection of a leak 
which led to significant delays in stopping the flow of crude oil. On 
July 25, 2010, a segment of a 30-inch-diameter pipeline, owned and 
operated by Enbridge Incorporated (Enbridge) ruptured in a wetland in 
Marshall, Michigan. The rupture was not discovered or addressed until 
Enbridge was notified by an outside caller more than 17 hours later. 
The oil saturated the surrounding wetlands and flowed into the Talmadge 
Creek and the Kalamazoo River; the total release was estimated to be 
843,444 gallons of crude oil. Local residents self-evacuated from their 
houses, and the environment was negatively affected. Costs exceeded 
$1.2 billion. About 320 people reported symptoms consistent with crude 
oil exposure. Fortunately, there were no fatalities.
    Similarly, the NTSB's investigation of a pipeline release near 
Centreville, Virginia, on September 21, 2015, found significant 
deficiencies in the ability of Colonial Pipeline Company (Colonial) to 
detect a leak in their large diameter pipeline that transports gasoline 
and other refined petroleum liquids. The incident was initially 
reported by an employee of a restaurant in Centreville who called the 
Fairfax County 911 Center to report a gasoline odor. Colonial confirmed 
the pipeline leak two days later, after their inspectors and control 
room center personnel reported that there were no abnormalities on the 
pipeline and that all line pressures were normal.
    The leak occurred in an HCA. Fortunately, no fatalities or injuries 
resulted from the release. Colonial estimated that 4,000 gallons of 
gasoline were released from the pipe; flammable vapor in storm drains 
was as high as 100 percent of the lower explosive limit (potentially 
explosive in an ignition source is present).
    The Pipeline Safety, Regulatory Certainty, and Job Creation Act of 
2011 included measures to improve leak detection capabilities; PHMSA 
has not yet implemented those measures. Leak detection remains on the 
NTSB's Most Wanted List for Transportation Safety Improvements. The 
NTSB recommendation stemming from the Colonial Pipeline incident is 
designated as ``Open--Unacceptable Response.'' \13\
---------------------------------------------------------------------------
    \13\ National Transportation Safety Board, Safety Recommendation P-
17-002.
---------------------------------------------------------------------------
Integrity Management Programs
    In the last eight years, the NTSB has completed three major gas 
transmission pipeline accident investigations in which deficiencies 
with the operators' integrity management (IM) programs and PHMSA 
oversight were identified as a concern.\14\ These three accidents--
located in Palm City, Florida; San Bruno, California; and Sissonville, 
West Virginia--resulted in 8 fatalities, more than 50 injuries, and 41 
homes destroyed, with many more damaged. As we have learned from these 
investigations, ensuring adequate IM programs and oversight of 
pipelines transporting natural gas and hazardous liquids remains 
critically important.
---------------------------------------------------------------------------
    \14\ National Transportation Safety Board, Columbia Gas 
Transmission Corporation Pipeline Rupture Sissonville, West Virginia on 
December 11, 2012, Rpt. No. NTSB/PAR-14/01 (February 19, 2014); Rupture 
of Florida Gas Transmission Pipeline and Release of Natural Gas Near 
Palm City, Florida, Accident Brief No. NTSB/PAB-13/01 (August 13, 
2013); Pacific Gas and Electric Company Natural Gas Transmission 
Pipeline Rupture and Fire San Bruno, California on September 9, 2010, 
Rpt. No. NTSB/PAR-11/01 (August 30, 2011).
---------------------------------------------------------------------------
    Since 2004, PHMSA has required the operators of these pipelines to 
develop and implement IM programs to ensure the integrity of their 
pipelines in HCAs to reduce the risk of injuries and property damage 
from pipeline failures.\15\ An operator's IM program is a management 
system designed and implemented to ensure the operator's pipeline 
system is safe and reliable. It consists of multiple components, 
including procedures and processes for identifying HCAs, determining 
likely threats to the pipeline within the HCA, evaluating the physical 
integrity of the pipe within the HCA, and repairing or remediating any 
pipeline defects found. These procedures and processes are complex and 
interconnected. Effective implementation of an IM program relies on 
continual evaluation and data integration. The IM program is an ongoing 
program that PHMSA and state regulatory agencies periodically inspect 
to ensure operator compliance with regulatory requirements.
---------------------------------------------------------------------------
    \15\ Title 49 Code of Federal Regulations (CFR) Part 192, Subpart 
O.
---------------------------------------------------------------------------
    In January 2015, the NTSB's Safety Research Division conducted a 
safety study using the results from the completed investigations and 
additional research to identify weaknesses in the implementation of gas 
transmission pipeline IM programs in HCAs. The study, Integrity 
Management of Gas Transmission Pipelines in High Consequence Areas, 
found that, although PHMSA's gas IM requirements have kept the rate of 
corrosion failures and material failures of pipe or welds low, no 
evidence exists to show that the overall occurrence of gas transmission 
pipeline incidents in HCA pipelines has declined.\16\ Rather, the study 
identified areas where improvements need to be made to further enhance 
the safety of gas transmission pipelines in HCAs.
---------------------------------------------------------------------------
    \16\ National Transportation Safety Board, Integrity Management of 
Gas Transmission Pipelines in High Consequence Areas, No. NTSB/SS-15/01 
(January 27, 2015).
---------------------------------------------------------------------------
    We recognize that IM programs are complex and require expert 
knowledge and integration of multiple technical disciplines including 
engineering, material science, geographic information systems, data 
management, probability and statistics, and risk management. This 
complexity requires pipeline operator personnel and federal and state 
pipeline inspectors to have a high level of practical knowledge and 
skill to adequately perform their functions. This complexity can make 
IM program development and implementation, and the evaluation of 
operators' compliance with IM program requirements, difficult. The 
study illustrated the need to expand and improve PHMSA resources in 
guiding both operators and federal and state inspectors.
    The effectiveness of an IM program depends on many factors, 
including how well threats are identified and risks are estimated. This 
information guides the selection of integrity assessment methods that 
discover pipeline system defects that may need remediation. The study 
found that aspects of the operators' threat identification and risk 
assessment processes require improvement. Further, the study found that 
of the four different integrity assessment methods (pressure test, 
direct assessment, in-line inspection, and other techniques), in-line 
inspection yields the highest per-mile discovery of pipe anomalies, and 
the use of direct assessment as the sole integrity assessment method 
has numerous limitations. Compared to their interstate counterparts, 
intrastate pipeline operators rely more on direct assessment and less 
on in-line inspection.
    As a result of the safety study, the NTSB issued 28 new 
recommendations. Of these, 22 were issued to PHMSA and 1 previous 
recommendation issued to PHMSA was reiterated.\17\ These include 
improvements to the training of state inspectors, the National Pipeline 
Mapping System, and the current process for identifying HCAs; 
requirements for in-line inspection of natural gas pipelines; and, 
eliminating the use of direct assessment as the sole integrity 
assessment method for gas transmission pipelines.
---------------------------------------------------------------------------
    \17\ National Transportation Safety Board, Safety Recommendations: 
P-15-001 through -028, and P-11-007.
---------------------------------------------------------------------------
    Nine of the recommendations to PHMSA resulting from the safety 
study are classified as closed with an acceptable action or 
reconsidered. The remaining 13 are open; 10 of them are listed on the 
NTSB's Most Wanted List of Transportation Safety Improvements. The 
remaining six recommendations, issued to industry, are all classified 
as ``Closed--Acceptable Action.''
        ``open--unacceptable response'' recommendations to phmsa
    The NTSB would like to highlight three recommendations to PHMSA 
stemming from our investigations in Marshall, Michigan, Sissonville, 
West Virginia, and Centreville, Virginia that are designated as 
``Open--Unacceptable Response'': P-12-3, P-14-1, and P-17-2. All three 
of these recommendations are included in the NTSB's Most Wanted List of 
Transportation Safety Improvements.
    P-12-3 recommended PHMSA revise existing federal regulations to 
clearly state: (1) when an engineering assessment of crack defects, 
including environmentally assisted cracks, must be performed; (2) the 
acceptable methods for performing these engineering assessments, 
including the assessment of cracks coinciding with corrosion with a 
safety factor that considers the uncertainties associated with sizing 
of crack defects; (3) criteria for determining when a probable crack 
defect in a pipeline segment must be excavated and time limits for 
completing those excavations; (4) pressure restriction limits for crack 
defects that are not excavated by the required date; and (5) acceptable 
methods for determining crack growth for any cracks allowed to remain 
in the pipe, including growth caused by fatigue, corrosion fatigue, or 
stress corrosion cracking as applicable.\18\
---------------------------------------------------------------------------
    \18\ National Transportation Safety Board, Safety Recommendation P-
12-003.
---------------------------------------------------------------------------
    This recommendation was issued following an investigation of the 
Enbridge pipeline rupture in Marshall, Michigan, which found, that five 
years prior to the rupture, in 2005, Enbridge identified crack defects 
during an in-line inspection of the pipeline ranging up to 51.6 inches 
that were left unrepaired.
    While PHMSA published a notice of proposed rulemaking (NPRM) in 
October 2015 to address our recommendation, the changes proposed to 
requirements for scheduling crack defect remediation only addressed 
indications of significant stress corrosion cracking (SCC). We 
reiterated that the recommendation refers to all forms of crack 
defects, not just SCC. By only addressing crack indications identified 
as SCC colonies, the proposed regulation does not limit or otherwise 
describe requirements for remediating other types of crack indications, 
including the indication associated with the crack that led to the 
rupture in Marshall, Michigan.
    P-14-1 recommended PHMSA revise existing federal regulations to add 
principal arterial roadways to the list of ``identified sites'' that 
establish an HCA.\19\
---------------------------------------------------------------------------
    \19\ National Transportation Safety Board, Safety Recommendation P-
14-001.
---------------------------------------------------------------------------
    This recommendation was issued following an investigation into an 
explosion and subsequent fire from a 20-inch natural gas transmission 
pipeline in a sparsely populated area along Interstate 77 near 
Sissonville, West Virginia on December 11, 2012. About 76 million cubic 
feet of natural gas was released and burned. While there were no 
fatalities or serious injuries, three homes were destroyed. The Board 
determined the probable cause of the pipeline rupture was (1) external 
corrosion of the pipe wall due to deteriorated coating and ineffective 
cathodic protection and (2) the failure to detect the corrosion because 
the pipeline was not inspected or tested after 1988.
    While PHMSA published an NPRM in April 2016 proposing an alternate 
approach by creating a ``moderate consequence area (MCA)'' that 
included a highway-size threshold. We disagreed with this proposal 
because it limited highway coverage to only four-lane configurations, 
which would exclude principal arterial roadways wider than four lanes. 
Although wider divided highways most likely coincide with the existing 
HCA criteria, we are concerned that some wider highways may not. While 
PHMSA has stated they are considering revising the definition, no 
formal action has been completed.
    P-17-2 recommended PHMSA require operators to either (a) repair all 
excavated dent defects, or (b) install a local leak detection system at 
each location where a dent is not repaired, continuously monitor for 
hydrocarbons, and promptly take corrective action to stop a detected 
leak.\20\
---------------------------------------------------------------------------
    \20\ National Transportation Safety Board, Safety Recommendation P-
17-002.
---------------------------------------------------------------------------
    This recommendation was issued following the NTSB's investigation 
into a release of the 2015 Colonial Pipeline release of about 4,000 
gallons of gasoline in an HCA near Centreville, Virginia. As stated 
earlier, the leak was not identified by the pipeline operator, Colonial 
Pipeline Company, for two days after initial report of gasoline odor. 
The Board determined the probable cause of the release of gasoline from 
the pipeline was a through-wall corrosion fatigue crack that developed 
at a dent in the pipeline due to residual and operational stress and 
exposure to the underground environment. Contributing to the accident 
were PHMSA regulations that allowed the dent to remain in the pipeline.
    PHMSA regulations do not specifically require dents having depths 
less than six percent of the pipeline diameter to be repaired unless 
there is an indication of metal loss, cracking, or a stress riser, or 
unless the dent affects pipe curvature at a girth weld or a 
longitudinal seam weld. The dent at the leak location was about 1.6 
percent of the outer pipe diameter and the upstream dent was 1.57 
percent of the outer pipe diameter. Colonial did not repair either dent 
because they did not meet PHMSA's repair criteria. During the 
investigation, Colonial reported to the NTSB that pipelines in Pelham, 
Alabama, Felixville, Louisiana, and Simpsonville, South Carolina also 
developed through wall-cracks in dented pipe. The depths of these dents 
were less than two percent of the pipe outer diameter.
    The NTSB recommended that PHMSA require operators to either (a) 
repair all excavated dent defects, or (b) install a local leak 
detection system at each location where a dent is not repaired, 
continuously monitor for hydrocarbons, and promptly take corrective 
action to stop a detected leak. The recommendation remains ``Open--
Unacceptable Response.''
    PHMSA has communicated that compliance with current regulations, 
improved operator guidance, focused inspections, and an advisory 
bulletin would address the safety risks of dent defects and would be 
more cost- and safety-efficient than requiring leak-detection systems. 
However, existing regulations, guidance, and bulletins are inadequate. 
Pipeline operators should be required to act on all excavated dent 
defects, but PHMSA proposed wording gives pipeline operators a choice 
about whether and how to act on defects. Installing a leak-detection 
system at each location where a dent is not repaired should be the 
pipeline operators' only alternative when not repairing an excavated 
dent defect.
                               conclusion
    Over the last 52 years, our investigations have found that safe 
operation of pipelines is a shared responsibility among operators, 
government oversight agencies, and local communities.
    Pipelines remain one of the safest and most efficient means of 
transporting vital commodities used to power homes, businesses, and 
vehicles in all modes of transportation. However, the consequences are 
tragic when there is insufficient safety planning and oversight. To 
that end, the NTSB urges expeditious implementation of all 
unimplemented safety recommendations issued to operators and government 
agencies--especially PHMSA.
    We recognize the progress that has been made; yet, there will 
always be room for improvement. The NTSB stands ready to work with the 
Subcommittee to continue improving the safety of our nation's pipeline 
systems.
    Thank you again for the opportunity to testify today. I am happy to 
answer your questions.

 Appendix to NTSB Board Member Homendy's Testimony Concerning Pipeline 
                                 Safety

                         current investigations
Silver Spring, Maryland
    On August 10, 2016, a Washington Gas natural gas pipeline ruptured, 
exploded, and destroyed a four-story apartment building in Silver 
Spring, Maryland, resulting in seven fatalities and injuries to 65 
civilians and three emergency responders. Our investigation is ongoing 
and is looking into operations, survival factors, and regulatory 
oversight. The Board is scheduled to meet on April 23 to determine the 
probable cause of the rupture and explosion and issue any 
recommendations we believe will improve safety and prevent future 
tragedies, fatalities, and injuries.
Tekamah, Nebraska
    On October 17, 2016, a Magellan pipeline ruptured and released 
7,000 barrels of anhydrous ammonia, resulting in one fatality and 
evacuation of the area.
Helena, Alabama
    On October 31, 2016, a Colonial Pipeline gas pipeline ruptured and 
caused a fire after being struck by a track hoe during maintenance 
operations, resulting in one fatality and four injuries.
Firestone, Colorado
    On April 17, 2017, a house exploded, resulting in two fatalities 
and two injuries. The uncapped end of an abandoned but still connected 
flow line from a natural gas well owned and operated by Anadarko 
Petroleum Company was discovered near the home's foundation.
Minneapolis, Minnesota
    On August 2, 2017, a building at the Minnehaha Academy North Campus 
was destroyed by a natural gas explosion, resulting in two fatalities 
and nine injuries. At the time of the explosion, two workers were 
installing new piping to support the relocation of gas meters from the 
basement of the building to the outside. Two new meters mounted on a 
wall were ready for the new piping to be connected. While workers were 
removing the existing piping, a full-flow natural gas line at pressure 
was opened. The workers were unable to mitigate the release of the gas 
and evacuated the area.
    A school maintenance worker heard and smelled the natural gas 
release and went to its source in the basement meter room where the 
workers had been. As he exited the basement, he made an announcement 
over his hand-held radio that there was gas in the building and to 
evacuate immediately. As he made his radio announcement, he ran up the 
stairs and searched for occupants. Less than one minute later, the 
building exploded.
Dallas, Texas
    On February 23, 2018, a house exploded, resulting in the death of a 
12-year-old juvenile and injuries to four family members, all of whom 
were asleep at the time of the explosion. In the 48 hours prior to the 
explosion, work crews from Atmos Energy were in the neighborhood 
investigating gas-related fires and two residences. More than 300 
residences were subsequently evacuated due to the nature and number of 
natural gas pipeline leaks discovered in the residential neighborhood.
Merrimack Valley, Massachusetts
    On September 13, 2018, a series of explosions and fires occurred 
throughout the northeast region of the Merrimack Valley after high-
pressure natural gas was released into a low-pressure distribution 
system, resulting in one fatality and injuring at least 21 individuals, 
including two firefighters. Seven other firefighters received minor 
injuries. The distribution system was owned and operated by Columbia 
Gas of Massachusetts, a subsidiary of NiSource, Inc. The system 
overpressure damaged 131 structures, including at least five homes that 
were destroyed in the city of Lawrence and the towns of Andover and 
North Andover. Most of the damage was a result of structure fires 
ignited by gas-fueled appliances.
San Francisco, California
    On February 6, a Pacific Gas & Electric Corporation (PG&E) natural 
gas pipeline ruptured and caused a fire after being struck by a third-
party contractor's excavation equipment, while installing fiberoptic 
conduit. Fortunately, there were no injuries or fatalities; however, 
the natural gas service to 328 customers was curtailed temporarily, and 
about 100 people were evacuated. The NTSB's investigative activity is 
focused on the third-party contractor's preparedness and qualifications 
to perform the excavation work and the execution of PG&E and local fire 
and police department emergency response plans. Investigators are also 
reviewing and assessing applicable rules and standards of oversight 
agencies for effectiveness.
    All of these investigations are ongoing, and the NTSB has not 
determined the probable causes, issued findings, or drawn any 
conclusions.

         Open Pipeline Recommendations (as of March 26th, 2019)
------------------------------------------------------------------------
                                           Most
   Number    Date Issued     Overall      Wanted           Safety
                             Status        List        Recommendation
------------------------------------------------------------------------
   P-10-004      1/31/11  Open-         X           TO THE PACIFIC GAS
                          Acceptable                 AND ELECTRIC
                           Response                  COMPANY: If you are
                                                     unable to comply
                                                     with Safety
                                                     Recommendations P-
                                                     10-2 (Urgent) and P-
                                                     10-3 (Urgent) to
                                                     accurately
                                                     determine the
                                                     maximum allowable
                                                     operating pressure
                                                     of Pacific Gas and
                                                     Electric Company
                                                     natural gas
                                                     transmission lines
                                                     in class 3 and
                                                     class 4 locations
                                                     and class 1 and
                                                     class 2 high
                                                     consequence areas
                                                     that have not had a
                                                     maximum allowable
                                                     operating pressure
                                                     established through
                                                     prior hydrostatic
                                                     testing, determine
                                                     the maximum
                                                     allowable operating
                                                     pressure with a
                                                     spike test followed
                                                     by a hydrostatic
                                                     pressure test.
------------------------------------------------------------------------
   P-10-006      1/31/11  Open-         X           TO THE CALIFORNIA
                          Acceptable                 PUBLIC UTILITIES
                           Response                  COMMISSION: If such
                                                     a document and
                                                     records search
                                                     cannot be
                                                     satisfactorily
                                                     completed, provide
                                                     oversight to any
                                                     spike and
                                                     hydrostatic tests
                                                     that Pacific Gas
                                                     and Electric
                                                     Company is required
                                                     to perform
                                                     according to Safety
                                                     Recommendation (P-
                                                     10-4).
------------------------------------------------------------------------
   P-11-009      9/26/11  Open-         ..........  To PHMSA: Require
                          Acceptable                 operators of
                           Response                  natural gas
                                                     transmission and
                                                     distribution
                                                     pipelines and
                                                     hazardous liquid
                                                     pipelines to ensure
                                                     that their control
                                                     room operators
                                                     immediately and
                                                     directly notify the
                                                     911 emergency call
                                                     center(s) for the
                                                     communities and
                                                     jurisdictions in
                                                     which those
                                                     pipelines are
                                                     located when a
                                                     possible rupture of
                                                     any pipeline is
                                                     indicated.
------------------------------------------------------------------------
   P-11-010      9/26/11  Open-         X           To PHMSA: Require
                          Acceptable                 that all operators
                           Response                  of natural gas
                                                     transmission and
                                                     distribution
                                                     pipelines equip
                                                     their supervisory
                                                     control and data
                                                     acquisition systems
                                                     with tools to
                                                     assist in
                                                     recognizing and
                                                     pinpointing the
                                                     location of leaks,
                                                     including line
                                                     breaks; such tools
                                                     could include a
                                                     real-time leak
                                                     detection system
                                                     and appropriately
                                                     spaced flow and
                                                     pressure
                                                     transmitters along
                                                     covered
                                                     transmission lines.
------------------------------------------------------------------------
   P-11-011      9/26/11  Open-         X           To PHMSA: Amend
                          Acceptable                 Title 49 Code of
                           Response                  Federal Regulations
                                                     192.935(c) to
                                                     directly require
                                                     that automatic
                                                     shutoff valves or
                                                     remote control
                                                     valves in high
                                                     consequence areas
                                                     and in class 3 and
                                                     4 locations be
                                                     installed and
                                                     spaced at intervals
                                                     that consider the
                                                     factors listed in
                                                     that regulation.
------------------------------------------------------------------------
   P-11-014      9/26/11  Open-         X           To PHMSA: Amend
                          Acceptable                 Title 49 Code of
                           Response                  Federal Regulations
                                                     192.619 to delete
                                                     the grandfather
                                                     clause and require
                                                     that all gas
                                                     transmission
                                                     pipelines
                                                     constructed before
                                                     1970 be subjected
                                                     to a hydrostatic
                                                     pressure test that
                                                     incorporates a
                                                     spike test.
------------------------------------------------------------------------
   P-11-015      9/26/11  Open-         X           To PHMSA: Amend
                          Acceptable                 Title 49 Code of
                           Response                  Federal Regulations
                                                     Part 192 of the
                                                     Federal pipeline
                                                     safety regulations
                                                     so that
                                                     manufacturing- and
                                                     construction-
                                                     related defects can
                                                     only be considered
                                                     stable if a gas
                                                     pipeline has been
                                                     subjected to a
                                                     postconstruction
                                                     hydrostatic
                                                     pressure test of at
                                                     least 1.25 times
                                                     the maximum
                                                     allowable operating
                                                     pressure.
------------------------------------------------------------------------
   P-11-023      9/26/11  Open-         X           TO THE CALIFORNIA
                          Acceptable                 PUBLIC UTILITIES
                           Response                  COMMISSION: Require
                                                     the Pacific Gas and
                                                     Electric Company to
                                                     correct all
                                                     deficiencies
                                                     identified as a
                                                     result of the San
                                                     Bruno, California,
                                                     accident
                                                     investigation, as
                                                     well as any
                                                     additional
                                                     deficiencies
                                                     identified through
                                                     the comprehensive
                                                     audit recommended
                                                     in Safety
                                                     Recommendation P-11-
                                                     22, and verify that
                                                     all corrective
                                                     actions are
                                                     completed.
------------------------------------------------------------------------
   P-12-003      7/25/12  Open-         X           To PHMSA: Revise
                          Unacceptable               Title 49 Code of
                           Response                  Federal Regulations
                                                     195.452 to clearly
                                                     state (1) when an
                                                     engineering
                                                     assessment of crack
                                                     defects, including
                                                     environmentally
                                                     assisted cracks,
                                                     must be performed;
                                                     (2) the acceptable
                                                     methods for
                                                     performing these
                                                     engineering
                                                     assessments,
                                                     including the
                                                     assessment of
                                                     cracks coinciding
                                                     with corrosion with
                                                     a safety factor
                                                     that considers the
                                                     uncertainties
                                                     associated with
                                                     sizing of crack
                                                     defects; (3)
                                                     criteria for
                                                     determining when a
                                                     probable crack
                                                     defect in a
                                                     pipeline segment
                                                     must be excavated
                                                     and time limits for
                                                     completing those
                                                     excavations; (4)
                                                     pressure
                                                     restriction limits
                                                     for crack defects
                                                     that are not
                                                     excavated by the
                                                     required date; and
                                                     (5) acceptable
                                                     methods for
                                                     determining crack
                                                     growth for any
                                                     cracks allowed to
                                                     remain in the pipe,
                                                     including growth
                                                     caused by fatigue,
                                                     corrosion fatigue,
                                                     or stress corrosion
                                                     cracking as
                                                     applicable.
------------------------------------------------------------------------
   P-12-004      7/25/12  Open-         X           To PHMSA: Revise
                          Acceptable                 Title 49 Code of
                           Response                  Federal Regulations
                                                     195.452(h)(2), the
                                                     ``discovery of
                                                     condition,'' to
                                                     require, in cases
                                                     where a
                                                     determination about
                                                     pipeline threats
                                                     has not been
                                                     obtained within 180
                                                     days following the
                                                     date of inspection,
                                                     that pipeline
                                                     operators notify
                                                     the Pipeline and
                                                     Hazardous Materials
                                                     Safety
                                                     Administration and
                                                     provide an expected
                                                     date when adequate
                                                     information will
                                                     become available.
------------------------------------------------------------------------
   P-14-001       3/5/14  Open-         X           To PHMSA: Revise
                          Unacceptable               Title 49 Code of
                           Response                  Federal Regulations
                                                     Section 903,
                                                     Subpart O, Gas
                                                     Transmission
                                                     Pipeline Integrity
                                                     Management, to add
                                                     principal arterial
                                                     roadways including
                                                     interstates, other
                                                     freeways and
                                                     expressways, and
                                                     other principal
                                                     arterial roadways
                                                     as defined in the
                                                     Federal Highway
                                                     Administration's
                                                     Highway Functional
                                                     Classification
                                                     Concepts, Criteria
                                                     and Procedures to
                                                     the list of
                                                     ``identified
                                                     sites'' that
                                                     establish a high
                                                     consequence area.
------------------------------------------------------------------------
   P-15-004      2/10/15  Open-         X           To PHMSA: Increase
                          Acceptable                 the positional
                           Response                  accuracy of
                                                     pipeline
                                                     centerlines and
                                                     pipeline attribute
                                                     details relevant to
                                                     safety in the
                                                     National Pipeline
                                                     Mapping System.
------------------------------------------------------------------------
   P-15-005      2/10/15  Open-         X           To PHMSA: Revise the
                          Acceptable                 submission
                           Response                  requirement to
                                                     include high
                                                     consequence area
                                                     identification as
                                                     an attribute data
                                                     element to the
                                                     National Pipeline
                                                     Mapping System.
------------------------------------------------------------------------
   P-15-010      2/10/15  Open-         X           To PHMSA: Update
                          Acceptable                 guidance for gas
                           Response                  transmission
                                                     pipeline operators
                                                     and inspectors on
                                                     the evaluation of
                                                     interactive
                                                     threats. This
                                                     guidance should
                                                     list all threat
                                                     interactions that
                                                     must be evaluated
                                                     and acceptable
                                                     methods to be used.
------------------------------------------------------------------------
   P-15-011      2/10/15  Open-         X           To PHMSA: Develop
                          Acceptable                 and implement
                           Response                  specific risk
                                                     assessment training
                                                     for inspectors in
                                                     verifying the
                                                     technical validity
                                                     of risk assessments
                                                     that operators use.
------------------------------------------------------------------------
   P-15-012      2/10/15  Open-         ..........  To PHMSA: Evaluate
                          Acceptable                 the safety benefits
                           Response                  of the four risk
                                                     assessment
                                                     approaches
                                                     currently allowed
                                                     by the gas
                                                     integrity
                                                     management
                                                     regulations;
                                                     determine whether
                                                     they produce a
                                                     comparable safety
                                                     benefit; and
                                                     disseminate the
                                                     results of your
                                                     evaluation to the
                                                     pipeline industry,
                                                     inspectors, and the
                                                     public.
------------------------------------------------------------------------
   P-15-013      2/10/15  Open-         X           To PHMSA: Update
                          Acceptable                 guidance for gas
                           Response                  transmission
                                                     pipeline operators
                                                     and inspectors on
                                                     critical components
                                                     of risk assessment
                                                     approaches. Include
                                                     (1) methods for
                                                     setting weighting
                                                     factors, (2)
                                                     factors that should
                                                     be included in
                                                     consequence of
                                                     failure
                                                     calculations, and
                                                     (3) appropriate
                                                     risk metrics and
                                                     methods for
                                                     aggregating risk
                                                     along a pipeline.
------------------------------------------------------------------------
   P-15-015      2/10/15  Open-         ..........  To PHMSA: Revise
                          Acceptable                 Form F7100.1,
                          Alternate                  Annual Report Form,
                          Response                   to collect
                                                     information about
                                                     which methods of
                                                     high consequence
                                                     area identification
                                                     and risk assessment
                                                     approaches were
                                                     used.
------------------------------------------------------------------------
   P-15-016      2/10/15  Open-         ..........  To PHMSA: Revise
                          Acceptable                 Form F7100.2,
                           Response                  Incident Report
                                                     Form, (1) to
                                                     collect information
                                                     about both the
                                                     results of previous
                                                     assessments and
                                                     previously
                                                     identified threats
                                                     for each pipeline
                                                     segment involved in
                                                     an incident and (2)
                                                     to allow for the
                                                     inclusion of
                                                     multiple root
                                                     causes when
                                                     multiple threats
                                                     interacted.
------------------------------------------------------------------------
   P-15-017      2/10/15  Open-         X           To PHMSA: Develop a
                          Acceptable                 program to use the
                           Response                  data collected in
                                                     response to Safety
                                                     Recommendations P-
                                                     15-15 and P-15-16
                                                     to evaluate the
                                                     relationship
                                                     between incident
                                                     occurrences and (1)
                                                     inappropriate
                                                     elimination of
                                                     threats, (2)
                                                     interactive
                                                     threats, and (3)
                                                     risk assessment
                                                     approaches used by
                                                     the gas
                                                     transmission
                                                     pipeline operators.
                                                     Disseminate the
                                                     results of your
                                                     evaluation to the
                                                     pipeline industry,
                                                     inspectors, and the
                                                     public annually.
------------------------------------------------------------------------
   P-15-018      2/10/15  Open-         X           To PHMSA: Require
                          Acceptable                 that all natural
                           Response                  gas transmission
                                                     pipelines be
                                                     capable of being in-
                                                     line inspected by
                                                     either
                                                     reconfiguring the
                                                     pipeline to
                                                     accommodate in line
                                                     inspection tools or
                                                     by the use of new
                                                     technology that
                                                     permits the
                                                     inspection of
                                                     previously
                                                     uninspectable
                                                     pipelines; priority
                                                     should be given to
                                                     the highest risk
                                                     transmission
                                                     pipelines that
                                                     considers age,
                                                     internal pressure,
                                                     pipe diameter, and
                                                     class location.
                                                     (Safety
                                                     Recommendation P-15-
                                                     18 superseded
                                                     Safety
                                                     Recommendation P-11-
                                                     17)
------------------------------------------------------------------------
   P-15-020      2/10/15  Open-         X           To PHMSA: Identify
                          Acceptable                 all operational
                           Response                  complications that
                                                     limit the use of in-
                                                     line inspection
                                                     tools in piggable
                                                     pipelines, develop
                                                     methods to
                                                     eliminate the
                                                     operational
                                                     complications, and
                                                     require operators
                                                     to use these
                                                     methods to increase
                                                     the use of in-line
                                                     inspection tools.
------------------------------------------------------------------------
   P-15-021      2/10/15  Open-         X           To PHMSA: Develop
                          Acceptable                 and implement a
                           Response                  plan for
                                                     eliminating the use
                                                     of direct
                                                     assessment as the
                                                     sole integrity
                                                     assessment method
                                                     for gas
                                                     transmission
                                                     pipelines.
------------------------------------------------------------------------
   P-15-022      2/10/15  Open-         X           To PHMSA: Develop
                          Acceptable                 and implement a
                           Response                  plan for all
                                                     segments of the
                                                     pipeline industry
                                                     to improve data
                                                     integration for
                                                     integrity
                                                     management through
                                                     the use of
                                                     geographic
                                                     information
                                                     systems.
------------------------------------------------------------------------
   P-15-034      6/29/15  Open-         X           TO CONSOLIDATED
                          Acceptable                 EDISON COMPANY OF
                           Response                  NEW YORK, INC.:
                                                     Revise your plastic
                                                     pipe fusion welding
                                                     procedure to
                                                     require cleaning of
                                                     the surfaces to be
                                                     welded with
                                                     suitable solvents
                                                     to remove all dirt,
                                                     water, oil, paint,
                                                     and other
                                                     contaminants as
                                                     recommended in ASTM
                                                     F2620, Standard
                                                     Practice for Heat
                                                     Fusion Joining of
                                                     Polyethylene Pipe
                                                     and Fittings.
------------------------------------------------------------------------
   P-17-001      6/15/17  Open-         X           To PHMSA: Work with
                          Acceptable                 pipeline trade and
                           Response                  standards
                                                     organizations to
                                                     modify the pipeline
                                                     dent acceptance
                                                     criteria to account
                                                     for all the factors
                                                     that lead to pipe
                                                     failures caused by
                                                     dents, and
                                                     promulgate
                                                     regulations to
                                                     require the new
                                                     criteria be
                                                     incorporated into
                                                     integrity
                                                     management
                                                     programs.
------------------------------------------------------------------------
   P-17-002      6/15/17  Open-         X           To PHMSA: Require
                          Unacceptable               operators to either
                           Response                  (a) repair all
                                                     excavated dent
                                                     defects, or (b)
                                                     install a local
                                                     leak detection
                                                     system at each
                                                     location where a
                                                     dent is not
                                                     repaired,
                                                     continuously
                                                     monitor for
                                                     hydrocarbons, and
                                                     promptly take
                                                     corrective action
                                                     to stop a detected
                                                     leak.
------------------------------------------------------------------------
   P-17-003      6/15/17  Open-         X           TO THE COLONIAL
                          Await                      PIPELINE COMPANY:
                          Response                   Revise the dent
                                                     excavation
                                                     evaluation
                                                     procedure to
                                                     require either (a)
                                                     the repair of all
                                                     excavated dent
                                                     defects, or (b) the
                                                     installation of a
                                                     local leak
                                                     detection system at
                                                     each location where
                                                     a dent is not
                                                     repaired,
                                                     continuous
                                                     monitoring for
                                                     hydrocarbons, and
                                                     prompt corrective
                                                     action to stop a
                                                     detected leak.
------------------------------------------------------------------------
   P-17-004      6/15/17  Open-         ..........  TO THE ASSOCIATION
                          Response                   OF OIL PIPE LINES
                          Received                   AND THE AMERICAN
                                                     PETROLEUM
                                                     INSTITUTE:
                                                     Communicate to your
                                                     members the
                                                     findings of this
                                                     report on the
                                                     susceptibility of
                                                     dents to fatigue
                                                     cracking even when
                                                     the dent is
                                                     acceptable under
                                                     current criteria.
------------------------------------------------------------------------
   P-18-001      6/25/18  Open-         X           To PHMSA: Work with
                          Acceptable                 state pipeline
                           Response                  regulators to
                                                     incorporate into
                                                     their inspection
                                                     programs, a review
                                                     to ensure that gas
                                                     distribution
                                                     pipeline operators
                                                     are using best
                                                     practices
                                                     recommended by the
                                                     manufacturer in
                                                     their distribution
                                                     integrity
                                                     management
                                                     programs, including
                                                     using the specified
                                                     tools and methods,
                                                     to correctly
                                                     install PermaLock
                                                     mechanical tapping
                                                     tee assemblies.
------------------------------------------------------------------------
   P-18-004      6/25/18  Open-         X           TO HONEYWELL:
                          Acceptable                 Specify in your
                          Alternate                  PermaLock
                          Response                   mechanical tapping
                                                     tee assembly
                                                     installation
                                                     instructions a not-
                                                     to-exceed torque
                                                     limit for Nylon
                                                     bolts and have that
                                                     value checked and
                                                     adjusted with a
                                                     torque wrench
                                                     immediately after
                                                     installation.
------------------------------------------------------------------------
   P-18-005     11/15/18  Open-         X           TO THE COMMONWEALTH
                          Await                      OF MASSACHUSETTS:
                          Response                   Eliminate the
                                                     professional
                                                     engineer licensure
                                                     exemption for
                                                     public utility work
                                                     and require a
                                                     professional
                                                     engineer's seal on
                                                     public utility
                                                     engineering
                                                     drawings.
------------------------------------------------------------------------
   P-18-006     11/15/18  Open-         X           TO NISOURCE: Revise
                          Acceptable                 the engineering
                           Response                  plan and
                                                     constructability
                                                     review process
                                                     across all of your
                                                     subsidiaries to
                                                     ensure that all
                                                     applicable
                                                     departments review
                                                     construction
                                                     documents for
                                                     accuracy,
                                                     completeness, and
                                                     correctness, and
                                                     that the documents
                                                     or plans be sealed
                                                     by a professional
                                                     engineer prior to
                                                     commencing work.
                                                     (Urgent)
------------------------------------------------------------------------
   P-18-007     11/15/18  Open-         X           TO NISOURCE: Review
                          Acceptable                 and ensure that all
                           Response                  records and
                                                     documentation of
                                                     your natural gas
                                                     systems are
                                                     traceable,
                                                     reliable, and
                                                     complete. (Urgent)
------------------------------------------------------------------------
   P-18-008     11/15/18  Open-         X           TO NISOURCE: Apply
                          Acceptable                 management of
                           Response                  change process to
                                                     all changes to
                                                     adequately identify
                                                     system threats that
                                                     could result in a
                                                     common mode
                                                     failure. (Urgent)
------------------------------------------------------------------------
   P-18-009     11/15/18  Open-         X           TO NISOURCE: Develop
                          Acceptable                 and implement
                           Response                  control procedures
                                                     during
                                                     modifications to
                                                     gas mains to
                                                     mitigate the risks
                                                     identified during
                                                     management of
                                                     change operations.
                                                     Gas main pressures
                                                     should be
                                                     continually
                                                     monitored during
                                                     these modifications
                                                     and assets should
                                                     be placed at
                                                     critical locations
                                                     to immediately shut
                                                     down the system if
                                                     abnormal operations
                                                     are detected.
                                                     (Urgent)
------------------------------------------------------------------------


    Mr. Lipinski. Thank you for your testimony.
    I will start by recognizing myself for 5 minutes for 
questions. I will start out with Administrator Elliott.
    You know, 8 years have now lapsed since Congress passed the 
2011 pipeline safety bill, and PHMSA still has not implemented 
required regulations like the hazardous liquid rule or gas 
transmission rule. I think we could all agree that taking 8-
plus years to implement important safety regulations is a 
problem.
    I want to ask first, how is PHMSA reforming its regulatory 
process so that congressional mandates are implemented faster?
    Mr. Elliott. Chairman Lipinski, thank you for that 
question.
    I think we have done quite a bit since I last testified 
before this committee last June and heard quite clearly the 
dissatisfaction with the ability of PHMSA to move mandates, and 
we have done several things.
    First of all, we have really gone back and worked hard 
internally to make sure that we could complete developing the 
language for the rules that were still open.
    And I think the second thing that we have done is we have 
worked hard to streamline the rulemaking process at PHMSA. As 
you know, PHMSA is really two separate modes almost, one on 
pipeline and one on hazardous materials. And we found that 
there were some inefficiencies there that were not giving us 
the ability to staff our rulemaking process the way that would 
provide optimum results. And we have worked on that, so I think 
today we have a much better process internally for writing and 
pursuing not only mandates but all regulations that we are 
responsible for.
    I tell the team at PHMSA just about every day that we are 
responsible for making sure that the mandates that we have in 
front of us, that we can move as quickly and expeditiously as 
we can.
    I am pleased that we have been able to complete our work on 
the pipeline safety rule. We have completed our work on the gas 
pipeline safety rule as well. And we are hoping that those will 
become published in the not too distant future.
    Mr. Lipinski. What can Congress do to help PHMSA speed up 
the implementation of regulations?
    Mr. Elliott. Mr. Chairman, I think just your constant 
assistance in helping us understand the absolute urgency in 
moving these safety rules to conclusion.
    Mr. Lipinski. I want to ask, Ms. Homendy, what you would 
recommend. Do you have any comments on what PHMSA has done and 
what you would recommend that PHMSA or Congress do to speed up 
the regulations?
    Ms. Homendy. Well, there is a lot that goes into 
rulemaking, and I have had a lot of great conversations with 
the Administrator and with PHMSA staff over the past several 
months and years, and it is frustrating.
    Part of the problem is there is no transparency in the 
rulemaking process. So we actually--we do have letters that go 
back and forth and communications between--and meetings as 
well--between NTSB and PHMSA, and a lot of the time the 
response is, ``Well, we are going to work on these 
recommendations and rulemaking,'' but we actually don't know 
where the rulemaking is. Is it in PHMSA? Is it in the 
Secretary's office? Is it at OMB? So that is part of the 
problem, that we don't know where the holdup is.
    But, you know, from our standpoint, you know, a lot of the 
NTSB recommendations that were included in the 2011 and 2016 
acts are not new recommendations. We have issued them for a 
number of years, and there was no action. Fortunately, you took 
action, and it is frustrating that now we don't have final 
rulemakings.
    And what concerns me most is having to go to an accident 
scene and meet with a loved one who has lost a family member 
and have to explain to them, you know, what we know about the 
accident and what the NTSB's process is while our investigators 
know full well that something could have prevented that 
accident had it been implemented.
    Mr. Lipinski. Thank you.
    I want to ask Mr. Elliott, do you intend to implement all 
of NTSB's safety recommendations?
    Mr. Elliott. Mr. Chairman, we have currently 20 open NTSB 
recommendations. Ten of those are linked to rulemakings that we 
are working through, and as has been alluded to earlier, three 
of those are open and unacceptable.
    I would reiterate Member Homendy's comments. I think we 
have a very strong working relationship with NTSB. Our staffs 
work regularly to help work through those recommendations and 
to find resolutions as quickly as possible. And at least at my 
time at PHMSA, I think we have made some significant strides 
not only in working more closely with the National 
Transportation Safety Board but in bringing some of those 
recommendations to successful conclusions.
    Mr. Lipinski. Ms. Homendy, did you want to add anything 
else before I close?
    Ms. Homendy. I would just clarify that we have 24 open 
safety recommendations.
    And one thing that a lot of people do not know is that when 
we issue a safety recommendation there may be another way that 
PHMSA or the industry would like to address it and believe that 
they could address the safety issue identified, and they can 
propose an alternative. There have been recommendations that we 
have issued to PHMSA where they did provide an acceptable 
alternative and we were able to close that recommendation.
    So we are eager to work with them. They sent us a letter 
yesterday to clarify where they were on the various 
recommendations, and we look forward to continuing the 
discussion.
    Mr. Lipinski. Thank you. My time has expired.
    I want to recognize Ranking Member Crawford for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    I just have one quick question for Administrator Elliott. 
How can the rulemaking process be improved to ensure that 
safety regulations are keeping up with technological advances?
    Mr. Elliott. Congressman, thank you for the question.
    I think that, you know, one of the criticisms that PHMSA 
often gets is the inability for our rulemaking process to stay 
current with trends in innovation and technology, especially 
those where there is emerging safety technology.
    We work hard to try and ensure through our special 
permitting process that we can bring a lot of this new, 
exploratory safety technology so that it can be tested and we 
can see whether or not it can actually be included into the 
process within the regulations.
    I do think there are probably some additional ways that we 
can look to include emerging technology, especially safety 
technology and innovation, and we continue to explore those 
ways to do that.
    Mr. Crawford. Thank you, Mr. Elliott.
    Ms. Homendy, I want to ask a question about two of the 
Members that presented testimony earlier today. What is the 
status of the four urgent NTSB recommendations issued to 
NiSource in the wake of the Merrimack Valley incident?
    Ms. Homendy. That we issued for NiSource or for the 
Commonwealth of Massachusetts? I am sorry.
    Mr. Crawford. NiSource.
    Ms. Homendy. For NiSource, they are continuing to implement 
our urgent recommendations, and we have communications from the 
company updating us on the status.
    Mr. Crawford. OK.
    When the NTSB develops safety recommendations, is there 
consideration for who might ultimately bear the cost to 
implement that recommendation?
    Ms. Homendy. We do not consider cost. The NTSB's mission is 
safety. The regulator's role is to consider cost-benefit 
analysis when they are issuing regulations. But when it comes 
to the NTSB, our mission is safety and preventing future 
tragedies and saving lives.
    Mr. Crawford. Thank you, ma'am. Appreciate it.
    I yield back.
    Mr. Lipinski. I now recognize Chairman DeFazio for 5 
minutes.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Specifically, where are we on the leak detection rule, Mr. 
Administrator?
    Mr. Elliott. Chairman DeFazio, thank you for that question.
    I have made comment on our progress on the liquid and gas 
rule and the leak detection and automatic valve rule. We have 
completed our work with that, and it is currently undergoing 
internal review at DOT. We think we have adequately prepared 
the notice of proposed rulemaking, and we hope that we can 
publish that notice of proposed rulemaking in the near future.
    We recognize the importance of that rule. I think we 
realize that, while the liquid safety rule and the gas safety 
rule accommodate some of the concerns, that it really is the 
leak detection and the valve rule is the one that we really 
need to pursue now.
    So, again, we have done our work on it and need to get the 
notice of proposed rulemaking out so we can then pursue that to 
a final rule.
    Mr. DeFazio. So you have written an NPRM, a notice of 
proposed rulemaking, and submitted it to DOT. To whom?
    Mr. Elliott. Well, it goes through, you know, quite an 
iteration within DOT. There are a number of departments within 
the DOT that review all of our rulemaking. And that is the 
process that it is going through now.
    Mr. DeFazio. But I thought the theory when Congress created 
PHMSA--which used to be in DOT proper within the Secretary's 
office--that the idea was that you would have specific 
jurisdiction and a very particular body of knowledge. Who at 
DOT is more qualified than people at PHMSA to determine your 
NPRM?
    Mr. Elliott. Well, I would, Mr. Chairman, agree that there 
is a great amount of skill and talent at PHMSA when it comes to 
the pipeline rulemaking. But the process affords for others 
within the Department to look at that rulemaking from their 
lenses and their points of views to make sure that it conforms 
with their interests.
    Mr. DeFazio. ``Their interests.'' What are their interests? 
Are their interests in moving forward quickly with this 
critical rule? Are their interests in delaying the rule so that 
expenses won't be put upon the industry, and more people might 
die? What are their interests?
    Mr. Elliott. Yeah, well, Mr. Chairman, I think their 
interests are the same as mine, and that is safety. And I don't 
think there is any significant delay in moving this particular 
bill forward. I think it is just going through its normal 
review process.
    Mr. DeFazio. Well it is quite a number of years in the 
making. It is a proposed rulemaking, which means it still has 
to go out for public comment.
    Maybe the people at DOT could comment after you. It seems 
like an extra step here to me. The experts write the notice of 
proposed rulemaking; then people who don't have the expertise 
are reviewing that rule.
    And how long has it been there?
    Mr. Elliott. Well, I mean, it has been with PHMSA for many 
years.
    Mr. DeFazio. No, how long has it been over at DOT? How long 
since you completed it?
    Mr. Elliott. It has probably been within the last 90 days.
    Mr. DeFazio. OK. When might we expect it out of there? Do 
they work under timelines, or do things just disappear over 
there and they come back when they come back?
    Mr. Elliott. Mr. Chairman, I can't answer that question 
specifically, but I can assure you that I have regular dialogue 
with the staff at the Department on the importance of moving 
these mandates and will continue to pursue that.
    Mr. DeFazio. OK.
    One other question. What is the current value of a human 
life?
    Mr. Elliott. You can't put a value on human life.
    Mr. DeFazio. Well, I remember years ago hearing testimony 
when I was trying to get over-wing exit seats removed, and the 
regulator actually had a very specific number that they put on 
the value of a human life to determine cost-benefit analysis.
    I am just curious, do you have such a rule as you do cost-
benefit analysis?
    Mr. Elliott. Well, Mr. Chairman, as you know, we are 
required to do the cost-benefit analysis, but, again, going 
back to your original question, you can't put a cost value on 
someone's life.
    And at PHMSA, each and every day, we focus on ensuring the 
safety of energy products that move in the U.S. pipeline 
network. We don't focus on anything else but trying to make the 
Nation's pipeline system as safe as humanly possible.
    Mr. DeFazio. But, at some point, you do apply some sort of 
analysis. So you say, this 30-inch pipeline, in order to put in 
leak detection, it is going to cost this much. What is the 
benefit side? How do you calculate the benefit?
    Mr. Elliott. Well, again, Mr. Chairman, I mean, all rules 
go through a cost-benefit analysis----
    Mr. DeFazio. Yeah, but I am just curious, what is the 
benefit? Do we look at past explosions, like San Bruno, and how 
much that cost, and then therefore that might be the leak 
detection benefit? How do we calculate that?
    Mr. Elliott. Well, I am not sure of the specifics of the 
calculation, and I am pleased to work with you to provide more 
detailed information on it.
    Mr. DeFazio. Yeah.
    Ms. Homendy--Mr. Chairman, if you would just indulge--do 
you have any idea how that is done, given your past work on the 
committee and expertise?
    Ms. Homendy. The last time I looked--and I agree with the 
Administrator, you can't put a value on life. But the DOT uses 
$9 million per life, is the last time I looked at the figures 
that they utilized.
    On the benefit side, I do believe they look at the 
accidents that occurred, and they put a savings value on that. 
I am not sure how they develop it.
    Mr. DeFazio. OK. All right.
    I would like a little more information, Mr. Administrator. 
That would be useful.
    Thank you, Mr. Chairman.
    Mr. Lipinski. Thank you.
    The Chair will now recognize Mr. Bost for 5 minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    Mr. Elliott, in terms of the pipeline security, a lot of 
attention has been focused on potential large-scale terrorist 
attacks on pipeline infrastructure. However, we also have 
noticed an uptick in small-scale attacks, predominantly 
intended to disrupt but not to totally destroy critical 
infrastructure. You know, this includes pipelines, utility 
transmission lines, fiberoptic cable, just to name a few.
    But, in your opinion, are current laws sufficient to deter 
actions that may disrupt pipeline operations?
    And a followup to that: What are some of the potential 
safety issues of seemingly minor acts that we see when 
vandalism occurs?
    Mr. Elliott. Congressman, thank you for that question.
    PHMSA is primarily, as you know, a safety organization, but 
it is almost impossible in this day and age to separate safety 
from security. A safe operation is a secure operation, and, 
conversely, a secure pipeline system is one that is safe.
    We work very closely with the primary pipeline security 
organization, the Transportation Security Administration as 
well, more so on cyber-related issues with the Department of 
Energy. I do think that the coordination that we have with 
those primary security agencies is good. We help provide some 
technical experience to them about the Nation's pipeline 
system, and they, in turn, help us better understand the 
current threats both to physical and cybersecurity.
    I do believe that there is a concern, especially with what 
our inspectors see on a day-to-day basis, of the potential 
impacts of attempts of vandalism of pipeline systems. There was 
one a few months ago, fortunately unsuccessful. And I do know 
that our inspectors, on their regular inspection opportunities, 
they talk regularly to the pipeline operators about the steps 
that they have in place to help mitigate any security concerns.
    Mr. Bost. So, then, if someone commits one of these acts--I 
mean, I know if it is a terrorist act and there is a lot of 
damage and everything like that. But what do we do and what 
kind of charges do we get to put on people to discourage it 
from happening in the future?
    Because I think sometimes there are certain groups and 
organizations that would prefer to do these things just to 
bring attention. Even though we are trying to be as safe as 
possible, they know if they mess it up that we will have 
problems as well.
    Mr. Elliott. Right. Well, instances such as that, the 
operators will normally provide that data to local law 
enforcement authorities and even the FBI.
    And, recently, we have had inquiries with regards to 
whether or not we believe that the penalties that exist for, 
not so much kind of the terrorist types of attacks, but more 
the negative impacts to the pipeline system from demonstrators 
should be made more severe, and we have provided opinion on 
that.
    Mr. Bost. OK. Thank you.
    So what challenges is the PHMSA facing in collecting data 
to assess with the safety improvements and rulemaking?
    Mr. Elliott. Congressman, I think, actually, that the 
information and the data that we collect from operators to help 
us improve safety is adequate. I think the information that we 
get through the collection of information through their 
integrity management systems, I think the information that we 
receive through work that they do with some of their 
sophisticated in-line inspection helps us to formulate several 
things. It helps us to formulate the need for additional 
clarifications or rulemakings, but I think it also helps us 
better inform our inspectors. And it also informs us to focus 
on areas of greatest concern when we go out and inspect the 
regulated pipeline entity.
    Mr. Bost. So just one more question, because the concern I 
have--so when it takes this long to go through the rulemaking 
process, with technology changing as fast as it does, how in 
the world will we be able to keep up with modifying our rules 
and changing the rules to keep up with the technology that 
actually makes it safe?
    Mr. Elliott. Right. Congressman, that is a valid concern, 
and it is one that we hear quite often from industry. Because, 
as we all know, the pace at which technology is improving is at 
a pretty rapid pace, and some of the safety technology and 
innovation is actually quite impressive.
    Today, our current vehicle for allowing that technology to 
come into play, typically, not as part of a regulation, is 
through some special permit processes that we have. At PHMSA, 
we are working hard to make sure that we minimize that amount 
of time, but we are also looking at the possibility of 
introducing some types of pilot projects that will also allow 
some of this new safety technology to come into play more 
quickly.
    The concern that we have is that at PHMSA we need to be 
absolutely sure that the technology works and will provide this 
kind of step change in safety. And in order to do that, we need 
to see it in actual application for a fair amount of time. But 
we are looking at ways to see how we can expedite that so that 
we can get the information we need then to allow it in general 
use.
    Mr. Bost. Thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Lipinski. I now recognize Mrs. Craig for 5 minutes.
    Mrs. Craig. Thank you, Mr. Chairman.
    On August 2, 2017, a building at the Minnehaha Academy in 
Minneapolis, Minnesota, was destroyed by a natural gas 
explosion. As a result, two Minnesotans were killed and nine 
were injured. Unfortunately, we still don't have much 
information about this event.
    Ms. Homendy, I understand the NTSB's investigation is 
ongoing, but can you provide any information about the Board's 
processes and when we may be able to learn more about this 
fatal incident?
    Ms. Homendy. Thank you for the question.
    We are in the process of preparing our brief, which is our 
final report, and that should be out by the end of this fiscal 
year.
    Shortly before that, we will open the public docket to 
provide some information about the investigation that we have 
obtained. That then becomes publicly available. At that time, I 
am happy to come in and brief you and your staff to talk about 
what that information is.
    I did talk with our Office of Railroad, Pipeline, and 
Hazardous Materials Investigations to see what types of issues 
the investigators are looking at. And four groups were formed 
as part of the investigation to look at pipeline operations, 
human performance, survival factors, and the emergency response 
to the pipeline accident. In addition to that, materials; 
looking at testing of the pipeline; and investigators are also 
looking at subcontractor oversight and worker qualifications.
    As our process moves forward, we are happy to come in and 
brief you.
    Mrs. Craig. Thank you so much.
    Just following up on that, the NTSB has long recommended 
that the Department of Transportation, PHMSA, and PHMSA's 
predecessor examine the need for leak detection on pipelines 
and issue a regulation on this topic. Can you talk a little bit 
more about why this is important?
    Ms. Homendy. Leak detection is about response time. If you 
have a leak that you don't discover for a substantial amount of 
time, you are going to end up with more damage, lives lost, 
people injured, and communities severely affected.
    If I look at some of the most recent incidents where we 
have investigated, you have PG&E, this latest one in San 
Francisco that I was at, 2 hours to shut down the pipeline, and 
95 minutes, 2 hours and 45 minutes at a previous one, and 9 
hours before that.
    And the one we conducted in Centreville, the pipeline 
operator didn't detect a leak for 2 full days and kept telling 
the emergency responders there wasn't a problem on the 
pipeline. We need to detect leaks not only so that the operator 
can immediately respond but that so emergency responders can 
respond.
    And it is not just--you know, PHMSA does have performance 
standards that they issue in their regulations. But it is not 
just that these operators need to use leak detection systems--
and it is not just one; it may be many--but they also have to 
have performance standards, PHMSA has to issue performance 
standards for leak detection.
    For example, Alaska requires that all crude oil pipelines 
be equipped with a leak detection system capable of promptly 
detecting a leak of no more than 1 percent of daily throughput. 
That is a performance standard that doesn't exist in PHMSA 
regulations right now.
    And beyond just the leak detection systems themselves and 
the performance standards, you have to have proper training for 
personnel, good corporate policy, sort of a safety management 
system so you make sure everyone is properly trained and 
addresses the problem.
    Mrs. Craig. Just following up to that, Mr. Elliott, can you 
tell us what prevents you from having those performance 
standards in place?
    Mr. Elliott. Congresswoman, thank you for the question.
    You know, a number of the items that you made specific 
reference to on leak detection, again, are included in the 
mandates that we are working to complete--the liquid rule as 
well as the rupture detection and valve rule. We at PHMSA are 
working to complete those and hope to have those out as final 
rules in the very near future, and we think that will address 
many of the issues that you make reference to.
    Mrs. Craig. Well, it can't come soon enough for families in 
my State.
    Mr. Elliott. I understand.
    Mrs. Craig. Thank you. I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Spano for 5 
minutes.
    Mr. Spano. Thank you so much, Mr. Chairman.
    Thank you for being here. Appreciate your testimony, Ms. 
Homendy, Mr. Elliott.
    Mr. Elliott, I have a couple questions for you, if I may. 
Much of what we do in terms of making policy, much of what 
agencies do in terms of their rulemaking decisions involves 
kind of a balancing of cost and benefits and interests and so 
forth.
    I understand you engage in such an analysis in terms of 
your rulemaking. Can you tell us about that process, give us 
some understanding, some detail to help us appreciate exactly 
what are the factors you look at and how you make a 
determination in terms of those costs and benefits?
    Mr. Elliott. Well, Congressman, thank you for the question.
    All the rulemakings that we deal with will go through a 
cost-benefit, a regulatory impact analysis, looking at a lot of 
different factors--basically, the past history of incidents and 
impacts, matching that against the projected cost of the 
implementation of the rule.
    I think it is important to identify that that is only one 
component of our rulemaking process. I mean, the cost-benefit 
analysis is something that we are required to do, but I really 
do think we focus more on the overall safety benefits that the 
rules will bring to the regulated community as well as the 
public.
    We understand that, you know, most of the mandates that we 
deal with have costs associated with them, and we recognize 
that that cost is something that needs to be incurred so that 
we can bring these safety regulations into play.
    Mr. Spano. Thank you so much.
    Of the various rulemakings currently in progress, how many 
NTSB recommendations will be addressed?
    Mr. Elliott. Well, as Member Homendy corrected me, we have 
24 open NTSB recommendations, and of the 24, 10 of those 
recommendations will be addressed in rulemakings that we are 
currently working on.
    Mr. Spano. Ten of the twenty-four. Thank you.
    And then one last question for you. What are the current 
policies in place at PHMSA to address rupture detection in 
pipelines?
    Mr. Elliott. So, again, rupture detection is a topic that 
has been brought up several times here today, Congressman, and 
it is one that is very important to us. And I want to 
underscore what Member Homendy said, because rupture detection 
and leak detection really basically go to the ability to detect 
a problem and resolve it before it turns into something 
serious.
    But our rupture detection and automatic valve rule has, 
quite honestly, languished behind two rules that we put ahead 
of it, the liquid safety rule and the gas rule. And as has been 
mentioned before, we finished our work on the notice of 
proposed rulemaking. We do intend to get that out to the public 
for comment very quickly, and then we hope to expedite that to 
a final rule.
    Mr. Spano. So, just to clarify, are there any policies in 
place with regard to rupture protection currently?
    Mr. Elliott. Well, certainly within our integrity 
management requirements and existing Federal rules there are 
some that deal with rupture detection programs, yes.
    Mr. Spano. OK. Thank you.
    I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Lynch for 5 
minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I want to thank the witnesses as well.
    Mr. Chairman, thank you, Chairman DeFazio as well, Ranking 
Member Graves, and Ranking Member Crawford. Pipeline safety is 
an incredibly important hearing.
    And I want to associate myself with the remarks of Mrs. 
Trahan and Mr. Moulton, my colleagues from Massachusetts. And I 
certainly support their recommendations that we require 
licensed technicians and engineers on site and we have adequate 
supervisory staffing at all times--no waivers, no exceptions.
    My own situation in my district--I have a couple of 
situations, one in West Roxbury, Massachusetts. It is part of 
the city of Boston. We have a transfer from a low-pressure 
line, natural gas line, to a high-pressure. I think it was 5 to 
10 PSI before; now it is 50.
    This is a thickly settled residential neighborhood. This 
particular gas pipeline, constructed by Spectra Energy, goes 
through a gravel quarry that is adjacent to this residential 
neighborhood. So they are side-by-side. And there is active 
blasting, there is active blasting going on in the quarry, next 
to the people's homes, kids, schools. Very densely settled 
residential neighborhood.
    We tried mightily--the mayor, myself, elected officials--to 
get Spectra to move that pipeline out of the blasting zone and 
onto a major thoroughfare where it would not be proximate to 
residential homes. We went into court several times.
    The whole legal process here of trying to raise local 
safety concerns in the context of the Natural Gas Act of 1938, 
that system is impervious to local concerns. We have been in 
the court, and we lose every time--lack of standing. We can't 
get into that process.
    The second situation I have is Weymouth, Massachusetts, 
another heavily settled, thickly settled, densely settled 
residential area. And I have a compressor station that they 
want to build there. It is already an area that is heavily 
impacted by industrial use. There are a couple of tank farms, 
things like that, right on the coast, but the residential 
neighborhood is right there.
    So how do we raise the safety concerns in the context of 
the Natural Gas Act of 1938? Because I have lost so many times 
in court already. I can't even get into the process. We get 
bounced out all the time.
    And I am afraid that what has happened in Merrimack Valley 
is going to happen in one of my neighborhoods and we are going 
to have a massive loss of life because the area is much more 
concentrated with young children and residences.
    So, Mr. Elliott, if you want to take a crack at that, how 
do I protect my neighbors?
    Mr. Elliott. Well, Congressman, thank you very much for the 
question.
    And, you know, with regards to the compressor station at 
Weymouth, you may recall that approximately a month or so ago 
we had a conversation where----
    Mr. Lynch. Right.
    Mr. Elliott [continuing]. You have asked for assistance on 
helping to set up a public meeting that will bring perhaps more 
points of view to bear. And as I responded to you, we are happy 
to work with you on that public meeting. That certainly is one 
way for us to help better understand the circumstances that are 
ongoing up there.
    You know, of the 2.7 million miles of pipeline that exist 
today in the United States, 80 percent of those are 
distribution pipeline systems such as you are talking about.
    I do think we have an extremely good working relationship 
with our State partners. We continue to work to strengthen 
that. We continue to work to strengthen their ability to 
provide adequate oversight to State distribution networks----
    Mr. Lynch. That is fair enough. I don't want to use all my 
time on this, but I am not having the same experience with 
FERC, OK? And, you know, that is a major problem, because that 
is the adversarial relationship we have here in trying to 
impact this.
    Ms. Homendy, would you like to take a crack at that, in 
terms of how we might raise the safety concerns of local 
neighborhoods?
    Ms. Homendy. I think I would agree with the Administrator. 
Public meetings are probably the best way you are going to be 
able to have----
    Mr. Lynch. We have had those, though, with FERC, and, you 
know, they just blow us off and do what they are going to do 
anyway. That is the problem here. So I appreciate the 
recommendation that we have more meetings, but I have to get 
some stuff done.
    Thank you. I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Stauber for 5 
minutes.
    Mr. Stauber. Thank you, Mr. Chair.
    Administrator Elliott, a couple questions.
    How often do pipelines generally need to be replaced?
    Mr. Elliott. Congressman, thank you for the question.
    I don't think there is a specific number of years that you 
can apply to that question. Operators, through a very rigorous 
integrity management system, are responsible for ensuring the 
usable life of their systems.
    And understand, as well, I think it is probably fair to say 
that there is quite a bit of difference when you talk about the 
different types of pipelines. Is it liquid? Is it gas? And is 
it transmission line, or is it a distribution system line?
    And as we have been talking about for many years, many of 
the Nation's distribution lines, those that typically are still 
of cast iron or bare steel, provide some of the greatest 
concerns. We are happy that there are 21 States today that have 
basically done away with any old cast-iron distribution 
pipeline systems.
    But we are continuing to try and find new ways to 
incentivize the replacement of some of these aged distribution 
lines. We have just introduced a bill that will allow for new 
plastic types of pipes that we hope will kind of accelerate the 
replacement of distribution pipelines.
    But, again, going back to your basic question, it really is 
up to the individual operator to identify and maintain the 
absolute safety of their pipeline system.
    Now, having said that, we have, for a long time, 
acknowledged the importance of replacing aged pipeline, and we 
certainly underscore and support those operators that have 
replacement plans.
    Mr. Stauber. And that leads to my next question. And do you 
think that pipelines need to be replaced once they start to 
corrode?
    Mr. Elliott. Again, I think there are a number of factors 
there, Congressman. I think as long as problems such as 
corrosion are detected early in the process and that an 
operator can go and resolve that corrosion and do sufficient 
testing to ensure that the pipeline is not compromised, I think 
that pipeline can stay in service.
    I might also add that I think this is an area where we are 
seeing some of the advancements in technology, especially in 
in-line inspection, that do a much better job of identifying 
early corrosion before it turns into a problem.
    Mr. Stauber. And I will say this. Enbridge line 3 runs 
through my district. The pipeline runs from Canada through my 
district in northern Minnesota to Superior, Wisconsin.
    Enbridge is currently moving forward with a replacement 
plan that will make line 3 even safer than it is right now. And 
I am going to go over some safety measures that Enbridge takes 
on its current pipelines and its future replacement.
    Do you think anticorrosion coatings are important for 
safety?
    Mr. Elliott. Yes, I do.
    Mr. Stauber. Do you think pressure testing is important for 
safety?
    Mr. Elliott. I think depending on the nature of the 
pipeline and how it is used as part of an integrity management 
system, it can be a useful tool, yes.
    Mr. Stauber. And do you think pipeline monitoring is 
important for safety?
    Mr. Elliott. Monitoring can take a number of different 
terms, but I think, again, as part of a company's integrity 
management system, they need to make sure that they are 
monitoring the absolute health of that pipeline in such a way 
that they understand the safety of the pipeline at all times.
    Mr. Stauber. And then do you think automatic shutoff valves 
are important for safety?
    Mr. Elliott. I do believe that automatic shutoff valves are 
important. And I would hope that, as soon as we can continue to 
move through with some of these mandates that we will afford 
appropriate application of automatic shutoff valves, that we 
will see an even safer pipeline system in this country.
    Mr. Stauber. Thank you.
    And I agree with the important safety measures and steps 
that Enbridge has been taking to make sure their pipeline 
remains safe. And I also agree with you that pipelines need to 
be replaced from time to time. You know, we can't get wrapped 
up in political fights, whether they need to be replaced or 
not.
    And, you know, this project's approval process with 
Enbridge replacement line 3 has been going on since 2014. They 
have all the necessary permits from North Dakota, and they have 
the unanimous approval from Minnesota's Public Utilities 
Commission. The only thing holding the project up is State-
level politics.
    And in the name of safety, I support this project and other 
important pipeline projects like this that are centered around 
safety.
    Mr. Chair, I yield back.
    Mr. Lipinski. The Chair will now recognize for 5 minutes 
Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing.
    And thank you for being here today.
    You know, I have sat in on a number of these hearings 
regarding pipeline safety. And Directors come and Directors go, 
and they always say the same thing: We have to insist on a 
higher level of safety. We must complete outstanding 
congressional mandates.
    Yet, from 1999 to 2018, nearly twofold increase in 
incidents, which demonstrates to me that there is some sort of 
a gap there, something is missing. How can we be insisting on 
all these safety factors and we still have increases and 
increases? What is the gap? What are we not doing?
    And I am really concerned because I come from an area in 
New Jersey, I think there is a pipe underneath every brick. I 
mean, it is very congested. There are a lot of old pipes. I 
don't even think people know where some of these pipes go. And 
we are constantly having incidents where people keep breaking 
into the pipes and, you know, there is an incident.
    So, Director, how did we get a twofold increase?
    Mr. Elliott. Well, Congressman, thank you for the question, 
and I absolutely appreciate your concern. And having spent many 
years working up in northern New Jersey, I understand your 
perspective with regards to pipeline.
    First of all, you have my assurance that, at least in my 
time as the Administrator at PHMSA, that I will do everything 
possible to make sure that the men and women at PHMSA work hard 
every day to improve pipeline safety. There is much more we can 
do, and every day we discover new opportunities for safety that 
we really work to try and pursue.
    I do believe that, through a series of regulations, through 
inspections and enforcement and continued use of technology and 
innovation to help drive safer pipelines, that we can close the 
gap that you talk about.
    Mr. Sires. Are you insisting or are you making an effort or 
is somebody making an effort to identify where these pipes are? 
Because I think that there are a lot of pipes around that have 
been around a long time and I don't even know if people know 
exactly where they are.
    And the other problem that we had, in the Edison issue that 
we had, 1994, the firemen would not go into the fire because 
they didn't know what was there. So what have we done to make 
sure that the safety of the firemen is guaranteed when they 
show up at these incidents?
    Ms. Homendy. Yes, Congressman, that is a big problem.
    Right now, PHMSA has a National Pipeline Mapping System, 
and we have some recommendations for improving the National 
Pipeline Mapping System, including that they have to provide 
where high-consequence areas are--these are high-population 
areas and other areas--so emergency responders know where they 
are.
    There is also a problem on the identification, the accurate 
location of that pipeline. Right now, in the pipeline mapping 
system, it is give or take 500 feet. If you are a responder, 
that is a big deal.
    And so what responders need--and you are going to hear from 
the fire chief later today--is they need to know exactly where 
the pipeline is. They need to know what is in it. They need to 
know who the operator is. They need to have a relationship with 
that operator.
    It is like me. I tell operators all the time, ``If the 
first time you meet me is on the scene of an accident, it is 
not going to be a good day.'' Firefighters need to work with 
operators and operators need to work with firefighters so they 
can adequately plan for a potential incident.
    They need to know not just what is in the pipeline but what 
the worst-case scenario discharge is going to be if there is an 
incident. They need proper training. They need equipment. And 
in order to get training, fire departments need to have funding 
to backfill that position so that people can go get that 
training.
    Mr. Sires. We have so many communities in New Jersey. We 
have 561 communities, I think. And I think every community 
should know exactly what goes through their community so they 
can find it if there is an incident. And I don't know if that 
is happening.
    Ms. Homendy. That is not a requirement.
    Mr. Sires. What is not a requirement?
    Ms. Homendy. That communities are not informed--I mean, 
there is some pipeline education and an awareness program that 
is required under PHMSA regulations, and I am sure the 
Administrator can talk about that. And so some information does 
go out to the community about what is operating. But the 
specific information, like how much and what exactly, people 
won't know that in real-time. But----
    Mr. Elliott. And, Congressman, if I may--and, again, I want 
to underscore Member Homendy's concern. I mean, prior to coming 
to PHMSA, my 40 years in the railroad had a long history in 
your State of New Jersey of working with emergency responders 
to provide real-time information about the commodities that are 
moving through those 500-plus communities in northern New 
Jersey where railroads operate. And I think the same is true of 
what we need to do in the Nation's pipeline community. I think 
it is a topic that we need to address more fully.
    But, certainly, anything that we can do to help ensure the 
safety of America's emergency responders with regards to 
response to pipeline or other surface hazardous-material-type 
incidents, we need to be working on collaboratively to do that.
    Mr. Sires. My time is up. Thank you very much.
    Mr. Lipinski. The Chair now recognizes for 5 minutes Mr. 
Pence.
    Mr. Pence. Thank you, Mr. Chairman.
    Thank you, Mr. Elliott and Ms. Homendy.
    Let me start out by saying that protecting life is 
priceless. I would like to ask a couple of questions kind of 
going off what Congressman Stauber was asking about the 
monitoring and things like that.
    Leak detection in pipelines have been around for a long 
time, both for economic and safety reasons. Has anything 
occurred in the systems, in specifically the monitoring system, 
that warrants faster upgrades? Is it age, material of, as you 
mentioned, the iron pipes, material deterioration or ground 
shifts, as was mentioned earlier?
    Mr. Elliott. Well, Congressman, at least from the 
perspective that I have, I think there has been some 
significant improvement in overall leak detection.
    We know, historically, that small-leak incidents will 
continue to be--until technology avails itself, will always be 
something that will be more difficult to detect. But I think 
what I have seen, at least in my time at PHMSA, and 
understanding more some of the control room technology, is kind 
of this increase in technology that allows for a quick and 
prompt identification of more significant releases that will 
have more of a negative impact to the environment and to human 
life. And that is something that our inspectors review 
regularly.
    I think there is always more that can be done to improve 
leak detection capabilities, especially for those smaller 
leaks. And I think that it is important for us to pursue some 
of the mandates that Congress have given us in order to put 
some of those measures into place.
    Ms. Homendy. I would just add, more important than leak 
detection--because, certainly, you want to detect a leak when 
it occurs, even the small leaks, and there are different 
technologies, and it is not just using one technology, it is 
using many technologies and choosing the right one, but--is how 
you inspect your pipeline to ensure that there isn't a leak.
    And there are different ways of inspecting pipelines. 
Pipeline operators use in-line inspection technologies like 
sensing technologies, using smart pigs. They use pressure 
testing like hydrostatic testing. Direct assessment is really 
where they get in and they excavate and look at a pipeline. And 
they use other technologies like fiberoptics.
    The one recommendation that the NTSB has for PHMSA to 
implement is prohibiting the use of direct assessment as the 
sole method of inspection.
    Because when you are excavating a pipeline and you are 
conducting direct assessment, you have already sensed there is 
a problem in that line, and you are excavating for that 
specific problem that you may have identified to try to look at 
it and maybe remediate it.
    But when you are using maybe in-line inspection or 
hydrostatic testing, which is a much more comprehensive way of 
testing, you are not just finding things that you are looking 
for, you are finding things that you are not looking for and 
you didn't expect to find. And that is where you can take 
proactive measures to prevent a leak before it even occurs.
    Mr. Pence. Thank you.
    One other question. How will the recent MOU between PHMSA 
and FERC improve pipeline and facility safety while encouraging 
our energy security?
    Mr. Elliott. Congressman, thank you for the question.
    Understandably, there has been an increase in the number of 
applications for LNG facilities, especially, as we work to 
become more of an exporter of this energy product.
    PHMSA, last October, completed a memorandum of 
understanding with the Federal Energy Regulatory Commission to 
assist in their review of these applications. And the 
memorandum of understanding basically allows PHMSA to apply its 
safety review of all of these LNG applications and then, once a 
determination is made, send that determination over to FERC, 
the Federal Energy Regulatory Commission, so that they can 
complete their application and permitting process.
    And we do believe, at least in our discussions with our 
colleagues at FERC, that this will significantly reduce the 
amount of time that it will take to approve an application for 
LNG facilities. And I think rightfully so, it gives PHMSA the 
ability to oversee a process that they are very good at with 
some of our very talented LNG experts, and that is the safety 
of these sites.
    Mr. Pence. Thank you, Mr. Chair. I yield my time.
    Mr. Lipinski. The Chair will now recognize Mr. Malinowski 
for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    This issue really hits home in my district in New Jersey 
because we have a new natural gas pipeline that has been 
proposed to be built, the PennEast pipeline, which is supposed 
to begin in Pennsylvania, run through a rural part of my 
congressional district, chiefly through Hunterdon County, New 
Jersey. It is a pipeline that will run through people's front 
yards and backyards, through farmland.
    I have never seen an issue, in my short time in politics, 
that is more unifying to members of my community. They are all 
against it, for a whole range of reasons--concerned about 
impact on the environment, a desire not to give up farmland and 
property in which they have invested years of their lives.
    But setting all of those issues aside, there is also the 
question of safety. I have stood on people's front porches who 
have shown me pipeline route that will be running within feet 
of their homes. And given all of the accidents that have 
happened around the country, they are naturally concerned.
    I know we have covered some of this, but I just want to ask 
you, Ms. Homendy, given all of the safety recommendations that 
have not yet been fully implemented, what would you say if you 
were standing with me on the front porch of one of my 
constituents who is facing the potential of a pipeline running 
through their front yard or backyard, what would you say are 
the essential steps that would have to be taken by a company 
building a new pipeline so that you could join me in telling 
them that, setting aside all those other concerns, at the very 
least, their families will be safe? What would be your specific 
checklist?
    Ms. Homendy. Well, the checklist would obviously be that 
they have to comply with existing standards. But then we have a 
number of other ones that we have recommended: automatic 
shutoff valves, proper leak detection, proper inspection, 
repair of pipelines, and, frankly, strengthening the integrity 
management program. We have identified some significant issues 
with some recent pipeline accidents where pipeline operators' 
integrity management program is not as sufficient as it should 
be.
    And integrity management is really how they conduct 
inspection, how they determine where their high-consequence 
areas are, how they determine their threats and the risk to the 
pipeline. If they just look at what has happened over the last 
couple years and not really much broadly, they may determine 
that it is a different threat.
    But I am going to be honest with you. At the beginning of 
my testimony, I said pipelines are one of the safest modes of 
transportation, but you can't guarantee there will never be an 
accident. And when an accident occurs, it can be tragic. The 
best we can do is continue to advocate for safer and safer 
systems.
    And while the NTSB does not have a role in the planning or 
the permitting of a new pipeline, we do urge adoption of our 
existing and future safety recommendations to ensure pipeline 
safety.
    Mr. Malinowski. Thank you.
    And in the case of a new pipeline--and, again, I understand 
that is not formally your role, but would your office be 
willing to work with ours to look at plans for a new pipeline 
and advise us as to whether they live up to the highest 
standards that you are recommending?
    Ms. Homendy. We are always willing to work with your office 
and provide information where we are able. I am happy to meet 
with you and meet with your staff as well.
    Mr. Malinowski. Thank you so much.
    I yield back.
    Mr. Lipinski. The Chair now recognizes Mr. Davis for 5 
minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    I will start with Mr. Elliott.
    Back in my district, I recently heard from a constituent 
regarding a shallow pipe buried under his farmland. Central 
Illinois has some of the best farmland in the country, so it is 
no surprise my constituent was concerned with his inability to 
farm the land above and surrounding the pipe.
    My question for you is, are there any gaps in current 
legislation regarding shallow pipes that we can address in the 
upcoming reauthorization? And, additionally, can we do anything 
to better the process by which landowners and pipe owners 
settle such disputes?
    Mr. Elliott. Congressman, thank you for the question. I 
will answer the second part of your question first.
    I do think one of the most important aspects of pipeline 
construction is the interaction that goes on between the 
landowner and the pipeline company to ensure that what is being 
installed is, first of all, being installed in a very safe 
fashion and allows certain appropriate uses of that land once 
the installation has been made. I think that is something that 
can always be addressed further with the pipeline operating 
companies.
    With regards to your first question, I am not specifically 
aware of the specifics of the depth of pipeline. But with 
regards to your comment about is that something that might be 
addressed in reauthorization, I am happy to work with your 
office on thoughts and ideas on that.
    Mr. Davis. Well, great. Thank you very much for your time.
    And hello, Ms. Homendy. How are you?
    Ms. Homendy. Hello, sir. It is good to see you.
    Mr. Davis. You know, it is great to have you on that side 
of the table.
    Ms. Homendy. It is very different.
    Mr. Davis. Oh, I am sure it is. I am sure it is. I mean, I 
hope you enjoy your new job. I didn't know you would have to 
come back so soon and face Chairman DeFazio once again.
    Ms. Homendy. Well, if there was going to be a hearing that 
I was going to testify at, this would have been the one. Thank 
you so much.
    Mr. Davis. Well, I made sure I did not leave before I got a 
chance to question you today.
    Ms. Homendy. Oh, perfect. I hope it is an easy question.
    Mr. Davis. Well, of course. Well, you know, as a former 
staffer myself, I can appreciate, you know, you going to that 
side and coming to face us once again. And we have a history 
together. It is great to have worked with you in your last 
capacity. And I know it is not easy working with Chairman 
DeFazio and Chairman Lipinski, but they are good people.
    So I wanted to ask you----
    Mr. Lipinski. The gentleman's time is up.
    Mr. Davis. Well, my clock says something different, Mr. 
Chairman.
    Ms. Homendy. No comment.
    Mr. Davis. You know, I didn't have a specific question for 
you, so I texted a good friend of mine to get a question. And 
that was our former colleague, Mr. Capuano. And I know you are 
surprised that Mr. Capuano got back to me.
    So the question that he wanted me to ask you is, how much 
do you miss working with him?
    Ms. Homendy. I mostly miss the outfits he wore, 
specifically the short-sleeve shirts under the nice jackets. 
No, I mean, he was amazing.
    Mr. Davis. Lipinski has one on today.
    Ms. Homendy. He was fantastic to work with. And I very much 
miss him and his accent.
    Mr. Davis. Well, yes, you both have accents. Yes, you do. 
He wanted me to wish you well and congratulate you.
    And I texted my wife, Shannon, who you know, and she wanted 
to offer her congratulations too. And we are very proud of you 
and look forward to working with you, Jen.
    Thanks for putting up with my first questions. Next time 
you are here, I am going to have some really detailed questions 
for you.
    Ms. Homendy. I am excited because I am testifying next 
Tuesday in front of your subcommittee, so I will anticipate 
those.
    Mr. Davis. Oh, I can't wait. Hey, congratulations. We will 
see you then.
    I yield back, Mr. Chair.
    Mr. Lipinski. OK, Mr. Davis. I am going to have to look 
into the rules of what the chair can do about kicking members 
off of subcommittees. And I do have sleeves.
    I will now recognize Mrs. Fletcher for 5 minutes.
    Mrs. Fletcher. Thank you, Chairman Lipinski. Thank you for 
holding this hearing, and to Ranking Member Crawford as well.
    And thank you to the witnesses for taking time to testify.
    This committee has talked a lot about what it means to 
build a modern infrastructure and what we need to do to have 
one for the next century. And many know that our Nation's roads 
and bridges are in dire need of investment and updating, but we 
also know that infrastructure isn't just roads and bridges and 
that pipelines make the modern world we live in possible.
    If you live in my district, in Houston, you live near a 
pipeline. And that is true across the country. And pipelines 
are really unseen infrastructure, but they stretch from coast 
to coast and especially to the gulf coast, where I live.
    There are 2.6 million miles of paved roads in the United 
States, and there are more than 2.5 million miles of pipeline 
in the United States. And people, when I talk to them, are 
surprised to hear that, but it is true. It is just as 
important. And I think that the emphasis on addressing our 
pipeline needs in this hearing and on this committee is 
incredibly important.
    Thanks to the recent energy renaissance in shale 
extraction, our domestic outlook has shifted dramatically. And 
as we just heard a little bit about the MOU, facilities 
originally designed to import liquified natural gas are now 
massive export facilities, and U.S. producers are expected to 
dominate the market.
    These radical changes have occurred throughout the 
industry, but the rules and regulations have not kept pace, and 
we need them to. I look forward to hearing both from 
administration officials today and from industry and safety 
advocates on the opportunity for improvements to our current 
system.
    And my questions for this portion of the hearing are really 
directed to Administrator Elliott. We often hear about how 
PHMSA needs more pipeline inspectors on staff, but I am curious 
about the staffing needs for technical and rulemaking staff.
    So my first question is, has a shortage in staffing among 
technical staff and those involved in the rulemaking process 
contributed to PHMSA's slowness in issuing the rules prescribed 
by congressional mandate that date back to 2011?
    Mr. Elliott. Congresswoman, thank you for the question.
    When I first became Administrator in October of 2017, you 
are correct, we were facing a pretty significant staffing 
issue. I am pleased to say that we have made some significant 
headway in staffing of our technical staff, not only the 
technical staff, both on the pipeline and hazmat side.
    And sometimes when we talk about PHMSA we forget about the 
surface hazmat side, that we have some highly capable people 
that deal with the reactive materials and explosives and 
radioactive components and pressure vessels. So there is a 
great amount of technology on that side of the equation as 
well.
    But we have made some significant strides in helping to 
close the gap of bringing on, especially on the pipeline side, 
good-quality technical folks. As you know, we are in 
competition, especially in your district, of trying to bring on 
good-quality engineers that we can turn into some of the best 
pipeline inspectors in this country. But I think we, through 
some direct hiring capabilities we have, through broadening our 
outreach to a wider array of colleges and universities, I think 
we are closing that gap.
    But I will tell you that I do think that the talent that we 
are bringing on bring with them some great technical 
foundation. I think perhaps what concerns me most is that we, 
like many businesses and many other Federal agencies, we are 
seeing a significant amount of our highly skilled, experienced 
staff reaching that retirement eligibility age. And we are 
really working hard to try and do the best we can to create a 
transfer of knowledge of that information before it goes out 
the door.
    So, on the technical side, I think we have identified not 
only how to maintain our staffing but also to do as good a job 
as we can to make sure that we transfer that technical 
knowledge.
    On the rulemaking side, I will tell you this, my 
impression, that I think we have a highly skilled staff on the 
rulemaking side. We have made some changes in our rulemaking 
staff that makes it a little bit more nimble and agile to kind 
of allow us to put resources to both, either the pipeline or 
the hazmat side of the rulemaking, depending where the surge is 
at the time.
    But I think between the technical staff, the subject-matter 
experts that provide input into the rulemaking, I think the 
staff of economists that we have that do the analysis, and then 
I think the group of attorneys that also do that legal review 
that is required, are all top-shelf, and I am really proud of 
the work that they do.
    I think one of the first things I saw at PHMSA was how 
could we make that rulemaking group be more efficient and 
effective. Again, we try to now work as quickly as we can on 
our rulemaking process to make sure that we complete our work 
and then before we pass it off to others that have to review it 
as well.
    Mrs. Fletcher. I see that my time has expired, so thank you 
very much.
    I yield back.
    Mr. Lipinski. Thank you, Mrs. Fletcher.
    Mr. Lipinski. I will now recognize Mr. Allred for 5 
minutes.
    Mr. Allred. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here today. I want 
to welcome you, and I look forward to hearing your thoughts on 
how we can enhance safety in our Nation's pipeline network.
    As a Texan--I represent Dallas--I am proud to be serving on 
this subcommittee, as I understand the importance of the oil 
and gas industry to our State's economy. And the energy 
industry employs thousands of Texans, and across the State we 
are doing a lot to power this country and also to make us an 
exporter now as well.
    And I also understand the great importance of ensuring the 
safe operation of pipelines and pipeline facilities. We have 
talked a lot about that today, of course. Last year, there were 
several troubling pipeline incidents in Texas, including one in 
Dallas, just outside of my district.
    Ms. Homendy, I understand the NTSB is currently 
investigating a February 2018 natural gas explosion in Dallas, 
right outside my district, that killed a 12-year-old girl and 
injured four others. According to the NTSB's preliminary 
report, more than 300 residences were evacuated due to a number 
of gas pipeline leaks in that neighborhood.
    Can you walk me through what the investigation has found so 
far and provide a timeline for when the NTSB will issue a final 
report on the investigation?
    Ms. Homendy. Sure. And I just want to extend our deepest 
condolences to that family who, sadly, lost a 12-year-old and 
the remaining four members were injured. As a mother of an 11-
year-old, I can't imagine the pain and what they are 
experiencing.
    But as you mentioned, the accident occurred on February 23, 
2018. Our preliminary report was issued on March 23. It is 
still under investigation.
    Odor reports and activity by Atmos in the neighborhood 
indicated that leaks were first detected almost 2 months prior 
to the explosion. Atmos was performing work on pipelines just 
prior to the incident.
    While on scene, NTSB investigators identified three 
sections of pipe which failed a pressure test. One was behind 
the residence where the explosion occurred, and it had a 
circumferential crack in the pipe.
    Atmos has claimed in some recent articles that the rupture 
was due to heavy rain and soil composition. So the NTSB 
contracted with the Army Corps of Engineers to take soil 
samples and conduct geological testing. We did that in San 
Bruno, as well, to rule out seismic activity. The report on 
that from the Army Corps of Engineers is due on April 30.
    We intend to open the public docket on this incident at the 
end of June and issue a report shortly thereafter. In general, 
we are looking at pipeline operations, the adequacy of Atmos's 
integrity management program, human performance, their safety 
management system if they had one, and the adequacy of 
emergency response.
    Mr. Allred. Well, thank you. And, you know, my wife and I 
just had a baby as well, and, you know, I can't imagine being 
in your home and having that happen and losing a child like 
that.
    There has been a lot of talk today about PHMSA's 
unimplemented safety provisions. And I am interested if there 
are any specific provisions that you think would have prevented 
or reduced the likelihood of this particular incident.
    Ms. Homendy. It is a great question. It is one that I can't 
answer yet because the investigation is still ongoing. But I 
can tell you that our staff at the NTSB--I have only been there 
7\1/2\ months, but I have worked with the NTSB for many, many 
years, which is why I wanted to go there. The staff is 
incredible.
    So I will tell you that if there is a recommendation that 
needs to be issued to ensure safety and address what occurred 
in Dallas, it will be issued.
    Mr. Allred. Well, thank you so much. And I appreciate your 
comments.
    I yield back.
    Mr. Lipinski. The Chair will now recognize Mr. Payne for 5 
minutes.
    Mr. Payne. Thank you, Mr. Chairman. Thank you for holding 
this timely hearing as well.
    Let's see. Mr. Elliott, my question has to do with what we 
are doing to protect critical safety gaps. And my issue is 
around water pipelines.
    I am from New Jersey. It seems like the committee is 
dominated by New Jerseyans. I am from New Jersey as well, from 
the city of Newark. And we have a reservoir system up in the 
western part of the State, which is pretty interesting because 
most of the water is moved by gravity, as opposed to pumping 
stations, because of proximity in the mountains.
    And so I am just very concerned about the safety of those 
pipelines coming such a great distance. And I am concerned 
about that because of my representation there in Newark. So, 
you know, given my district's reliance on, you know, this 
infrastructure, this pipeline, I want to make sure that it is 
safe and protected.
    So what are you doing around water infrastructure in terms 
of safety?
    Mr. Elliott. Well, Congressman, thank you for the question. 
Having been a resident of New Jersey for 13 years, I know 
exactly the infrastructure that you are talking about.
    You know, PHMSA does not have oversight over water pipeline 
systems, but, certainly, where multiple pipelines come into 
close proximity, there is always a concern for safety.
    But to perhaps address on the more broader question about 
what are we doing to enhance safety, I think from the point of 
view, at least, from the State of New Jersey, several things I 
can talk to.
    You know, first of all, with regards to PHMSA oversight of 
transmission lines in the State, we have an office in Trenton, 
and the inspection staff there is responsible for working with 
transmission pipeline operators in the State to inspect any new 
construction but also to oversee maintenance and operations of 
their pipeline systems to ensure the safety and the integrity.
    Of course, in New Jersey, as I had mentioned earlier, 80 
percent of the Nation's pipeline is part of a distribution 
network that is, for all intents and purposes, overseen by 
State regulators. We do have a responsibility there too. And 
while most State pipeline offices do a very good job of 
overseeing intrastate pipeline, we do have a responsibility to 
work with them to make sure that the work that they do helps 
comply with at least the minimum Federal standards that we put 
into place.
    So it is kind of a tag-team approach between what PHMSA can 
do with transmission lines and the State oversight on some of 
the distribution networks. Our intent is to make sure that all 
operators, whether or not it is a distribution system or a 
transmission line, comply with the regulations and ensure the 
safety of their operations for the good people of New Jersey.
    Mr. Payne. OK. Well, thank you. And I apologize for trying 
to give you responsibility of that area as well. So thank you, 
though.
    Mr. Elliott. Well, as long as it doesn't come with more 
mandates that I would get in trouble for.
    Mr. Payne. Thank you, Mr. Chairman. I will yield back.
    Mr. Lipinski. The Chair will now recognize Mr. DeSaulnier 
for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Elliott, I want to ask you about changes to PHMSA after 
the 2010 San Bruno explosion in northern California. I 
appreciate you coming into the office and meeting with me given 
the number of hazardous material sites in my district in 
northern California.
    But when this incident happened, the incident lasted for 95 
minutes. NTSB came back and said that that was a contributing 
factor to the fact that 70 homes were lost and 8 people's lives 
were lost. It is a continuing concern. Certainly, we have our 
own unique seismic issues we have to deal with in California.
    But I wanted you to give the committee an update as to 
implementation of the direction from Congress after that 
incident in terms of automatic valves and remote control 
shutoffs.
    Mr. Elliott. Well, Congressman, thank you for your time the 
other day, and I was quite interested to learn more about the 
district and some of the challenges you face there.
    You know, it was September of 2010 when San Bruno occurred, 
and I believe there were eight fatalities. And terrible 
tragedies like that should not occur under any circumstances.
    Earlier today, I spoke of, based on questions that I heard 
from members of the subcommittee, about progress in our rupture 
detection and automatic valve rule, which, quite frankly, has 
languished behind several of the other pipeline rules that we 
had been working on, one on pipeline liquid safety and one on 
gas safety.
    A lot of what you are talking about from the incident at 
San Bruno we hope to resolve with the rupture detection and 
automatic valve rule that is in the notice-of-proposed-
rulemaking stage. We hope to have that out for public comment 
very shortly. And then, once we can see the responses back from 
that, we hope to move that to a final rule.
    We know we have some work to do there. We know that the 
specter of the incident in San Bruno is still something that we 
talk about quite often at PHMSA and our need to do more to make 
sure that we never have a repeat of an incident like that.
    Mr. DeSaulnier. I appreciate that.
    And coming from a district that has the largest geographic 
and population density of hazardous material sites, as I 
explained to you, with four refineries in an urbanized area, it 
is not unlike Philadelphia or these urbanized areas where, 
generally, we do a very good job. But all it takes is that one 
incident. And, certainly, for the people affected, you can't 
explain our inability to provide these kind of remedies.
    For NTSB, have there been other incidents, Ms. Homendy? And 
I am sorry I wasn't hear for Mr. Davis's dialogue. And I will 
be happy to text Mr. Capuano if you would like. But could you 
give us any information, have there been other incidents where 
these type of remote control valves or automatic shutoffs would 
have helped in incidents since the San Bruno one?
    Ms. Homendy. There have been many incidents where they 
would have. I mean, we have, in general, an issue with 
pipelines being shut down promptly once an incident occurs and, 
actually, the operator knowing about the problem.
    With PG&E, we had an incident not too long ago where, you 
know, it was 2 hours to shut down the pipeline. And this one, 
it was 95 minutes. And we did find that it severely hindered 
emergency response operations because of the lack of shutoff 
valves and also a lack of appropriate training for pipeline 
personnel, who had gone and didn't know how to deal with the 
manual valves.
    But, in other instances, you have prior PG&E incidents 
where it took them 2 hours and 45 minutes to shut it down, or 9 
hours, or you had a Centreville, Virginia, incident which was 2 
hours. And then, certainly, in the Enbridge pipeline incident 
in Marshall, Michigan, that was 17 hours.
    So I think the history on pipeline accidents is we need to 
be able to detect a leak properly and then to shut down the 
pipeline. And, you know, automatic and remote shutoff valves 
sort of take the human out of the equation.
    I will say the recent Merrimack Valley incident, where you 
had manual valves--and while Columbia Gas was able to shut down 
the regulator station within 3 hours, they were not able to 
turn off the gas for 3 hours. So that also contributes to 
significant issues.
    Mr. DeSaulnier. It would be helpful for me and, I assume, 
the committee, any kind of updates you could provide on a 
timeline. Because it is certainly urgent for those of us who 
live in these areas with urban areas and the high concentration 
of pipelines.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lipinski. The Chair will now recognize the vice chair 
of the full committee, Mr. Carbajal, for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chair.
    Administrator Elliott, thank you for coming before our 
committee to discuss pipeline safety.
    This is a particularly important issue for my constituents 
on the central coast of California. From the 1969 Santa Barbara 
oil spill to the 2015 Plains All American Pipeline oil spill at 
Refugio Beach, we have seen the damage oil spills inflict on 
our communities and local economies.
    In 2011, the House worked in a bipartisan way to pass the 
Pipeline Safety Act. This law, which passed the House 
unanimously, directed PHMSA to update and strengthen key 
pipeline safety standards. Today, 8 years after the enactment 
of the Pipeline Safety Act of 2011, rulemakings related to leak 
detection and emergency shutoff valves are still not finalized.
    While it is my understanding that a notice of proposed 
rulemaking is finally on the way later this summer, this was 
after an 8-year delay and after much advocacy. Clearly 
unacceptable.
    And I know your service just started in 2017, but you 
become the spokesperson to address these issues today. So let 
me ask you, why has this taken so long?
    Mr. Elliott. Well, Congressman, thank you for the question. 
And I share your concerns about the length of time that it has 
taken to move these rules through. And I appreciate your 
comment about my adoption of things that might have happened or 
didn't get done prior to my time coming on as Administrator.
    I think there are several factors that came into play. With 
the determination after this subcommittee--when I testified 
before this subcommittee last June, I had to go back and make 
some decisions about what rules do we want to focus on first. 
And while I think we have an extremely capable rulemaking 
staff, it still has limited resources. And I honestly think 
they are working the best they can.
    But I went back and I focused on the rules with that team 
that I thought would have the greatest impact to safety the 
quickest. And the two that we really focused on dealt with 
surface hazmat transportation issues--one dealing with response 
to major rail incidents, should they occur, with petroleum 
crude oil; and the other with the safety of lithium ion 
batteries, removing cargo-type lithium ion batteries from 
passenger commercial airlines.
    And once that work was done, then we really did turn our 
attention back to these important pipeline mandates. And kind 
of the order that they came in was the safety of liquid 
pipeline rule, which we have completed our work and it is now 
at OMB, and we are hoping that we have a quick turnaround 
there.
    And then the second and perhaps the one that is more 
responsive to you was the gas rule, which had been identified 
as the mega rule, and ultimately what we did to help streamline 
that was to break it into three parts. And the most important 
part, the part that contains the mandates that were brought 
forward by Congress, are the ones that we have now completed 
our work on, and that is also going through internal review.
    We do know we have work to do on----
    Mr. Carbajal. Thank you. I am going to stop you there 
because I have a few more questions.
    Have any of the administration's Executive orders caused 
any further delays on the implementation of safety rules?
    Mr. Elliott. I do not believe so. You know, we focus on 
moving forward safety rules each and every day.
    And I think a good example of a nonmandate safety rule that 
we just recently published as a final rule is the plastic pipe 
rules. We were looking for ways within PHMSA to help us 
incentivize replacement of the aging distribution pipe network. 
And we thought this was one where new technology in plastic 
pipe construction would allow us to do that.
    Mr. Carbajal. Thank you.
    And, lastly, what are some of the ways that we can reform 
the PHMSA process to ensure we do not have these lengthy delays 
in the future?
    Mr. Elliott. Well, Congressman, I mentioned earlier, I have 
worked hard at PHMSA to make sure that our portion of the 
rulemaking process is as good as it can be, that when we have a 
rule that we are moving, because it is one we have identified 
is necessary for improving pipeline or hazardous material 
safety or it is a mandate from Congress, that we work as 
quickly as possible to complete our portion of that rulemaking.
    We have done that through several ways: kind of just 
building an additional sense of urgency in our rulemaking 
process; and the second part, as I had mentioned earlier, kind 
of creating a more streamlined internal pipeline and hazardous 
material rulemaking process that allows us basically to utilize 
existing staff to the fullest potential to make sure that we 
are moving those rules that have the greatest impact.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back.
    Mr. Lipinski. Thank you.
    I want to thank Administrator Elliott and Member Homendy 
for their testimony today. There will be followup questions, I 
am sure, from this hearing, and we will be calling on you 
further as we move forward with this pipeline safety 
reauthorization bill.
    So thank you very much for your testimony today.
    Mr. Elliott. Thank you, Mr. Chairman.
    Ms. Homendy. Thank you.
    Mr. Lipinski. And I will call up the second panel.
    I would like to welcome now our next panel of witnesses: 
Mr. Carl Weimer, executive director of the Pipeline Safety 
Trust; Mr. Andrew Black, president and CEO of the Association 
of Oil Pipe Lines; Fire Chief Dan Eggleston, EFO, CFO, CMO, 
president and chairman of the board, International Association 
of Fire Chiefs; Mr. Richard Kuprewicz, president of Accufacts 
Inc.; Mr. Robin Rorick, vice president of midstream and 
industry operations, American Petroleum Institute; and Mr. 
Elgie Holstein, senior director for strategic planning, 
Environmental Defense Fund.
    Thank you for being here today. I look forward to your 
testimony.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    And as with the previous panel, since your written 
testimony has been made part of the record, the subcommittee 
will request that you limit your oral testimony to 5 minutes.
    So we will begin with Mr. Weimer. You are recognized.

 TESTIMONY OF CARL WEIMER, EXECUTIVE DIRECTOR, PIPELINE SAFETY 
 TRUST; ANDREW J. BLACK, PRESIDENT AND CEO, ASSOCIATION OF OIL 
PIPE LINES; FIRE CHIEF DAN EGGLESTON, EFO, CFO, CMO, PRESIDENT 
 AND CHAIRMAN OF THE BOARD, INTERNATIONAL ASSOCIATION OF FIRE 
CHIEFS; RICHARD B. KUPREWICZ, PRESIDENT, ACCUFACTS INC.; ROBIN 
 RORICK, VICE PRESIDENT OF MIDSTREAM AND INDUSTRY OPERATIONS, 
   AMERICAN PETROLEUM INSTITUTE; AND ELGIE HOLSTEIN, SENIOR 
  DIRECTOR FOR STRATEGIC PLANNING, ENVIRONMENTAL DEFENSE FUND

    Mr. Weimer. Good afternoon, Chairman Lipinski and members 
of the committee. Thank you for inviting me to speak about 
pipeline safety today.
    Before we get into various pipeline safety issues, let me 
give you a brief overview of where we stand today regarding the 
safety of pipelines in this country.
    While everyone testifying today supports the goal of zero 
incidents, we still have a long way to go to reach that goal. 
According to PHMSA data, since the PIPES Act was signed, less 
than 3 years ago, there have been over 1,700 reportable 
pipeline failures. Of those failures, nearly 800 are considered 
significant incidents under PHMSA's definitions, and the number 
of significant incidents has been increasing over the past 
decade.
    For the past 15 years, the emphasis in reducing pipeline 
incidents has been focused on performance-based integrity 
management programs. Unfortunately, it would appear that these 
integrity management programs have not yet lived up to their 
promise, as significant incident rates within high-consequence 
areas continue to climb for hazardous liquid and gas 
transmission pipelines.
    The pipeline safety system that Congress has created plays 
a part in PHMSA's inability to get things done. One of the 
large barriers to getting better regulations in place is the 
cost-versus-benefit analysis that Congress has uniquely created 
for only PHMSA. With a large pipeline system, where the 
probability of a failure is low but the consequence can be 
huge, it is nearly impossible to pass regulations under the 
current cost-benefit rules.
    If you are really interested in longstanding issues, such 
as effective leak detection, automated shutoff valves, and the 
regulation of over 400,000 miles of unregulated gathering 
lines, then the cost-benefit language in the statute needs to 
be fixed.
    PHMSA's penalty authority provided by Congress results in 
civil penalties that are economically insignificant to many 
operators and are much smaller than those imposed by some 
States. The wording in the statute for criminal penalties also 
does not align with the better wording for PHMSA's hazmat 
operations and creates a very high bar to prove. We have 
provided suggested changes to the statute that can give PHMSA 
more flexibility in penalty assessment and the ability to bring 
criminal charges on companies in the rare cases where that is 
warranted.
    As currently written by Congress, the pipeline safety 
statutes do not prohibit the release of gas or hazardous liquid 
from a pipeline. Under current PHMSA rules and as determined by 
recent court rulings, an operator can cause a significant 
incident without necessarily having violated a safety 
regulation. In other words, under PHMSA's rules, an operator 
has to have a plan for operating and testing their pipeline, 
but they don't necessarily have to have a plan that works. To 
close that loophole, we ask that you add language to make clear 
that the intent of a statute is to avoid releases of gas and 
hazardous liquids.
    In the PIPES Act, Congress asked the GAO to produce 
important reports on the integrity management program for both 
natural gas and hazardous liquid pipelines after the new rules 
PHMSA has been working on since 2010 are published. Since those 
rules have yet to be published, it may be delayed further. 
These important reports are not yet due.
    The current integrity management rules have been in place 
for over a decade, are well-understood, and NTSB has done a 
study on its effectiveness. So we ask that Congress direct GAO 
to produce these important reports as soon as possible instead 
of waiting for the proposed rules.
    Congress should also ignore industry calls for a relaxation 
of class location rules because integrity management is in 
place until these GAO reports are done and the number of 
incidents under integrity management shows a downward trend.
    Also in the PIPES Act, Congress directed PHMSA to make it 
clear that the Great Lakes, coastal beaches, and marine coastal 
waters are considered unusually sensitive areas. This mandate 
is yet to be accomplished. The need to do this came as a 
surprise to us since, clearly, these areas are unusually 
sensitive. We were also surprised to learn that PHMSA does not 
currently have a way to define and map all such areas.
    Congress should ask GAO to do a study of whether PHMSA's 
definitions and identification of such areas, along with 
commercially navigable waterways, are consistent with other 
environmental regulations and whether PHMSA currently has GIS 
data layers that allow the agency and industry to know where 
such boundaries are and uses this data to ensure pipeline 
operators are accurately identifying these areas.
    Congress should also mandate that such areas be made public 
so State and local governments, along with the public, can 
ensure that PHMSA and pipeline companies are correctly 
designating such important areas.
    I see my time is about up, so I want to thank you again for 
inviting me to testify today. And I am glad to answer any 
questions and work with the committee as you move forward on 
reauthorization.
    [Mr. Weimer's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Carl Weimer, Executive Director, Pipeline Safety 
                                 Trust
    Good morning Chairman Lipinski, Ranking Member Crawford, and 
members of the committee. Thank you for inviting me to speak today on 
the important subject of pipeline safety. My name is Carl Weimer and I 
am the Executive Director of the Pipeline Safety Trust.
    The Pipeline Safety Trust came into being after a pipeline disaster 
nearly twenty years ago--the 1999 Olympic Pipeline tragedy in 
Bellingham, Washington that left three young people dead, wiped out 
every living thing in a beautiful salmon stream, and caused millions of 
dollars of economic disruption. While prosecuting that incident the 
U.S. Justice Department was so aghast at the way the pipeline company 
had operated and maintained its pipeline, and equally aghast at the 
lack of oversight from federal regulators, that they asked the federal 
courts to set aside money from the settlement of that case to create 
the Pipeline Safety Trust as an independent national watchdog 
organization over both the industry and the regulators.
    After the Bellingham tragedy our community, from the local level to 
our congressional delegation, all joined in the effort to ensure that a 
tragedy like that would ``never happen again, anywhere.'' Unfortunately 
many tragedies have occurred since then, some of them worse than 
Bellingham, and after each tragedy the people in those affected 
communities try to find a way to ensure it will ``never happen again, 
anywhere.'' So here I am again today, nearly twenty years after my 
first testimony, representing all those communities and all those 
people searching for a way to prevent tragedies so they never happen 
again. We hope you will continue to work together in a bipartisan way 
to help us finally accomplish this.
    Today I would like to focus my testimony on:
    <bullet>  An overview of the safety of the current pipeline system 
in this country
    <bullet>  Needed Improvements to the Statutes that Cover Pipeline 
Safety
      <bullet>  Remove redundant and excessive Cost-Benefit 
Requirements Under 49 USC Sec.  60102
      <bullet>  Civil and Criminal Penalties under Sec.  60122 and 
Sec.  60123
      <bullet>  Need for Mandamus Clause under Sec.  60121
      <bullet>  Clarify that reportable unintended releases are 
prohibited under Sec.  60118
      <bullet>  Ensure PHMSA follows the intent of reporting under 
Sec. 60102
      <bullet>  Clarify and increase authorized appropriations under 
Sec.  60125
    <bullet>  Other Still Needed Improvements
      <bullet>  Require minimum standards for over 435,000 miles of 
natural gas gathering lines
      <bullet>  Performance standards for hazardous liquid leak 
detection, and gas transmission rupture detection
      <bullet>  Requirements for automated remote shut-off valve 
placement and performance requirements on transmission pipelines.
      <bullet>  Pipeline Segments that cross rivers are not 
sufficiently protected by existing rules
      <bullet>  Address shortcomings in the way PHMSA defines and 
addresses Unusually Sensitive Areas for hazardous liquid pipelines
      <bullet>  Reduction in Methane Emissions from Gas Pipelines
    <bullet>  Hopeful Initiatives in the Works
      <bullet>  Safety Management Systems
      <bullet>  Voluntary Information Sharing System for Pipelines
         Overview of the Safety of the Current Pipeline System
    Before we get too far into various pipeline safety programs I want 
to provide information regarding how well the current system is 
providing for safety. While everyone testifying today supports the goal 
of zero incidents, we still have a long way to go to reach that goal. 
According to data provided by the pipeline industry to PHMSA, in just 
the years since the President signed the PIPES ACT of 2016, there have 
been over 1700 reportable pipeline incidents. Of those incidents over 
775 are considered Significant Incidents under PHMSA's definitions. 
That amounts to an average of over 20 significant pipeline failures 
every month since PHMSA's pipeline safety program was last 
reauthorized. Even more concerning than the raw number of failures is 
that while we have all been saying the goal is zero incidents the 
number of significant incidents including all types of pipelines has 
been increasing over the past decade according to PHMSA data (See 
graph), with the majority of that increase attributable to hazardous 
liquid pipelines.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Also of concern is that for gas transmission and hazardous liquid 
pipelines over 65 percent of the significant failures in the past 
decade are from causes the operators ought to have control over such as 
corrosion, incorrect operations, equipment failures, and problems with 
the materials they use and the welds they make. The pie charts below, 
generated from PHMSA data \1\, demonstrate this problem.
---------------------------------------------------------------------------
    \1\ https://www.phmsa.dot.gov/data-and-statistics/pipeline/
pipeline-incident-20-year-trends

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the past fifteen years much of the emphasis in reducing 
pipeline incidents has been focused on Integrity Management efforts in 
High Consequence Areas. The theory behind Integrity Management programs 
makes perfect sense--focus efforts in those areas where the most harm 
to people and the environment may occur, work hard to identify the 
risks in those areas, put into place programs to test for and mitigate 
those risks, and implement a continuous improvement program to drive 
---------------------------------------------------------------------------
down the number of failures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Unfortunately, for hazardous liquid pipelines and gas transmission 
pipelines it would appear that these integrity management programs have 
not yet lived up to their promise as incident rates within High 
Consequence Areas continue to climb. These two graphs, generated from 
PHMSA's Integrity Management Data \2\, demonstrate this concern with 
current integrity management programs. Some in the industry argue that 
older, prescriptive class location rules can now be relaxed because of 
the implementation of integrity management, but as the graphs above 
show it is too early to go to a more performance-based integrity 
management system until the industry can prove that integrity management
works as it should.
\2\Hazardous Liquid Integrity Management Performance 
Measures_https://www.�phmsa.dot.gov/pipeline/hazardous-
liquid-integrity-management/hl-im-performance-measures
Gas Transmission Integrity Management Performance 
Measures_https://www.phmsa.dot.gov/�pipeline/gas-
transmission-integrity-management/gt-im-performance
-measures

Cost-Benefit Requirements Under 49 USC  60102
The years since 2010 found us too often examining the failures
that led to major pipeline incidents: Marshall, Michigan; 
San Bruno, California; Allentown, Pennsylvania; Sissonville, 
West Virginia; Harlem, New York; Mayflower, Arkansas; two spills
into the Yellowstone River, oil flowing into the ocean off Santa
Barbara, and too many more. Against that backdrop of incidents 
and Congressional directives, NTSB and GAO recommendations, 
these years also provided a perfect example of a broken
regulatory process that left PHMSA incapable of producing
a single major new safety rule. There are many reasons 
the process is not working but chief among them is the 
unique and onerous cost-benefit requirements that PHMSA
finds itself saddled with. 
In 1996, a concerted Congressional effort was made to insert 
cost-benefit analysis requirements into rulemaking requirements
under a whole host of environmental protection and health 
statutes, presumably as a way to reduce regulatory burden 
and codify the requirements for regulatory cost benefit 
analyses put in place by Presidents Reagan and Clinton 
in Executive Orders. Those Congressional efforts ultimately
fell short of wide spread success because so many members 
of Congress realized how such measures in the statute would
provide a well funded industry a strong litigation hook that
would make it too easy to successfully challenge new regulations
and nearly impossible to adequately protect people's health
and safety. The 1996 reauthorization of the pipeline safety
program, based solely on timing, represents the only health
and safety or environmental protection statute where such
an explicit directive to an administrative agency to base
regulation of risk on a cost-benefit test was actually 
inserted into statute. 

PHMSA rulemaking is therefore subject to two sets of cost-benefit
requirements_one under the Pipeline Safety Act and one under the 
Executive Order that requires an economic analysis of every major
rule reviewed by OMB before being published as a proposed rule 
and subject to comment. We urge you to put PHMSA's rulemaking 
on an even playing field with all other agencies by amending
49 USC  60102 to eliminate references to the risk assessment/
cost-benefit analysis in 60102(b)(2)(D) and (E); 60102(b)(3),
(4), (5) and (6). PHMSA would remain subject to the requirements
of the Executive Orders requiring a cost benefit analysis of 
major rules proposed by any agency, and the requirements for
transparency in rulemaking provided by the existing statute
and procedures.
A clear example of problems excessive cost benefit analysis can
cause can be seen in the lack of regulation of rural natural gas
gathering lines. According to a recent briefing from PHMSA�\3\
to the Gas Pipeline Advisory Committee they estimate that there
are over 438,000 miles of such gathering lines in the country
falling outside of any federal or state pipeline safety 
regulation. Many of these lines are the same size and pressure
as transmission pipelines, so pose the same risk. The regulation
of these lines has been one of our top priorities for years now,
and it is now one of the state regulators' top priorities also.
In 2010 the state regulators passed a resolution�\4\ that says 
in part:
\3\PHMSA Gas Pipeline Advisory Committee Meeting Pre-briefing,
December 20, 2018_�https://primis.phmsa.dot.gov/meetings/FilGet
.mtg?fil=1028\4\http://www.napsr.org/SiteAssets/NAPSR-
Resolutions-Open/201002%20Gas%20gathering�%20line%20class%
201%20Resolution.pdf
WHEREAS: In the newer gas gathering systems, it is not uncommon 
to find rural gas gathering pipelines up to 30" in diameter 
and operating at a MAOP of 1480 psi.
NOW THEREFORE BE IT RESOLVED: That NAPSR urge PHMSA to modify
49 CFR Sections 192.8 and 192.9 to establish regulatory 
requirements for gathering lines in Class 1 areas:
Since these 438,000 miles of pipelines are completely unregulated
no one collects any information about their location, construction,
size, pressure, risks, failure incidents, etc. Since no regulator
collects any information it is nearly impossible for PHMSA to pass
regulations because how can they quantify the required costs or
benefits? In a recent position paper on gathering lines\5\ t
he industry claimed that if PHMSA moved forward with a relatively
weak gathering line rule it would cost the industry 28 billion 
dollars. PHMSA finds itself in a no win situation based on cost
benefit requirements that effectively make it impossible to
move forward on needed rules without first going through years
of costly information collection, (which will also be opposed
by industry), to be able to complete a cost benefit analysis.
How, under this cost-benefit requirement in the statute can 
PHMSA, knowing full well that the industry will challenge any
such regulation, construct a rule that protects people from
a known risk? \5\Joint Position Paper, API & GPA Midstream
Assoc._https://www.regulations.gov/document?D=PHMSA-2016-0136-0045
Proposed fix for this problem_remove highlighted language
 60102. Purpose and general authority
(b) PRACTICABILITY AND SAFETY NEEDS STANDARDS._
(1)IN GENERAL._A standard prescribed under subsection 
(a) shall be_
(A)practicable; and
(B)designed to meet the need for_
(i)gas pipeline safety, or safely transporting hazardous liquids,
as appropriate; and
(ii)protecting the environment.
(2)FACTORS FOR CONSIDERATION._When prescribing any standard under
this section or section 60101(b), 60103, 60108, 60109, 60110,
or 60113, the Secretary shall consider_
(A)relevant available_
(i)gas pipeline safety information;
(ii)hazardous liquid pipeline safety information;
and(iii)environmental information;
(B)the appropriateness of the standard for the particular
type of pipeline transportation or facility;
(C)the reasonableness of the standard;
H5(D)based on a risk assessment, the reasonably
identifiable or estimated benefits expected to result
from implementation or compliance with the standard;
(E)based on a risk assessment, the reasonably identifiable
or estimated costs expected to result from implementation
or compliance with the standard;
(F)comments and information received from the public; and
(G)the comments and recommendations of the Technical Pipeline 
Safety Standards Committee, the Technical Hazardous Liquid 
Pipeline Safety Standards Committee, or both, as appropriate.
(3)RISK ASSESSMENT._In conducting a risk assessment referred
to in subparagraphs (D) and (E) of paragraph (2), the Secretary
shall_
(A)identify the regulatory and nonregulatory options that the 
Secretary considered in prescribing a proposed standard;
(B)identify the costs and benefits associated with the 
proposed standard;
(C)include_
(i)an explanation of the reasons for the selection of the 
proposed standard in lieu of the other options identified; and
(ii)with respect to each of those other options, a brief 
explanation of the reasons that the Secretary did not select
the option; and(D)identify technical data or other information
upon which the risk assessment information and proposed 
standard is based.
(4)REVIEW._
(A)IN GENERAL._The Secretary shall_
(i)submit any risk assessment information prepared under paragraph
(3) of this subsection to the Technical Pipeline Safety Standards
Committee, the Technical Hazardous Liquid Pipeline Safety Standards
Committee, or both, as appropriate; and(ii)make that risk assessment 
information available to the general public.
(B)PEER REVIEW PANELS._The committees referred to in subparagraph
(A) shall serve as peer review panels to review risk assessment 
information prepared under this section. Not later than 90 days 
after receiving risk assessment information for review pursuant 
to subparagraph (A), each committee that receives that risk 
assessment information shall prepare and submit to the Secretary
a report that includes_
(i)an evaluation of the merit of the data and methods used; and
(ii)any recommended options relating to that risk assessment 
information and the associated standard that the committee 
determines to be appropriate.
(C)REVIEW BY SECRETARY._Not later than 90 days after receiving
a report submitted by a committee under subparagraph (B), 
the Secretary_
(i)shall review the report;
(ii)shall provide a written response to the committee that is 
the author of the report concerning all significant peer review
comments and recommended alternatives contained in the report;
and(iii)may revise the risk assessment and the proposed standard
before promulgating the final standard.
(5)SECRETARIAL DECISIONMAKING._Except where otherwise required by 
statute, the Secretary shall propose or issue a standard under 
this Chapter 1 only upon a reasoned determination that the benefits
of the intended standard justify its costs.
(6)EXCEPTIONS FROM APPLICATION._The requirements of subparagraphs
(D) and (E) of paragraph (2) do not apply when_
(A)the standard is the product of a negotiated rulemaking,
or other rulemaking including the adoption of industry standards
that receives no significant adverse comment within 60 days of
notice in the Federal Register;(B)based on a recommendation 
(in which three-fourths of the members voting concur) by the
Technical Pipeline Safety Standards Committee, the Technical 
Hazardous Liquid Pipeline Safety Standards Committee, or both,
as applicable, the Secretary waives the requirements; or
(C)the Secretary finds, pursuant to section 553(b)(3)(B) 
of title 5, United States Code, that notice and public procedure 
are not required.
(7)REPORT._Not later than March 31, 2000, the Secretary shall
transmit to the Congress a report that_
(A)describes the implementation of the risk assessment requirements
of this section, including the extent to which those requirements
have affected regulatory decisionmaking and pipeline safety; and
(B)includes any recommendations that the Secretary determines would
make the risk assessment process conducted pursuant to the requirements
under this chapter a more effective means of assessing the benefits 
and costs associated with alternative regulatory and nonregulatory
options in prescribing standards under the Federal pipeline safety 
regulatory program under this chapter.
 60115. Technical safety standards committees
(a) ORGANIZATION._The Technical Pipeline Safety Standards Committee
and the Technical Hazardous Liquid Pipeline Safety Standards
Committee are committees in the Department of Transportation. 
The committees referred to in the preceding sentence shall serve 
as peer review committees for carrying out this chapter. Peer 
reviews conducted by the committees shall be treated for purposes 
of all Federal laws relating to risk assessment and peer review 
(including laws that take effect after the date of the enactment
of the Accountable Pipeline Safety and Partnership Act of 1996)
as meeting any peer review requirements of such laws.
(b) COMPOSITION AND APPOINTMENT
(3)The members of each committee are appointed as follows:
(C)Two of the individuals selected for each committee under
paragraph (3)(C) of this subsection must have education, background,
or experience in environmental protection or public safety. 
At least 1 of the individuals selected for each committee unde
r paragraph (3)(C) shall have education, background, or experience
in risk assessment and cost-benefit analysis. At least one
individual selected for each committee under paragraph (3)(C)
may not have a financial interest in the pipeline, petroleum,
or natural gas industries.
(c) COMMITTEE REPORTS ON PROPOSED STANDARDS.
(1)The Secretary shall give to_
(A)the Technical Pipeline Safety Standards Committee each standard 
proposed under this chapter for transporting gas and for gas 
pipeline facilities including the risk assessment information
and other analyses supporting each proposed standard; and
(B)the Technical Hazardous Liquid Pipeline Safety Standards 
Committee each standard proposed under this chapter for 
transporting hazardous liquid and for hazardous liquid pipeline
facilities including the risk assessment information and other
analyses supporting each proposed standard.
(2)Not later than 90 days after receiving the proposed standard 
and supporting analyses, the appropriate committee shall prepare
and submit to the Secretary a report on the technical feasibility,
reasonableness, cost-effectiveness, and practicability of the 
proposed standard and include in the report recommended actions.
The Secretary shall publish each report, including any recommended 
actions and minority views. The report if timely made is part of
the proceeding for prescribing the standard. The Secretary is not
bound by the conclusions of the committee. However, if the 
Secretary rejects the conclusions of the committee, the Secretary 
shall publish the reasons.
(3)The Secretary may prescribe a standard after the end of 
the 90-day period.
Civil and Criminal Penalties under  60122 and  60123
The concern: PHMSA's penalty authority, and the agency's
implementation of that authority, results in civil penalties that
are economically insignificant to operators, are significantly 
smaller than those imposed by some states, and are disproportionate 
to the harm inflicted by pipeline failures. The ``hearings'' 
referenced in the statute regarding fines are normally secret,
closed door affairs where no record of what has occurred is 
available to the public, even though often proposed fines are 
dramatically reduced after those hearings.
Background: From 2002 through 2018, the total amount of penalties
collected by PHMSA in completed civil penalty cases 
(from violations discovered in inspections or following incidents)
is just over $56 million dollars combined.\6\ In that same timeframe,
the nearly eleven thousand reported pipeline incidents killed 249 
people, injured 1041 and caused property damage approaching 
$8 billion dollars.\7\ Congress increased PHMSA's civil penalty
authority in the 2011 reauthorization up to a cap of $200,000 per
violation and $2 million dollars for a related series of 
violations. In spite of that increase, there has not been a 
corresponding increase in penalties proposed or collected, 
suggesting that PHMSA remains reluctant to impose penalties.
In fact, some dramatic incidents, like the failure and explosion
of a NiSource natural gas pipeline in Sissonville, WV 
(caused by corrosion) that destroyed a home and a section
of Interstate highway, have resulted in no civil penalties at all. 
\6\https://primis.phmsa.dot.gov/comm/reports/enforce/CivilPenalty
opid7X 10.html?nocache=9634#7X TP 7X 11 7X tab 7X 13 
(from 11/29/2018).
\7\PHMSA, All Reported Incident Trends, (from 11/29/2018).
Some states, notably California, have dramatically increased
their use of civil penalties in the last decade, levying large
fines like the one levied against PG&E following the San Bruno 
tragedy. The state regulator fined the utility $1.6 billion 
dollars for violations related to the 2010 failure in San Bruno
and has since fined the utility additional millions relating 
to subsequent recordkeeping, reporting and other violations. 
These large fines are possible because the California, and 
other state statutes, do not have a limit on penalties for 
a related series of violations. Each day in violation is
subject to another penalty.
Fortunately it is very rare that a pipeline operator violates
the regulations in a way that would be considered criminal.
Our organization, the Pipeline Safety Trust, was born from 
one of those rare incidents where an operator's actions were 
proven to be so reckless as to kill members of the public and
do uncounted environmental harm. In that case the U.S. Justice
Department under President Bush did an outstanding job prosecuting
that case, fining the company, and actually getting jail time for
company employees. There have only been a handful of other incidents
caused by such reckless behavior from pipeline companies since that
case nearly 20 years ago, but it is important not to create barriers
that make it difficult to hold companies accountable when they 
knowingly or recklessly ignore the laws meant to keep people safe.
The current statute that applies to pipeline safety_Title 49 USC 
 60123. Criminal Penalties_sets an unusually high bar for holding
companies accountable for criminal behavior. We ask that you align
the pipeline safety rules under PHMSA with the PHMSA rules for 
transportation of hazardous materials and change 60123 to adopt
the ``willfully or recklessly'' language from the Hazmat statute
in Title 49 USC  5124. Criminal Penalties.
While PHMSA maintains considerable discretion over when and
how much to fine a pipeline company, Congress should at least
remove the barriers to adequate enforcement so the agency has
the ability to send a message to a company when need be. 
Congress should also make sure the hearing process where 
final fines are determined is open to the public, that notice
is provided, and that associated non-security-sensitive 
information is also publicly available.
Recommendations: Eliminate the cap on civil penalties
for ``a related series of violations,'' make the hearings
public, amend the penalty amount for LNG facilities to
a commensurate level with pipelines, and change the
language for the standard for criminal penalties to
align with the hazardous materials rules. Direct the
Secretary to amend the agency's regulations accordingly
within 180 days. 
Proposed Language to fix this problem 
 60122. Civil penalties
(a) GENERAL PENALTIES._
(1)A person that the Secretary of Transportation decides,
after written notice and an opportunity for a hearing for
which public notice and access must be given, has violated
section 60114(b), 60114(d), or 60118(a) of this title or a
regulation prescribed or order issued under this chapter 
is liable to the United States Government for a civil penalty
of not more than $200,000 for each violation. A separate 
violation occurs for each day the violation continues. 
The maximum civil penalty under this paragraph for a related 
series of violations is $2,000,000.(2)A person violating a 
standard or order under section 60103 or 60111 of this title
is liable to the Government for a civil penalty of not more
than $200,000 $50,000 for each violation. A penalty under 
this paragraph may be imposed in addition to penalties imposed 
under paragraph (1) of this subsection.

 60123. Criminal penalties
(a) GENERAL PENALTY._A person knowingly, and willfully,
or recklessly violating section 60114(b), 60118(a), or
60128 of this title or a regulation prescribed or order
issued under this chapter shall be fined under title 18,
imprisoned for not more than 5 years, or both. 
The Need for a Mandamus Clause Under  60121
Goal: Amend the federal Pipeline Safety Act to include
a provision allowing actions for mandamus against the 
agency for failing to fulfill non-discretionary duties under 
the Act. 
Background: In 2015, the City of San Francisco, after witnessing
the terrible nearby tragedy in San Bruno, felt so strongly that 
PHMSA was failing to uphold the statutory requirements and 
Congressional mandates under the Pipeline Safety Act that they 
went to court to force PHMSA to do so. The Ninth Circuit Court 
of Appeals, without addressing the merits of the case, dismissed
the case with an opinion holding that the Pipeline Safety Act does
not provide the basis of a mandamus action to force PHMSA to carry
out a duty under the Act.\8\ The court relied, in part, on the
absence of any explicit mandamus remedy in the Actions By Private
Persons provision (49 USC 60121).
\8\City and County of San Francisco v United States Department of
Transportation,https://www.transportation.gov/administrations/
office-general-counsel/city-and-county-san-francisco-v-dot
Recommendation: We believe that local and state governments, 
and others, should be able to ask the courts to carry out what
Congress has required of it in the statutes. This is a common
protection in many other laws. We urge Congress to include the
following language in this year's reauthorization to close 
this loophole. 
Section 60121 of title 49, United States Code, is amended by
adding at the end the following:
``(e) MANDAMUS._A person may bring a civil action in an appropriate
district court of the United States to compel the Secretary to
perform a nondiscretionary duty under this chapter that the 
Secretary has failed to perform.''
The Need to Ensure that Unintended Releases are Prohibited Under
 60118 Background: As currently written the pipeline safety 
statutes do not expressly prohibit the release of gas or hazardous 
liquid from a pipeline. That is, as the Fifth Circuit found in
a review of the PHMSA enforcement action following the 2013 spill
from the ExxonMobil Pegasus pipeline in Mayflower, Arkansas,
an operator can cause a reportable incident, or even a significant
incident, without necessarily having violated a safety regulation.
Because of the performance-based nature of many of the PHMSA rules
it is possible for a pipeline operator to have a plan of operations,
or an integrity management plan, that meets all of PHMSA's
requirements, but still allows releases to happen. In other words
under PHMSA rules an operator has to have a plan, but they don't 
necessarily have to have a plan that works to prevent releases. 
To close that loophole, we propose that language be added to 
require operators to avoid releases of gas or hazardous liquids 
in quantities that would make them reportable incidents under 
PHMSA regulations. We propose that this prohibition be inserted 
into 49 USC 60118, the general compliance and waiver section
of the statutes. This section is subject to enforcement by PHMSA
under 60122 or by the Attorney General under 60120. PHMSA would
still maintain their discretion of how to deal with such releases,
but this additional language would make it clear that the intent 
of the statute is to prohibit releases. This also aligns with all
the major pipeline industry association's goal of ``zero'' 
incidents, and since so many of the PHMSA regulations have moved
toward performance based requirements it would provide a good 
incentive to make sure performance means no releases.
Proposal: Amend 60118. Compliance and waivers by adding at the 
end of (a) General Requirements the following
(5) not release gas or hazardous liquid from a pipeline facility 
in a quantity that would require the reporting of an incident
or accident under regulations prescribed under this chapter.
Ensuring PHMSA Follows the Intent of Reporting Under 60102
The existing statute on safety-related conditions reporting 
is found at 49 USC 60102(h) and requires the Secretary to 
promulgate rules requiring the reporting by an operator of any
``condition that is a hazard to life, property, or the environment
'', and ``safety related condition that causes or has caused a
significant change or restriction in the operation of a pipeline
facility.'' Reports are to be received within 5 working days after
the operator establishes that such a condition exists. 
PHMSA refers to these reports as the leading indicators it 
collects, as compared to incident reports, which are lagging 
indicators of safety. Collecting information about hazardous 
conditions that could cause incidents allows the agency to 
examine those conditions, determine their frequency and degree
of risk, and perhaps to pre-emptively issue advisories or 
regulations to prevent recurring hazardous conditions from 
becoming a spate of pipeline facility failures. The agency 
describes them this way, acknowledging that the exemptions 
included in the implementing regulations reduce the value 
of these reports as a performance measure: 
``Leading indicators are precursors that may lead to an
accident or injury. They can be used to monitor the effectiveness
of integrity programs and safety management systems before
accidents, damages, or failures happen. As leading indicators 
focus on enhancing performance and reducing the probability 
of serious accidents, they can compensate for any shortcomings
of lagging performance indicators.  PHMSA regulations
require operators to submit reports for certain conditions 
before a leak has actually occurred. However, the regulations
include numerous exemptions from reporting. These exemptions
reduce the value of SRCR as a performance measure.''\9\
\9\Leading Indicators_SRCR and IM Notifications https://
www.phmsa.dot.gov/data-and-statistics/pipeline/leading-indicators
-srcr-and-im-notifications
The regulations, found at 49 CFR part 192.23 and 195.55, rather
than requiring reporting of the conditions the statute broadly
describes as hazards to life, property or the environment, as
well as safety related conditions that restrict the operation of
a facility, instead identify a limited number of specific 
(although ill-defined) types of conditions that must be reported
and then provides several exemptions from the requirement to 
report even that limited subset of conditions. For example, wholly
exempted from reporting requirements are hazardous conditions 
that exist more than 200 meters from a building intended for 
human occupancy or outdoor place of assembly and those that are
repaired or otherwise corrected before the report is due (5 days),
as well as abnormal loading or movement of a pipeline from 
environmental or seismic causes unless the movement ``impairs
the serviceability of a pipeline.'' It is important to remember 
that the point of making reports of hazardous conditions that 
don't cause incidents is to allow the regulator to learn about 
their frequency and degree of risk so it can proactively respond
to identified risks. The exemptions to reporting requirements
prevent these reports from being useful to PHMSA for that 
purpose. A hazardous condition might happen to a pipeline in
any location. Exempting reports of those conditions by their
proximity to occupied buildings or if it is repaired before 
the report is due eliminates the usefulness of these reports 
in identifying either the frequency or the degree of hazard.
If these reports are to be useful as leading indicators of
safety risks, the reporting requirement must be consistent
with, and as broad as the statutory language and Congress'
original intent. 
Proposal: Amend 49 USC 60102 (h) Safety Condition Reports
by adding at the end the following section
(3) Regulations prescribed by the Secretary under this section 
shall not exempt any conditions from reporting requirements if
such an exemption would reduce or eliminate the value of these
reports as leading indicators of safety or environmental hazards.
The Secretary shall make the content of these reports available
to the public on the agency website.
Clarify and Increase Appropriations Under  60125 State operated 
pipeline safety programs under agreements with PHMSA oversee 
over 80 percent of the pipeline mileage in the country. Under
the Pipeline Safety Act PHMSA has the authority to reimburse
states for up to 80 percent of the costs associated with this
oversight, yet as the chart here shows PHMSA often falls well
below this level putting state programs in a bind to do more 
with less, which does not often work out well when safety is
concerned. Because of this reimbursement rate gap states also
often pay their inspectors less than what PHMSA pays inspectors,
which is less than what the pipeline industry pays its similar
employees. This has led to a well-understood situation throughout
the country where states train inspectors, that then leave the 
state to work for PHMSA or the industry. PHMSA has a similar
problem with its own engineer inspectors being recruited by the
pipeline industry who can pay more, thus leaving the state and
federal regulators with the least trained workforce to oversee 
this country's pipeline safety. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

This situation needs to be cured by ensuring that both state
and federal inspectors can be hired at more competitive wage
rates, and by Congress making sure adequate funding is
authorized and appropriated to cover these costs. Congress
also needs to ensure that PHMSA is charging user fees as 
authorized in 49 USC 60301 at sufficient rates to cover 
these increased costs, along with all other pipeline functions
of PHMSA.
In September 2018 the Secretary delivered to Congress a Nationwide
Integrated Pipeline Safety Regulatory Database Feasibility Study.\10\
In that study, wisely required by Congress in the 2016 Act, PHMSA 
pointed out that state programs are not required to provide PHMSA
with comparable inspection and enforcement information even though 
PHMSA is paying states up to 80 percent of their costs for these
functions. The lack of comparable data makes it impossible for
PHMSA,Congress, or the public to know how state pipeline safety 
programs are performing, and more importantly to know how pipeline
companies within those states are performing under the varying state
regulatory regimes. As PHMSA points out in the study by requiring
and collecting this information from states PHMSA could:
\10\https://www.phmsa.dot.gov/sites/phmsa.dot.gov/files/docs
/news/69271/reports-congress-09262018.pdf``incentivize pipeline 
operators regulated by States to improve safety and avoid 
enforcement actions,'' ``allow PHMSA to analyze the most frequently 
violated aspects of pipeline safety regulations,'' provide 
``regulators, both PHMSA and State, with knowledge of previous
inspection and enforcement actions for a pipeline operator,
regardless of the regulator conducting the inspection.''
For these reason we hope that Congress will authorize funding
for PHMSA and the States to get this important information 
sharing exchange started. While in the study PHMSA painted 
a picture of the need for years to implement such a system, 
in reality there is no reason this could not be phased in 
over time with at least the basic information collected immediately
about which companies are being inspected by each state and for
what, and what types of enforcement actions are being taken against
pipeline companies in each state and for violated what rules. 
This would not be a heavy lift, and would give PHMSA, Congress,
and the public some idea of how well the States and more 
importantly pipeline companies operating within the states,
are doing regarding pipeline safety. We are somewhat astounded
to learn that PHMSA does not already have this information
in exchange for funding state programs.
Require Minimum Standards for over 435,000 Miles of Natural
Gas Gathering Lines PHMSA estimates there are over 435,000 miles
of unregulated onshore gathering lines.\11\ While these gas
gathering lines are the same size and pressures as regulated 
gas transmission lines, and thereby have the same risk, they 
are not covered at all under PHMSA's regulations. In PHMSA's
2016 Notice of Proposed Rulemaking the agency proposed to begin 
regulating all rural (10 or fewer buildings intended for human 
occupancy nearby) gathering lines 8 inches or larger with some 
very basic regulations to start ensuring they are safe while
collecting information about where they are actually located and
what incidents they are causing. The PHMSA proposed regulations 
are actually less than what PHMSA already requires of offshore 
gathering lines, so in fact fish in the Gulf of Mexico are currently
better protected than people living in rural areas of states such
as Pennsylvania, West Virginia, or Texas. The PHMSA proposal for
regulating these gathering lines is also considerable weaker than
what the state pipeline safety programs asked for in 2010 when 
they passed a resolution\12\ asking that PHMSA regulate these 
gathering line similarly to the way gas transmission lines are 
regulated. Unfortunately, the gathering pipeline industry howled,
gnashed their teeth, and as we mentioned above threatened to use
the cost-benefit requirements of the statute to kill the entire
large natural gas rule that PHMSA has been working on since 2011.
In response to the tantrum the gathering line industry threw, 
PHMSA ignored their state regulatory partners, ignored the threat 
to the public that live near rural gathering lines, and carved 
the gathering line part of the rule into it's own separate rule,
and has since recommended at this point to leave out the majority 
of gathering lines from the rule altogether. They then gave the
industry time to develop an industry designed recommended practice
(standard), that both PHMSA and the industry hopes will be 
incorporated into PHMSA's rule as the new gathering regulation.
\11\PHMSA GPAC Presentation_Slide 14_https://www.phmsa.dot.gov
/sites/phmsa.dot.gov/files
/docs/standards-rulemaking/pipeline/70276/gas-gathering-lines
-gpac-meeting-jan-8-9-2019-presentation-version-12-21-2019.pdf 
\12\NAPSR Resolution 2010-2-AC2 
http://nebula.wsimg.com/215b293abe58ff21d6d2ad867ae864a3?
AccessKeyId=8C483A6DA79FB79FC7FA&disposition=0&alloworigin=1 
Contrary to the industry, there is of course good reason to 
extend better safety requirements to the hundreds of thousands
of miles of currently unregulated gathering lines. Below are
pictures of what a 10-inch gathering line did to a home near 
Midland, Texas last year and of the three-year-old girl who 
died in that pipeline failure. The exact cause of that failure
is still unknown, (no one is investigating because it is 
unregulated), but clearly a 10-inch gathering pipeline about
20 feet from this home posed a risk. The common sense rules 
that PHMSA had included in their original proposal like 
corrosion control, damage prevention, public awareness, and 
leak surveys may help to prevent another tragedy like this,
but under both PHMSA's and the industry's current proposal for
these types of lines this pipeline would remain completely 
unregulated.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

While API continues to push forward to create an industry  
designed recommended practice for PHMSA to incorporate as the 
gathering line rule, that effort is fraught with many fairness,
completeness, and process issues. Last summer the state regulators 
(NAPSR) withdrew from that entire process writing in part:

``There are multiple reasons for withdrawal; however the primary 
reason is that NAPSR declines to endorse or to give any appearance 
of endorsement of the API Onshore Gas Gathering Line RP. . In
addition, it appears that efforts to produce the RP draft had 
begun, without any notifications to the industry, the public, or
to State or Federal regulators, some time before NAPSR and other
outside stakeholders were invited to participate. These efforts 
infringe upon the process for fair and unbiased development of 
standards or other practice documents that are produced for 
industry and sometimes regulatory guidance.''
This is clearly a situation that could be improved by removal
of the cost-benefits requirements that we talked about earlier
to allow PHMSA to move forward on the rules they think are 
necessary, instead of the rules the industry will agree to. 
It is time to end this standoff on over 435,000 miles of risky 
gathering lines, and the easiest way to move forward on this
issue immediately is for Congress to make clear in the statute
that you want these rural lines regulated to some degree, which
would then give PHMSA the ability and flexibility to do what 
they think is necessary. One way this could be accomplished 
is by changing the language in the statute as follows:
60101. Definitions

(a) GENERAL._In this chapter__
(21)``transporting gas''__
(A)means__
(i)the gathering, transmission, or distribution of gas by 
pipeline, or the storage of gas, in interstate or foreign
commerce; and
(ii)the movement of gas through regulated gathering lines, 
which shall include all onshore gathering lines operating 
above 20% SMYS.; but
(B)does not include gathering gas (except through regulated
gathering lines) in a rural area outside a populated area
designated by the Secretary as a nonrural area.
Needed Performance Standard for Hazardous Liquid Leak Detection,
and Gas Transmission Rupture Detection.
In the Pipeline Safety, Regulatory Certainty, and Job Creation Act
of 2011, Congress asked the Secretary to provide a report within
one year on the technical limitations of current leak detection
systems, the practicability of developing standards for the 
capabilities of leak detection systems, and the costs and 
benefits of requiring pipeline operators to use such systems.
PHMSA completed an in-depth study of leak detection systems 
in December of 2013.\13\ That study found that for hazardous 
liquid pipelines:\13\Leak Detection Study_DTPH56-11-D-000001 
https://www.phmsa.dot.gov/sites/phmsa.dot.gov/files/docs/
technical-resources/pipeline/16691/leak-detection-study.pdf
``The pipeline controller/control room identified a release
occurred around 17 percent of the time.''Emergency responders or
a member of the public were currently the most likely means of
discovering a pipeline release.``There is no technical reason why 
several different leak detection methods cannot be implemented at
the same time. In fact, a basic engineering robustness principle
calls for at least two methods that rely on entirely separate 
physical principles.''``External sensors have the potential to
deliver sensitivity and time to detection far ahead of any 
internal system.''
In 2010 PHMSA issued an ANPRM for hazardous liquid pipelines that
asked in part whether PHMSA should ``establish and/or adopt standards
and procedures for minimum leak detection requirements for all 
pipelines.'' Nearly eight and a half years after the close of the
comment period on that ANPRM the proposed rule has still not been
issued. Again, the slowness of the rulemaking process seems at odds
with the public proclamations of concern and action.
In its hazardous liquid transmission pipeline integrity management
rule, PHMSA requires that operators have a means to detect leaks,
but there are no performance standards for such a system.\14\ This
is in contrast to the State of Alaska, for example, which requires
that all crude oil transmission pipelines have a leak detection
system capable of promptly detecting a leak of no more than 1 percent
of daily through put\15\, or the State or Washington that requires
intrastate hazardous liquid pipelines have ``leak detection systems
must be capable of detecting an eight percent of maximum flow leak
within fifteen minutes or less.'`�\16\ PHMSA listed in the integrity
management rule various criteria for operators to consider when 
selecting such a device. Again, such an approach is virtually
unenforceable and not protective of important environmental assets
such as rivers and lakes including those not considered High 
Consequence Areas.
\14\See 49 CFR 195.452(i)(3).
\15\See 18 AAC 75.055(a)(1).
\16\See WAC 480-75-300
The Enbridge spill in Michigan and the Chevron pipeline release 
near Salt Lake City, both nearly nine years ago, are examples 
of what can go wrong when a pipeline with a leak detection system
has no performance standards for operations. In both those 
incidents the pipelines had leak detection systems as required
by regulations, but neither system was capable of detecting and
halting significant spills. 
We ask that Congress direct PHMSA to issue performance standards
for leak detection systems used by hazardous liquid pipeline 
operators by a date certain to prevent damage from future pipeline
releases. Such standards need to clearly determine the size of leak
the system is capable of detecting, and the time required for the 
system to issue an alarm in the event that a leak of that size 
should occur. Requirements for Automated Remote Shut-off Valve
Placement and Performance on Transmission Pipelines.
Natural Gas Transmission Pipelines_Two decades ago Congress was
debating a requirement for remote or automatic shutoff valves 
on natural gas pipelines in the wake of the Edison, NJ accident
and the two and a half hours it took to shut off the flow of gas
that fed the fireball due to the lack of a remotely controlled 
shut off valve. After the 2010 San Bruno tragedy where it took 
the pipeline operator over an hour and a half to drive to and
close a manual valve the NTSB recommended that PHMSA ``Amend 
Title 49 Code of Federal Regulations 192.935(c) to directly 
require that automatic shutoff valves or remote control valves
in high consequence areas and in class 3 and 4 locations be 
installed and spaced at intervals that consider the factors 
listed in that regulation.'' In the Pipeline Safety, Regulatory
Certainty, and Job Creation Act of 2011 Congress asked the 
Secretary to consider within two years appropriate regulations
to require the use of automatic or remote-controlled shut-off
valves, or equivalent technology, on new or replaced pipelines.
PHMSA did contract with Oak Ridge National Laboratory for a 
study of such valves. That study\17\ concluded that ``
installing ASVs and RCVs in pipelines can be an effective
strategy for mitigating potential consequences of unintended
releases because decreasing the total volume of the release
reduces overall impacts on the public and to the environment.''
\17\http://www.phmsa.dot.gov/pv7Xobj7Xcache/pv7Xobj7Xid7X2C
1A725B08C5F72F305689E943053A96232AB200/filename/Final%20Valve
7XStudy.pdf
In 2010 PHMSA issued an Advanced Notice of Proposed Rulemaking 
(ANPRM) for hazardous liquid pipelines, and then in 2011 PHMSA 
issued an ANPRM for gas transmission pipelines. Both ANPRMs made
it clear that some change to the requirements for automatic or
remote-controlled valves was being considered. Many stakeholder
groups invested a significant amount of time responding to these 
ANPRMs. Unfortunately, years later, information regarding how 
PHMSA will deal with this issue in a future rulemaking has not
been made available. The slowness of the rulemaking process
regarding automatic and remote-controlled shut-off valves seems
at odds with the public proclamations of concern and action.
Hazardous Liquid Pipelines_For liquid pipelines the foot dragging
is even worse. In 1992, 1996, 2002, and 2006, Congress required 
OPS to ``survey and assess the effectiveness of emergency flow 
restricting devices (including remote controlled valves .. } 
to minimize product releases''\18\ with the first such requirement
having a deadline in 1994 (24 years ago!). Following this
analysis, Congress required OPS to ``prescribe regulations on the
circumstances under which an operator of a hazardous liquid 
pipeline facility must use an emergency flow restricting device.
''\19\ 
\18\See 49 USC 60102(j)(1).
\19\See 49 USC 60102(j)(2).
OPS/PHMSA never issued a formal analysis on emergency flow 
restricting device (EFRD) effectiveness. Instead, in its 
hazardous liquid pipeline integrity management rule\20\, 
OPS rejected the comments of the NTSB, the US Environmental
Protection Agency, the Lower Colorado River Authority, the
City of Austin, and the Environmental Defense Fund and chose
to leave EFRD decisions up to pipeline operators after listing 
in the rule various criteria for operators to consider. Such
an approach to EFRD use does not appear to meet Congressional
intent, partly because the approach is essentially unenforceable
and not protective of important environmental assets such as 
rivers and lakes including those not considered High Consequence
Areas.\20\See 49 CFR 195.452(i)(4).
Congress needs to reiterate its previous mandates to PHMSA on
EFRD use on liquid pipelines and ensure they are followed to
mitigate the extent of future pipeline releases.
Pipeline Segments that Cross Rivers are Not Sufficiently 
Protected by Existing RulesIn July 2011, the ExxonMobil Silvertip 
Pipeline ruptured where it crosses the Yellowstone River near 
Laurel, Montana. The investigation into the cause of the failure
revealed that the pipeline had been undermined by sustained 
floodwaters scouring the riverbed and exposing the pipeline,
resulting in its failure along what had become an unsupported 
span submerged in the river. The rupture resulted in the release
of more than 63,000 gallons of crude oil into the Yellowstone
River, and approximately $135 million dollars in property damage. 
In the 2011 reauthorization act, Congress asked the Secretary to 
study hazardous liquid pipeline incidents at crossings of inland
bodies of water with a width of at least 100 feet to determine if
the depth of cover over the buried pipelines was a factor in any 
accidental release of hazardous liquids. If the Secretary's study
found that depth of cover was ``a contributing factor,'' then a
review of the existing regulations and development of legislative
recommendations was required. 
The existing regulations require that newly constructed pipelines
that cross inland water bodies with a width of at least 100 feet
between high water marks be buried at least 48 inches beneath the 
riverbed. There is no requirement for maintaining any particular 
depth of cover. PHMSA concluded after its study that it required
no additional legislative authority to address risks of hazardous
liquid pipeline failures at major river crossings. We agree. While
we feel there were major shortcomings in the study produced by
PHMSA, and we believe that significant changes are necessary to 
the existing regulatory requirements for pipelines crossing water
bodies, we concur that PHMSA possesses adequate authority to 
improve the regulations. Whether such a rulemaking might ever
be undertaken or could make it through the substantial 
bottleneck that the rulemakings underway since 2010 and 2011
have encountered are separate questions.
The river crossing study produced by PHMSA did succeed in 
highlighting several major issues with the existing rule and 
its implementation: PHMSA has no data set, geographic or 
otherwise, that identifies the 100 foot wide crossings that 
are subject to the four foot depth of cover rule at the time 
of construction, making enforcement of the rule dependent on 
having a PHMSA inspector on site at the time of construction 
at every crossing where the rule might apply.
Rivers are dynamic systems, as the Silvertip failure graphically
illustrates. The existing rule only applies at the time of 
construction, but does not require an operator to maintain 
four feet of cover over the lifetime of the pipeline.
Many river systems narrower than 100 feet can dramatically
scour their beds, putting perhaps thousands of other pipelines
at risk of exposure and failure. The existing rule does not
cover those crossings. 
The integrity management rules and their implementation and 
enforcement are not a sufficient substitute for an adequate rule
prescribing operators' ongoing depth of cover obligations at all
crossings. The Silvertip system underwent an integrity management
inspection from PHMSA less than a month before its failure, yet 
there is no indication that the vulnerability of the line and the
inadequacy of the operations plans were identified. Moreover, the 
IM rules apply to only 42 percent of liquid lines in the country.
There may be many crossings that do not fall within the narrow 
definition of an ``unusually sensitive area'' and where IM rules 
would therefore not apply. Proposal: Direct the Secretary to 
acquire and maintain a geographic data set capable of identifying
pipelines crossing water bodies with a width of at least 100 feet
between high water marks, and where the pipeline segment is within
or could affect a high consequence area. Direct the Secretary to 
inventory the conditions of these crossings, determining the 
current depth of cover and the adequacy of each operator's 
assessment of the risk to a pipeline from flooding, erosion,
riverbed scour, bed load movement or slope instability, and to
incorporate the findings from that inventory in a report to
Congress, together with a regulatory proposal to better 
protect pipelines (both liquid and gas) at water body crossings
and high consequence areas from potential failures. 
Address Shortcomings in the Way PHMSA Defines and Addresses
High Consequence Areas for Hazardous Liquid Pipelines
The Integrity Management rules for hazardous liquid pipelines
apply only to those 41 percent of HL lines that ``could affect
'' a high consequence area if the line fails. There are two 
areas where we believe the agency has overly narrowly defined
areas that should be subject to these rules: areas described
by Congress as those crossing waters ``where a substantial 
likelihood of commercial navigation exists,'' and those ``
unusually sensitive to environmental damage.''
When Congress delegated the identification of those unusually
sensitive high consequence areas to the Secretary of
Transportation in 49 USC 60109, it was with this direction:
(b)AREAS TO BE INCLUDED AS UNUSUALLY SENSITIVE 
(1)locations near pipeline rights-of-way that are critical
to drinking water, including intake locations for community
water systems and critical sole source aquifer protection
areas; and (2)locations near pipeline rights-of-way that have
been identified as critical wetlands, riverine or estuarine 
systems, national parks, wilderness areas, wildlife preservation
areas or refuges, wild and scenic rivers, or critical habitat 
areas for threatened and endangered species.
Unfortunately, in the adoption of the definitions for Unusually 
Sensitive Areas (USAs) the agency defined them much more narrowly
than by using Congress's list. Instead, the agency developed a set
of definitions for ``ecological resource areas'' that relies on 
little known, arcane non-governmental designations and completely
excludes areas that Congress clearly expected would be included.
For example, National Parks and designated wilderness areas are
not necessarily USAs. National Wildlife refuges are not
necessarily USAs. Wild and Scenic Rivers are not necessarily
USAs. It is not even clear that critical habitat for threatened
and endangered species designated under the Endangered Species
Act is automatically a USA. Instead, to be a USA, an area must
be, for example, a Ramsar site designated under The Convention
on Wetlands of International Importance Especially as Waterfowl
Habitat, or otherwise defined by a ranking system developed by 
the Natural Heritage Programs, or the Nature Conservancy's Global
Conservations Status Rank, or a Western Hemisphere Shorebird
Reserve Network. Once these very narrow definitions were adopted,
PHMSA was to identify these areas and make those designations 
available to operators so they could identify which segments of 
their pipelines could affect these areas in a rupture. PHMSA has
not updated these definitions, nor has it kept up with the 
geographic designation of these areas over the years since they 
were first identified. That means they have no way of inspecting
operator compliance with HCA identification or operator assessment
of risks to the environment in the case of a rupture. 
The public is prevented from seeing PHMSA's efforts to map these 
USAs, so we have no way of knowing whether they have mapped even 
these very narrowly defined areas correctly. 
The Pipeline Safety Trust asked for an expansion of these areas
and therefore the number of pipelines covered by the integrity 
management rules when PHMSA asked for input on changing the 
Hazardous Liquid safety rules in 2010. That rule, finalized 
in 2016 under the Obama Administration, was withdrawn and has
yet to be re-issued, so we have no way of knowing whether any 
changes will be made in that rule, assuming it is again 
finalized and released. The issue with identification of commer-
cially navigable waters, administratively defined to include `
`a waterway where a substantial likelihood of commercial 
navigation exists'' is not one of definition, because those are 
the exact words Congress directed the agency to use. Rather it 
is in the implementation of that definition, where PHMSA uses 
a definition of commercial navigation that limits its applicatio
n to major shipping routes for freighters, excluding commercial
fisheries, charter boats, tribal commercial or subsistence 
fisheries, or any other small scale commercial use. This 
results in a nonsensical designation of small strips of coastal
waters, large rivers and harbors being identified as HCAs, 
rather than the entire body of water.Proposal Require GAO do 
a study of whether PHMSA's definitions and identification of
various Unusually Sensitive Areas (USAs) and commercially 
navigable waterways for Hazardous Liquid pipelines are consistent
with other environmental regulations, are sufficiently inclusive
to meet the original intent of Congress, and whether PHMSA 
currently has and maintains GIS data layers that allow the agency
and the industry to know where such HCA boundaries are, and 
whether PHMSA uses this GIS data to ensure pipeline operators
are accurately identifying HCAs and the risks to them from the
potential failure of a pipeline. This would most likely have
identified the problem with the majority of the Great Lakes being
left out of HCA definitions. Congress took action to mandate the
designation of the Great Lakes as HCAs in the last 
reauthorization, but the agency has yet to issue implementing
regulations for that designation.
Congress should also mandate that HCA designations be made public
on the National Pipeline Mapping System so state and local
governments, and the public can ensure that PHMSA and pipeline
companies are correctly designating such important areas.
Methane Emissions from Pipelines_
It is well understood that natural gas pipelines of all types
leak, and that during repairs large quantities of gas is vented
into the atmosphere. This is allowed under the current 
regulations, because up until recently the value of the gas
was thought to be insignificant, and the effects of the methane
being released was not understood. Over the past decade many 
studies, from a variety of sources, have shown that the amount
of gas lost through ongoing leaks costs consumers hundreds of
millions of dollars, and that the methane in those leaks has
a much more dramatic effect on climate change than carbon 
dioxide. Unfortunately PHMSA has paid little attention to these
issues, has no clear emission reporting requirements, and their
own incident reporting thresholds (no report required until 3 
million cubic feet of gas released) exempts many large releases
from even being reported. For those reasons it is essential that
Congress requires PHMSA to do the following: Require companies to 
use the best technology available to capture natural gas when making 
pipeline repairs. Require companies to use the best technology to
look for leaks Require companies to adequately invest in replacement
and repair programs for known types of leaky pipelines.Change the 
reporting requirements for gas incidents to a more realistic level
to track how much is actually being released. We would suggest 
changing the reporting threshold from 3 million cubic feet to 
50,000 cubic feet (50,000 cubic feet is equivalent to the average
monthly use in 9�910 homes\21\).\21\The American Gas Association,
Natural Gas: The Facts  https://www.aga.org/globalassets/2019-natural
-gas-factsts-updated.pdf 
Hopeful Initiatives in the Works Safety Management Systems (SMS)_
In 2015, based on a recommendation from the NTSB after nearly a
million gallons of oil was spilled into the Kalamazoo River in
Michigan, the pipeline industry created a recommended practice 
(API RP1173)\22\ to help pipeline companies implement a 
continuous improvement Safety Management System. This promising
voluntary effort ought to help companies reduce the number of 
incidents and near misses they have, and help create a stronger 
safety culture within companies so safety really is the first
priority, not just a slogan. We have already seen some companies 
embrace this fully, and for those companies the change is real.
So we support this effort, and believe it can have lasting impacts,
but only if companies embrace it, which is always the rub with 
voluntary practices. We were surprised after the recent tragedy 
in Massachusetts to hear how many of the gas companies in that 
state had not yet moved forward on SMS, and only did so after 
a tragedy and the strong urging of the state regulator. We think
it is still too early to have to make SMS a required regulation,
but Congress should certainly ask the industry to show proof that
companies are adopting this voluntarily, and what the measurable 
outcomes are. If the rate of adoption and implementation is too 
slow then PHMSA or Congress may need to step in with regulatory 
requirements, or enforcement incentives, to ensure that all 
companies embrace this valuable system, and not just the companies
who do truly put safety first. 
\22\https://pipelinesms.org/wp-content/uploads/2018/08/API-RP-1173-
Pipeline-Safety-Management-Systems.pdf
Voluntary Information Sharing (VIS)_For the past two years PHMSA has
been working with the Voluntary Information Sharing Working Group to
produce a report for the Secretary outlining the benefits of setting 
up a Voluntary Information Sharing system for pipeline safety similar
to what the FAA has for airline safety. The Pipeline Safety Trust 
supports the creation of a Pipeline Safety VIS, but the draft report
we saw lacked many important details about initial and ongoing 
costs, how and who will pay for this system, how and who 
information would be shared with, how the program's effectiveness 
will be assessed, and how the important participation by non-
regulatory, non-industry participants will be guaranteed. For 
these reasons we hope you will seek greater clarity on the above
questions before moving forward with complete authorization for 
such a VIS. One option might be to provide PHMSA with the authority
and the funding to create the multi-stakeholder VIS Executive 
Committee as envisioned in the report, and then task that group
to flesh out the details to Congress' satisfaction before greater
funding is provided.
I thank you for the opportunity to provide this testimony today, 
and as always I am available to answer any additional questions 
you might have and to work with you further as the reauthorization
of the national pipeline safety program continues.
Mr. Lipinski.Thank you, Mr. Weimer.
Now, Mr. Black, you are recognized.
Mr. Black.Thank you, Mr. Chairman, Ranking Member.
I am Andy Black, president and CEO of the Association of
Oil Pipe Lines. AOPL represents the owners and operators
of liquid pipelines transporting crude oil; refined products
like gasoline, diesel fuel, jet fuel, and home heating oil;
and industrial products like propane and ethane. We have 
over 55 member companies transporting over 21 billion barrels
of crude oil and petroleum products annually over a 215,000-
mile network of pipelines.Pipelines are the safest way to 
deliver the energy Americans use and need every day. And no
other mode of transportation is as safe for the American 
people or the environment as pipelines. And pipelines are 
getting safer. Over the last 5 years, pipeline operators have
reduced the number of pipeline incidents impacting people and 
the environment by 20 percent. This is Government data, publicly
available from PHMSA.
PHMSA data also shows pipeline incidents caused by incorrect
operation impacting people and the environment are down 38 
percent over the last 5 years. And pipeline incidents caused
by corrosion, cracking, or weld failure impacting people and
the environment are down 35 percent over that period. 
The pipeline industry and AOPL member companies work hard to
improve pipeline safety. We are transparent about where we are
 doing well and where we can do better.
The statistics I shared come from the performance report we
develop jointly each year with the American Petroleum Institute
analyzing pipeline safety data. We use this analysis to guide
our pipeline safety programs, focusing on key safety issues.
Through this safety effort, the pipeline industry has addressed
key safety recommendations from Congress, the NTSB, PHMSA,
and issues identified through analysis of pipeline safety data.
Recent safety accomplishments include developing new best 
practices for finding and fixing cracking in pipelines, managing
leak detection programs, responding to pipeline emergencies, 
and applying safety management systems to pipelines. Industry 
also just released an updated best practice for inspecting and
performing maintenance on pipelines utilizing the latest inspection
technologies and analytical techniques.
Harnessing technology to advance pipeline safety is a theme we are
pursuing across industry and we urge Congress to adopt as well. For
example, high-tech tools can now scan pipelines like an MRI or an 
ultrasound at the doctor's office. Pipeline operators have the 
opportunity to find more issues early, perform preventative maintenance,
and keep pipelines operating safely.The problem is, Federal 
regulations can't keep pace with fast-moving technology 
innovations. Outdated PHMSA regulations sometimes conflict 
with the latest knowledge and techniques.
Congress can do more to allow PHMSA and pipeline operators to
improve safety by harnessing technology and innovations, such as:
creating a pilot program to test pipeline safety technologies and 
approaches, as the Administrator alluded to earlier; authorizing 
a voluntary information-sharing program, encouraging joint 
stakeholder problem-solving; requiring regular PHMSA and 
stakeholder review of pipeline safety research and development
advances; and encouraging voluntary discovery, disclosure, 
correction, and prevention of pipeline safety violations.Next,
protecting pipeline safety and the environment from attacks on
pipelines is a top reauthorization priority for AOPL. Pipelines
are the safest way to deliver the energy we use every day. However,
pipelines are industrial facilities we must respect to keep them 
operating safely.Recent attacks on pipelines, either by turning 
valves in ways that threaten ruptures or shooting guns directly 
at pipelines or blowtorching holes in pipelines, are dangerous.
Members of the public, surrounding communities, and the environ-
ment could easily be put in danger by attacks on pipeline facilities
that could result in a spill or an explosion.Congress should deter
future attacks against pipeline facilities by closing loopholes in
the scope of criminal liability placed in Federal pipeline safety 
laws by previous Congresses on a bipartisan basis.AOPL also 
recommends improving PHMSA programs and regulations by easing 
hiring and retention of PHMSA inspectors, improving due process
and enforcement proceedings, tailoring requirements to pipeline
operating status, adjusting incident reporting requirements for
inflation, and incorporating the latest best practices on 
inspection repair and tank maintenance.I look forward to answering 
any of your questions on these proposals or improving pipeline 
safety performance record or the actions the pipeline industry 
is taking to improve pipeline safety further. Thank you again 
for the opportunity for us to testify.
[Mr. Black's prepared statement follows:]

Prepared Statement of Andrew J. Black, President and CEO, 
Association of Oil Pipe Lines Mr. Chairman, Ranking Member, Members
of the Subcommittee, thank you for inviting me here today to testify
on pipeline safety. My name is Andy Black and I am President and CEO 
of the Association of Oil Pipe Lines (AOPL). AOPL represents liquids
pipeline owners and operators transporting crude oil, petroleum 
products, like gasoline, diesel, jet fuel, and home heating oil,
and industrial products, like propane and ethane. We have over 50
member companies which deliver over 21 billion barrels of crude 
oil and petroleum products annually over a 215,000 mile network
of pipelines. AOPL members transport more than 97 percent of 
interstate barrel-miles.
Pipelines are the safest way to deliver the liquid energy we all
need and use every day. Pipelines deliver crude oil and petroleum 
products to their destination safely 99.999 percent of the time.
No other mode of transportation is as safe for the American people
or the environment as pipelines.
Pipelines are getting safer. Over the last 5 years, pipeline 
operators have reduced the number of liquids pipeline incidents 
impacting people or the environment by 20 percent. This is 
government data publicly available from the U.S. Pipeline and 
Hazardous Materials Safety Administration (PHMSA). PHMSA data also
shows pipeline incidents impacting people or the environment caused
by incorrect operation are down 38 percent over the last 5 years,
and pipeline incidents impacting people or the environment caused
by corrosion, cracking or weld failures are down 35 percent over 
the last 5 years.
The pipeline industry and AOPL member companies work hard to 
improve pipeline safety. We are transparent about where we are doing
well and where we can do better. The statistics I just shared come 
from the performance report we develop jointly each year with the 
American Petroleum Institute analyzing pipeline safety data. We use
this analysis to guide our industry-wide safety programs focusing 
on key pipeline safety issues.
Through this strategic effort the pipeline industry has addressed
key safety recommendations from Congress, the U.S. National 
Transportation Safety Board, PHMSA and issues identified through 
analysis of pipeline safety data. Recent safety accomplishments
include developing new best practices for finding and fixing 
cracking in pipelines, managing leak detection programs, 
responding to pipeline emergencies and applying safety management
systems to pipelines. Industry has also just released an updated
best practice for inspecting and performing maintenance on
pipelines utilizing the latest inspection technologies and 
analytical techniques.
Harnessing technology to advance pipeline safety is a theme we are
pursuing across industry and recommend Congress adopt as well. For
example, hi-tech tools can now scan pipelines like an MRI or 
ultrasound at the doctor's office. Pipeline operators have the 
opportunity to find issues early, perform maintenance and keep 
pipelines operating safely. The problem is federal regulations 
can't keep pace with fast-moving technology innovations. In fact,
outdated PHMSA regulations sometimes conflict with the latest
knowledge and techniques.
Congress can do more to allow PHMSA and pipeline operators to
improve safety by pilot testing innovations and learn from shared
pipeline safety insights.
AOPL proposals for Congress to harness technology and innovation 
to improve pipeline safety include:
creating a pilot program to test cutting edge pipeline safety
technologies and newly developed best practices
authorizing a Voluntary Information Sharing program encouraging
joint stakeholder problem solving
requiring regular PHMSA and stakeholder review of pipeline safety
research and development advances
encouraging voluntary discovery, disclosure, correction and 
prevention of pipeline safety violations A top reauthorization
priority for AOPL is protecting public safety and the environment
from attacks on pipelines. Pipelines are the safest way to deliver
the energy American families and consumers use every day. However,
pipelines are industrial facilities we must respect to keep them 
operating safely. Recent attacks on pipeline, either by turning
valves in ways that threaten ruptures or shooting guns or
blowtorching holes into pipelines are dangerous. Members of
the public, surrounding communities and the environment are
put in danger by attacks on pipeline facilities that could 
easily result in a spill or explosion. Congress should deter future
attacks against pipeline facilities by closing loopholes in the
scope and criminal liability placed in current federal pipeline
safety law by previous Congresses on a bipartisan basis.
AOPL also recommends Congress improve PHMSA programs and
regulations by:helping PHMSA hire and retain expert pipeline
inspectors improving due process in PHMSA enforcement 
proceedings tailoring pipeline requirements to operating 
status adjusting PHMSA incident reporting requirements for
inflation incorporating the latest best practices on inspections,
repair and tank maintenance AOPL believes there is a great amount 
of work that Congress can do to improve pipeline safety on a non-
partisan or bi-partisan basis as has been custom in prior reautho-
rization bills. Several of AOPL's proposals would specifically 
engage stakeholders from all ends of the political spectrum in the
joint effort of pipeline safety. The VIS program is supported by 
labor unions, environmental groups, pipeline safety advocates, 
PHMSA and pipeline operators. Further attention to R&D would come
in a forum which includes environmental groups, pipeline safety 
advocates, federal and state regulators and industry. Our proposal
to help PHMSA hire and retain pipeline inspectors would be paid 
for by industry itself through user fees. All of these proposals are
designed to improve pipeline safety.
Again, thank you for inviting me here today. I look forward to
answering any of your questions on these proposals, our pipeline 
safety performance record, or the actions the pipeline industry
is taking to improve pipeline safety.
Mr. Lipinski.Thank you, Mr. Black.
I now recognize Chief Eggleston for 5 minutes.
Chief Eggleston.Good afternoon, Chairman Lipinski and Congressman
Balderson and members of the subcommittee. I am Dan Eggleston,
president and chairman of the board of the International Association
of Fire Chiefs and the fire chief for Albemarle County, Virginia,
Department of Fire and Rescue. Thank you for the opportunity to 
testify at today's hearing on pipeline safety.
The U.S. transports approximately two-thirds of its domestic energy
supplies on more than 2.7 million miles of pipeline. In our opinion,
the use of pipelines is one of the safest ways to transport hazardous
materials across the Nation.However, when accidents occur, local 
emergency responders must be prepared, trained, and equipped to 
respond. During a pipeline incident, the local fire department will
be required to stabilize the incident, notify the community, and,
if necessary, evacuate affected homes and businesses, extinguish any
resulting fires, and prevent the loss of life and property. An 
effective response requires pipeline operators, local fire 
departments, and other State and local officials to work together.
This cooperation cannot start on the day of the incident. It
requires the public and the private sector to train and plan, 
exercise, and equip themselves well before the event. As the 
committee examines the reauthorization of pipeline safety programs
at the Pipeline and Hazardous Materials Safety Administration, the
IAFC recommends the committee consider the following three actions:
First, promote coordination between local authorities and pipeline 
operators.Local emergency planning committees are designed to bring 
together industry officials, local emergency responders, and other 
affected stakeholders to plan and exercise for potential pipeline 
and hazardous material incidents. Currently, there are over 3,000
known LEPCs around the Nation. However, it is unclear how many of 
these LEPCs are active.The IAFC is using a grant from the PHMSA 
Community Safety_Emergency Planning, Response, and Outreach program
to bolster LEPCs. We are bringing first responders, emergency
managers, and pipeline operators together to coordinate emergency
response plans.Also, we are educating citizens about where pipelines
are located in their communities and what steps they should take in 
case of an incident. The IAFC will use its work to develop best
practices for LEPCs to prepare for pipeline and other hazardous 
material incidents. We ask that you authorize and fund PHMSA's 
Community Safety Grant. We also ask that you continue to authorize
and fund the $1.5 million for PHMSA's Pipeline Safety Information 
Grant. This program can serve as a useful tool for helping fire 
departments learn about pipelines in their jurisdictions and prepare
for any incidents.The number-two recommendation is to support training
and exercise programs that bring stakeholders together.
Pipeline operators and local emergency responders should develop
emergency response plans well ahead of time. They should also meet
regularly and exercise them throughout the year, not just once. The 
IAFC is working with pipeline operators, such as TransCanada, to help
communities develop pipeline annexes to their emergency operations 
plans. We use a whole community approach to bring together pipeline 
operators, emergency responders, and community leaders. In some
cases, we have hosted public townhall meetings. We then follow up
with table-top exercises to test these plans and revise them as
necessary.
Training is also extremely important. At the moment, 60 percent of
fire departments providing hazmat response have not formally trained
all of their personnel. The IAFC has developed resources like the 
Rural Guide for Rail and Pipeline Incident Response and the Rail 
Emergency and Pipeline Incident Information Visor Cards to help fire
departments train and respond to an incident.We also have developed
online training in cooperation with the National Association of 
State Fire Marshals. This online training is especially important
for those departments such as volunteer departments in rural areas.
The IAFC recommends that local fire chiefs reach out to pipeline
operators and take advantage of training opportunities that 
pipeline operators may provide.And the third and final recommen-
dation is to support funding for equipment and staffing for local
fire departments.Fire departments, especially in rural areas, may
not have the equipment needed to respond to a complex incident like
a pipeline rupture. The Assistance to Firefighters Grant program 
provides matching funds for local fire departments to purchase the 
necessary equipment for pipeline incidents and other hazards. The 
SAFER Grant program provides matching grants for both hiring 
firefighters and recruiting volunteers to help fire departments 
staff the necessary staff in communities bordering pipelines.
We appreciate the continued support from Congress that is shown 
in these programs and ask you to fund these at $405 million each 
in fiscal year 2020.Thank you again for the opportunity to testify 
at today's hearing. Pipeline leaks and ruptures are very complex 
incidents. They require planning, training, and having the right 
tools and equipment in place to save lives and property. America's 
fire chiefs look forward to working with the community and the
committee to reauthorize the pipeline safety programs.I look forward
to answering any questions that you may have. Thank you.
[Chief Eggleston's prepared statement follows:]

Prepared Statement of Fire Chief Dan Eggleston, EFO, CFO, CMO, 
President and Chairman of the Board, International Association of Fire
Chiefs Good morning, Chairman Lipinski, Ranking Member Crawford and 
distinguished members of the subcommittee. I am Dan Eggleston, 
President and Chairman of the Board of the International Association 
of Fire Chiefs (IAFC), and fire chief of the Albemarle County, 
Virginia, Department of Fire Rescue. I appreciate the opportunity
to testify at today's hearing on pipeline safety: the review of
existing mandates and the examination of additional safety needs.
The IAFC represents the leadership of over 1.1 million firefighters 
and emergency responders. IAFC members are the world's leading 
experts in firefighting, emergency medical services, terrorism 
response, hazardous materials (hazmat) incidents, wildland fire
suppression, natural disasters, search and rescue, and public-
safety policy. Since 1873, the IAFC has provided a forum for its 
members to exchange ideas, develop best practices, participate in
executive training and discover diverse products and services 
available to first responders.
The Fire and Emergency Service Community America's fire and
emergency services are the only organized group of American 
citizens that is locally-situated, staffed, trained, and equipped 
to respond to all types of emergencies. There are approximately 
1.1 million men and women in the fire and emergency service_
approximately 300,000 career firefighters and 800,000 volunteer 
firefighters_serving in over 30,000 fire departments around the
nation. They are trained to respond to all hazards ranging from 
earthquakes, hurricanes, tornadoes and floods to acts of terrorism,
hazardous materials incidents, technical rescues, fires and medical
emergencies.The fire service protects America's critical infras-
tructure_the electrical grid, interstate highways, railroads,
pipelines, petroleum and chemical facilities_and is, in fact, even 
considered part of the critical infrastructure. The fire service 
protects federal buildings, including military installations, and
interstate commerce. No passenger airliner takes off from a runway
or train leaves a station that is not protected by a fire department.
Pipeline Safety and Emergency Response
The United States transports approximately two-thirds of its 
domestic energy supplies in more than 2.7 million miles of pipelines.
This system includes gathering pipelines that collect natural gas 
from wells and ship it to production areas; transmission pipelines
that transport liquids across the nation; and distribution and 
service pipelines that transport hazardous materials from 
transmission lines to residential, commercial and industrial 
customers. Overall, the use of pipelines is one of the safest ways 
to transport hazardous materials across the nation.However, accidents
do occur, and local first responders need to be prepared and trained
to respond. During a pipeline rupture or leak, the local fire
department will be required to stabilize the situation; notify and
evacuate the community (if necessary); extinguish any resulting 
fires; and prevent life and property loss. It is important that 
the pipeline operators, local fire departments, and other 
appropriate state and local officials cooperate and quickly 
resolve the incident. This cooperation cannot start on the day
of the incident. The public and private sectors must work together 
ahead of time to plan, train, exercise and equip themselves to
respond to a potential incident.
Planning
It is important that all local authorities, including the local fire
department leadership, work with regional pipeline operators to 
prepare for a rupture or leak. The pipeline operator must develop
an emergency response plan that addresses the potential hazards that
may occur and how to respond to these incidents in an effective
manner. The local fire department will have to identify where 
pipelines are in their community and familiarize themselves with 
the possible risks of the hazardous materials carried by the 
pipelines. The fire department also will have to preplan how it 
will respond to an incident, including by working with emergency 
managers and local law enforcement about how to carry out an 
evacuation order; working with local hospitals and public health 
officials in case of a mass casualty incident; and local elected 
officials and the news media to ensure that the appropriate 
messaging is given to the public. A public-private partnership
is critical to ensuring that a response goes smoothly in case
of a pipeline incident.
Local Emergency Planning Committees (LEPC) are designed to bring
industry officials, local emergency responders, and other affected
stakeholders together to plan and exercise for potential pipeline
incidents. LEPCs were created as part of the Emergency Planning 
and Community Right-to-Know Act (P.L. 99-499) as part of a national
framework to plan for chemical accidents. LEPCs are supposed to
identify chemical hazards in their communities, develop emergency
response plans, and maintain a community focus on chemical safety,
risk reduction, and accident prevention.
According to the U.S. Environmental Protection Agency (EPA), there 
are more than 3,000 known LEPCs around the nation.\1\ Unfortunately,
it is not clear how many of these LEPCs are active and carrying out 
their missions. When the EPA surveyed the LEPCs in 2008, it sent 
out 2,357 surveys and received 939 responses, an approximately 40
percent return rate.\2\ One of the IAFC's missions is to work with
community LEPCs and local pipeline operators to make sure that 
communities are prepared in case of a pipeline emergencies.
\1\ U.S. Environmental Protection Agency, 2008 Nationwide Survey
of Local Emergency Planning Committees, 4.
\2\Ibid.
The IAFC is using a Community Safety-Emergency Planning Response 
and Outreach (CS-EPRO) grant from the Pipeline and Hazardous 
Materials Safety Administration's (PHMSA) to bolster LEPCs and help
them prepare for incidents in their communities. The CS-EPRO grant
is designed to prepare communities for hazardous materials 
incidents, including those involving pipelines, and focuses 
particularly on rural areas. The local fire department, local
emergency planners and LEPC will play a leading role in this effort.
The CS-EPRO grant will help local first responders, emergency 
planners and LEPCs learn about the hazardous materials in their 
jurisdictions and communicate with industry to coordinate response
plans. This will ultimately allow local leaders to better communicate
information about these hazards to the public. The effort also will
educate citizens living in rural communities about nearby pipelines,
rail lines and facilities. In addition, it will help local citizens
prepare to take action in the case of a pipeline incident, including
what to do in case of an evacuation order. The IAFC intends to use 
these grants to develop best practices that other LEPCs can use to
prepare their communities for pipeline and other hazardous materials
incidents.
The IAFC also is working with the American Petroleum Institute (API) 
to update its recommended practice for Public Awareness Programs for
Pipeline Operators (API Recommended Practice 1162). We have found 
that the pipeline industry, especially the operators of major 
transmission lines are proactive in conducting outreach to local 
communities to help them learn about the risks relating to their 
pipelines. Many companies will provide training for fire departments
that have transmission pipelines in their jurisdictions. The IAFC
recommends that fire chiefs reach out to the pipeline operators in
their jurisdictions to identify local pipelines, learn about the
risks involved with them, and utilize ``train the trainer'' and
other educational programs that the pipeline operators provide.
Training/Exercises
Once pipeline response plans are developed, they cannot just be left
on a shelf. The local pipeline operators, local fire departments,
emergency planners, and other LEPC members must engage in regular
exercises to prepare for a possible incident. Training and exercises
identify weaknesses in plans and help communities revise them. More
importantly, they bring the emergency response officials together 
ahead of time to coordinate operations before an actual incident. 
Pipeline response operations can be complicated and it is important
that all of the participants have met before the day of the disaster.
According to the National Fire Protection Association, 60 percent of
fire departments provide hazmat response, but have not formally 
trained their personnel for these operations.\3\ The IAFC has 
developed the following resources to help fire departments train
and respond to pipeline incidents:
\3\National Fire Protection Association, Fourth Needs Assessment of 
The U.S. Fire Service, viii.
The Rural Guide for Rail and the Pipeline Incident Guide offer 
guidance on working with key players to create or revise emergency 
response plans for rail and pipeline emergencies.
The Rail Emergency and Pipeline Incident Information Visor Cards
provide a place to record important information during pipeline 
incidents.
The IAFC also worked with the National Association of State Fire
Marshals to develop online training to help local fire departments 
familiarize themselves with the basics of pipeline emergency 
response. Online training is especially important for rural 
volunteer fire departments, which may not be able to send personnel
to in-person training that is out of the region.
In addition, the IAFC is cooperating with TransCanada to help 
communities prepare for pipeline incidents. We have worked with 
jurisdictions to develop a pipeline annex to their emergency 
operations plans. This planning uses a whole community-approach to
bring together the pipeline operators, first responders and other 
community leaders. In some cases, we have hosted town hall meetings
to better inform the public about the location of a pipeline and 
the potential effects of an incident. After six months have passed,
we return to the communities to conduct tabletop exercises that allow
communities to test their plans and improve their preparedness for an
actual incident. Overall, we have implemented this program in 16 
communities since the program started in 2015.
Equipment
Fire departments need to make sure that they are equipped to handle
a pipeline incident. However, they must make sure that they purchase
equipment consistent with their emergency operations plan. In many
jurisdictions, a fire department may be focused on mitigating the 
risk of a pipeline incident, like treating casualties or putting 
out resulting structure fires. They may be able to rely upon a 
regional hazmat response team, the pipeline operator's emergency
response team or a neighboring metropolitan fire department to
resolve the actual leak or rupture. The Federal Emergency 
Management Agency's Assistance to Firefighters Grant (AFG) program 
and the Staffing for Adequate Fire and Emergency Response (SAFER)
grant program provide matching grants for equipment, training and
staffing to help local fire departments prepare for incidents like
pipeline ruptures.

Conclusion
I thank you for the opportunity to testify at today's hearing
on pipeline safety. As the committee examines reauthorizing the
pipeline safety programs at PHMSA, the IAFC recommends that the
committee consider the following actions:

1.)Promote coordination between local authorities and pipeline
operators. Local coordination is key to preventing pipeline 
incidents and having successful responses in the cases of incidents.
Local fire chiefs should work with the pipeline operators to identify
where pipelines are and what risks they entail. The fire department 
should access both online and in-person training that is provided 
by the pipeline operator. LEPCs provide tools for bringing the whole
community together to prepare for a pipeline or other hazmat incident.
Unfortunately, we do not have a clear picture of how many LEPCs are
functioning effectively or how many need help.
We ask that Congress appropriate funding for the Pipeline Safety 
Information Grants to Communities, so that they might serve as a 
useful tool for re-energizing LEPCs. The IAFC recommends removing 
the prohibition on non-profit groups, because a community non-profit
group might be used to administer a LEPC and there are some volunteer
fire departments across the country that are classified as non-profit
organizations.
2.)Support training and exercise programs that bring stakeholders 
together. It is important that the local officials and the pipeline
operators do not meet for the first time at the incident scene. They
must develop emergency response plans ahead of time and share 
information on how they will operate in an emergency. Also, local 
officials and pipeline operators must meet and exercise these plans 
on an annual basis. These plans are not just bureaucratic documents;
they set out important lifesaving operations in a moment of crisis. 
PHMSA's Community Safety grants provide an incentive for public and
private stakeholders to meet, develop emergency response plans and 
exercise them. The IAFC also supports both public and private 
efforts to develop online and in-person training for fire 
departments to prepare for pipeline incidents. We also ask tha
t Congress appropriate funding for these programs in Fiscal Year
(FY) 2020.

3.)Support funding for equipment and training for local fire
departments. Fire departments, especially in rural jurisdictions,
may not have the equipment or training to respond to a complex 
incident like a pipeline rupture. Federal programs, like the AFG
and SAFER program, provide matching grants to help local 
jurisdictions prepare for all hazards, including pipeline incidents
. We appreciate Congress funding these programs at $350 million each
in FY 2019, and ask that you increase funding for the programs to 
$405 million for each program in FY 2020.
The IAFC looks forward to working with the subcommittee as it 
reauthorizes PHMSA's pipeline safety programs. On behalf of 
America's fire chiefs, I thank you for hosting today's hearing
and examining issues to ensure the safety of the nation's pipeline
infrastructure. I look forward to answering any questions that
you may have.
Mr. Lipinski. Thank you, Chief.
Next, I will recognize for 5 minutes Mr. Kuprewicz.
Mr. Kuprewicz.Thank you for the opportunity to comment today.
Mr. Lipinski.Make sure your microphone is on.
Mr. Kuprewicz.I am president of Accufacts Incorporated, based in 
Redmond, Washington.
I have authored numerous papers on pipeline safety, with the most 
recent a March 22, 2019, paper for West Whiteland Township, 
Pennsylvania, identifying possible intrastate transmission pipeline
safety regulations for that State. My provided CV should easily
demonstrate my qualifications to testify today on additional 
pipeline safety needs.Since my time is limited, I will focus on six
major regulatory issues that I believe should be addressed by
Congress in any PHMSA reauthorization effort.
Item 1: Congress should eliminate the unique requirement that PHMSA
show that, for any proposed new safety regulations, the safety 
benefits outweigh the cost. Pipeline events are usually low-
probability, very high-consequence events that are not adequately
or appropriately captured using cost-benefit analysis.
Recent pipeline failures have demonstrated how quickly the 
consequences of pipeline failure can easily exceed multiple
billions, with a ``B,'' of dollars. Much-needed improvements
in pipeline safety regulation are being delayed or prevented 
by this unique requirement, and Congress should remove this
obstructive approach from PHMSA's safety rulemaking obligation.
Major item 2: Additional liquid and gas transmission integrity
management regulation improvements are needed. Initial performance-
based pipeline safety regulations for transmission pipelines 
promulgated in the early 2000s, known as TIMP 1, are not working
as intended. My experience investigating too many recent liquid
and gas pipeline ruptures indicates that TIMP 1 needs serious 
improvement.After a considerable number of years of effort, PHMSA 
developed suggested transmission integrity management improvements,
often identified as TIMP 2, for transmission pipelines, both liquid 
and gas. These suggested improved regulations have been stalled for
the last couple of years.Major item 3: Current area classification
regulations for gas transmission pipeline safety regulations should
not be changed or weakened. Given the current weakness and 
incomplete state of TIMP regulations, I cannot recommend nor suggest 
weakening current safety factors established by existing area 
classification regulations for gas transmission pipelines.Major 
item 4: Gas gathering minimum pipeline safety regulation needs 
serious improvement. Recent gathering pipeline rupture failures 
clearly demonstrate that minimum Federal pipeline safety regulations
are clearly not working in this area and improvements are warranted.
I recommend the regulatory efforts in this area focus on three issues:
simplifying the definition of ``gas gathering''; two, requiring all 
gathering lines to meet minimum standards meant to protect the public;
three, follow similar integrity management processes related to TIMP
2 PHMSA-developed improvements.Gas gathering pipeline rupture failure
dynamics and actual impact areas are the same as that of gas 
transmission pipelines. The public should thus also be made aware
of gas gathering infrastructure in their area, protected by basic,
commonsense standards, such as one-call mapping requirements, 
integrity management, and, yes, emergency response, that already
apply to similar risk transmission pipelines.Major item 5: Release 
detection regulation should focus on two efforts_one, remote rapid 
rupture release identification; and, two, leak releases which 
require different technical approaches than that for ruptures.
Remote release detection is a reasonable idea and should be 
advanced by new, prudent pipeline safety regulations that encourage
the application and development of such efforts.And, lastly, major
item 6: Regulations for the placement of remote-operated main line
valving for liquid and gas pipelines are badly needed. Valves play
an important safety role in the event of pipeline rupture. It is 
time to incorporate clear requirements for such valving into
pipeline safety regulations.Thank you for your time today, and
I look forward to being of some assistance to the committee in 
the future. Thank you.

[Mr. Kuprewicz's prepared statement follows:]

Prepared Statement of Richard B. Kuprewicz, President, Accufacts Inc.
Thank you for the opportunity to comment today. My name is Richard B.
Kuprewicz and I am president of Accufacts Inc., a consulting firm 
based at 8151 164th Avenue, NE, Redmond, WA 98052. I specialize in 
all aspects of hydrocarbon-based pipelines. I have over forty-five
years of investigative experience and am a chemical engineer with 
additional skills in process safety management, developed from many
years of operational and engineering experience. I have consulted 
for various local, state, and federal agencies, NGOs, the public, 
and pipeline industry members on pipeline regulation, operation,
and design, with particular emphasis on operation in unusually 
sensitive areas of high population density or environmental sensitivity. 
I have authored numerous papers on pipeline safety with the most recent 
a March 22, 2019 paper for West Whiteland Township, PA identifying 
possible liquid intrastate transmission pipeline safety regulations 
for that state. That recent paper takes on special significance as it
relates to a series of highly volatile liquid transmission pipelines
called Mariner East, designed to move liquid ethane, propane, and 
butane across the state, through many highly populated and sensitive
areas. My provided CV should easily demonstrate my qualification to
testify today on additional pipeline safety needs. Since my time is
limited today, I will focus on six major pipeline regulatory issues
that I believe should be addressed by Congress in any PHMSA 
reauthorization effort:  
1) Congress should eliminate the unique requirement that PHMSA show 
that for any proposed new pipeline safety regulation the safety 
benefits outweigh the costs. 
Pipeline events are usually low probability, very high consequence 
events that are not adequately or appropriately captured using cost
/benefit analysis. I have observed that such an unwarranted hurdle 
requirement seriously delays the implementation of many important
and prudent pipeline safety regulations. Recent pipeline failures
have demonstrated how quickly the consequence of pipeline failure
can easily exceed multiple billions of dollars. Much needed 
improvements in pipeline safety regulation are being delayed 
or prevented, and Congress should remove this obstructive approach 
from PHMSA's safety rulemaking obligations. 
2) Additional Liquid and Gas Transmission Integrity Management
Regulation improvements are needed. 
Initial performance-based transmission pipeline safety regulations
for liquid and gas transmission pipelines promulgated in the early 
2000's (known as TIMP 1) are not working as intended. My experience 
investigating too many recent liquid and gas pipeline ruptures in
high consequence areas, indicates that TIMP 1 for liquid or gas 
transmission pipelines needs serious improvement. After a 
considerable number of years of effort, PHMSA developed, along
with industry, state regulators, and various public parties, 
suggested transmission integrity management improvements often 
identified as TIMP 2 for liquid and gas transmission pipelines. 
These suggested improved regulations have been stalled for the 
last couple of years. Integrity management safety approaches are
just not that complicated. In 2016, I provided written public 
comments on the TIMP 2 PHMSA proposed rules, part of the larger
rule makings on hazardous liquid and gas transmission pipelines 
that started back in 2010 and 2011.\1\ 

\1\Richard B. Kuprewicz, ``Pipeline Safety Comments on the Notice 
of Proposed Rulemaking Liquid Pipeline Integrity Management (``IM''),
Docket No. PHMSA-2010-229 (``NPRM''),'' January 7, 2016, and ``
Comments on the Notice of Proposed Rulemaking Pipeline Safety: 
Safety of Gas Transmission and Gathering Pipelines, Docket No. 
PHMSA-2011-0023 (``NPRM''),'' July 7, 2016. 
I see the need for more prescriptive minimum pipeline safety
regulations in several important TIMP regulatory areas as follows: 
a.the general location of HCAs should be conveyed to the public, 
b.require improved threat and anomaly reporting performance metrics
to assist in transparency and to monitor TIMP performance and 
effectiveness, 
c.clarify in regulation the current strengths and weakness of the
four allowed assessment methods codified in regulation for pipeline 
threats, which consists of: 
i.internal inspection tool or tools (usually ILI), 
ii.pressure test (i.e., hydrotesting), 
iii.external corrosion direct assessment for liquid, direct 
assessment for external, internal, or stress corrosion cracking
for gas pipelines, 
iv.other technology that can provide an equivalent understanding
of the condition. 

d.add ``shall'' wording to establish minimum management of change
(``MOC'') process requirements, an important component of TIMP. 
Given too many pipeline ruptures where the operator claimed failure 
to know their pipeline was in a high consequence area (``HCA''), 
regulators and the public clearly have a right to know and verify
what an operator is identifying as an HCA (they really aren't that
difficult to determine and are not secret). If this important first 
step in TIMP isn't correct, there are most likely other shortcomings
in a company's TIMP approach.  
PHMSA also needs to take advantage of new software technology to
require that operators report the location of important required 
anomalies needing mitigation, using pipeline mapping technology that
can quickly help to identify pipeline systemic threats, well before
they go to rupture failure, a primary object of TIMP. 
The broad misinformation by many in the industry (either due to
lack of experience or intentional deception) concerning the strengths
and weaknesses of each of the four assessment methods listed in TIMP
regulations needs to be addressed by identifying the assessment 
method's ability to handle the wide spectrum of threats that may 
be on a pipeline segment. No one assessment method can handle the
wide spectrum of threats that might be on a pipeline segment. For
example, I have investigated too many transmission pipeline ruptures
that occurred following ILI inspections, that on further investigation
are proving to be downright embarrassing to the pipeline operators
as well as disastrous and expensive. 
Recent pipeline tragedies have also clearly confirmed that too many
pipeline organizations are failing to incorporate important checks
and balances to assure any change in process or equipment has been
prudently engineered and evaluated before becoming operational.
Management of Change (MOC) prescriptive steps should be added into 
law driven by the use of a ``shall'' requirement. MOC should not
rely on industry practices or creative interpretation of such
practices.  
Note that I am not advising abandoning all performance-based
approaches. For example, the distribution integrity management 
program (or ``DIMP'') regulations require the reporting of important
performance metrics that assist independent analysis and transparency
for regulators and the public. DIMP reporting is vastly superior to
current TIMP 1 regulation reporting requirements in assisting in 
performance measurement and monitoring. Many gas distribution 
companies and some state regulators have recognized the benefits
of DIMP tracking utilizing newer advanced leak mapping technology 
which exceeds annual reporting requirements to PHMSA and to states
that are not utilizing such software tools in data analysis that 
improves regulatory efficiency. While not required in federal
pipeline safety regulation, advanced software leak mapping 
technology is definitely helping analyze and identify possible 
distribution pipeline systemic integrity hot spots, or threats,
that need more timely attention. PHMSA need to advance TIMP by
requiring such mapping by anomaly type and condition. 
3) Current area classification regulations for gas transmission 
pipeline safety regulations should not be changed or weakened. 
Given the current weaknesses and incomplete state of TIMP 
regulations, demonstrated by the pipeline ruptures in HCAS
under TIMP 1, I cannot recommend nor suggest weakening current
safety factors established by existing area classification 
regulations for gas transmission pipelines. Suggestions to weaken
or remove area classification requirements have wisely met with 
much resistance from the public and state regulators. I advise 
that no change be make in area classification regulations until: 
a.new TIMP 2 regulations have been properly incorporated into 
regulation, 
b.these new regulations take effect, and 
c.such new regulations demonstrate a track record that they are
working, which will take some time. 
Weakening of gas area classification rules and their associated 
required additional safety margins is imprudent and premature, 
especially given the current failings associated with TIMP 1 
regulations. 
4) Gas gathering minimum pipeline safety regulation needs serious
improvement.  
Given the rapid growth in gas gathering pipeline mileage across
America from shale gas development, and recent gathering pipeline
rupture failures, minimum federal pipeline regulations are clearly 
not working in this area, and improvements are warranted. I recommend
that regulatory efforts focus on: 
a.simplifying and clarifying the definition of a gas gathering 
pipeline, and 
b.requiring all gathering lines to meet minimum standards meant to
protect the public such as One Call participation, line markers, 
operational and emergency response plans, hazardous leak repairs, 
incident investigation, etc. 
c.following similar integrity management processes related to TIMP
2 PHMSA developed improvements. 
Gas gathering pipeline rupture failure dynamics and actual impact
areas are the same as that of gas transmission pipelines. The public 
should thus also be made aware of gas gathering infrastructure in 
their area, protected by basic common sense standards that already 
apply to similar risk transmission pipelines, and inclusion of 
Integrity management (IM) efforts to avoid rupture. 
5) Release detection regulation should focus on two efforts: (1)
remote rapid rupture release identification, and (2) leak releases
which require different technical approaches than that for ruptures. 
I have observed that probably no other subject has generated more 
confusion, frustration, and concern across all parties, than the
subject of remote release detection for pipelines. Remote release 
detection is a reasonable idea and it is going to take some effort
as it is a severe technical challenge in many systems to make such 
systems reliable. Development of such technology, whether for rupture
or leak detection, is advanced by prudent pipeline safety regulations
that encourage the application and development of such efforts. Such
regulation is similar to efforts encouraging initial pipeline ILI 
use and advancement, which started some forty years ago. 
Because of factors such as pipeline inventory and thermodynamics,
pressure drop is not a timely nor reliable method of release 
detection in an operating pipeline, even for pipeline ruptures, 
the high rate releases from large pipeline openings caused by pipe
fracture mechanics. I thus recommend in the area of release detection
that regulation focus on two approaches: (1) rapid remote detection 
and alarm for pipeline ruptures based on properly determined 
transient flow dynamics, and (2) on leak detection for lower rate
releases that also are not going to be captured by pressure loss.
Leaks may not be as dangerous as ruptures, but nevertheless can be
dangerous or damaging to the environment. PHMSA needs to pursue 
the different technical approaches needed for the remote 
identification of ruptures and leaks. 
6) Regulations for the placement of remote operated mainline valving
for liquid and gas pipelines are badly needed. 
Many parties fail to understand the complications associated with
developing regulations for mainline valving on pipelines. I recommend
that mainline valve regulation advancements focus on both timely
action and response for both liquid and gas pipelines, as such
valves play an important safety role in the event of pipeline 
rupture. 
Conclusions: 
Congress needs to remove the unique cost/benefit analysis hurdle
imposed on PHMSA preventing this agency from quickly promulgating
sound pipeline safety regulation. PHMSA also needs to advance the 
TIMP 2 regulations in which years of technical effort, analysis, 
and discussion have already been invested. TIMP 2 regulatory changes
represent reasonable compromise that will improve the performance and
effectiveness of pipeline safety regulations for both transmission 
and gas gathering. The test for such possible regulations will lie 
in whether proposed rulemaking in these areas remains simple and 
easy to understand, as well as enforceable. We are talking in most
cases about steel tubes, so technically, safety rulemaking should 
also be fairly simple and concise. If the regulations are becoming
too long or complex, I highly recommend that the regulatory effort
needs to be reevaluated as other agendas may be afoot. TIMP safety
process are just not that complicated. 
Let's also not lose sight of the fact that PHMSA has done good work
in other technical areas, such as the research related to crack 
threat assessments from vintage Low Frequency Electric Resistance
Welded, or LF-ERW pipe. PHMSA's research efforts in vintage ERW 
crack research and assessment helped to publicly identify proper
assessment/engineering approaches that should be used to avoid 
pipeline rupture from this category of threats with a long history
of failure as ruptures. PHMSA's efforts in this area have helped
spread the word on what, until this research effort was completed,
was a pipeline risk clearly understood by only a handful of
subject matter experts in this pipeline field.  
PHMSA's promulgation of DIMP regulations is an excellent example
of marrying prescriptive with performance metrics. that have 
improved distribution pipeline safety. Advancements in computer
software mapping/reporting technology not readably available
during original passage of DIMP regulation, now permit efficiency
in evaluating pipeline systems in an attempt to improve pipeline
safety via certain gas leak performance measures. Such mapping 
approaches are now at the level where it should be included in
TIMP 2 as well as DIMP pipeline safety regulations. 
Thank you for your time today.
Mr. Lipinski.Thank you, Mr. Kuprewicz.
The Chair now recognizes Mr. Rorick for 5 minutes.
Mr. Rorick.Thank you, Chairman Lipinski, Ranking Member Crawford
, and members of the subcommittee, for having API here today to 
speak about our industry's proactive efforts in pipeline safety
and our priorities for pipeline safety reauthorization.My name is 
Robin Rorick, and I serve as the vice president for midstream and
industry operations at the American Petroleum Institute, the trade
association of more than 620 members representing all segments of 
the oil and natural gas industry. In my role, I am responsible for
issues related to the gathering, processing, storage, and trans-
portation of oil and natural gas and their products.Pipelines remain
one of the safest ways to deliver energy we use every day. However,
to reach our industry's goal of zero incidents and ensure consumer 
access to clean, abundant, and affordable energy, it is imperative 
that the regulatory environment and the Pipeline and Hazardous
Materials Safety Administration be positioned to meet current and
future pipeline safety challenges.Although we recognize and 
appreciate PHMSA's efforts to implement past congressional mandates,
more work needs to be done to institute practical and performance-
based regulations for pipelines and LNG facilities. Thus, as Congress
considers the reauthorization of PHMSA and other safety programs, we
encourage strong consideration of industry priorities that will 
maximize our investment in people, technology, and safety culture
to effectively advance safety.Right now, the United States leads the
world in the production of oil and natural gas and, at the same time,
is the global leader in the reduction of carbon dioxide emissions, 
which are at their lowest levels in 25 years. In the past decade,
we have transitioned from an era of energy scarcity and dependence
to one of energy abundance and security.This energy renaissance has 
helped create greater job opportunities for American workers, 
bolster U.S. manufacturing, strengthen our economy, and enhance our
national security interests. And it has helped U.S. families save on
their energy bills. In the last decade, U.S. healthcare spending grew
by over 70 percent and education spending increased over 50 percent 
while household energy spending declined by 10 percent.Pipelines are
critical to ensuring that consumers keep feeling the benefits of our
Nation's vast energy resources, and they are one of the most efficient
ways to safely deliver the energy that Americans use every day.It is
estimated that increased investment in our Nation's energy infras-
tructure, including pipelines, is a $1 trillion proposition that could
support 1 million jobs per year through 2035 and add up to $100 billion
to our GDP annually.Protecting the public and the environment is the
top priority for pipeline and LNG operators and a central component 
to the design, construction, operation, and maintenance of energy 
infrastructure.Ultimately, the development of a comprehensive safety 
system must continue to be the product of a shared commitment from 
our regulator, industry, and other stakeholders. Together, we can 
effectively focus on appropriate prevention and response practices 
through an application of regulations, leading industry practices,
the use of technology, and alignment on research priorities.At the 
direction of Congress, PHMSA has been working on the development of 
several significant safety regulations for oil and natural gas 
pipelines. API and its members appreciate the emphasis PHMSA has 
placed on addressing congressional mandates and NTSB recommendations 
through these rulemakings.Based on the robust, transparent, and 
balanced Pipeline Advisory Committee process that these regulations
underwent, we support the publication of the final gas transmission
and hazardous liquid rule, the last of which was recently submitted 
to OMB.However, for other remaining significant safety rulemakings, 
including repair criteria for oil pipelines, class locations for gas 
pipelines, and LNG facilities safety, we would ask that PHMSA not
lose sight of the importance of a holistic, performance-based 
regulatory approach that maximizes the industry's ability to use 
the latest advances in new technologies and engineering techniques
to manage safety risks.As an industry, we are committed to safety 
in all of our operations and consider regulations a base from which 
to build. API continues to develop and revise critical standards 
following the accreditation process of the American National 
Standards Institute, or ANSI.One in particular, API Recommended 
Practice 1173 on pipeline safety management systems, is critical 
in providing a foundational framework for managing complex 
operations. Through strong commitment and aggressive implementation 
of this voluntary program, RP 1173 has helped many of our pipeline
operators effectively manage risk, promote best practices, 
continuously improve safety and performance, and build a strong
organizational safety culture.Let me close by once more emphasizing
that the oil and natural gas industry is committed to promoting safety
in all of its operations while it strives to ensure that American
families and businesses can safely and efficiently access affordable
and reliable energy.Again, thank you for the opportunity to appear 
before you today, and I am happy to answer any questions that you may have.
[Mr. Rorick's prepared statement follows:]
Prepared Statement of Robin Rorick, Vice President of Midstream and 
Industry Operations, American Petroleum Institute Good morning 
Chairman Lipinski, Ranking Member Crawford, and Members of the 
Subcommittee. Thank you for the opportunity to speak today about 
our industry's proactive efforts in pipeline safety and our 
priorities for Pipeline Safety Reauthorization. Pipelines remain one 
of the safest ways to deliver the energy we use every day. However, 
to maintain this strong safety record and ensure consumer access to 
clean, abundant, and affordable energy, it is imperative that the 
regulatory environment and the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) address current and future safety 
challenges. We recognize and appreciate PHMSA's efforts to implement
past Congressional mandates, but more work needs to be done to 
institute practical and performance-based regulations. Thus, as 
Congress considers the reauthorization of PHMSA and other safety
programs, we encourage strong consideration of industry priorities 
that will maximize our investment in people, technology, and safety
culture to effectively advance pipeline safety.
The American Petroleum Institute (API) is the only national trade 
association representing all facets of the oil and natural gas 
industry, which supports 10.3 million jobs and 8 percent of the 
U.S. economy. API's more than 625 members include large integrated 
companies, as well as exploration and production, refining, 
marketing, pipeline, and marine businesses and service and supply
firms. As Vice President of API Midstream and Industry Operations,
I am responsible for all energy infrastructure issues, including
those related to the gathering, processing, storage, and 
transportation of oil and natural gas.

ENERGY SECURITY
The United States leads the world in the production of oil and
natural gas\1\ and, at the same time, is the global leader in the
reduction of carbon dioxide emissions, which are at their lowest 
levels in a generation.\2\ Additionally, carbon dioxide emissions 
from electricity generation have declined 26 percent since 2005 and
are near their lowest levels in 30 years; more than 60 percent of the
decrease in power generation-related CO2 emissions since 2005 was
due to fuel switching to natural gas.\3\ In the past decade, we have
transitioned from an era of energy scarcity and dependence to one of
energy abundance and security. In 2008, the U.S. was producing only
five million barrels per day of oil. As of this month, the U.S. is 
producing a record 12 million barrels per day\4\, more than 
doubling production. The Permian Basin in West Texas is a perfect
example of this growth in production, pumping out over four million
barrels of oil and natural gas liquids per day_quadruple its 
production from just eight years ago. Along with this growth in
production, there's been a corresponding growth in U.S. crude and
petroleum product exports, which reached a record high of nine 
million barrels per day in November.\5\ A similar transformation 
has occurred in natural gas production, which has grown by over 50
percent since 2008.\6\ This energy renaissance has helped U.S. 
families save on their energy bills, created greater job 
opportunities for American workers, bolstered U.S. manufacturing,
strengthened our economy, and helped to enhance our national 
security interests abroad. While in the last decade healthcare and
education spending has increased by over 70 and 50 percent, 
respectively, household energy spending in America has declined
by 10 percent.

\1\https://www.eia.gov/beta/international/
\2\U.S. DOE, Energy Information Administration, Monthly Energy 
Review March 2019.
\3\https://www.eia.gov/environment/emissions/carbon/
\4\U.S. DOE, Energy Information Administration, Weekly U.S. Field
Production of Crude Oil
\5\U.S. DOE, Energy Information Administration, Weekly Petroleum
Status Report
\6\U.S. DOE, Energy Information Administration, U.S. Natural Gas 
Marketed Production (monthly)
The benefits of the oil and natural gas we produce here in the U.S. 
also provide benefits far beyond our borders. None of this would be
possible were it not for the midstream sector of our industry, which
ensures that we can get oil and natural gas from the areas where 
they are produced to where they are processed, refined and ultimately
used. Our energy infrastructure is a critical component of the oil
and natural gas supply chain, consisting of terminals, underground
and above ground storage facilities, pipelines, railcars, trucks,
ships, and marine vessels. Ensuring we have a robust energy 
infrastructure system that keeps pace with growing production and
demand is essential to helping provide American families and 
businesses with reliable access to affordable energy. A 2017 study
found that the U.S. will need up to $1.3 trillion in energy 
infrastructure investment through 2035. This investment, on average
, will annually support up to 1 million jobs and add up to $100 
billion to GDP.\7\ Whether it is powering our nation's electricity
grid, delivering natural gas to heat homes during harsh winters, 
or providing emergency fuel for first responders during natural
disasters, this investment will ensure that these critical fuels 
are delivered when and where they are needed most.
\7\ICF, ``U.S. Oil and Gas Infrastructure Investment Through 2035'' 
(2017)

COMMITMENT TO PIPELINE SAFETY
Industry's commitment to safe operations is evident by the strong 
safety record of the pipeline system that delivers oil, natural gas
and petroleum products. Protecting the public and the environment is
the top priority for pipeline operators and a central component to
pipeline design, construction and maintenance. Ultimately, the 
development of a comprehensive pipeline safety system is the 
product of a shared commitment from key entities in the stakeholder
community. The first element involves the federal and state
governments, which provide the safety regulations for the industry.
Next is the contribution of the industry trade associations that,
with the help of other stakeholders, help to develop industry
guidance, recommendations and best practices. The third key entity
are individual companies, who make the commitment to develop and 
implement effective safety programs. While each of these functions
are critically important to advancing safety in the pipeline
industry, the true effectiveness of the pipeline safety program 
exists because these three functions complement one another through
the coordination and collaboration of all three of these entities.
API, our allied oil and natural gas trades, and members are fully
committed to maintaining the highest standards and establishing a 
strong foundation with the public by continually striving for 
improvement through enhanced safety operations. And while greater 
than 99 percent of oil, natural gas and their products reach their
destination without incident, pipeline companies are striving to
address the remaining fraction of a percent to reach our shared 
industry-wide goal of zero incidents. The industry's ability to 
continually advance the safety of oil and natural gas pipeline 
operations is based on three critical elements: (1) people, (2)
technology and (3) safety culture. Each of these is intertwined 
with the others to create a comprehensive and cohesive safety
program. Education and training are constantly provided to industry
employees to ensure they can operate the latest and greatest 
technologies. Similarly, employees are committed to developing a
culture of safety that is continually assessed and improved. This
three-pronged approach is designed first and foremost to prevent an
incident from ever happening, but also ensures that the industry is
prepared for any incident and can effectively respond in the rare 
instance that an incident occurs.

Although API and its members appreciate the emphasis PHMSA has placed
recently on addressing mandates and National Transportation Safety
Board (NTSB) recommendations, we strongly encourage PHMSA to act in 
a timely manner and not lose sight of the importance of a holistic,
performance-based regulatory approach that maximizes the industry's
ability to use the latest advances in new technologies and techniques
to manage pipeline safety risk. To that end, API and its members 
strongly supported the collaborative approach to review and finalize
regulations through the Advisory Committee process and encourages 
PHMSA to publish the transmission proposals as voted on by the Gas
Pipeline Advisory Committee (GPAC) and Liquid Pipeline Advisory 
Committees (LPAC) and expeditiously carry out a similar review 
process for a class location and repair criteria rulemaking. The 
Advisory Committee process is a transparent and balanced forum that
has demonstrated the ability to build consensus around complex 
regulatory issues, including the pending gas and liquid transmission
pipeline safety regulations. This forum will also be an ideal forum 
for the gathering lines discussions that are scheduled to begin later
this year. Recently, several organizations that participated in the 
GPAC meetings sent a letter to Secretary of Transportation Elaine 
Chaoto express our support for quickly publishing a final gas 
transmission rule to address outstanding congressional mandates. 
The signatories included multiple industry associations as well 
as public safety advocacy groups. Such consensus would not have been
possible prior to the GPAC discussions.

THE IMPORTANCE OF API PIPELINE STANDARDS
Safety is a core value of the oil and natural gas industry. Our
operators are committed to enhancing the safety of our workers and
protecting the community and environment. At API, we establish 
industry standards and disseminate best practices across the 
industry to ensure the highest level of safety and achieve our
collective goal of operating with zero incidents. Since 1924, API
has been the leader in developing voluntary, consensus-based, 
internationally recognized, industry standards that promote safety
and reliability. Our standards program is accredited by the American
National Standards Institute (ANSI), the same organization that 
accredits similar programs at several national laboratories. In 
creating these industry consensus standards and recommended practices
(RPs), API partners with the best and brightest technical experts
from government, academia, and industry. This work supports the 
fulfillment of the National Technology Transfer and Advancement Act 
(NTTAA), which mandates that federal agencies use technical 
standards developed and adopted by voluntary consensus standards
bodies, as opposed to using government-unique standards. Currently,
API has more than 600 standards that are used globally by oil and 
natural gas operators. Here in the U.S., these standards are 
referenced more than 650 times in federal regulations, covering 
multiple government agencies, including PHMSA. Additionally, API's 
standards are the most widely cited petroleum industry standards by
state regulators, with 240 API standards cited over 4,130 times in 
state-based regulations. Finally, API's standards are also the most
widely cited standards by international regulators in the 14 major 
producing regions.\8\

\8\OGP Report No. 426, Regulators' Use of Standards, March 2010
Despite the current lack of certainty in the regulatory process, the
industry is not standing idly by. API continues to develop and
revise critical standards and recommended practices for prevention,
mitigation, and response activities to address pipeline safety.
Specifically, API has developed a number of standards to address
pipeline safety in close coordination with subject matter experts
from government, academia and industry. API RP 1173, Pipeline Safety
Management Systems, provides the framework for managing complex 
operations with safety as the top priority. It provides operators
with established guidelines to manage risk, promote best practices,
continuously improve safety performance and build a strong 
organizational safety culture from the leader of a company all the
way to an individual working in the field Safety culture must be
organically strengthened from within an organization, which is why 
a voluntary regime is so important for the industry's implementation 
of SMS. As U.S. production continues to grow and pipeline capacity 
does as well to keep pace, operators are motivated to develop a 
management system that ensures new pipelines are built to the
appropriate specifications, keeping safety a priority. API RP 1177,
Steel Pipeline Construction Quality Management Systems, outlines 
the steps needed for constructing safe steel pipelines, from 
purchasing the correct material to completing the right inspections
prior to initiating operation.

While pipeline operators are taking significant steps to meet the 
goal of zero incidents, they must have a comprehensive mitigation 
strategy to reduce the impact should a release occur. Developed with
industry, regulator and broader stakeholder input, API RP 1175, 
Pipeline Leak Detection_Program Management, outlines how to use 
multiple leak detection tools_such as aerial overflights, ground
patrols, and computational pipeline monitoring_to create a robust
and holistic program to identify a leak as soon as it occurs. 
In addition, the RP encourages senior leaders within companies 
to enforce a leak detection culture that promotes safety. Properly
trained employees will also aid in mitigating incidents. Pipeline
operator qualifications (OQ) ensure companies properly prepare their
personnel to perform high-risk duties, and continuous testing to
verify the skills of qualified employees is a critical effort of 
operators. API has also developed RP 1161, Pipeline Operator
Qualification, to give operators direction on ensuring those 
individuals performing high-risk tasks are appropriately trained
and competent.Should an incident occur, pipeline operators are ready
to respond. Through coordinated emergency response programs with 
federal, state and local first responders and agencies, operators 
ensure timely, seamless and effective responses. API RP 1174, Onshore
Hazardous Liquid Pipeline Emergency Preparedness and Response,
completed by operators, regulators, and first responders, seeks to
improve emergency response capabilities by providing a management
system framework for operators to ensure they are prepared to respond
to any event in a coordinated way with both our government and first
responder partners in an efficient manner. These RPs are just a few 
of the available documents developed in collaboration with federal 
and state regulators, academics and interested stakeholders, which
through effective implementation and training will help improve safety
across the industry.

PIPELINE SAFETY REAUTHORIZATION PRIORITIES
As stated earlier, to improve upon our strong safety record and
reach our goal of zero pipeline incidents, it is imperative that
the regulatory environment and PHMSA be positioned to meet current
and future safety challenges. As such, there are three priority
areas where PHMSA reauthorization can support the shared objective
of industry and the regulating agency in advancing pipeline safety.
Recognizing the Importance of Innovation and Technology Within the
current Administration, DOT and PHMSA have expressed a renewed 
interest in innovation and technology. The leadership of both 
organizations continue to place a great deal of importance on the
use of inspection technology as a ``transformative'' tool to advance
the oil and natural gas pipeline industry's safety performance and 
address remaining pipeline incidents. Thus it is imperative that 
PHMSA's regulations do not hamper an operator's ability to address 
potential problems through the application of the most innovative 
technology, critical engineering assessment processes and fit-for
-purpose repair criteria based on data and sound engineering 
principles. Specifically, operators are required to conduct timely
assessments of pipeline integrity, and that may often be done 
effectively and efficiently with a new technology. However, companies 
may have a hesitation to do so, given the burdensome approval process
in the use of alternative safety technology. Establishing clear 
parameters and deadlines associated with PHMSA's review, 
notification, and approvals of alternative technology will help
provide more certainty in the process and allow operators to utilize
the latest cutting-edge technologies to further pipeline safety.
With this in mind, 50-year old regulations that only allow for new
technologies to be used one rulemaking at a time must be updated. 
While those regulations reflected the technology and best thinking
available at the time of adoption, they have not kept pace with 
advances in pipeline safety technology and modern engineering 
practices. To PHMSA's credit, over the last couple of decades, 
they have attempted to pursue performance-based regulations versus
prescriptive ones_in other words, an approach that focuses on the
desired outcomes (in this case, fewer incidents) rather than 
prescriptive processes or procedures (i.e., operators must inspect
their pipe so many times every few years). This is compliant with
direction provided by the Office of Management and Budget (OMB) 
to give preference to performance-based standards. A performance
-based regulatory model allows operators to utilize the latest 
advances in inspection and detection technologies as soon as it
is practicable to focus on the desired outcome of fewer incidents.
For instance, PHMSA issued Integrity Management (IM) regulations 
that provide operators with the ability to use different in-line
inspection (ILI) tools that are better at detecting a defect in 
specific types of pipe.
In addition, PHMSA should be commended for considering updates to
the class location change regulations. With today's processes and 
technologies, pipeline safety can be managed effectively through 
data-driven inspection and maintenance, instead of the arbitrary 
pipe replacements required by the current class location change 
regulations. These unnecessary replacement projects can disrupt 
natural gas service and require the release of up to 800 million 
standard cubic feet of natural gas every year, which is equivalent 
to the annual natural gas use of over 12,000 homes. And each year 
the class location change regulations divert hundreds of millions 
of dollars towards replacing less than 75 miles of pipe. There are
much more productive ways to expend these substantial resources.
For example, for the same cost of replacing 75 miles of pipe, we
could instead assess 25,000 miles with in-line inspection tools
that truly pose a risk of impacting people or the environment.

Modernizing PHMSA and Regulations
As PHMSA and the energy industry together continue to drive toward 
our shared goal of zero pipeline incidents, a modernized regulator
with the necessary tools, well-trained staff, and streamlined
programs can bring needed certainty and consistency into the 
regulatory and oversight process. While the oil and natural gas
industry continues to work proactively, through our standards 
development process and collaboration with regulators and other 
stakeholders, to achieve our goal of zero incidents, there are
additional regulatory reforms that we believe will help to further
enhance pipeline safety.
A performance-based approach recognizes that there is great 
variability throughout the industry and that a one-size-fits-all 
approach could prevent the development of more company or operations 
specific engineering assessment options that most effectively manage
and advance safety. For example, currently 49 Code of Federal 
Regulations (CFR) Part 193 safety regulations for liquefied natural
gas (LNG) facilities does not provide a risk-based alternative for
establishing important maintenance programs. The regulations were 
originally written decades ago to capture siting, design, 
construction, operation and maintenance for small-scale peak shaving 
type facilities. The current regulation is not sufficiently scalable 
or flexible to address a broader spectrum of operations including 
large-scale export facilities. This could result in unnecessary, 
costly and overly burdensome prescriptive requirements that do not
enhance safety on these facilities. PHMSA should consider risk-based
/process safety management options in Part 193 rulemaking that 
allows operators to prioritize critical resources to take a risk-
informed integrity management approach for inspection and corrosion
control at LNG facilities.
There are other areas where outdated regulations also drive 
inefficiencies and resource allocation to less impactful safety 
priorities. For example, in current regulations, pipeline operators
are required to report pipeline incidents if they meet certain 
conditions, including a clean-up cost of $50,000 or higher. However,
PHMSA set this threshold in 1984 and has not updated it for inflation
since. As such, incident reporting based on the current day costs 
would allow pipeline operators to better utilize and allocate 
resources, toward more significant incidents. Keeping pace, Congress
should require PHMSA to adjust its incident reporting dollar 
threshold for inflation.

Additionally, there are more than 650 API standards referenced in 
Federal regulation. As these standards are improved through the 
American National Standards Institute (ANSI)-accredited process 
at a minimum of every 5 years, Federal regulations often are unable
to be updated in a timely manner to reflect these important leading 
practices within the industry. Currently, approximately 50 percent 
of the instances where PHMSA cites API standards are not referencing
the most recent version of those standards. As API standards are 
updated or new ones are developed, PHMSA should execute a more timely
and frequent review process that can use the existing rulemaking 
processes to incorporate by reference the latest edition or the 
first edition of appropriate standards.
Our industry continues to place a great deal of emphasis and 
resources on research and development. Specifically, improvements 
to pipeline integrity inspection capabilities are a strategic 
objective that have driven our industry to invest in furthering
in-line inspection tool detection, ultimately preventing incidents
from occurring. For example, API is facilitating a more dynamic and
interactive process between pipeline operators and technology vendors
to ensure there is a unified approach to addressing challenges and 
maintaining the focus on achieving safer pipelines. As such, industry
stands willing to explore opportunities to further strengthen 
collaboration with PHMSA on research and development, collectively
shaping a longer-term strategy that drives innovation, informs 
regulations, and ultimately improves pipeline safety performance.
Lastly, the oil and natural gas industry strives to have well trained
and qualified PHMSA pipeline inspectors to help bring certainty and
consistency to the inspection and enforcement of federal pipeline
safety regulations. However, pipeline inspectors frequently come into
PHMSA with limited pipeline safety experience, and those that already
have or gain experience often depart the agency to pursue more 
lucrative opportunities. As such, similar to other agency hiring 
authority for specialty positions, the ability to compensate pipeline
inspectors at market rates through PHMSA's use of Schedule A 
employees with streamlined hiring and flexible pay levels would
enhance PHMSA's ability to attract and retain expert pipeline 
inspectors.
Protecting Pipelines, People and Environment Pipelines are one of
the safest ways to deliver the energy American
families and consumers use every day. However, recent illegal attacks
on oil and natural gas infrastructure have pointed out the need for
increased awareness of pipeline infrastructure, the impacts of damage
to it, and the importance of enforcement against perpetrators of such
attacks. Illegal disruptions to critical infrastructure can have 
impacts on local populations, the environment and the economy. While
we respect the first amendment right to free speech and peaceful 
protest, an individual that criminally trespasses onto private
property to then endanger their own life, the life of others and the 
environment is conducting an act that goes beyond the right provided
by the first amendment.
For the safety of the people and the environment, Congress should do
more to prevent threats to critical infrastructure like oil and 
natural gas pipelines by strengthening the breadth of protections 
around pipelines and facilities and expanding the scope of actions
under criminal provision.
Our members recognize that the industry is a target for both 
criminals and nation states who are working to steal intellectual
property, disrupt operations and undermine our economy. They take
the threats very seriously and continue to prioritize the protection
of their assets from both physical and cyber-attacks. Companies in 
the oil and natural gas industry have made and continue to make
considerable investments in defending their networks, bolstering thei
r cyber security defenses, and participating in organizations and 
partnerships where they can share and receive threat information.
Specifically, up to the board level, they are making important 
investments in time, people and resources to defend themselves, 
so they can continue to deliver the products Americans rely on every
day. While threats continue to evolve, so do industry's defenses, 
by working with government partners, including TSA, DHS, FBI and 
others to understand the threat. We believe the industry's record 
of delivering products safely and efficiently 99 percent of the 
time is indicative of the actions our members take to protect 
themselves in the face of very real and serious threats. 

CONCULSION:
Safety of the public and the environment is our industry's top 
priority, and collaboration with PHMSA, DHS, and other government
agencies only strengthens our ability to transport our products 
across America with the fewest possible number of incidents. We are
committed to promoting safety in all of our operations, helping to 
ensure that American families and businesses can efficiently access
affordable and reliable energy. Again, thank you the opportunity
to appear before you today, and I am happy to answer any questions
that you may have.
Mr. Lipinski.Thank you, Mr. Rorick.
The Chair now recognizes Mr. Holstein for 5 minutes.
Mr. Holstein.Thank you, Mr. Chairman.
I will focus my remarks on PHMSA's regulation of the transportation
and storage part of the natural gas industry. Because natural gas,
which, as you know, is mostly methane, that leaks from pipelines not 
only creates dangerous conditions for people and communities, it also
contributes to and accelerates climate change.
Methane is some 84 times more powerful than carbon dioxide over the
first 20 years following its release. And the atmospheric damage 
that it causes, which includes the amounts accumulating in the 
atmosphere, combine to cause 25 percent of the global warming that
we are experiencing today. Atmospheric concentrations of methane
have increased 164 percent over the past 250 years, which is a 
direct result of human activities.Therefore, decisions made now
about methane emissions will have a major impact on the rate at
which the climate changes over the lifetimes of many Americans 
living now and spanning the next several generations.Methane also 
negatively affects human health. When it is released, other chemicals
are often released as well, including cancer-causing benzene and
also ozone, which contributes to smog formation.The good news is 
that detecting methane emissions from oil and gas operations, 
including pipelines and storage facilities, is both feasible and
highly cost-effective. It is also getting better with every passing
year.For example, the Environmental Defense Fund worked with Google
Earth with their street mapping cars, and we have been able to map 
gas leaks, including relatively small ones, from distribution 
pipelines in 12 cities around the United States.Another example,
Picarro, Incorporated, which is a leading vendor of natural gas leak
detection equipment, did a major project recently with Public Service
Electric and Gas in New Jersey, which I might note is also my home
State, and found that the accuracy of its mobile methane emissions 
detection systems is some 1,000 times greater than that of legacy 
systems. It is able to detect methane at the scale of one part per
billion. These kinds of high-sensitivity, advanced leak detection 
systems are mounted on vehicles and on aircraft, including drones,
and can quickly locate gas leaks and help quantify them.

In another study, ICF International concluded that methane emissions 
from the North American oil and gas sector could be cut by over 40
percent using equipment already on the market at a cost of less than
one penny per 1,000 cubic feet of gas produced annually.Moreover,
that study found that the value of gas not emitted into the 
atmosphere as a result of detection and mitigation measures amounted
to well over $\1/2\ billion a year.Accordingly, we believe that 
PHMSA must move in the direction of more reliable and comprehensive
inspections of pipelines to ensure that those kinds of modern, 
advanced leak detection systems are implemented throughout the gas
transportation and storage supply chain.Now, looking ahead_and I
want to say a couple of words about gas gathering lines_we see that
there are over 300,000 miles of new onshore gas gathering lines that
are expected to be built over the next 20 years. That is on top of
the 435,000 miles of gas gathering lines already in place.The 
technology to prevent gas leaks from those thousands of miles of
gathering lines and to find and fix them quickly when they do happen
is here. It is cost-effective, it is good for the environment, and it
has the potential to save enormous amounts of natural gas that
otherwise would be wasted.First, however, PHMSA must learn where 
those gathering lines actually are. Accordingly, Congress should
ensure that PHMSA requires gathering line operators to participate
in the National Pipeline Mapping System. Communities and first 
responders across America need to know where those lines are.Two or
three quick things in terms of additional congressional actions we
believe are needed.We think there is no longer any reason, if there
ever were one, to shield poor performers from the consequences of
their decisions and actions. So we think that one of the things 
that should happen is the elimination of the current cap on civil
penalties.Second, Congress should remove the exemptions from PHMSA's
requirements for safety-related condition reporting.And finally and
very importantly_and I have not heard it mentioned today_is the
budget. None of the recommendations you will hear today will matter
in the long run unless Congress rejects the administration's PHMSA
budget proposals. The President's budget request for fiscal year
2020 includes a funding cut of almost 10 percent for pipeline safety
as well as additional staffing reductions at PHMSA. PHMSA must have
the resources necessary this year and beyond to do its work if these
conversations about its responsibilities and programs are to have
any meaning.

Thank you so much for the opportunity to testify.
[Mr. Holstein's prepared statement follows:]
Prepared Statement of Elgie Holstein, Senior Director for 
Strategic Planning, Environmental Defense Fund Mr. Chairman 
and members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss the safety and oversight of the
nation's pipeline system.Environmental Defense Fund (EDF) is an 
international environmental advocacy organization with a million
-and-a-half members. Placing a strong emphasis on our core strengths
of science and economics, we are dedicated to finding innovative 
approaches to solving some of the most difficult national and 
international environmental challenges. Whenever possible, we
collaborate with private-sector partners, state and federal leaders,
academic institutions and other environmental organizations 
interested in maximizing incentives for market-based solutions
to environmental problems.We recognize that the oil and gas sector 
is a key contributor to our nation's energy mix, but with that role
comes the responsibility to minimize harmful impacts to our 
communities and to the environment. With the continuing increases
in recoverable U.S. oil and gas reserves, it is more important than
ever that both the industry and the government commit to a cleaner 
and more sustainable energy future. Recognizing and addressing the 
causes and effects of methane emissions from the oil and gas sector
is one important step in fulfilling that commitment.
In thinking about the role and performance of the Pipeline and 
Hazardous Materials Safety Administration (PHMSA) of the Department
of Transportation, it is important to emphasize that environmental
protection is among the core responsibilities of the agency. We 
fully understand and support the view that PHMSA has a critical 
role to play in protecting public health and safety. However, 
we also believe that environmental protection is closely aligned 
with that mission_in fact, that it is inextricably linked to it_and 
that the agency needs to be more responsive and more proactive in 
addressing both safety and environmental matters.
I will focus my remarks on PHMSA's regulation of the natural gas 
industry, because natural gas (methane) leaks from pipelines not
only create dangerous conditions for people and communities, they 
also contribute to and accelerate climate change. Scientists around
the world_and even in the Trump Administration_are telling us that
we must act quickly to avert the worst consequences of human-caused
climate change.

We believe that PHMSA already has sufficient authority to play a 
more ambitious role with respect to the environment. However, we
also believe that Congress needs to be more explicit in defining the
terms of the agency's environmental mission. In addition, 
Congressional action seems overdue to address the agency's repeated
failures to meet congressionally defined deadlines for acting on
statutory mandates, as well as the excessive time it seems to take
in launching_and completing_major regulatory initiatives.
The Harm From Methane Emissions
One of the most serious issues within PHMSA's jurisdiction is the
issue of methane emissions from the nation's extensive natural gas
transportation and storage infrastructure.
As you know, natural gas is playing a growing role in America, 
notably with respect to the continuing market-based preference for
gas over coal in the generation of electricity. At the same time, 
methane_the primary component of natural gas_has an especially 
pernicious effect on the environment when it escapes or is released
into the atmosphere. Methane emissions accelerate climate change, 
and they undermine the climate benefits of switching from coal-fired
electricity generation to natural gas-fired generation.The scientific
understanding of the extent of methane pollution and its effects has
been growing steadily. EDF has contributed to that knowledge base by
engaging with 100 partnering organizations, including 40 research 
partners from industry and academia, in numerous scientific studies
that have helped to better identify the extent and sources of methane
emissions in the oil and gas sector.\1\ That work has been driven by
our dual concern for the environment and for public health.
\1\Assessment of Methane Emissions from the U.S. Oil and Gas Supply
Chain, R.A. Alvarez et al., Science, October 9, 2018 Across our
economy, emissions from the oil and gas sector as a whole represent
about a third of total U.S. methane emissions, the largest of all 
industrial U.S. sources, according to EPA. They are equivalent to 
the carbon pollution from more than 250 coal plants over 20 years.
Natural gas systems alone are the second largest source of methane.
The nature of methane's damage to the environment is now clearly 
understood. In terms of the climate damage it does, methane is some
84 times more potent than carbon dioxide over the first couple of
decades following its release. While CO2 represents a continuing, 
long-term threat in the form of accumulated, long-lived and rising
atmospheric concentrations, methane drives near-term climate
effects. Methane's potency, and the amounts making their way into
the atmosphere, combine to cause approximately 25 percent of the
global warming we are experiencing right now.
The global warming impact of those emissions reflects both
methane's potency and the fact that atmospheric concentrations 
of methane have increased 164 percent over the past 250 years_a 
direct result of human activities.
The Intergovernmental Panel on Climate Change_the distinguished 
international scientific group that is tracking climate change 
worldwide_has concluded that more than half of the warming in the
next couple of decades due to current emissions will be from short
-lived climate pollutants such as methane.
Therefore, decisions made now about methane emissions will have
a major impact on the rate at which the climate changes over the
lifetimes of many Americans living now and spanning the next 
several generations. (For more details about the science underlying
concerns about methane and other short-lived climate ``forcers,''
please see the attached article from Science magazine.)
Methane emissions have impacts beyond the realm of climate change,
extending to threats to human health. When methane is released, 
other chemicals such as benzene and volatile organic compounds_
which contribute to ground-level ozone (smog)_are often released
as well. So, it makes sense_and we believe it is essential_to 
address the threats from both CO2 and methane, as the Science
article discusses.

PHMSA's Authority to Act
PHMSA is expressly empowered to consider, and to design regulations
to mitigate, risks to the environment_including methane emissions 
from gas pipelines. The Pipeline Safety Act of 1992 amended the 
Natural Gas Pipeline Safety Act of 1968 to expand DOT's 
responsibilities to include environmental protection in addition
to safety. Specific amendments delegate responsibility to the
Office of Pipeline Safety for, among other things:
(1)Requiring pipeline operators to submit reports on any condition
that is a hazard to the environment;
(2)Considering whether an operator's inspection and maintenance
plan is sufficiently protective of the environment; and
(3)Promulgating minimum safety standards for pipelines and 
facilities that are designed to protect the environment.
According to EPA's latest greenhouse gas inventory, leaks and
routine operations in the transmission and storage (T&S) component
of the gas supply chain lead to 1.3 million metric tons of methane
emitted per year. The problem is clearly serious enough to merit
additional action by PHMSA and by Congress.
Detecting Methane Emissions
Our assertion that PHMSA should do more to reduce methane emissions 
from energy infrastructure within its jurisdiction should be seen 
in light of the fact that the cost-effectiveness of methane 
detection equipment and services_especially for oil and gas 
operations_has been improving steadily.
For example, Environmental Defense Fund, working with Google Earth
Outreach's Street View mapping cars, has been able to map gas leaks
from distribution pipelines in 12 cities around the United States.\2\
\2\EDF, Google Use Special Street View Cars TO Map and Measure Leaks
from Pittsburgh Natural Gas System. https://www.edf.org/media/edf-
google-use-special-street-view-cars-map-and-measure-leaks-pittsburgh
-natural-gas-system

In 2016 EDF and the Pipeline Safety Trust wanted to understand the 
potential impacts on methane emissions from PHMSA-proposed new gas 
pipeline safety rules. Specifically, we commissioned an independent
analysis by M.J. Bradley and Associates to assess the methane 
emissions associated with pipeline ``blowdowns.'' (A blowdown is a 
release of pipeline gas into the atmosphere so that maintenance, 
testing or other activities can occur.) The analysis also examined 
the mitigation methods available to reduce such emissions.\3\
\3\M.J. Bradley and Associates, ``Pipeline Blowdown Emission and 
Mitigation Options,'' June 2016. http://blogs.edf.org/energyexchange
/files/2016/07/PHMSA-Blowdown-Analysis-FINAL.pdf
The study found that while additional blowdowns potentially required
by the rule could result in significant additional methane 
emissions, fifty to ninety percent of the methane emissions 
attributable to maintenance activity conducted to comply with
the proposed rule could be cost-effectively mitigated using 
currently available methods, depending on the mitigation measure
selected and the parameters of the blowdown.
M.J. Bradley analyzed five currently available mitigation measures:
in-line compression, low pressure diversion, mobile compression, 
flaring, and stopples. All five mitigation methods investigated 
resulted in negative net cost as well as high cost-effectiveness
values when saved gas value and the social benefits (such as 
climate impacts) of methane mitigation were considered.
Another example: In a recent report on mobile emissions detection
work done for Public Service Electric and Gas in New Jersey,
Picarro Inc._a leading vendor of natural gas leak detection equipment
_reported that the accuracy of its mobile methane emissions detection
systems is some 1000 times greater than that of legacy systems. 
It is able to detect methane at the scale of one part per billion.\4\
\4\Picarro, Inc., https://www.picarro.com/
These kinds of high-sensitivity, advanced leak detection systems
are mounted on vehicles and aircraft (including drones) and are
increasingly used by companies anxious to assure the public and
regulators that they are doing their part to detect and fix pipeline
leaks, protect public health and safety, save money for their 
customers, and reduce adverse impacts on the climate.
In 2016, EDF released a summary analysis, prepared by the consulting
firm, ICF, Inc., of three previous reports examining the cost-
effectiveness of a variety of methane emissions abatement 
technologies, including leak detection and repair programs. 
The report concluded that methane emissions from the North 
American oil and gas sector could be cut by over 40 percent using 
equipment already available on the market at that time, at a cost
of less than 1 penny per thousand cubic feet of gas produced.\5\
\5\``Summary of Methane Emission Reduction Opportunities Across 
North American Oil and Natural Gas Industries.'' May 
016.https://www.edf.org/sites/default/files/north-american
-executive-summary7X1english.pdf
Moreover, the value of natural gas savings gas amounted to well
over a half-billion dollars a year. (The study noted that additional,
health-related benefits would accrue from pollution reductions 
associated with methane abatement, but those benefits were not
included in the cost-benefit calculations_meaning the remarkable
cost-benefit conclusion were very conservative.)
We believe that PHMSA's traditional focus on Integrity Management
Systems limited to high-consequence areas is ill-suited to address 
the problem of methane emissions and climate change, since gas 
leaking from anywhere in the gas supply chain does serious harm 
to the atmosphere and worsens near-term global warming. (It also
undermines the environmental advantage that gas industry 
representatives point to in their electricity market competition
with coal.) Accordingly, we believe that PHMSA must move in the
direction of more reliable and comprehensive inspections of 
pipelines to ensure that advanced leak detection and repair
protocols are implemented for gas pipelines everywhere.
Gas Gathering Lines
With the ongoing national boom in natural gas development, the 
system of onshore gas gathering lines has also increased, and 
it is likely to continue to expand with thousands of miles of
new lines carrying gas under high pressure. Based on information 
from the Interstate Natural Gas Association of America (INGAA),
over 300,000 miles of new onshore gas gathering lines are likely
to be constructed over the next 20 years.
As discussed above, the cost-effectiveness and rapidly improving
accuracy of leak detection and repair equipment reinforce the 
argument for extending advanced leak detection to the nation's 
more than 435,000 miles of gas gathering lines. The technology is
here; it is cost-effective, and it has the potential to save 
enormous amounts of natural gas that otherwise would be wasted.
First, however, PHMSA must learn where those lines actually are.
The time has come for Congress to direct the agency, working with
the states, to develop an inventory of gathering lines. That
inventory must include not only location, but size, operating
pressures, and other data relevant to safe and environmentally
sound performance.

The lack of that information not only deprives regulators and the
public of important information, it also makes it that much harder
for PHMSA to justify major new rules. This is particularly true
given the cost-benefit requirements that Congress has imposed on 
the agency, a hurdle made harder to clear by the absence of
comprehensive information about gathering lines.
Accordingly, Congress should ensure that PHMSA requires gathering
line operators to participate in the National Pipeline Mapping
System EDF also supports the expansion of reporting requirements to 
include gas gathering pipelines. Annual, incident and safety-related 
reporting requirements are essential for reasonable management and 
data-based regulation of this growing pipeline segment.Onshore gas 
gathering pipelines are currently exempt from reporting requirements,
and most states with delegated authority to conduct inspections on 
intrastate gathering lines have not developed regulations to provide
meaningful oversight to fill this gap.
Without data and oversight of these gathering lines, assessing and
managing the safety risks associated with larger, higher-pressure 
gathering lines is impossible. To remedy this problem, GAO 
recommended that PHMSA collect data on federally unregulated gas
gathering lines, to allow the Agency to quantitatively assess safety
risks, and evaluate the sufficiency of regulation.EDF concurs with 
this recommendation, and is pleased to see it reflected, at least 
in part, in the proposed rules for certain gas gathering lines.
Specifically, EDF supports PHMSA's proposal to repeal the exemption 
for reporting requirements for operators of onshore gas gathering 
lines, which would require gas gathering line operators to submit
annual, incident and safety-related reports, and other important
data already required for other types of pipelines.As noted above,
gas gathering lines should be included in the National Pipeline
Mapping System to provide consistent, accessible information about 
the ownership and location of the rapidly expanding gathering 
infrastructure.
The type of data submitted under the National Pipeline Mapping 
System requirements are precisely the type of data PHMSA needs 
to evaluate the efficacy of current regulatory thresholds. The
location and information regarding gas gathering lines will_as 
with similar information for transmission lines_assist with 
emergency response, regulatory management, compliance, and 
analysis. Future risk-based regulations, such as an expansion 
of the rules applicable to gas gathering pipelines and installation 
of automated control valves, may be improved with data submitted
under the National Pipeline Mapping system requirements.
EDF also supports PHMSA's proposed clarification of the gathering 
line definition, which would avoid inadvertently excluding certain
gathering lines from regulation.

Additional Needed Congressional Actions
Additional steps Congress should take to improve pipeline safety
and reduce methane emissions include the elimination of the 
current cap on civil penalties. There is no longer any reason, 
if there ever were one, to shield poor performers from the 
consequences of their decisions and actions.
Congress should also remove the exemptions from PHMSA's requirements
for safety-related condition reporting. That reporting is intended 
to identify conditions that could lead to future incidents, and the
reports are considered by the agency to be important indicators of
safety system effectiveness. However, PHMSA permits several 
exemptions from such reporting, undermining their usefulness as 
early indicators of potential problems. In the unfolding era of
``big data'' they also reduce the potential value of the reports
as a predictive tool that might otherwise save lives and protect
property and the environment.
Budget: None of these recommendations will matter in the long run,
however, unless Congress rejects the administration's PHMSA budget
proposals for next year. The President's budget request for FY2020
includes a funding cut of almost 10 percent for pipeline safety, as
well as staffing reductions, at PHMSA. If, as the saying goes, 
``budget is policy,'' Congress must show its determination to
safeguard the public and the environment by rejecting that ill
-conceived budget proposal. PHMSA must have the resources necessary
to do its work if these conversations about its responsibilities
and programs are to have any meaning.
Conclusion
Natural gas is, and will remain for the foreseeable future, an
important part of our nation's energy mix. The natural gas revolution
in America can make a positive contribution to a cleaner environment,
but only if gas development is based on reasonable rules to ensure 
that its more damaging impacts are limited.
As we manage our nation's bounty of oil and gas, it is important 
to get the rules right. Doing so will not only help minimize adverse
environmental impacts, it is an essential ingredient in building
public trust and confidence in the ability and commitment of the
government and the industry to reducing negative impacts on public
health, safety and the environment. Congress can ensure that PHMSA
will play an expanded role in delivering on that commitment.
Thank you for the opportunity to testify today, and I welcome
any questions you may have.
Attachment: Science magazine article
[The article is available online: J.K. Shoemaker et al., 
``What Role for Short-lived Climate Pollutants in Mitigation
Policy?'' Science magazine, Dec. 13, 2013, http://centromariomolina.
org/wp-content/uploads/2012/05/Molina-et-al.-Science-What-Role-for
-Short-Lived-Climate-Pollutants-in-Mitigation-Policy-2013.pdf.]

Mr. Lipinski.I would like to thank all the witnesses for your 
testimonies.We will now move on to Member questions. I will 
recognize myself for 5 minutes.PHMSA's regulatory requirements are
unique among regulatory agencies. I want to ask Mr. Weimer and
Mr. Kuprewicz, what are the safety implications of PHMSA having 
to undergo a cost-benefit analysis where it must have quantifiable
benefits that exceed cost before being able to issue a notice of
proposed rulemaking? And why do you recommend Congress eliminate
this unique requirement for PHMSA?

Mr. Weimer, if you can go first? Mr. Weimer.Sure. Thank you for the
question.
We recognize the cost-benefits in the statute as being unique. I 
think PHMSA, pipeline safety side, is one of the few agencies that
has such a thing. We don't disagree that cost-benefit is an important
thing to look at during regulations, but it is required of all
regulators as part of OMB and through Executive orders. But since i
t is in the statute, it gives the industry a unique legal hook to 
argue with the regulations.And the way that works is_I think somebody
earlier today asked what the value of human life is. And when you do 
the cost-benefit analysis that PHMSA uses, they use a figure of 
about $9 million or $10 million as the benefit of a human life. So
if you have a tragedy like San Bruno that kills eight people and you
go through a cost-benefit to look at installing new valves on a
pipeline and you say that over the course of 10 years you are going
to prevent 10 lives from being lost, that would be worth about 
$100 million.At the same time, if you look at what the cost would
be for the industry to put a valve on every mile of pipeline that 
it might be required, like based on the NTSB recommendations, it 
may be that those valves_and I am just making numbers up_cost
$1 million apiece, and you might have to put 400 of them nationwide,
 so that is worth $400 million. So the cost of implementing 
automated valves way outweighs the benefit of the human lives you 
are going to save.Now, that was a very basic overview, and it is 
much more complex, but that is the way the statute works, in that
industry can go to court then and argue that the statute wasn't
based on cost-benefit because it is in the statute. You can't 
argue that just at OMB, where it does make sense to weigh those
things. So that is why we think it should be removed.Mr. Lipinski.
Mr. Kuprewicz, do you want to add anything to that? Mr. Kuprewicz.Yes.
I would add that, in my 20 years of kind of watching the development
and promulgation of pipeline safety regulations in the fields, I have
seen PHMSA's frustration in trying to push development of some very 
good ideas. And the cost-benefit process slows the whole thing down
, and then it gets lost, you know, in bureaucratic procedures on 
many things.And so my comment earlier about_I used to think $
1 billion was a lot of money, in terms of some of these tragedies.
And you have heard just a few that I have investigated today in more
detail. The analysis is all wrong. The nature of the failures are 
such that cost-benefit does not set itself up. Its primary objective,
from where I stand, is to deregulate. So let's call it what it is.
Now, it is up to Congress to decide how they want to deal with that.
Mr. Lipinski.That is a very interesting point you raise about 
actually measuring the benefits. That is something we are going to
have to look at closely here.I want to move on to Chief Eggleston. 
What can Congress do to improve the information-sharing between 
pipeline operators and local communities' emergency responders so 
that you have the type of information that you need?Chief Eggleston.
Well, we truly believe that that point of contact is best handled 
through the LEPCs, that they throughout the Nation have been proven 
to help share information across localities in terms of hazards in 
their areas. So continuing to help fund the grant programs that 
support the LEPCs, we think, is the best way to go forward.
Mr. Lipinski.I know when I mentioned in my opening statement that in 
Romeoville, in my district, there was a leak. The story is that the
leak was detected, and someone had to go walk along the pipeline to 
get any information on whose pipeline this was to even know who to 
contact. It would be much better if that information was available,
along with other information.I want to quickly ask, in the short
amount of time, a quick question of Mr. Holstein. You talked about,
and I had read about Google going around with their mapping finding
the leaks. What happened with that information? Was it actually used
to fix leaks? Mr. Holstein.We posted that information, Mr. Chairman,
on our website, and so anyone can see it today. And we specifically 
encouraged local citizens in those communities, places like Boston
and Indianapolis and eight other cities around the country, 
encouraged people to discuss that amount of leakage. In many older
cities, in particular, we found there was a great deal of leakage.
However, we were careful to say that we were not challenging the 
classification system that is used by PHMSA and by gas distribution
utilities in terms of the decisions they make about how quickly to
respond, how urgently to respond to different types of leaks. After 
all, a big leak out in a field is less of a safety threat than a 
small leak in a small apartment.So mostly what we were trying to 
demonstrate is that new technologies exist to do very accurate and 
very inexpensive and also very rapid surveys of, in that case, 
streets in major cities. But the same kinds of technologies can 
be deployed elsewhere.Mr. Lipinski.Thank you. My time has expired.

I now will recognize Mr. Balderson for 5 minutes.
Mr. Balderson.Thank you, Mr. Chairman.
My first question to the panel_good afternoon, and thank you all
for being here today_is for Mr. Black.
Mr. Black, thank you for testifying before the subcommittee today
regarding pipeline safety.I think we all can agree that PHMSA
regulations shouldn't prevent an operator from applying the best
available technology and inspection tools to conduct assessments 
and address potential problems.If PHMSA was to develop a pilot 
program that allows companies to test and use new pipeline 
technologies and offer exemptions from agency regulations, how 
could we do so responsibly and ensure the expectations meet 
adequate safety levels? Mr. Black.Thank you, Congressman.PHMSA has
authority in motor carrier statute to issue pilot programs, and we 
recommend that here for pipeline safety so that we can harness the 
benefits of new technologies, just like you are saying.Advances in 
pipeline inspection technologies and in analytical techniques have
really increased recently, and they have outpaced PHMSA regulation.
With the pilot program, PHMSA could test technologies and approaches
that they believe would have an equivalent level of safety that could
gain real-world experience and data that they could use then to have 
more confidence moving forward on regulations.We believe safety 
would be improved by using these latest technologies on when to
inspect, when to perform maintenance on pipelines, and to use the
benefits of improving technology.Mr. Balderson.Thank you for that
answer.A followup with that: Can you provide any examples of 
innovative technologies that can be used to promote pipeline safety 
operations to outdated PHMSA regulations? Mr. Black.Pipelines are 
inspected by in-line inspection or diagnostic robots. You hear us 
refer to them often as smart pigs. They travel inside a pipeline,
using technologies like MRI or an ultrasound at the doctor's office. 
They collect terabytes of data. They give us more information than 
we have ever had before about smaller and smaller features. With that
information, we can prioritize risks and get out there and perform 
preventive maintenance to address an issue before it becomes a problem.
Outdated PHMSA regulations might suggest a schedule and a 
prioritization of risks different than modern know-how and 
engineering principles would tell us. So with a pilot program, 
PHMSA can put these ideas to use, gather information, and then,
if they are proven beneficial, apply those across Federal 
regulations to benefit safety across the entire industry.
Mr. Balderson.OK. Thank you very much.

Mr. Rorick, also thank you for being here today. My next question is
 how can the pipeline industry and API member companies work with 
PHMSA to ensure the agency is able to retain qualified and expert 
pipeline inspectors? Mr. Rorick. Thank you for the question, 
Congressman.It is one of our core items, as we discuss pipeline 
authorization, to make sure that PHMSA, as the regulator, is properly
resourced to fulfill its mission but then also has properly trained 
individuals with the expertise needed to provide the proper oversight 
for our industry.Certainly, they have run into challenges with both 
attracting good talent and then training them. And then when they
have trained talent, they often lose them, those trained personnel, 
actually back to industry.So I think it is important for Congress to
work very closely with the agency to ensure that they are taking full
advantage of the Government programs that allow them to provide 
compensatory pay to their folks and look at other innovative ways 
to try to attract their employees to stay at the agencies.
Mr. Balderson.OK. Thank you.
Mr. Chairman, thank you, and I yield back my remaining time.
Mr. Lipinski.Thank you.
The Chair now recognizes Mrs. Fletcher for 5 minutes.
Mrs. Fletcher.Thank you, Mr. Chairman. 
Thanks to all of the witnesses this morning for your testimony and
for your written testimony, which I have reviewed.I want to follow
up on a couple of the things that we have talked about here. And one
thing_I just want to follow up on Mr. Black's testimony but open 
this to anyone who wants to comment on it, hearing about the pilot
program and some of these ideas.Are there enough avenues and 
resources at PHMSA for the agency to consider this data that the new
technology can provide and the potential safety benefits that would
arise from it?That is for anybody to answer.Mr. Black.I think there
are enough resources for PHMSA to use this.PHMSA has a practice of
reviewing best practices put out by the ANSI-accredited process that
Mr. Rorick of API mentioned. There is a new recommended practice on
inspecting and repairing pipelines that provides specific proposals 
for PHMSA to look at that. We have encouraged PHMSA to review those,
consider incorporating them into Federal regulations.The 
Administrator, I was encouraged to hear, acknowledged that the special
permit process is a way for PHMSA to adopt that on a company-specific 
basis. We encourage them to do that writ large so that we can more 
quickly let the American public and the environment benefit from safety.
And if not incorporating by Federal regulations or the special permit
process, we think the pilot program would let PHMSA, with the 
resources that it has, use these new technologies and techniques.Mrs.
Fletcher.Thank you.I want to switch gears a little bit and ask, with
my remaining time, about regulations relating to LNG.So, as everyone
here knows, the U.S. LNG industry has dramatically changed over the 
past decade. Where many facilities were originally planned as import 
facilities, the U.S. is now on the verge of becoming a net exporter
of oil and gas. So the industry has changed. The regulations 
governing them haven't really kept pace. That is something I raised
earlier.For anyone on the panel, what reforms and regulations are
necessary for the LNG export facilities so that the U.S. facilities 
can continue to be competitive in the global marketplace but that
adequate safety standards are in place here? Mr. Holstein.
Congresswoman, you are exactly right. Just in the last week, two
new formerly import facilities have started down the process, 
according to the announcement of their owners, into export facilities
on the gulf coast. So that is adding two more.What we need to keep in
mind are two things, very quickly. One is the enormous amount of 
natural gas that will over time flow to those facilities and the vast
areas across America from which that gas will come.And that is why
I talked about the hundreds of thousands of gathering lines that are 
insufficiently overseen by PHMSA now and need to have much more 
comprehensive leak detection and repair protocols. But we must begin
by mapping them so we know where the heck they are.The second thing 
is, with respect to storage facilities_and LNG facilities do entail 
lots of storage facilities_we need two things. We need a comprehen-sive
rule from PHMSA governing storage facilities. And you may remember the 
terrible Aliso Canyon disaster in California a couple of years ago. And,
secondly, before then, States that have their own implemented storage
facility regulatory program should be able to carry those programs 
out with respect to storage facilities within their borders. Right
now, they are not free to do that with regard to all facilities, 
particularly interstate storage facilities.Mrs. Fletcher. OK. That 
is helpful.Yes?

Mr. Kuprewicz. I would just build off of something that moves at 
minus-260 degrees Fahrenheit commands much respect. So your line of
questioning is very appropriate; you know, where does PHMSA end on 
its resource allocation here? Because the last thing I want to do is
put these gentlemen in a situation they can't win. And so we need to
have some focus on that effort in the near future, given the number
of new facilities.
Mrs. Fletcher. Thank you.
Mr. Rorick, do you have a comment on that?
Mr. Rorick. Well, just a quick comment, Congresswoman.
PHMSA is in the process of looking at some safety regulations for
LNG facilities. And I think it is important_I think you stated it 
correctly, and Mr. Holstein added as well_the growth that is going 
to come from continued export is going to continue.So it is important
that, as PHMSA looks at developing these regulations, that they take
a risk-based approach to this and that they also consider the process 
safety management systems in accordance with that as well.
Mrs. Fletcher. Thank you.
I will yield back the remainder of my time.
Mr. Lipinski. Thank you.
The Chair will now recognize Mr. Babin for 5 minutes.
Mr. Babin.Thank you, Mr. Chairman.
And thank you all, expert witnesses, for coming here and testifying 
and giving us your experiences. I want to thank you all for helping 
us transport liquid energy in the safest manner possible.I am sure a 
number of you have heard about the fire which was down in my 
district. I represent the 36th District in Texas, in Deer Park,
Texas. I have more petrochemical refining facilities than any other
place in the land. This was at a terminal facility a few weeks ago
that caught the attention of the national news. And I was actually
down in Houston in the district at the time, had the opportunity to
go see this facility.This dangerous fire, which impacted thousands of
lives, highlights the need for us to do a better job to secure and 
protect these hazardous materials. Every one of us and, truly, the 
entire country is dependent on this industry's acute attention to the
safe transportation of energy products and other hazardous materials,
as they are essential to our daily lives and our commerce.
Mr. Black, if you don't mind, I have a question. Could you please 
cite specific accidents and spills in the past, what you have learned
from them, and how the regulatory environment and technology of today
would prevent that same accident from happening again? I think it is
vital that we in this industry try to do as much introspection so that
we don't repeat history.Mr. Black.The liquid pipeline industry has
a long tradition and a comprehensive practice of trying to learn 
from incidents. I was sorry to hear about the one on the coast. My
understanding is that was caused by fire?Mr. Babin.Yes.Mr. Black.I 
was pleased to hear that wasn't caused by a problem with the 
integrity of the tank. But when there are lessons to be learned from 
that, either from the operator or from Government regulators, we're 
going to be ready to share those within industry to try to prevent 
anything like that from happening.There are significant pipeline 
incidents where we have looked at recommendations from NTSB, the 
safety reports, industry sharing. And we have adopted recommended 
practices on finding and fixing cracking in pipelines, improving leak
detection programs, improving emergency response. We are ready to do 
that.Thank you.Mr. Babin. OK. You are welcome.And, then, could you  
share a little bit more with the subcommittee about what pipeline 
operators are doing to improve their pipeline safety? And, 
additionally, how are you working to incorporate the best practices
which were recommended by the NTSB? Mr. Black. Well, NTSB, after the 
Marshall, Michigan, incident in 2010, issued a series of 
recommendations the industry has met. One was to adopt safety 
management systems, and we have issued API Recommended Practice 1173.
The response, the NTSB said, exceeded expectations, and that is a 
``hosanna'' that they don't give often.Other cases that we have done 
from Marshall was, there was issues needed to be_improvements in
finding and fixing cracks in pipelines. And that was Recommended 
Practice 1176. We found that safety data needed to be integrated more
from different types of inspections_Technical Report 1178.Leak detection
programs were found at fault in the Marshall incident, so the entire 
industry has learned through that, through the adoption of API 
Recommended Practice 1175, so that there is now more constant 
monitoring of pipelines by trained control room operators.NTSB made 
a recommendation out of a Centreville, Virginia, incident recently 
where we found that there was cracking associated with a dent. And 
industry is now working on Technical Report 1183 on managing those cracks.
These are a couple of examples of specific ways operators are 
learning from incidents, trying to improve upon that, and then share
industrywide, implementing improvements throughout all companies 
to try to avoid incidents.Mr. Babin. Very good. I appreciate that very
much.And with that, I yield back, Mr. Chairman.Mr. Lipinski. 
Thank you, Mr. Babin.I will now recognize Mr. Payne for 5 minutes.
Mr. Payne.Thank you, Mr. Chairman.
And, Chief Eggleston, in my other responsibilities on Capitol Hill, 
I am on the Committee on Homeland Security and the chairman of the 
Subcommittee on Emergency Preparedness, Response, and Recovery. And 
so I spend a lot of my time trying to make sure that you and your 
colleagues have the training and the safety equipment and the things
to respond to these emergencies and be prepared well in advance of
them. And so, you know, I take a lot of pride in that as well.Let me 
ask you, in your testimony you note that it wasn't clear how many LEPCs 
are active in carrying out their missions. Correct me if I am wrong, 
but there seems to be a disconnect between LEPCs, local pipeline 
operators, and other external stakeholders. What happened, and why 
does this disconnect exist? And what can be done to fix the disconnect?
You know, it is critical that the LEPCs are up and effectively running.
Chief Eggleston. Thank you, sir. I appreciate the question and 
appreciate your service with the Committee on Homeland Security as 
well.I am not sure why some LEPCs are dysfunctional or don't exist.
I can speak from my own experience in the Charlottesville/Albemarle 
area that we have a very active LEPC. And it is mainly driven by the
community's demand for transparency and information and my 
responsibility to ensure that our citizens are protected. So that is
my main driver. I reach out and connect with industry, and they are
grateful to meet with me and discuss the hazards in my community.So I 
think it takes a will of both the locality as well as industry to meet 
and form the LEPC. That is basically who it is made of. So it is 
responsibilities on both sides.I will tell you that I have previously 
worked in a community that had strong industry, and we had 100, 
complete transparency working with industry, had one of the strongest
LEPCs that I remember being associated with. And we had a number of 
hazardous material incidents in those industries, and they went very
smooth because of the communication and information-sharing that 
happened.And when I look at the hazards across our country related to
pipeline, it really starts off with partnerships with the operators
and information. Because when we send our firefighters out the door 
to respond to an incident with this kind of magnitude, we need to arm
them with as much information as we can. Because I don't want to send
them into an incident blindly, because it is not fair to the citizens
and not fair to my firefighters.

Mr. Payne. Absolutely. Chief Eggleston. Thank you.
Mr. Payne. Absolutely. So you think it becomes an issue around the 
community sometimes__Chief Eggleston. Yes, sir.Mr. Payne[continuing]. 
In terms of how important this interaction is? Chief Eggleston. It is. 
I think it also comes down to funding. Some rural communities cannot 
afford to properly fund their LEPCs. So I think that is where the IFC
is working with PHMSA to help fund adequately some of those LEPCs that
serve the rural areas but tend to have hazards related to the 
pipelines that run through them.So, in some cases, it is community 
activity; in a lot of cases, it comes down to funding.Mr. Payne. OK.
Thank you.In your testimony, you mentioned that your organization is
using your Community Safety_Emergency Planning, Response, and Outreach
Grant to help LEPCs prepare for incidents in their communities.I am 
interested in learning exactly how you are making sure that the 
community LEPCs are prepared to respond to pipeline emergencies. 
Can you describe some of the programs you have with the LEPC to 
ensure that preparedness? Chief Eggleston. Certainly. We have created
some products and training in cooperation with one company, 
TransCanada, here to provide training to local responders in the 
LEPC. There is a number of other training products that we have had
developed as well that I would be more than happy to send to you 
after the fact.Mr. Payne. OK. Thank you very much.And I will yield 
back the balance of my 1 second.
Mr. Lipinski. Thank you.
The Chair now recognizes Mr. Perry for 5 minutes.
Mr. Perry. Thank you, Mr. Chairman.
Thank you, gentlemen, for being here.
Mr. Black, when individual companies in the individual States 
install gathering lines, they have to permit them, they have to 
locate them. The local municipality, the State regulatory agencies
know where they are, know who installed them. Is that generally 
correct? Or do we have no idea where all of these gathering lines are?
Mr. Black. I can speak to liquid gathering__Mr. Perry. Sure.
Mr. Black [continuing]. Where there is more knowledge with States. 
I think some States are different, but in those States that have 
production and have for a long time, there are robust regulations 
in place. PHMSA also regulates certain liquid gathering above 
certain inches diameter. I believe there is great awareness, but 
I can't speak to each State. Mr. Perry. I mean, is there any reason
to believe that the company itself, with a significant investment 
and a significant liability, doesn't have a great stake in making
sure that they are placed safely, that they are maintained correctly,
and that their whereabouts is known and documented? And aren't they
also required to do those things by the individual States? I mean, 
the point is that I think the States do a pretty darn good job, and
the implication that the States can't handle this seems to be, to
me_I mean, I come from Pennsylvania. We do a lot of this stuff here,
and I think we do it pretty well.
Mr. Black. Well, I am much more familiar with the transmission
pipelines__
Mr. Perry. Sure.
Mr. Black [continuing]. That we represent. I understand what you said
to be the case. I think you are right.
Mr. Perry. PHMSA covers the Nation's over 2\1/2\ million miles of gas
and hazardous liquid pipelines, accounting for the transport of 65
percent of the energy consumed domestically.Given all the concerns
raised about their track record of delays in promulgating 
congressionally mandated safety regulations, what is the overall 
safety record of the liquids pipelines, as a general rule? Do you know? 
Mr. Black.We have not been waiting for PHMSA to adopt regulations for 
us to continue improving safety. We got a broad series of strategic 
plan initiatives that pay off. In the last 5 years, incidents 
impacting people and the environment_consensus metrics we all 
worked on after an NTSB recommendation_are down 20 percent over the 
last 5 years. Pipeline safety continues to improve.Mr. Perry.All 
right. Over the same period, about how much has the industry seen 
growth both in terms of pipeline, mileage, and barrels delivered? 
Because you are talking about being down 20 percent. What is the growth
at the same period of time?
Mr. Black.Yeah, you are right, Congressman. We have had considerable 
growth because of the great resource our country has through shale 
production.Liquid pipeline miles have_let's see_crude and products 
delivered have increased 44 percent per year. Crude oil delivered has
increased 37 percent. Total mileage has increased 12 percent.Now, 
I gave you those stats of a 20-percent decrease in incidents 
impacting people and the environment. That is not normalized to
adopt the growth. That is raw numbers__
Mr. Perry.Right.
Mr. Black[continuing]. That are decreasing at the same time 
pipelines are increasing__
Mr. Perry.Right.
Mr. Black[continuing]. Miles and barrels delivered.
Mr. Perry.Yeah. So it is really a good news story, quite honestly,
without Federal intervention or with Federal intervention, which
generally is impeding the industry because we are asking you to
wait, but you are not waiting in terms of safety, and we appreciate
that.Can you elaborate on industry efforts to improve safety across 
the pipeline infrastructure?
Mr. Black.Oh, there is a strategic plan that we have where we 
analyze the safety data to address the issues that are more 
problematic. Our goal is zero incidents, and we work towards those.
The most recent example is an industrywide best practice on 
inspecting and repairing pipelines, API Recommended Practice 1160, 
that would adopt the latest technologies and techniques. We hope 
PHMSA will incorporate those or Congress will authorize a pilot 
program so that PHMSA can test those and then use them in all
regulations.
Mr. Perry.All right. I have a couple other questions for you, which 
I may submit for the record.In the remaining 50 seconds, I want to 
ask Mr. Rorick for his thoughts on the gathering lines.Mr. Rorick.
With regards to, Congressman_so the commitment from the industry 
with regards to gathering lines for safety? Is that__
Mr. Perry.Yes.
Mr. Rorick[continuing]. What you are referring to?
Mr. Perry.Yes, the conversation I was having with Mr. Black about 
documenting their location, safety, and whether it should occur 
at the State or Federal level, and the fact that the States, in
my opinion, being from Pennsylvania, we do it pretty well, I think.
So__Mr. Rorick.Yes, sir. And I think a couple of key things to 
remember. First and foremost is that gathering lines in high-
consequence areas are already regulated. What we are currently
working on with PHMSA and what PHMSA is working on is some 
regulation for gathering lines right now. And we are in agreement
with the discussions that are taking place right now, which is
looking at a diameter size of 12.75 for regulation.So there is a
lot of work that is being done, there is a lot of knowledge, but
there is also a lot of work that continues to be done on the issue.
Mr. Perry.I appreciate your time and yield back.
Mr. Lipinski.Thank you. 

All right. At the risk of more trouble here, I am going to open up
for a second round of questions. Don't worry, it will be short. So
I recognize myself for 5 minutes.I just want to ask a quick question
of Mr. Weimer.What does the record show in terms of the safety of 
pipelines in recent history? What data do we have? Are pipelines 
getting more safe or less safe? Mr. Weimer.Well, there is a lot of 
different data out there, and you have heard different parts of it 
today, and it really depends on which piece of it you are looking at.
As I said, I was looking at overall data. And since the PIPES Act
was signed in 2016, there have been 1,700 reportable failures on 
pipelines, and almost 800 of those were significant incidents under
PHMSA's definitions.If you look at integrity management, how well 
it is working, and you go onto PHMSA's website and look, large spills
on hazardous liquid pipelines have been increasing over the last 
decade, and large releases and ruptures on gas transmission pipelines
have been increasing.So, you know, we could spend the rest of the
afternoon probably cutting and pasting data and coming up with our
own stuff, but if you look at the overarching data on PHMSA's website,
you will see that some of the major types of pipelines, the incidents
are increasing.And for gas gathering lines that have been mentioned,
the 400,000 miles of unregulated ones, we don't know because they 
are unregulated and no one even keeps track of that. But there have
been some significant incidents on those just in the past year, 
like, in our written testimony, we point out the one that killed 
the 10-year-old child in Texas on a pipeline that was 10 inches in
diameter, which is smaller than what API is recommending now for gas
gathering lines.
Mr. Lipinski.Thank you.
With that, I will yield back.
And, Mr. Balderson, do you have any further questions?
Mr. Balderson.Mr. Chairman, I don't, no. Thank you.
Mr. Lipinski.OK.
And Mr. Payne is gone, so that wraps it up.
I thank all of our witnesses for your testimony today. It is
extremely important as we look at the pipeline safety reauthorization
bill. Thank you for your testimony and your time, and you are
dismissed. 
I want to ask unanimous consent that the record for today's hearing 
remain open until such time as our witnesses have provided answers
to any questions that may be submitted to them in writing and ask
unanimous consent that the record remain open for 15 days for any
additional comment and information submitted by Members or 
witnesses to be included in the record of today's hearing.
Without objection, so ordered.
If no other Members have anything to add, the subcommittee stands
adjourned.
[Whereupon, at 1:09 p.m., the subcommittee was adjourned.]

Submissions for the Record

Letter of March 8, 2016, from Calvin L. Scovel III, Inspector
General, U.S. Department of Transportation, Submitted for the Recor
d by Hon. DeFazio

March 8, 2016.

Hon. Michael E. Capuano
Ranking Member
U.S. House of Representatives
House Transportation and Infrastructure, Subcommittee on Railroads,
Pipelines, and Hazardous Materials, Washington, DC 20015-2017

Dear Ranking Member Capuano:

This is in response to your letter to the Department of Transportation
(DOT) Office of Inspector General (OIG) dated February 26, 2016, 
requesting our input on ways to enhance the implementation and 
oversight of DOT's Pipeline Safety Program. We greatly appreciate 
your concern for the enforcement of criminal pipeline safety laws. 
While the regulatory enforcement of pipeline safety is handled by 
the Pipeline and Hazardous Materials Safety Administration (PHMSA)
and State regulators, without effective criminal enforcement as well
there is a danger that pipeline operators may treat the administrative
enforcement of fines as nothing more than the cost of doing business.
Unfortunately, although there have been thousands of pipeline 
incidents over the past twenty years, it has not been possible to 
bring a significant number of pipeline safety prosecutions under
Title 49 U.S.C. Section 60123(a) which sets forth the criminal
penalty for violation of pipeline safety laws, regulations and
orders.
A significant obstacle to bringing more successful prosecutions is
the language of section 60123(a) itself, which requires that the 
violation be committed ``knowingly and willfully.'' A requirement of
willfulness is fairly unusual in criminal statutes and is generally 
reserved for violations such as tax evasion where ordinary citizens 
are faced with complying with a complex set of rules. This is 
markedly different from the pipeline industry which is characterized
by sophisticated entities with professional legal and regulatory 
affairs staff. The willful standard has led to numerous pipeline 
safety cases being declined for prosecution by the U.S. Department
of Justice. More significantly, there are many cases that PHMSA does
not refer to OIG for criminal investigation because PHMSA concludes
there is insufficient evidence to establish a willful violation.

We have had far more success prosecuting cases under Title 49 U.S.C.
Section 5124, which establishes the penalty for violating hazardous 
materials transportation laws and regulations, than under section 
60123(a). Prosecution under section 5124 originally required a 
showing of willfulness, but the standard was changed in 2005 to 
penalize reckless violations as well. In the past five years alone,
we have brought Federal charges under section 5124 against 24 
individuals and companies. By contrast, Federal charges under
section 60123(a) have only been brought four times since 1996.

We believe that section 60123(a) should be amended by changing 
``knowingly and willfully'' to ``recklessly'' to mirror section 
5124. Persons and businesses shipping hazmat are required to know 
the rules even though in many instances they may only ship hazmat
on an occasional basis and may never interact with PHMSA. For 
pipeline operators, the safe operation of pipelines is an integral
part of their operations and they have frequent contact with 
regulators. We note that this would not result in criminal liability
for companies that are making good faith efforts to comply with 
pipeline safety regulations. As defined in section 5124, a person 
acts recklessly when the person displays a deliberate indifference
or conscious disregard to the consequences of their conduct.

Another obstacle to successful prosecution of criminal pipeline 
safety violations is that the employees of pipeline operators and
other persons with knowledge of violations rarely come forward. 
Potential whistleblowers often believe that if they come forward 
they will be unable to find future employment in the industry. 
Although statutes exist to protect whistleblowers, this has not been
enough to encourage insiders to come forward. It is unfortunately 
the case that DOT may not become aware of pipeline safety violations
until a natural gas pipeline explodes or a liquid pipeline leaks 
significant amounts of oil or gasoline. We believe that a 
whistleblower incentive provision, such as the one recently enacted
by the Fixing America's Surface Transportation Act,\1\ would greatly
enhance DOT's ability to identify safety violations and take 
appropriate action before a pipeline rupture or explosion occurs.

\1\P.L. 114-94 (December 4, 2015)

If you have any questions or wish to speak to us further regarding
this matter, please do not hesitate to contact me at (202) 366-1959
or Nathan Richmond, Director and Counsel for Congressional and 
External Affairs, at (202) 493-0422.

Sincerely,
Calvin L. Scovel III
Inspector General, U.S. Department of Transportation

Statement of the Interstate Natural Gas Association of America, 
Submitted for the Record by Hon. Lipinski
[The statement is retained in the committee files and is available at: 

https://www.ingaa.org/Filings/14956/36379.aspx.]

Statement of the American Gas Association, Submitted for the Record
by Hon. Lipinski

[The statement, including a report entitled ``Leading Practices to
Reduce the Possibility of a Natural Gas Over-Pressurization Event,'' 
is retained in the committee files. The report is available at: 

https://www.aga.org/contentassets/1e4dac45c7e94177a033844a6a90a109/
leading-practices-to-prevent-over-pressurization-final.pdf.]

                                Appendix

Questions from Hon. Peter A. DeFazio for Hon. Howard ``Skip'' Elliott

Section 8 of the Pipeline Safety, Regulatory Certainty, and Job
Creation Act of 2011 requires pipeline operators to install leak 
detection systems, where practicable, and requires PHMSA to 
establish performance standards for the capability of such systems 
to detect leaks. When asked about the status of this mandate, you 
indicated that PHMSA sent the Notice of Proposed Rulemaking (NPRM) 
to the Department of Transportation for review ``probably. within 
the last 90 days.''
question 1. As of the date of the hearing, how many days had the NPRM 
addressing leak detection been under review by the Office of the
Secretary (OST)? What date did PHMSA send the NPRM to the OST?
Answer. PHMSA initially sent the Amendments to Parts 192 and 195 
to require Valve installation and Minimum Rupture Detection 
Standards NPRM to OST on August 27, 2018. Between that date and 
the hearing date of April 2, 2019, 219 days elapsed, during which
a collaborative review process has been taking place.

Question 2. When considering a rulemaking, what is the value, 
including the dollar amount, that PHMSA assigns to a human life? 
When was this assessment last adjusted or updated?
Answer. Consistent with other regulatory agencies at the U.S.
Department of Transportation (DOT), PHMSA does not ``assign a value
to a human life'' or place a value on individual lives, but instead
uses the Value of Statistical Life (VSL)\1\ measurement when 
monetizing the reductions in fatality risk that would result from 
a proposed regulation. Following the latest DOT guidance on valuing 
the reduction in fatalities and injuries by regulations, PHMSA has
been using $9.6 million as the last updated VSL in its regulatory 
impact analyses assessing the benefits of preventing fatalities.\2\ 
The last update on VSL guidance was issued on August 8, 2016 using 
a base year of 2015.\3\
\1\``These terms (i.e. ``VSL'' or, less precisely, the ``value of
life'') refer to the measurement of willingness to pay for reductions
in only small risks of premature death. They have no application to 
an identifiable individual or to very large reductions in individual
risks. They do not suggest that any individual's life can be 
expressed in monetary terms''. Page 29, Circular A-4, 2003. 
https://www.whitehouse.gov/omb/information-for-agencies/circulars/
\2\https://www.transportation.gov/office-policy/transportation-
policy/revised-departmental-guidance-on-valuation-of-a-statistical
-life-in-economic-analysis
\3\The prior DOT OST guidance identified $9.4 million as the VSL 
to be used for DOT analyses using a base year of 2013: 

https://www.transportation.gov/resources/2015-revised-value-of-a-
statistical-life-guidance
Question 3. Please provide information to each of the questions 
below relating to how PHMSA calculates the benefits in a cost 
benefit analysis of potential regulatory proposals:
a.How does PHMSA determine and calculate the benefits associated
with a potential provision in a notice of proposed rulemaking or
a final rule?
Answer. In determining the benefits of a potential provision in 
a rulemaking, PHMSA follows Circular A-4, the Office of Management
and Budget's (OMB) guidance on the development of regulatory
analysis, as well as Executive Order 12866, ``Regulatory Planning
and Review''.
b.Identify what PHMSA considers to be benefits, the value that PHMSA 
assigns to each of those benefits, and when those values were last 
adjusted. For example, does the agency consider factors such as lives
saved, injuries prevented, property damage avoided, economic
opportunity loss prevented, and environmental harms reduced or 
prevented as benefits?Answer. PHMSA primarily develops rulemakings 
to improve safety, which is considered a benefit. The benefit of 
improved safety is usually measured by estimating the potential 
reduction or mitigation of future incidents, and may include 
estimating the reduction in fatality risk. In addition to saved 
lives, PHMSA attempts to identify, quantify and monetize the impact 
on preventable injuries, avoidable property and environmental
damages, and preventable economic losses that could be attributed 
to its proposed safety provisions.
As discussed previously, PHMSA uses DOT's latest $9.6 million VSL 
estimate for each life a proposed rule could potentially save. DOT's
2016 guidance also includes a table of relative values of preventing
injuries of varied severity as a fraction of the VSL.\4\ To monetize
other preventable impacts, including property or environmental 
damage, PHMSA uses a variety of sources such as accident and inciden
t data submitted to PHMSA, reports from law enforcement agencies or
investigative boards, and insurance claim data, if available.\4\``
Table 3: Relative Disutility Factors by Injury Severity Level (MAIS)
For Use with 3% or 7% Discount Rate'', page 10, Guidance on Treatment
of the Economic Value of a Statistical Life (VSL) in U.S. Department
of Transportation Analyses_2016 (MAIS 1-Minor: 0.003 of VSL, MAIS 2-
Moderate: 0.047 of VSL, MAIS 3-Serious: 0.105 of VSL, or $1.01 
million, MAIS 4-Severe: 0.266 of VSL, MAIS 5-Critical: 0.593 of VSL,
MAIS 6-Unsurvivable: 1.000 of VSL).
c.In determining benefits, does PHMSA include the prevention or 
mitigation of past accidents? If so, how is this calculated?
Answer. PHMSA's rulemakings are directed at reducing or mitigating 
future incidents. However, in measuring this future improvement in
safety, PHMSA will often attempt to assess whether a rulemaking
would have prevented or mitigated relevant past accidents in 
determining the benefits of a proposed provision if we can establish
a causal relationship between accidents and the provision. The key 
question we ask is this: if the provision was in place prior to
a past accident, would the regulation prevent the accidents or would
it have mitigated its consequences? Once we answer it satisfactorily,
then we can determine the effectiveness of the provision and 
calculate how many lives would have been saved, which injuries,
property or environmental damages would have been prevented, 
assuming they may continue to occur in the absence of the rule.
d.Please explain how human lives are factored into this analysis.
Answer. PHMSA's benefit analyses are driven by risk reduction 
assessments for each proposed rule. If we can determine that a new 
PHMSA rule would reduce fatality risks, then the evaluation of these
benefits, measured in number of lives saved, will be the key part of
our benefit analysis. For example, if we can show that one new 
pipeline safety requirement would save two lives each year after its
implementation, we can estimate annual undiscounted benefits of this
provision at $19.2 million ($9.6 million x 2) using DOT's 2016 VSL
value.
Question from Hon. Daniel Lipinski for Hon. Howard ``Skip'' Elliott
You stated that the issue of providing emergency responders with 
information about commodities moving through the communities they
serve is ``a topic that we need to address more fully.''
question 4. Please explain what you meant by this response and what
the agency can do to meet these needs.
Answer. Access to information about commodities moving through
communities by pipeline assists emergency responders when responding 
to an incident. Pipeline operators maintain information about what 
types of commodities they transport and make it available to PHMSA 
and other agencies, such as the Federal Energy Regulatory Commission 
(FERC) and the Department of Energy (DOE). In accordance with the 
PIPES Act of 2016, Safety Data Sheets containing detailed information
on the commodity transported by a pipeline are required by law to
be provided to emergency responders within six hours following a 
spill incident (Pub. L. 114-183, Sec. 14). Operators have indicated
that this time is needed to determine a specific product given 
batching in multiproduct pipelines. PHMSA understands that the
American Petroleum Institute and the Association of Oil Pipe Lines 
have made their members aware of this requirement and PHMSA has 
briefed the National Response Team as well. Although section 14 of 
the PIPES Act requiring Safety Data Sheets is self-executing and no
rulemaking was required to implement it, PHMSA is considering
rulemaking to place a conforming rule in title 49, Code of Federal 
Regulations, to help broaden awareness. Finally, PHMSA has advanced
other opportunities to strengthen contacts between emergency 
responders and operators including public awareness programs and 
PHMSA provides emergency responders with access to appropriate
response resources including response planning exercises and response
training resources.
Questions from Hon. Lizzie Fletcher for Hon. Howard ``Skip'' Elliott
question 5. Has a shortage in staffing among technical staff and 
those involved in the rulemaking process contributed to PHMSA's
slowness in issuing rules proscribed by congressional mandate that
date back to 2011?
Answer. Completing rulemakings takes time simply because it is an
iterative process that is designed to encourage maximum participation
by all stakeholders, thus ensuring comprehensive rules that protect
the public and stand up to cost/benefit scrutiny. Collaboration with
stakeholders allows PHMSA to identify concerns and potential 
solutions so we can allocate our existing resources where they are
needed most.

question 6. Do you feel that PHMSA would function more efficiently
when it came to rulemaking with increased staffing?
Answer. As noted in the Administrator's testimony, completing 
rulemakings takes time simply because it is an iterative process 
that is designed to encourage maximum participation by all
stakeholders, thus ensuring comprehensive rules that protect the 
public and stand up to cost/benefit scrutiny. Collaboration with
stakeholders allows PHMSA to identify concerns and potential
solutions so we can allocate our existing resources where they 
are needed most.

question 7. Has the agency made use of all the available authorities
that would help PHMSA compete against the private industry to hire and
retain talented Federal workers?
Answer. Yes, PHMSA has used several innovative hiring techniques 
including: recruiting under titles that tend to attract larger 
candidate pools; increased outreach to colleges and universities; 
placing veterans, that with added training can become qualified 
inspectors faster; and leveraging direct hiring authority. Under 
my direction, the agency has prioritized filling all open inspector
vacancies. Our direct-hire authority allows PHMSA to quickly employ 
qualified candidates, fill any existing staffing gaps and automati-
cally transform the sometimes time consuming government hiring 
process to a more efficient form of recruiting. Direct-hire authority
also provides PHMSA the opportunity to reach highly qualified 
candidates with no other means to earn a federal position. PHMSA ha
s been successful in its efforts to hire and retain qualified 
inspection engineers and currently has 200 pipeline inspection and
enforcement personnel currently on board and is in the process of
hiring an additional 14.

Questions from Hon. Mike Bost for Hon. Howard ``Skip'' Elliott

question 8. Some operator safety information is treated as 
confidential, which means it cannot be shared with other operators
. What utility could an agency-sponsored voluntary information 
sharing program that distributes non-attributable safety information 
provide the agency, partners, industry and other stakeholders in
improving pipeline safety? Could such program supplement existing
safety efforts? Could it in certain circumstance help the agency
achieve its safety objectives without the need for formal rulemaking?
Answer. Sharing incident data through such a program would assist
in furthering PHMSA's safety goals. In December 2016, PHMSA 
established a Voluntary Information-Sharing System Working Group
(VIS WG), which was charged with studying information-sharing
systems for the pipeline industry and providing recommendations
to the Secretary of Transportation on the necessity of a sharing 
system, ways to encourage the exchange of information, and best
practices for the protection of proprietary and security-sensitive
information.The VIS WG plans to submit its recommendation report to 
the Secretary in the near future. The VIS WG established seven 
subcommittees to help develop recommendations in these areas: 
Best Practices; Regulatory, Funding & Legal; Governance Structure;
Competency, Awareness, and Training; Process for Sharing Information;
Technology; and Research and Development.
Question 9. Do you believe that current criminal penalties codified
at 49 U.S.C. 60123 are sufficient to deter criminal acts that fall
short of current legal interpretations related to damaging or 
destroying a facility, but may nonetheless put human life, property
or the environment at risk?
Answer. While the current criminal penalties codified at 49 U.S.C.
60123 are generally sufficient to deter people from damaging or 
destroying an operational pipeline facility, their applicability to 
the act of disrupting the construction of a pipeline is unclear.
As a result, the current statute may not sufficiently deter this
type of act.
Question from Hon. Stephen F. Lynch for Hon. Jennifer Homendy
question 1. Ms. Homendy, when exactly do you anticipate the NTSB 
issue the final report for the Merrimack Valley Explosion incident?
Would the committee be able to receive a copy of that report?
Answer. Congressman Lynch, our goal is to complete the Merrimack
Valley investigation this September, before the one-year anniversary.
We will provide you and the Committee a copy of the final report 
once it is adopted by the Board. Additionally, at that time, we
would be glad to brief you on our findings.
Question from Hon. Mike Bost for Andrew J. Black
Question 1. Do you believe that current criminal penalties codified 
at 49 U.S.C. 60123 are sufficient to deter criminal acts that fall 
short of current legal interpretations related to damaging or 
destroying a facility, but may nonetheless put human life, property
or the environment at risk?
Answer. Current criminal penalties codified at 49 U.S.C. 60123 do 
not protect human life, property or the environment from criminal 
acts against interstate pipeline facilities. Current federal law 
contains loopholes that assailants are exploiting to escape 
accountability for dangerous attacks on pipelines. AOPL urges
Congress deter future attacks against pipeline facilities by closing
loopholes in the scope of criminal liability in current federal
pipeline safety law.
In October 2016, anti-pipeline activists staged simultaneous attacks
on 5 crude oil pipelines in 4 states along the U.S.-Canada border. 
Assailants targeted valve stations maintained by pipeline operators
to stop the flow of product through the pipeline when necessary to
conduct maintenance or isolate a pipeline segment during an emergency.
After breaking the chains and locks on perimeter fencing, assailants
entered the facility grounds and turned valves shutting off the flow 
of pipelines that together had a delivery capacity of 2.8 million
barrels of crude oil a day, or around 15 percent of daily U.S. 
consumption. In some cases, the assailants by telephone notified the
pipeline operators of their actions, who shut down the pipeline flow
from their control centers as a safety precaution. In 2017, 
assailants again targeted for attack the same pipeline facility
attacked in 2016 in Washington State. In 2019, assailants attacked
another pipeline in northern Minnesota.Other assailants admitted 
using acetylene torches to pierce holes in a major pipeline under
construction in Iowa and South Dakota, threatening a release if the 
pipeline went into service without repairs.After the 2016 attacks,
Carl Weimer, Executive Director of the Pipeline Safety Trust, the
preeminent public advocacy group for pipeline safety, said,``[w]hile
we certainly understand the activists concerns with the lack of speed
to address climate change we think that illegally closing valves is a
dangerous stunt that really does little to address these people's
concerns. The Pipeline Safety Trust was founded in part because a valve
closed unexpectedly causing a pressure surge that ruptured a pipeline
killing three young men. Closing valves on major pipelines can have
unexpected consequences endangering people and the environment.
We do not support this type of action, and think it is dangerous.''
Public safety is threatened during attacks on pipelines, even if only
closing a pipeline valve, because improper closure of pipeline valves 
can cause a pressure surge from the mass and momentum of the liquid 
traveling through the pipeline, potentially resulting in a rupture 
and release.While no releases resulted from the 2016, 2017 or 2019
pipeline valve attacks, the U.S. Government Accountability Office 
confirmed the risk of rupture from improper valve operation in a 
Congressionally mandated 2013 report. Pipeline operators have 
documented 9 pipeline incidents from conditions similar to an 
improper valve closure, one resulting in an 1,100 barrel diesel fuel
release and another resulting in a nearly 4,000 barrel natural gas 
liquids release. A crude oil pipeline release of this magnitude could 
cause serious harm to the assailants, harm members and property of the
surrounding public and harm the environment.
Current Federal statute at 49 USC 60123 prohibiting damaging or 
destroying interstate pipeline infrastructure does not address 
changing tactics that are nonetheless dangerous to the assailants,
public safety and the environment. Under 60123, the guilty conduct
making the action illegal must include ``damaging'' or ``destroying'
' the interstate pipeline facility. These terms are commonly defined
respectively as causing physical harm to something in such a way as
to impair its value, usefulness, or normal function and damaging 
something so badly that it cannot be repaired.
Several of the recent attacks against interstate pipelines neither
damaged nor destroyed the facilities. The valve turnings, while 
a dangerous threat to the assailants, public and environment, did 
not damage or destroy the valves. Several more recent attacks, which
did cause physical damage to pipelines, occurred at locations where 
the pipeline was still under construction and not yet operating as
an interstate pipeline. State legislatures are acting to close gaps
in their statutes protecting pipelines and infrastructure. States 
are extending criminal penalties to tampering with, impeding or 
inhibiting the operation of pipeline infrastructure. Congress should
plug the same loopholes in federal law.AOPL does not recommend any
limits on free speech or the right to protest peacefully. Similarly,
AOPL does not seek an extension of criminal penalties beyond the 
assailants and their specific dangerous activities to other
organizations or causes. AOPL recommends Congress update federal law
at 49 USC 60123 to:
1.criminalize interfering with the operations of interstate pipeline
facilities
2.criminalize attacks on interstate pipelines under construction
Question from Hon. Donald M. Payne, Jr. for Fire Chief Dan Eggleston, 
EFO, CFO, CMO
I understand the IAFC prepares programs to assist LEPCs in 
strengthening their pipeline incident preparedness efforts. 
Question 1. Please describe some of those programs, including how
they were developed and their benefits to the LEPCs and impacted
communities.
Answer. The IAFC performs training of communities to help them prepare
for potential pipeline incidents in coordination with both commercial
partners and the U.S. Department of Transportation's Pipeline and 
Hazardous Materials Safety Administration (PHMSA).
Since 2013, the IAFC has partnered with TransCanada to provide 
preparedness for pipeline emergency training to local communities. 
This training consists of a presentation; town hall meeting; review
and preparation of an emergency plan; and table-top exercise. 
The second element, the Regional Town Hall meeting, is comprised 
of an open dialogue about pipeline emergency response, which 
includes discussions about:
<bullet>accessing information in the National Pipeline Mapping System;
<bullet>formulating a pre-plan response checklist;
<bullet>identifying emergency responder priorities;
<bullet>communicating community needs;
<bullet>identifying hazardous materials and transportation methods;
<bullet>and buttressing response preparation and capability.

Our other programs are funded by the Community Safety Grant, first
authorized in 2015 by the FAST Act (PL 114-94) and administered by
PHMSA. The IAFC's Community Safety-Emergency Planning, Response and
Outreach (CS-EPRO) program provides responder training and 
preparedness for hazardous materials incident response. This grant 
enables us to provide training and resources to LEPCs that improves 
their emergency planning and response expertise. The programs 
supported by the Community Safety Grant can be applied to any type
of hazardous material transportation, including rail, pipeline and 
vehicle transportation. The IAFC supports the reauthorization of 
this grant when its authorization expires in 2020.
The IAFC also advocates for the inclusion of non-profits as eligible
entities for the Technical Assistance Grants administered by PHMSA.
As the only pipeline-specific grants administered by PHMSA, the TAG
offer significant opportunities for non-profit organizations like 
ours to conduct pipeline safety-oriented training for local 
responders and LEPCs.
The IAFC looks forward to working with the Committee and 
Subcommittee to improve the safety of the nation's pipeline system
and promote first responder preparedness and training to reduce 
the impact of pipeline incidents when they occur.
</pre></body></html>
